<html>
<title> - S. 1501, THE MOTOR CARRIER SAFETY IMPROVEMENT ACT OF 1999</title>
<body><pre>[Senate Hearing 106-1024]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1024

        S. 1501, THE MOTOR CARRIER SAFETY IMPROVEMENT ACT OF 1999

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 29, 1999

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


73-433              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                       Mark Buse, Staff Director
                  Martha P. Allbright, General Counsel
     Ivan A. Schlager, Democratic Chief Counsel and Staff Director
               Kevin D. Kayes, Democratic General Counsel
                                 ------                                

              SUBCOMMITTEE ON SURFACE TRANSPORTATION AND 
                            MERCHANT MARINE

                 KAY BAILEY HUTCHISON, Texas, Chairman
TED STEVENS, Alaska                  DANIEL K. INOUYE, Hawaii
CONRAD BURNS, Montana                JOHN B. BREAUX, Louisiana
OLYMPIA J. SNOWE, Maine              BYRON L. DORGAN, North Dakota
BILL FRIST, Tennessee                RICHARD H. BRYAN, Nevada
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
JOHN ASHCROFT, Missouri              MAX CLELAND, Georgia
SAM BROWNBACK, Kansas


                            C O N T E N T S

                              ----------                              
                                                                   page
Hearing held September 29, 1999..................................     1
Statement of Senator Breaux......................................     2
Statement of Senator Cleland.....................................     4
Prepared statement of Senator Hollings...........................     6
Statement of Senator Hutchison...................................     1
Prepared statement of Senator Inouye.............................     7
Prepared statement of Senator McCain.............................     5

                               Witnesses

Bryant, Ken, Teamsters Local 745, Dallas, Texas, International 
  Brotherhood of Teamsters.......................................    47
    Preparted statement with attachment..........................    49
Campbell, Stephen F., Executive Director, Commercial Vehicle 
  Safety Alliance................................................    30
    Prepared statement...........................................    32
Claybrook, Joan, Board Member, Advocates for Highway and Auto 
  Safety.........................................................    35
    Prepared statement with attachment...........................    37
McCormick, Jr., Walter B., President and Chief Executive Officer, 
  American Trucking Associations, Inc............................    57
    Prepared statement...........................................    59
Mead, Hon. Kenneth M., Inspecter General, U.S. Department of 
  Transportation, accompanied by Ms. Barbara Cobble..............     7
    Prepared statement with attachment...........................     9
Sharpe, Kevin, Illinois Commerce Commission, on behalf of the 
  National Conference of State Transportation Specialists........    64
Wykle, Hon. Kenneth, Administrator, Federal Highway 
  Administration, accompanied by Hon. Peter ``Jack'' Basso, Jr., 
  Assistant Secretary for Budget and Programs, Office of the 
  Secretary, U.S. Department of Transportation...................    17
    Prepared statement by Mr. Basso..............................    19

                                Appendix

American Association of Motor Vechicle Administrators (AAMVA), 
  prepared statement.............................................   114
American Bus Association, prepared statement.....................   112
Hall, Jim, Chairman, National Transportation Safety Board, 
  prepared statement.............................................   121
La Sala, Jim, International President, Amalgamated Transit Union, 
  letter dated May 15, 1999 to Hon. John McCain..................   101
National Conference of State Transportation Specialists and the 
  Illinois Commerce Commission, prepared statement with 
  attachment.....................................................   103
Response to written questions submitted by Hon. Kay Bailey 
  Hutchison to:
    Kenneth Wykle................................................    73
Response to written questions submitted by Hon. John McCain to:
    David S. Addington...........................................    92
    Commercial Vehicle Safety Alliance...........................    99
    Jacqueline S. Gillan.........................................    74
    Kenneth M. Mead..............................................    89
    Kevin Sharpe.................................................    98
    Kenneth Wykle................................................    83
Snyder, David F., Assistant General Counsel, American Insurance 
  Association, prepared statement................................   116
Spencer Todd, Executive Vice President, Owner-Operator 
  Independent Drivers Association, Inc., prepared statement......   123
Tierney, Jennifer Mooney, Citizens for Reliable and Safe 
  Highways, prepared statement...................................   118

 
       S. 1501, THE MOTOR CARRIER SAFETY IMPROVEMENT ACT OF 1999

                              ----------                              


                     WEDNESDAY, SEPTEMBER 29, 1999

                                       U.S. Senate,
Subcommittee on Surface Transportation and Merchant Marine,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:35 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Kay Bailey 
Hutchison, Chairman of the Subcommittee, presiding.
    Staff members assigned to this hearing: Ann Begeman and 
Charlotte Casey, Republican professional staff; and Carl 
Bentzel, Democratic senior counsel.

        OPENING STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. I am pleased to call to order the 
subcommittee hearing on S. 1501, the Motor Carrier Safety 
Improvement Act of 1999.
    As the Surface Transportation Subcommittee chairman and a 
former vice chairman of the National Transportation Safety 
Board, I firmly share Senator McCain's desire to improve truck 
safety. This is something that I have looked at for a long 
time, and certainly all of us who have been traveling on 
America's highways realize that as trucks are getting bigger 
and cars are getting smaller we do need to address the issue of 
safety. We have a good safety record, but there are some 
improvements that we certainly need to make, because the 
statistics are showing that we need to give attention to this 
matter.
    I plan to work closely with the chairman and the other 
committee members to move truck safety legislation to the 
Senate floor as quickly as possible.
    In the last 10 years, the number of interstate motor 
carriers has more than doubled, growing from about 200,000 to 
469,000. These carriers operate more than 7 million motor 
vehicles, and projections indicate the trucking industry and 
miles traveled will continue to grow dramatically in the years 
ahead.
    Tragically, safety statistics show that truck and 
commercial bus-related fatalities are on the rise. As a result, 
motor carrier safety programs and enforcement activities have 
been under considerable scrutiny. It is my hope that much good 
can come from this extensive analysis and that in the long term 
truck and bus safety can be improved and fatalities reduced.
    I further believe we need to proceed cautiously, and not as 
alarmists. The overwhelming majority of motor carrier companies 
and drivers operate extremely safely. We should focus, though, 
on how to get the unsafe driver and vehicle off the road.
    We need to do more to educate car drivers on how to share 
the road with commercial vehicles, and we need to expand public 
education efforts on grade crossing safety. This has been a 
concern of mine since I was vice chairman of the National 
Transportation Safety Board, when we started really focusing on 
one of the most preventable of all truck or bus or vehicle 
accidents, and that is at grade crossings with railroads.
    I do want to express my concern with the findings of the 
Inspector General about the operation of Mexican trucks. The 
Inspector General found a 50-percent out-of-service rate for 
trucks crossing the border. This compares to a general U.S. 
rate of 25 percent.
    Moreover, the number of inspectors is inadequate. There is 
one inspector at an El Paso border crossing, with 1,300 trucks 
coming across the border each day at that stop. He can only 
inspect 13 or 14 trucks per day. This just cannot stand. I want 
to question today's witnesses on this issue.
    Let me conclude by saying that I approach this morning's 
hearing with an open mind on the various bills that will be 
discussed. I want to hear the views of all the witnesses, and 
especially I want their views on the record so that as we are 
drawing up a final bill that we would push through Congress, we 
would have all of the input that we need to have a bill that 
will go forward on safety for our highways, but also one that 
can be accomplished.
    So I hope we will have a good record, and I look forward to 
working with all of you to make sure that the traveling public 
is safe in their travel and certainly we want to have safe 
trucks and a good atmosphere of competition that makes every 
truck that comes into America meet the same safety standards 
that American truckers are required to meet.
    With that, I would like to just call on Senator Breaux and 
see if he would like to make an opening statement.

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Thank you, Madam Chairman, and thank you 
for holding the hearings, and I thank our witnesses for being 
with us today. It is a very important hearing, and I am glad 
that we have the opportunity to listen to our witnesses and 
also to hear some recommendations, hopefully, about this very 
important issue of safety in particular.
    As we all know far too well, in May of this year, on 
Mother's Day, to make it even worse, in New Orleans we had a 
very tragic bus accident in which 22 people were killed, and 
Madam Chair, the unfortunate thing about it is, I think the 
accident was totally avoidable. It should not have occurred.
    I think had there been proper rules and regulations 
properly implemented it would not have occurred, and so that, 
indeed, is a real serious wake-up call I think to all of us who 
have concerns about transportation and safety, and particularly 
the motoring public who were affected by this and will be 
affected the rest of their lives.
    If you look at the record from investigations and press 
reports, that driver should never have been behind the wheel of 
that bus that day. I mean, no one can dispute that and 
hindsight is a wonderful thing, but it is very clear, according 
to reports, he was high on marijuana, he was dizzy from 
Benadryl, he was suffering from congestive heart failure, he 
had bad kidneys, and he had gotten out of the hospital less 
than 8 hours before reporting to work the morning of the 
accident and, further, he had been fired from two previous jobs 
after testing positive for drug use.
    But even if the company had known where he had worked 
before, they probably still would not have been able to find 
out why he was fired from the previous jobs, because Federal 
law prohibits the release of such information without the 
person's consent.
    The article also pointed out that he the year before, just 
last year, had been arrested by a state trooper for violating 
one of the probably most important laws with regard to 
transportation safety, driving for over 18 hours without any 
breaks.
    Safety experts have said that many bus companies would have 
fired the driver for that violation, as serious as it was. But 
the bus company officials said they didn't even know about it 
because the State police never informed them or told them about 
it. State police say that notification of such violations is 
not required under their policies.
    So this is clearly an example--a very tragic example--of 
something that really should never have occurred. How do we 
prevent it? How do we stop it? Hindsight is a wonderful thing. 
I have introduced legislation, as have some other colleagues, 
and I hope we all would be supportive of it, Madam Chairman, 
which really tries to address the problem. I think I will just 
very quickly say that I would hope that we would have an 
opportunity to do something on this, and I think this is a good 
start.
    It creates a training and certification program for motor 
carrier specialists, establishes a program in which the motor 
carrier safety specialist certification board would collect and 
verify the current information on motor carriers, and provide 
the information to the Federal Highway Administration to 
augment its database to start a public education campaign so 
that people can know the conditions of the bus companies that 
they employ to carry their loved ones.
    So I think we have a lot of problems here. But I am not 
here to point blame. I am here to help correct the problem, and 
I think that new Federal legislation is necessary.
    There are no certification procedures for motor carrier 
safety inspectors today, and there are no standards to ensure 
compliance reviews are consistent.
    The final thing is that in July, just 4 months after the 
Federal Highway Administration had assigned a satisfactory 
rating to this particular bus company in New Orleans, a private 
inspection company under contract with the Department of 
Defense had failed the same bus company for not having a drug 
and alcohol testing program. Two inspectors, two totally 
different results, and we end up with a very tragic accident, 
killing 22 people who were very innocent.
    So I think this is an important hearing. I think the 
legislation is an important effort, and I look forward to the 
comments of our witnesses.
    Senator Hutchison. Thank you, Senator Breaux. I really 
appreciate the interest that you are taking. I remember reading 
about that tragedy, of course, Louisiana being so close to 
Texas. It was absolutely incredible and, as you have pointed 
out, avoidable with just a minimum of effort. It seems to me 
that the background of that driver would have disqualified him.
    So I certainly appreciate your coming to the hearing and 
look forward to working with you on your legislation.
    Senator Cleland, did you have an opening statement?

                STATEMENT OF HON. MAX CLELAND, 
                   U.S. SENATOR FROM GEORGIA

    Senator Cleland. Thank you very much, Madam Chairman. I 
would just like to call the Committee's attention to a picture 
of a terrible accident involving a tractor-trailer on 
Interstate 285, which is the main beltway around Atlanta, on 
August 31 of this year. In the early morning hours of that day, 
two tractor-trailer drivers died on Interstate 285 in Atlanta. 
Their 18-wheeler exploded, and the cab that carried the two 
drivers was engulfed in flames. Initial reports from the DeKalb 
County Police Department indicated the accident was typical of 
an accident caused by the driver falling asleep.
    Two trucking related fatalities occurred in Georgia that 
early August morning, and for drivers in Atlanta that tried to 
get to work--and by the way, we have the worst traffic 
congestion in the south, and the longest commute in the 
Nation--traffic was held up for some 8 hours in our city.
    We know from national statistics that this is not an 
isolated case. We have to ask, what caused the accident? Is it 
a result of changes in the hours of service regulations? Did 
this accident have to occur? What can Congress do to prevent 
future trucking fatalities?
    We have got to be mindful that motor carrier drivers do 
dangerous and important work that often goes unnoticed as they 
work each day to transport passengers to their desired 
destination, or to convey goods from the producer to market.
    My own State of Georgia is an important State for trucking 
commerce. According to the National Highway Traffic Safety 
Administration, at any one time Georgia roads carry 4 percent 
of the entire Nation's trucking traffic. Although that might 
not sound like a lot, this is the fifth largest percentage of 
trucks in the Nation. We are tenth largest in size, but we have 
got the fifth largest amount of trucks on the highway of any 
State in the Nation.
    Most of these vehicles travel from one destination to the 
next without incident, but those that do not make it safely 
sometimes are involved in fatalities and almost always cause 
major traffic backups and frustration in metropolitan areas.
    I am told that trucks make up about 13 percent--excuse me, 
about 3 percent of the vehicles on the highways, and yet 13 
percent of highway fatalities. I look forward to hearing from 
my colleagues the comments that they have, and from the 
panelists, on their ideas of how to reduce motor carrier 
accidents and most importantly reduce motor carrier fatalities.
    Thank you, Madam Chairman.
    Senator Hutchison. Thank you. I certainly appreciate you 
bringing the picture of that. That does show very graphically 
the tragedy that occurs when we have such a big vehicle that 
crosses into another lane.
    With that, I would like to call on our first panel. I would 
first include a statement by the chairman of the full 
committee.
    [The prepared statement of Senator McCain follows:]
   Prepared Statement of Hon. John McCain, U.S. Senator from Arizona
    I want to thank Senator Hutchison for holding this morning's 
hearing on S. 1501, the Motor Carrier Safety Improvement Act of 1999, 
which I recently introduced to improve truck and bus safety. In my 
judgement, truck safety legislation must be one of the Committee's top 
priorities and I plan to consider S. 1501 at the next Executive Session 
in October.
    S. 1501 is chiefly designed to remedy weaknesses regarding the 
existing federal motor carrier safety program that were identified by 
the Department of Transportation's Inspector General (DOT IG) in April 
1999. I am pleased that Ken Mead, the DOT IG, will testify this morning 
on my legislation. As always, Mr. Mead's input will be valuable as the 
Commerce Committee works to move motor carrier safety legislation to 
the full Senate for debate.
    The Motor Carrier Safety Improvement Act would establish a separate 
Motor Carrier Safety Administration within the DOT. That agency would 
be responsible for carrying out the federal motor carrier safety 
enforcement and regulatory responsibilities currently held by the 
Federal Highway Administration.
    Let me be clear that it is not my desire to substantially grow the 
Federal government. But I do want to ensure the critical issue of truck 
safety receives the attention and leadership necessary to forcefully 
address driver and motor carrier safety deficiencies and in turn, 
improve safety for the road traveling public. In an effort to guard 
against increasing the already bloated Federal bureaucracy, S. 1501 
would cap employment and funding for the new agency at the levels 
currently endorsed in May 1999 by the Administration for motor carrier 
safety activities. In recognition of the significant differences 
between truck operations and passenger carrying operations, my 
legislation would require the establishment of a separate division 
within the new agency to oversee commercial bus safety activities.
    Aside from organizational issues, the Motor Carrier Safety 
Improvement Act would require the Department to implement all of the 
safety recommendations issued by the IG's April report. DOT has 
indicated it will act on some of the recommendations, but it has yet to 
articulate a definitive action plan to implement all of the IG's 
recommendations. I do not believe we can risk the consequences of 
ignoring the IG's recommendations and accordingly, my bill would 
require concrete action to eliminate the identified safety gaps at DOT.
    S. 1501 includes other provisions to improve truck and bus safety. 
Specifically, the legislation would require States to report and 
include on a commercial driver's record all the traffic violations 
committed by a driver-whether those violations occur when driving a 
passenger vehicle or a commercial vehicle. S. 1501 would also require 
DOT to initiate a rulemaking to combine driver medical records with the 
commercial drivers license and to ensure medical providers are 
knowledgeable of driver medical and physical requirements for 
commercial drivers licensure eligibility.
    The legislation directs the Secretary to carry out a program to 
improve the collection and analysis of data on crashes, including crash 
causation involving commercial motor vehicles. NHTSA, in cooperation 
with the new Motor Carrier Safety Administration, would administer the 
program. The bill includes a variety of other reforms including giving 
DOT authority to establish an advisory committee to assist the 
Secretary in the timely completion of ongoing rulemakings and other 
matters.
    I want to discuss some of the history leading up to the 
introduction of S. 1501. In the last Congress, a comprehensive package 
of motor carrier and highway safety provisions was enacted as part the 
Transportation Equity Act for the 21st Century (TEA-21). This package 
was developed over a two-year period. Throughout the 105th Congress, 
the primary impediment faced by this Committee when crafting our 
highway safety legislation was an insufficient allocation of contract 
authority from the highway trust fund. Despite this serious constraint, 
the Committee did succeed in raising the authorizations for motor 
carrier and highway safety programs. At the same time, the Committee 
also succeeded in incorporating into TEA-21 almost every safety 
initiative brought to the Committee's attention.
    Shortly after TEA-21 was signed into law, there was an effort on 
the House side to move authority over motor carrier safety from the 
Federal Highway Administration (FHWA) to the National Highway Traffic 
Safety Administration (NHTSA). Advocates of this proposal argued such a 
transfer would improve highway safety, a goal we all can support. But 
since this proposal had never been discussed during the TEA-21 
deliberations by the authorizing committees, I strongly felt we needed 
to first ascertain whether such a transfer would be an effective 
approach to improving safety. That is why I asked for the IG's counsel.
    I chaired a hearing in April at which the IG released his report 
and offered several ways to improve motor carrier safety. After a near 
6-month analysis, the IG was unable to endorse the proposed transfer to 
NHTSA. While this and several options were discussed, the IG stressed 
that the greatest problem impeding motor carrier safety was a 
fundamental lack of leadership as currently structured at DOT.
    One way to raise the visibility of truck safety and bring 
leadership to motor carrier safety issues is to create an entity that 
has motor carrier safety as its sole purpose. Given that we have 
agencies responsible for air, rail, and highway safety, it seems within 
reason to provide similar treatment in this modal area, particularly 
given the many identified problems stemming from a lack of attention 
within its current organizational structure.
    Further, creating a direct link with the Office of the Secretary 
would guarantee that motor carrier safety share holders, including 
owners, operators, drivers, safety advocates and even government 
employees, would not be forced to vie for attention, forced to compete 
against highway construction and other interests as is currently the 
case. As we have regrettably learned, the scales of safety and highway 
construction are not balanced and we need to take action to alter this 
inequity.
    S. 1501 legislation was crafted over many months. Safety 
suggestions were sought from all the major organizations involved in 
commercial motor carrier operations. Many of these suggestions were 
incorporated into S. 1501. At the same time, I continue to welcome 
additional suggestions on how this legislation can be further improved. 
I am confident that with the input of today's witnesses and the advice 
of the other Committee members, we will be able to report a major motor 
carrier safety bill before the end of the session.

    [The prepared statements of Senator Hollings and Senator 
Inouye follow:]

      Prepared Statement of Hon. Ernest F. Hollings, U.S. Senator 
                          from South Carolina

    Madam Chairwoman, thank you for convening this hearing on the 
subject of motor carrier safety. I have reviewed S. 1501 and look 
forward to this morning's testimony.
    As many of you know, I introduced legislation to establish a 
separate modal administration for the motor carrier industry in the 
1980s. There is a modal agency for rail, transit, air, and maritime, 
but nothing for the largest mode of transportation--the trucking 
industry. I am pleased that the Committee has returned to this subject 
and look forward to working with Senator McCain on his bill.
    At our last hearing on this subject in April, the Department of 
Transportation's Inspector General and the Chairman of the National 
Transportation Safety Board had multiple concerns about the Office of 
Motor Carriers. I look forward to moving ahead on the issues of 
increased inspections, more timely and effective rulemakings and safer 
highways for truck drivers and passenger cars.
    S. 1501 includes recommendations from the DOT IG's report that need 
to be addressed. The IG's report clearly indicates that we need to do 
more in the way of compliance reviews and we need to clear up the back 
log of regulatory initiatives that have not been completed. These 
initiatives are overdue, and the public deserves an aggressive pro-
active safety policy.
    In addition, the IG reports that far too few trucks are being 
inspected at the US-Mexico border and far too few inspected trucks 
comply with U.S. safety standards. For example, at the border crossing 
in El Paso, Texas, an average of 1,300 trucks enter daily, yet only one 
inspector is on duty and he can inspect only 10 to 14 trucks daily. At 
other crossings, there are no inspectors. Of those Mexican trucks 
inspected, about 44 percent were placed out of service because of 
serious safety violations. This contrasts with a 25 percent out-of-
service rate for US trucks and 17 percent for Canadian trucks. This 
safety record is unacceptable.
    The trucking industry receives over 80% of the revenues derived 
from the domestic transportation of cargo, and the industry has 
undergone fantastic growth in the past five years alone. The number of 
carriers operating in the trucking industry has close to doubled since 
1994 alone. The sheer volume of trucking being done in this country is 
astounding, and clearly, this volume has an impact on safety. I look 
forward to hearing what is being done and what can be done to address 
these important safety issues.
    I appreciate the witnesses being here and am interested in hearing 
today's testimony with respect to S. 1501 and motor carrier safety.
                                 ______
                                 
 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator From Hawaii

    Mr. Chairman, thank you for calling this hearing on the Office of 
Motor Carriers and on motor carrier safety, and S. 1501, the Motor 
Carrier Safety Act of 1999. This is a very important issue, and given 
the growth of the trucking industry, an issue that will impact the 
trucking industry, truck drivers and the traveling public.
    Our roadways are getting more crowded, and in the future it will be 
necessary that we take additional steps to ensure public safety. The 
task is very difficult given the increasing congestion that we all face 
on a daily basis.
    Clearly, we need to do a better job in this area. We originally 
initiated changes in the mid-1980's to establish a commercial driver's 
license and to increase oversight of trucking safety. We followed that 
up with the safety improvements made in the Intermodal Surface 
Transportation Efficiency Act of 1990. Progress in trucking safety 
increased in the early 1990's, but recently, we have felt the safety 
impacts of higher volumes of trucking, and we need to take further 
steps to make our roadways safe for the traveling public.
    I look forward to working Subcommittee Chairman Hutchison, and 
Chairman McCain, to help enact legislation that will enable us to work 
with the industry to make positive improvements in transportation 
safety.

    Senator Hutchison. We will start with Mr. Kenneth Mead, 
Inspector General of the U.S. Department of Transportation, and 
following that, if the Hon. Kenneth Wykle, the Administrator of 
the Federal Highway Administration would proceed, and then it 
is my understanding that you are going to also have Jack Basso, 
the Assistant Secretary for Budget and Programs at the U.S. 
Department of Transportation as a part of your testimony that 
you are going to split.
    So Mr. Mead, if you would start.

         STATEMENT OF HON. KENNETH M. MEAD, INSPECTOR 
          GENERAL, U.S. DEPARTMENT OF TRANSPORTATION, 
               ACCOMPANIED BY MS. BARBARA COBBLE

    Mr. Mead. Thank you, Madam Chair, Senator Breaux, Senator 
Cleland. We really commend the committee for having this 
hearing today. Motor carrier safety is probably the number one 
public safety issue in the Department of Transportation.
    I am going to summarize my prepared statement. Ms. Cobble 
is on my left. She directed our work in the motor carrier area.
    The debate concerning oversight of the motor carrier 
industry is clearly not a new one. It began over 30 years ago 
when motor carrier oversight was taken away from the Interstate 
Commerce Commission and given to the Department of 
Transportation. Thrity years later, the debate continues. The 
severity of the problem intensifies.
    Looking back on the congressional record, many of today's 
concerns are laid out there almost verbatim. In 1998 alone, 
highway crashes claimed over 41,000 lives. Of those, over 5,300 
people died in commercial vehicle-related crashes, including 
700 truck drivers. As a frame of reference, that equates to a 
major airline crash every 2 weeks with over 200 fatalities.
    Most carriers, as you pointed out, Madam Chair, comply with 
the safety rules. But there is a portion of this industry that 
puts profit first and then puts safety in the back seat. We 
need to get these companies to change their behavior or get 
them off the road.
    In May, Secretary Slater established a bold goal of 
reducing the number of fatalities by 50 percent over the next 
10 years. Achieving this goal will require major efforts, 
especially in the face of extraordinary industry growth. There 
are 450,000 motor carrier companies today, an increase over 35 
percent since 1995. That is a startling figure.
    We have testified before Congress on numerous occasions 
highlighting what we consider to be fundamental deficiencies in 
the Federal Highway Administration's motor carrier safety 
program. Many others, including the safety investigators 
themselves, share that view. Half of the investigators 
responding to a survey we conducted rated their enforcement 
program as poor to fair. An overwhelming 86 percent of them 
said stronger enforcement actions were needed.
    Congress is now considering several different bills that 
contain much-needed safety provisions. The bills all call for 
the strengthening of oversight and enforcement, tightening 
commercial driver's license requirements, improving data 
collection, and additional funding. All those are admirable 
provisions.
    We think the bills make a compelling case for 
organizational change. The Senate and House bills make a most 
compelling case for a separate Motor Carrier Safety 
Administration within the Department that would have a 
preeminent mission of safety. Industry, labor, oversight 
agencies, and safety advocacy groups, support the transfer of 
the motor carrier program away from the Federal Highway 
Administration.
    As I mentioned earlier, there is a 30-year history here. 
The deep-seated, persistent nature of the problems in the 
trucking industry have not diminished. The same concerns apply 
to a much larger and more diverse industry, and there is the 
prospect of the border opening eventually and the infusion of 
more trucks from Mexico.
    The safety conditions that exist in the motor carrier 
industry today and the loss of life and injury would not be 
tolerated in any other commercial mode of transportation. There 
are nearly 6,000 carriers in the United States today who are 
operating with less than satisfactory safety ratings.
    Of the 7 million trucks estimated to be operating today, 
approximately one out of every four that is inspected is placed 
out of service for safety violations. In 1997, there were over 
2 million truck inspections and over 500,000 trucks placed out 
of service.
    Between 1995 and 1998, the number of motor carriers 
increased by over 35 percent, while at the same time the Office 
of Motor Carriers' review of them declined by 30 percent. In 
our opinion, the decline in compliance reviews and enforcement 
actions can be explained in part by the fact that the Office of 
Motor Carriers shifted its emphasis to a more collaborative 
partnership approach with the motor carrier industry. That is 
fine where the carrier has safety as a top priority, but it 
will not work with people who put safety in the back seat. 
Violators have come to consider low fines as simply a cost of 
doing business.
    Recently, OMC initiated corrective action, hiring and 
training new inspectors, working through some long-overdue 
rulemakings, and establishing goals to increase compliance 
reviews. We are concerned, though, that this came on the heels 
of intense criticism from ourselves, the General Accounting 
Office, the National Transportation Safety Board, this 
committee, the House Transportation and Infrastructure 
Committee, and the Senate and House Appropriations Committees 
as well.
    More fundamentally, we do not believe that even with the 
best of intentions the Federal Highway Administration could 
provide motor carrier safety with the level of attention it 
deserves. The current organizational structure forces the 
safety mission to compete for management attention and emphasis 
with the Federal Highway Administration's predominant mission, 
which involves the distribution and investment of about $26 
billion in infrastructure funds. A Motor Carrier Safety 
Administration would eliminate this very longstanding problem.
    No organizational change in itself is a panacea. Just 
changing the organization chart will not be enough. That is why 
the other provisions of the bill, the safety features, and 
strong leadership, are important. It is also very important in 
our view that there be no ambiguity in the purpose of this 
Motor Carrier Safety Administration and that its overarching, 
predominant purpose has to be safety.
    I will conclude my oral statement with that observation.
    [The prepared statement of Mr. Mead follows:]

    Prepared Statement of Hon. Kenneth M. Mead, Inspector General, 
                   U.S. Department of Transportation

    Madam Chair and Members of the Committee:
    We appreciate the opportunity to be here today to discuss S. 1501, 
the Motor Carrier Safety Improvement Act of 1999.
    Although the debate over whether the Office of Motor Carriers (OMC) 
should remain in the Federal Highway Administration (FHWA) appears 
relatively recent, it is not. Over three decades ago the debate was 
whether the Bureau of Motor Carrier Safety should remain in the 
Interstate Commerce Commission or be placed in DOT. The debate focused 
on addressing accident prevention and, ultimately, the Bureau was 
placed in FHWA. Twenty years later, a bill to establish a Motor Carrier 
Administration was introduced in the Senate Commerce Committee. Again, 
the argument was to reduce the number of accidents by improving the 
effectiveness of the motor carrier safety program. The bill was not 
enacted.
    Currently, over 90 percent of transportation-related deaths involve 
motor vehicles. Highway crashes claimed over 41,000 lives in 1998. One 
out of every eight traffic fatalities involved large trucks. Over 5,300 
people died in those crashes, including 700 truck drivers. Truck-
related fatalities have increased 20 percent since 1992. The number of 
fatalities equates to 1 major airline crash with 200 fatalities every 2 
weeks. The problem is not with the majority of motor carriers that 
operate safely. Rather, it is with a minority of companies who 
egregiously violate safety rules.
    In May, Secretary Slater established a bold goal of reducing the 
number of commercial vehicle-related fatalities by 50 percent over the 
next 10 years. Faced with a rapidly expanding industry, a shortage of 
drivers, and an expansion of cross border traffic from Mexico, 
achieving this goal will require major efforts of the trucking industry 
and government.
    We have testified before Congress on numerous occasions on the 
subject of motor carrier safety. We concluded in a comprehensive report 
to this Committee that there were fundamental deficiencies in the 
FHWA's motor carrier safety enforcement program. These included low 
fines, weak sanctions, few compliance reviews, failure to enforce 
safety regulations, a lack of shut down orders for unsafe carriers, and 
a shift in emphasis from enforcement to a more collaborative 
partnership with the industry.
    Our assessment of the motor carrier program is shared by many 
others including safety investigators in OMC. Over 73 percent of the 
safety investigators responded to our survey; almost half of them rated 
their enforcement program as ``poor to fair.'' Almost 86 percent of the 
inspectors called for stronger enforcement actions.
    Since we have already testified before the Commerce Committee on 
this subject, our testimony today will overview our findings and 
conclusions. A copy of the findings and recommendations contained in 
our April 1999 report is attached to this statement.

           LEGISLATIVE PROPOSALS WILL IMPROVE HIGHWAY SAFETY

    Congress is now considering three different bills dealing with 
highway safety. All three bills are designed to forcefully address 
driver and motor carrier safety. The bills contain much needed safety 
provisions, such as the strengthening of oversight and enforcement, 
enhancement of commercial drivers' license requirements, improvements 
in data collection and analysis, and additional funding for 
implementation of safety features. In our opinion, OMC could have and 
should have administratively implemented many of these elements years 
ago.

          BILLS MAKE COMPELLING CASE FOR ORGANIZATIONAL CHANGE

    In previous testimony industry, labor, oversight agencies, and 
safety advocacy groups have called for the transfer of the motor 
carrier safety program from FHWA. Enactment of any of the three bills 
will result in some organizational change. The Senate's bill (S. 1501) 
and the House of Representatives' bill (H.R. 2679) would create a 
separate agency with a preeminent safety mission within the Department 
of Transportation. The Administration's bill retains OMC within FHWA, 
but the Department has stated separately that they would elevate the 
motor carrier safety program's stature through internal reorganization.
    In our opinion, the Senate and the House bills make the most 
compelling case for a separate administration with a preeminent safety 
mission within DOT. After 30 years, Congress is still concerned about 
the adequacy of oversight of the motor carrier industry and is still 
debating who should perform this mission. As reflected in 30 years of 
history, the deep-seated and persistent nature of serious safety 
problems in the trucking industry has not diminished with time. 
Furthermore, the emphasis and priorities placed on motor carrier safety 
by OMC has not led to significant improvement.
    In light of the rapid expansion of the industry and the need to 
reduce the number and severity of crashes, it is clear that a separate 
motor carrier safety administration is needed. As we stated in prior 
testimony, the current organizational structure forces OMC's safety 
mission to compete for management attention and focus with the FHWA's 
predominant mission, which involves investing over $26 billion annually 
in infrastructure. Given the significant safety problems, the extensive 
loss of life, and the growth of the industry, we do not believe that, 
even with the best of intentions, FHWA can provide motor carrier safety 
the level of attention it deserves.
    We recognize that an organizational change, in itself, is not a 
panacea that will ensure improvements in motor carrier safety. It is 
critically important, therefore, that there be no ambiguity in the 
predominant and overarching purpose of this proposed organization, 
namely safety.
    S. 1501 very clearly focuses on safety with the title of the 
organization being the Motor Carrier Safety Administration. In our 
opinion, the Senate bill would be improved by incorporating the 
language contained in the House bill's preamble which says ``...the 
Administration shall consider the assignment and maintenance of safety 
as the highest priority, recognizing the clear intent, encouragement, 
and dedication of Congress to the furtherance of the highest degree of 
safety in motor carrier transportation.''
    Madam Chair, we generally support the provisions of S. 1501. The 
conditions that exist today in the motor carrier industry would not be 
tolerated in any other mode of commercial transportation. We would like 
to elaborate on the magnitude of the problem.

                      SAFETY PROBLEMS ARE NUMEROUS

    Over 7 million trucks are estimated to be operating today. 
Approximately one out of every four trucks inspected in the United 
States is placed out of service for serious safety violations. In 1997, 
over 2 million truck safety inspections were conducted and over 500,000 
trucks were placed out of service.
    In fiscal year (FY) 1995, 1,870 motor carriers received a less-
than-satisfactory safety rating. From October 1, 1994, through 
September 30, 1998, 650 of those same carriers had 2,717 crashes 
resulting in 132 fatalities and 2,288 injuries. In FY 1998, there were 
about 6,000 motor carriers still operating with less-than-satisfactory 
ratings that received those ratings from October 1995 through September 
1998. Last year, OMC reviewed the operations of 6,500 motor carriers. 
Nearly, 2,800 carriers received less-than-satisfactory ratings.
    Between 1995 and 1998, the number of motor carriers increased by 
over 35 percent. OMC's review of them, however, declined by 30 percent. 
During this same time frame, 846 carriers were subject to multiple 
enforcement actions. Of these, 127 carriers had 3 or more enforcement 
actions, and 117 carriers had multiple violations of the same, 
significant safety regulations. Only 17 of those carriers were issued 
out-of-service orders, with penalties averaging $2,500. In FY 1998, 
enforcement actions were processed on only 11 percent of the 29 most 
violated safety regulations identified by OMC's safety investigators. 
Violators have come to consider the low fines imposed by OMC, not a 
deterrent, but merely a cost of doing business.
    Research has shown that fatigue is a major factor in commercial 
vehicle crashes. Driver hours-of-service violations and falsified 
driver logs pose significant safety concerns. In FY 1995, OMC enforced 
only 11 percent of driver log violations it identified. In 1998, that 
number fell to 8 percent.
    Since January 1997, our investigators, acting on referrals from OMC 
safety investigators, have conducted criminal investigations that have 
resulted in 61 indictments and 48 convictions of carriers and drivers 
who violated motor carrier safety laws. Almost $3 million in fines and 
restitutions have been recovered. These are particularly egregious 
cases because they involve carriers with repeat regulatory violations 
requiring drivers to grossly exceed hours-of-service limits, and then 
falsify their driver logs to conceal the violations.
    The decline in compliance reviews and in strong enforcement actions 
can be explained, in part, by the fact that OMC shifted its emphasis 
from enforcement and compliance to a more collaborative partnership 
approach with the motor carrier industry. This is a good approach for 
carriers that have safety as a top priority, but it has gone too far. 
It does not work with firms that persist in violating safety rules and 
that do not promptly take sustained corrective action. In replying to 
our report, FHWA acknowledged ``the pendulum has swung too far towards 
education/outreach and now must move toward stronger enforcement, 
particularly for repeat offenders....''

                         RECENT ACTIONS BY OMC

    Following adverse findings by the Office of the Inspector General 
(OIG), the General Accounting Office and others, OMC has initiated 
corrective action to enhance its safety oversight of the motor carrier 
industry. For example, OMC initiated actions to hire and train new 
inspectors, establish goals to increase the number of compliance 
reviews, reduce the enforcement case backlog, and increase average 
penalties. In addition, OMC initiated or completed rulemakings to make 
truck and bus operations safer. These rulemakings include the recent 
conspicuity rule, redefinition of unfit carriers to reflect a TEA-21 
enforcement provision, a new TEA-21 definition of passenger carriers, 
commercial drivers' license disqualification for railroad grade 
crossing violations, requirements for trailer rear underride guards, 
and hours of service revisions. We are concerned, however, that it took 
so long for the OMC to recognize that the pendulum had swung too far 
away from enforcement of safety rules.

                     CASE FOR ORGANIZATIONAL CHANGE

    As we have reported and previously testified before Congress, there 
are persuasive reasons to establish an organization with a clear, 
preeminent safety mission free of the need to compete with FHWA's 
primary mission of infrastructure investment. Even with the best of 
intentions, FHWA will have difficulty giving adequate leadership 
attention to the motor carrier safety program because it must compete 
for attention in an agency whose primary mission is the investment of 
more than $26 billion annually in transportation infrastructure.
    Since 1995, the motor carrier industry grew over 35 percent, from 
approximately 330,000 motor carriers to over 450,000 motor carriers in 
1998. This level of growth is projected to continue. During the same 
period, OMC's oversight of the industry diminished as greater attention 
was given to education and partnership. In our opinion, the Motor 
Carrier Safety Program must have leadership that makes tough decisions 
on issues such as shut downs, when appropriate, and uses inspection and 
enforcement as some of its primary tools.
    Today, Congress is faced with the same concerns it expressed 30 
years ago, which centered around the fact that (1) too few trucks were 
being inspected, (2) too many inspected trucks were found unsafe for 
operations, and (3) driver fatigue was a major factor in many 
accidents. Today, these same concerns apply to a larger and more 
diverse industry that includes the national and international motor 
carriers. We see the safety challenges growing larger and more urgent, 
not less so. Based on our work and safety statistics, we are of the 
opinion that it would be in the best interest of public safety to 
create a Motor Carrier Safety Administration.
    We will now turn to the specific safety provisions of the pending 
legislation.

            IMPROVED MOTOR CARRIER OVERSIGHT AND ENFORCEMENT

    If enacted, S. 1501 would significantly improve the Federal 
Government's ability to make our highways safer, with tools such as 
stronger enforcement actions against repeat violators, stiffer fines, 
and shut down orders. In this regard, S. 1501 requires the Secretary to 
implement the recommendations contained in our April 1999 motor carrier 
safety report. We believe, however, that these recommendations can be 
most effective if they are written in statutory language, possibly in 
the preamble to the legislation, to give them the emphasis intended by 
the bill's sponsors and to avoid ambiguity in subsequent 
interpretations of the legislation. If it would be helpful, we would be 
pleased to work with you in this regard.

 STRENGTHENING REQUIREMENTS FOR COMMERCIAL DRIVERS' LICENSES (CDL) AT 
                       THE STATE AND DRIVER LEVEL

    S. 1501 bans the use of temporary driving permits, strengthens the 
requirements for issuance of commercial drivers'licenses, and 
decertifies states not in compliance with Federal regulations. It 
requires recording of all traffic violations and convictions on 
drivers' records, whether or not committed in commercial vehicles and 
requires medical certifications to be part of the driver's CDL record.
    Ongoing OIG audits show commercial drivers in some states continue 
to drive trucks weighing 80,000 lbs. even though they have committed 
serious driving offenses, such as driving under the influence of 
alcohol, while in their personal vehicles. At least 12 of 39 states we 
reviewed allow convictions of this type to not be recorded on driver 
records. Some states also allow drivers with suspended commercial 
drivers' licenses to purchase temporary licenses and continue driving. 
These situations would not be authorized under S. 1501. The driver 
involved in the March 1999 grade crossing accident in Bourbonnais, 
Illinois, that killed 11 passengers on an Amtrak train and injured 122 
others was operating his truck with a ``special'' permit.

                     IMPROVEMENT OF DATA COLLECTION

    Provisions contained in S.1501 improve the collection and analysis 
of data on crashes, including crash causation involving commercial 
motor vehicles. OMC cannot effectively target motor carriers with the 
worst safety records when its Motor Carrier Management Information 
System is incomplete, is inaccurate or contains dated information. In 
this regard, we found that driver and vehicle information for over 
70,000 carriers, or 16 percent of the total population, was not in the 
database. Furthermore, 31 percent of the crashes reported by the States 
were entered in the database more than 180 days after the crash date.

                        INCREASED SAFETY FUNDING

    S. 1501 authorizes an additional $50 million a year for motor 
carrier safety initiatives and data improvements. OMC's budget is 
currently $55 million, with an additional $100 million going to the 
Motor Carrier Safety Assistance Program. Given the significant loss of 
life and injuries associated with large truck crashes, an additional 
$50 million, if put to good use, could easily satisfy the most rigorous 
cost benefit analysis. As a frame of reference, FAA's FY 1999 budget 
for aviation inspectors alone was approximately $475 million.

                     RETROFIT RULEMAKING AUTHORITY

    Currently, the National Highway Traffic Safety Administration 
(NHTSA) is responsible for establishing safety standards for the 
manufacture of commercial motor vehicles. FHWA is responsible for 
establishing standards for in-service commercial motor vehicles. But 
this split responsibility can result in inconsistent rulemaking 
requirements. As an example, Congress directed the Secretary to adopt 
methods for making commercial motor vehicles more visible to motorists. 
NHTSA issued its rulemaking for safety standards of new equipment on 
December 10, 1992. FHWA's rulemaking for in-service equipment was 
completed in March 1999.
    S. 1501 provides for NHTSA to have the responsibility for 
rulemaking for both new and in-service equipment. We believe this 
change would allow NHTSA to conduct cost benefit analyses associated 
with rulemakings more efficiently and to more effectively gauge the 
impact on the industry. It should also result in quicker implementation 
of safety requirements for in-service trucks. Our concerns with this 
change are that the timeliness of NHTSA's rulemaking not be negatively 
impacted, and that provisions be made for meaningful and timely input 
by the Motor Carrier Safety Administration in advance of issuing draft 
and final rules.

            ELECTRONIC RECORDERS TO MONITOR HOURS OF SERVICE

    Truck driver fatigue has been identified as one of the top issues 
affecting motor carrier safety. The Administration's bill calls for 
regulations requiring, as appropriate, the installation and use of 
electronic recorders and other technologies to manage the hours of 
service of drivers. Based on our work, we can attest that falsification 
of truck drivers' ``hours of service'' logs is a very serious problem. 
It is linked to the more fundamental problem of driver fatigue. If the 
use of electronic recorders is not directed legislatively, then it 
should be recognized that Congress would be relying on the new agency 
to issue a rulemaking governing the use of electronic recorders and 
including specific privacy protections. We support the National 
Transportation Safety Board's recommendation, first issued in 1990 and 
reiterated in 1995, requiring automated/tamperproof on-board recording 
devices to record the driving time of commercial truck drivers. The 
potential safety value of electronic recorders is quite significant. In 
our opinion, it could be accomplished more expeditiously if it was 
phased in over a period of years and coupled with revised hours of 
service rules.

                       PASSENGER CARRIER DIVISION

    Establishing a separate passenger carrier division will provide the 
capability to distinguish between the motorcoach and trucking 
industries and allow for the development of different standards such as 
vehicle inspections. We believe this provision has merit because the 
safety records of passenger carriers indicate that their safety 
performance is better than large trucks, but that there are safety 
risks that are peculiar to passenger carriers. For example, the 
standards for crash protection, rollovers and body joint strength 
applicable to motorcoaches need to be different from those of large 
trucks. A separate division would allow the new agency to focus on the 
development of such standards and at the same time ensure that the 
fatalities associated with motorcoaches do not increase.

                       BORDER STAFFING STANDARDS

    H.R. 2679 requires the Secretary to develop and implement staffing 
standards for border inspectors in the international border areas, and 
requires that staffing levels not be reduced below the average level of 
staffing in those areas in FY 2000. Although staffing standards can be 
established administratively, we agree that, in light of the history of 
inadequate inspector staffing at the U.S.-Mexico border, a legislative 
standard is appropriate. In a report, dated December 1998, we cited a 
serious deficiency in the number of inspectors at the U.S. border with 
Mexico. Following our report, the Department increased the number of 
inspectors at the U.S.-Mexico border from 13 to 40.
    This concludes our testimony. We have a number of other technical 
suggestions on the bill, which we will discuss with your staff. I would 
be pleased to answer any questions.

                               ATTACHMENT

 Excerpts from OIG Report on the Motor Carrier Safety Program Federal 
                         Highway Administration
April 26, 1999

Report No. TR-1999-091

                                RESULTS

    We found that OMC was not sufficiently effective in ensuring that 
motor carriers comply with safety regulations, and that the OMC 
enforcement program did not adequately deter noncompliance. The basic 
safety problem is not with the majority of motor carriers, who do 
operate safely and have good maintenance and operating practices. 
Rather, the problem is with a minority of motor carriers, who 
repeatedly violate safety rules and have unsatisfactory safety ratings 
for extended periods of time. This problem is exacerbated by the fact 
that sanctions imposed by OMC are all too often minimal or nonexistent, 
thus suggesting a tolerance level for violations of safety 
requirements. Specifically, we found that:

        <bullet> The fatality rate for large truck crashes has remained 
        flat since 1995, while the number of fatalities involved in 
        those crashes continues to increase. In 1997, the latest year 
        for which data was available as of April 21, 1999, 5,355 deaths 
        resulted from large truck crashes. This equates to a major 
        airline crash with 200 fatalities every 2 weeks. This number of 
        fatalities is unacceptable.
          The Department's truck safety performance measure is based on 
        reducing the fatality rate, which allows the number of 
        fatalities to increase as the number of vehicle miles driven by 
        truckers increases. This measure should be changed to 
        substantially reduce the number of fatalities, irrespective of 
        the fact that there are more trucking firms and that greater 
        distances are traveled. We have been advised that the 
        Department does intend to change its goal accordingly.
        <bullet> OMC has shifted emphasis from enforcement to a more 
        collaborative, educational, partnership-with-industry approach 
        to safety. This is a good approach for motor carriers that have 
        safety as a top priority, but it has gone too far. It does not 
        work effectively with firms that persist in violating safety 
        rules and do not promptly take sustained corrective action. 
        Strong enforcement with meaningful sanctions, including ``shut 
        down'' orders in appropriate cases, is needed in these 
        situations. In its reply to our draft report, FHWA acknowledged 
        the ``pendulum has swung too far towards education/outreach and 
        now must move towards stronger enforcement, particularly for 
        repeat offenders.''
        <bullet> The number of compliance reviews OMC performed has 
        declined by 30 percent since FY 1995, even though there has 
        been a 36 percent increase in the number of motor carriers over 
        this period. Nearly 250 high-risk carriers recommended for a 
        compliance review in March 1998 did not receive one.
          Also, in FY 1995, 1,870 motor carriers received a less-than-
        satisfactory safety rating. From October 1, 1994, through 
        September 30, 1998, 650 of those same carriers have had over 
        2,500 crashes resulting in 132 fatalities and 2,288 injuries. 
        There are about 6,000 motor carriers operating with a less-
        than-satisfactory safety rating that received those ratings 
        from October 1995 through September 1998.
        <bullet> Only 11 percent of the more than 20,000 violations 
        (for the 29 most significant safety regulations) identified by 
        inspectors in FY 1998 resulted in assessments (fines), and 
        assessments were settled for 46 percent of the dollar amounts 
        initially assessed, which is down from 67 percent of initial 
        assessments in FY 1995. The average settlement was $1,600, down 
        from $ 3,700 in FY 1995. It is apparent that many motor 
        carriers who are fined see the penalties imposed as little more 
        than a ``cost of doing business.''
        <bullet> Approximately 47 percent of OMC's workforce responding 
        to our survey rated OMC's enforcement program as Poor to Fair. 
        Over 86 percent favored stronger OMC enforcement, such as 
        putting unsafe carriers out of service, assessing larger fines 
        for repeat offenders, and taking more enforcement actions.
        <bullet> OMC has been referring motor carriers with the most 
        egregious records and indications of criminal conduct to the 
        OIG for criminal investigation. These cases target those motor 
        carriers that intentionally defraud OMC's safety program and 
        pose a serious threat to highway safety. OMC, OIG and the 
        Federal Bureau of Investigation signed a letter of agreement 
        establishing a cooperative effort on the criminal investigation 
        of such motor carriers. OIG has more than 30 ongoing criminal 
        investigations involving motor carriers. Between January 1, 
        1997 and April 1999, OIG investigations in this area have 
        resulted in 41 indictments, 35 convictions, and $2.6 million in 
        recoveries. As part of their sentencing by the courts, motor 
        carriers have also been suspended from operating commercial 
        vehicles, effectively removing the operators from the highways.
        <bullet> OMC implemented the Safety Status Measurement System 
        (SafeStat) to identify and target motor carriers with high-risk 
        safety records by, for example, targeting compliance reviews of 
        the worst carriers. This system is a major improvement over 
        past practices, and the agency deserves credit for doing this. 
        However, SafeStat cannot target all carriers with the worst 
        records because OMC's database is incomplete and inaccurate, 
        and data input is not timely. For example, driver and vehicle 
        information on over 70,000 carriers, or 16 percent of the total 
        population, was not in the database. Both OMC and the National 
        Highway Traffic Safety Administration (NHTSA) obtain 
        statistical data on crashes but data collection procedures are 
        not standard. Furthermore, neither database contains crash 
        causes or fault data because comprehensive crash evaluations 
        are not performed.
        <bullet> About 44 percent of trucks entering the United States 
        from Mexico do not meet U.S. safety standards. This rate is 
        unacceptably high in comparison to 17 percent for Canadian and 
        25 percent for U.S. trucks. Except for California, there are 
        too few safety inspectors at the U.S.-Mexico border --for 
        example at an El Paso border crossing, where 1,300 trucks enter 
        the United States daily, there is only one inspector. He can 
        inspect a maximum of 14 trucks per day. California, which has a 
        good border inspection program, is staffed with sufficient 
        State personnel.
          A strong correlation exists between an inspection presence 
        and the safety condition of trucks. This is because there is a 
        significant economic consequence to a trucking firm when its 
        trucks are placed out of service, and when there is a strong 
        inspection presence there is a substantial likelihood of poorly 
        maintained trucks or unqualified drivers being detected. 
        Because of California's strong inspection program, California's 
        out-of-service rate for Mexican trucks is 28 percent compared 
        with 50 percent in Texas. It is time to resolve this matter and 
        establish a strong inspection presence at the border.
        <bullet> There are no clear-cut answers as to whether the motor 
        carrier safety function would be discharged more effectively if 
        it were transferred from FHWA to an existing or new DOT 
        organization. The suggestion that it should be transferred was 
        made due to the significant number of fatalities associated 
        with large truck crashes and a concern that OMC did not 
        maintain a sufficient ``arm's-length'' relationship with the 
        industry it regulated. In fact, an OIG investigation found that 
        senior OMC managers did not always maintain an appropriate 
        ``arm's length'' relationship, calling into question the 
        credibility of OMC's leadership.
          A range of organizational options exists, including combining 
        the motor carrier safety function with the NHTSA, creating a 
        new agency dedicated to motor carrier safety, combining the 
        Department's surface safety functions in a new multi-modal 
        Surface Transportation Safety Agency, or keeping OMC in FHWA. 
        There are pros and cons to each option; none is a panacea.
          Maintaining an ``arm's-length'' relationship is critical for 
        any enforcement agency, yet the right type of new leadership 
        can change direction and restore credibility over time. In this 
        regard, we note that the Federal Highway Administrator recently 
        changed the top leadership in OMC. However, our greatest 
        concern with the current organizational placement of motor 
        carrier safety in FHWA is whether safety can receive the 
        priority it needs in an agency whose primary mission is 
        investing billions of dollars in highway and bridge 
        infrastructure. This is not to say that it cannot be done, but 
        it will be a formidable undertaking. In responding to our 
        workforce survey, nearly 48 percent of OMC's safety workforce 
        thought an organizational change was necessary. None of the 
        other organizational options require safety to compete with 
        another mission.
          Considering the range of options, the two most viable and 
        practical are leaving the motor carrier safety function in FHWA 
        or creating a Motor Carrier Safety Administration dedicated to 
        motor carrier safety. The principal drawback to the NHTSA 
        option is that NHTSA's mission, though dedicated to safety, is 
        heavily focused on regulating the manufacture of vehicles. 
        NHTSA has no experience regulating and enforcing the safety of 
        operating trucking companies and their drivers. The Surface 
        Transportation Safety Administration, while appealing in 
        concept, would be the most complex and disruptive to establish. 
        Large pieces of five Department of Transportation agencies 
        would have to be removed from their present organization and 
        merged into one to form the new organization.
          One approach available to the Secretary and the Congress is 
        to base the decision on whether a Motor Carrier Safety 
        Administration is necessary on FHWA's commitment and 
        expeditious implementation of action needed to substantially 
        strengthen enforcement. FHWA's comments on this report make 
        such a pledge. If Congress and the Department decide on this 
        approach, the measure of success should be bottom-line 
        improvements in motor carrier safety, and a one-year timeline 
        should be set to judge the agency's progress and make the final 
        decision.
          However, based on our work, together with a nearly 30-year 
        history of congressional and public calls for strengthening 
        motor carrier safety, we increasingly are of the view that it 
        would be in the long term interests of public safety to create 
        a Motor Carrier Safety Administration. The simple fact is that 
        under the current organizational arrangement, motor carrier 
        safety necessarily will compete for leadership attention and 
        emphasis with the legitimate, if not primary, FHWA mission of 
        investing over $20 billion annually in highways and bridges. In 
        light of the increasing number of fatalities associated with 
        large trucks, demand for truck drivers and enormous industry 
        growth in the last few years, the safety challenge will be 
        larger and more urgent. This situation justifies an agency with 
        a clear, preeminent safety mission, free of the need to compete 
        with other very important transportation department missions.
          We also are troubled by the fact that it has taken so long 
        for the FHWA to recognize, as it does in comments on this 
        report, that the pendulum has swung too far away from 
        enforcement of safety rules. Also, almost a year ago, TEA 21 
        was enacted, which provided additional enforcement authority to 
        FHWA, yet those mandates have not been implemented. FHWA now 
        says it will move to do this immediately and improve the safety 
        program, but this is occurring on the heels of and with 
        prompting by multiple congressional hearings, and adverse 
        findings by the DOT Inspector General, the General Accounting 
        Office, and the National Transportation Safety Board.
          We hope FHWA's commitment to change is followed through on 
        with a sense of urgency and made permanent, as this would save 
        many lives on our highways, prevent injuries, and avoid 
        economic loss. In our opinion, the likelihood of this occurring 
        would increase if the leadership and charter of the agency 
        responsible for motor carrier safety had motor carrier safety 
        as its exclusive and unambiguous mission.
          However, it should be recognized that unless visible 
        improvements in safety are achieved and a strong enforcement 
        program adopted, critics would question the new Motor Carrier 
        Safety Administration's closeness to industry, just as they do 
        with the current Office of Motor Carriers. It is pointless to 
        make an organizational change if only the chairs from one 
        agency are shifted to another or by simply changing the 
        organization's name.
        <bullet> Regardless of where the motor carrier safety function 
        is placed organizationally, strong enforcement action, 
        including ``shut down'' orders in appropriate cases, will be 
        necessary for significant violations, repeat violators, and 
        motor carriers who have unsatisfactory safety ratings. Other 
        measures will also have a significant bearing on motor carrier 
        safety. These include the long-overdue revision of hours of 
        service regulations, improvements in driver accountability, and 
        performance of required annual vehicle inspections.

                            RECOMMENDATIONS

    Improvements are needed to ensure compliance with Federal Motor 
Carrier Safety Regulations and to improve the effectiveness of the 
Motor Carrier Safety Program. FHWA needs to make the following 
improvements:

        <bullet> Strengthen its enforcement policy by establishing 
        written policy and operating procedures to take strong 
        enforcement action against motor carriers with repeat 
        violations of the same acute or critical regulation. Strong 
        enforcement actions would include assessing fines at the 
        statutory maximum amount, issuing compliance orders, not 
        negotiating reduced assessments, and when necessary, placing 
        motor carriers out of service.
        <bullet> Remove all administrative restrictions on fines placed 
        in the Uniform Fine Assessment program and increase the maximum 
        fines to the level authorized by the Transportation Equity Act 
        of the 21st Century.
        <bullet> Establish stiffer fines that cannot be considered a 
        cost of doing business and, if necessary, seek appropriate 
        legislation raising statutory penalty ceilings.
        <bullet> Implement a procedure that removes the operating 
        authority from motor carriers that fail to pay civil penalties 
        within 90 days after final orders are issued or settlement 
        agreements are completed.
        <bullet> Establish criteria for determining when a motor 
        carrier poses an imminent hazard.
        <bullet> Require follow-up visits and monitoring of those motor 
        carriers with a less-than-satisfactory safety rating, at 
        varying intervals, to ensure that safety improvements are 
        sustained or, if safety has deteriorated, that appropriate 
        sanctions are invoked.
        <bullet> Establish a control mechanism that requires written 
        justification by the OMC State Director when compliance reviews 
        of high-risk carriers are not performed.
        <bullet> Establish a written policy and operating procedures 
        that identify criteria and time frames for closing all 
        enforcement cases, including the current backlog.
        <bullet> Require applicants requesting operating authority to 
        provide the number of commercial vehicles they operate and the 
        number of drivers they employ, and require all motor carriers 
        to periodically update this information.
        <bullet> Revise the grant formula and provide incentives 
        through the Motor Carrier Safety Assistance Program grants for 
        States to provide accurate, complete and timely commercial 
        vehicle crash reports, vehicle and driver inspection reports, 
        and traffic violation data.
        <bullet> Withhold funds following a reasonable notification 
        period such as one year, from the Motor Carrier Safety 
        Assistance Program grants for those States that continue to 
        report inaccurate, incomplete and untimely commercial vehicle 
        crash data, vehicle and driver inspection data, and traffic 
        violation data.
        <bullet> Initiate a program to train local enforcement agencies 
        for reporting of crash, and roadside inspection data including 
        associated traffic violations.
        <bullet> Standardize OMC and NHTSA crash data requirements, 
        crash data collection procedures, and reports.
        <bullet> Obtain and analyze crash causes and fault data as a 
        result of comprehensive crash evaluations to identify safety 
        improvements.

    Senator Hutchison. Thank you. That was a good beginning. 
You have already answered some of my questions.
    Now, Mr. Wykle, you have 5 minutes to divide as you wish.

STATEMENT OF HON. KENNETH WYKLE, ADMINISTRATOR, FEDERAL HIGHWAY 
ADMINISTRATION, ACCOMPANIED BY HON. PETER ``JACK'' BASSO, JR., 
  ASSISTANT SECRETARY FOR BUDGET AND PROGRAMS, OFFICE OF THE 
          SECRETARY, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Wykle. Madam Chairman, members of the subcommittee, 
thank you for the opportunity to testify today on motor carrier 
safety. As the IG mentioned, during the last year a great deal 
of attention has been focused on the performance of the 
Department's motor carrier program. Weaknesses were identified 
by various congressional committees, the Department's IG, the 
GAO, the review of former Congressman Mineta, and the NTSB.
    Collectively, they emphasized the need for increased 
enforcement, stronger penalties, a reduction in the backlog of 
enforcement cases, use of on-board recorders, more timely 
publication of regulations, improved safety information 
systems, and a strengthened organizational structure.
    We listened to the witnesses, we read the reports, and we 
responded. We developed a safety action plan with 65 specific 
safety initiatives. Let me summarize some of our achievements.
    Total compliance reviews have increased by 59 percent over 
the previous year. Our goal is a 100-percent increase. In 
August we were at 3.9, almost there in terms of compliance 
reviews per inspector, moving toward 4.
    We increased the financial penalties from an average of 
$1,600 to $3,200 per enforcement case.
    We reduced the backlog of enforcement cases by two-thirds.
    We increased the number of Federal investigators at the 
U.S.-Mexican border by 200 percent.
    We issued final rules on trailer conspicuity, rear 
underride guards for trailers, and commercial license 
disqualifications for rail grade crossing violations.
    We issued notices of proposed rulemaking on the definition 
of an unfit carrier and the definition of a passenger vehicle.
    We proposed our motor carrier safety legislation to address 
such issues as on-board recorders, strengthening the CDL 
program, funding a crash causation data collection effort, and 
expanding State enforcement programs.
    Most significantly, we are nearing completion of a notice 
of proposed rulemaking on the complex and controversial 60-
year-old issue of driver hours of service, and we have embarked 
on the first-ever national study of causes of serious large 
truck crashes.
    We have entered into an agreement with the NHTSA to conduct 
a study on its established crash investigationsites across the 
country.
    Over the next several months, we will establish a unified 
carrier registration system, provide additional funding to 
States for the performance and registration management program, 
encourage all States to develop the safety system and 
capabilities of the commercial vehicle information systems 
network, and we will begin fleet tests of advance technology 
collision avoidance systems on trucks.
    I strongly support the retention of the Department's motor 
carrier function within the Federal Highway Administration, 
following the recommendation of former Chairman Mineta. The 
Federal Highway Administration reorganized in the fall of 1998. 
One of the key changes was bringing together the various pieces 
of safety into one core business unit. The Mineta 
recommendations build on this by further strengthening the 
reporting and management structure.
    By creating a new Deputy for Motor Carrier and Highway 
Safety, and improving the field reporting structure, we bring 
together safety as it pertains to the driver, the vehicle, 
technology, and infrastructure. To create a new agency will be 
costly, slow the current momentum, weaken the program, and make 
coordination and program execution more difficult.
    We welcome the opportunity to work with the committee to 
enact a bill that will enable us to achieve our goal of 
reducing fatalities resulting from large truck and bus crashes 
by 50 percent within the decade.
    Chairman McCain's bill includes a number of provisions that 
are similar to those in the administration's bill: the CDL 
program, increased funding, and improved data collection. We 
believe there is broad agreement between the administration's 
bill and S. 1501 in several areas. We look forward to 
continuing our work with Congress to achieve our top priority, 
safety.
    This concludes my remarks. I look forward to your 
questions.
    Senator Hutchison. Thank you. Did you want to add, Mr. 
Basso?
    Mr. Basso. Madam Chair, yes, thank you, just very briefly. 
I will be very brief.
    First let me say on behalf of Secretary Slater, Madam 
Chair, he wanted me to convey to you safety is the Department's 
number 1 priority. Second, with regard to many of the things 
that General Wykle has put forward in particular, we need 
strengthened data collection, we need strengthened laws, and I 
think this committee, Chairman McCain has put forward a very 
sound legislative proposal.
    We submitted, on behalf of the Department of Transportation 
and the Administration, legislation which in many ways would, 
if combined with Senator McCain's legislation, move the motor 
carrier safety program forward on the question of organization. 
One way, certainly, of reinforcing and improving the 
organization is retention within the Federal Highway 
Administration, adding a new Deputy for Motor Carrier Safety, 
and that is one way, but there are other considerations.
    The Inspector General has pointed those out, and we 
certainly want to work with this committee and with the 
Congress to deal with those questions of organization, and I 
will simply conclude by saying, the bottom line for all of us 
is not about simply organization, but it is about effective 
implementation of the laws to prevent the kinds of things we 
have seen in Atlanta that Senator Cleland brought up, and also 
Senator Breaux's concerns in Louisiana, and we share those 
concerns, and that will conclude my statement, Madam Chair.
    We would be happy to answer your questions.
    [The prepared statement of Mr. Basso follows:]

    Prepared Statement of Hon. Peter ``Jack'' Basso, Jr., Assistant 
   Secretary for Budget and Programs, Office of the Secretary, U.S. 
                      Department of Transportation

INTRODUCTION
    Madam Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify on motor carrier safety and legislation 
introduced by Chairman McCain, S. 1501, the Motor Carrier Safety 
Improvement Act of 1999. The Department has also proposed legislation, 
the Motor Carrier Safety Act of 1999 and the Highway-Rail Grade 
Crossing Safety Act of 1999, together introduced by Sen. Lautenberg as 
S. 1559, to enhance the safety of motor carrier operations and the 
Nation's highway system, including highway-rail crossings. We think 
there are many similarities between these bills, including a mutual 
goal of putting safety first.
SAFETY GOAL
    President Clinton and Secretary Slater have repeatedly stated that 
the safety of our Nation's transportation systems is our Department's 
highest priority. This year the Department has made an extraordinary 
effort to meet its challenge in motor carrier safety. The motor carrier 
industry has grown and changed dramatically over the past 30 years and 
it will continue to grow with the vigor of our economy. There are now 
more than 500,000 truck and bus companies and 6 million drivers subject 
to Federal and State safety oversight. There are more than 7 million 
large trucks and 125,000 buses traveling almost 200 billion miles on 
the Nation's highways each year. The rate of fatalities resulting from 
large truck and bus crashes has dropped significantly over the past 20 
years, from 6.0 fatalities per 100 million vehicle miles traveled in 
1977 to 2.8 fatalities per 100 million vehicle miles traveled in 1997 
(the last year for which we have complete data to compute this rate). 
Nevertheless, 5,374 deaths occurred in heavy truck crashes in 1998 and 
another 123,000 persons were injured that year in heavy truck crashes. 
These are still unacceptable losses. Secretary Slater announced on May 
25 of this year that the Department is committing itself to an 
aggressive goal of reducing fatalities resulting from large truck and 
bus crashes by 50 percent within the next 10 years.

THE DEPARTMENT'S COMPREHENSIVE PROGRAM
    The Department of Transportation and its State and local partners 
have comprehensive motor carrier safety efforts that involve 
coordination among the Federal Highway Administration (FHWA), the 
National Highway Traffic Safety Administration (NHTSA), the Research 
and Special Programs Administration (RSPA), the Federal Transit 
Administration (FTA), the Federal Railroad Administration (FRA), and 
the Bureau of Transportation Statistics (BTS), as well as State and 
local safety and law enforcement agencies. The programs of the 
different modal administrations within the Department are 
complementary, and together they address each of the following areas:

        <bullet> Drivers--We require that professional drivers be 
        qualified and licensed, medically fit, alert and fully 
        attentive to their driving task.
        <bullet> Vehicles--Trucks and buses must be manufactured and 
        equipped with appropriate safety technologies and be well 
        maintained for safe operation.
        <bullet> Highway Infrastructure Environment--The highway 
        environment must be designed and built to safely accommodate 
        large and small vehicles, while incorporating the latest 
        features to minimize driver errors and mitigate their 
        consequences when they do occur. To ensure a safe environment, 
        there must also be strong enforcement efforts with respect to 
        speed limits and size and weight laws
        <bullet> Motor Carrier Operations--We require that carriers 
        employ sound safety management systems to oversee their 
        operations, and we use data to compare individual carrier 
        performance against overall industry safety performance.
        <bullet> Hazardous Materials (HM) Transportation--We set 
        standards for the safe handling, routing, packaging, marking, 
        and labeling of HM shipments and containers, and provide 
        support and grants for emergency response planning and 
        training.
        <bullet> Technology--By fostering the development and use of 
        advanced technologies, we can improve driver, vehicle, and 
        roadway safety. We can reduce human error, receive warning of 
        mechanical problems, target high risk carriers, and improve the 
        effectiveness and coverage of roadside inspections.

    Our programs have helped reduce the rate of crashes, injuries, and 
fatalities, and we are taking action every day, throughout the 
Department, to make them stronger, better, and more effective in saving 
lives.

    Senator Hutchison. Thank you. I want to start with Mr. 
Mead.
    Being a border State, I have been very concerned about the 
safety level of Mexican trucks coming in through my State, but 
it is certainly not limited to my State. We find today that 
there are Mexican trucks operating in 24 States and if they are 
not meeting the same level of safety as our American trucks are 
required to meet, that is an issue for all 24 of those States, 
soon to be 48.
    I want to ask you in your report that you issued what you 
would suggest that we can do to increase the rate of 
inspection, or is it just too early to open our doors to 
Mexican trucks? What is the right answer, to make sure that all 
of the people that are traveling on our highways are going to 
be safe and also have the security of knowing that every truck 
that enters our country, whether from Canada or Mexico, meets 
the same standards?
    Mr. Mead. You mentioned in your opening remarks a statistic 
about that inspector at the El Paso border, the one gentlemen 
responsible for a crossing that had a peak of nearly 2,000 
trucks a day. He could inspect only 13. The Department has 
increased the number of inspectors since we issued our report, 
based on our recommendations to 40 at the border. We do not 
think that is enough. We think the number of inspectors ought 
to range from somewhere from 60 to 125.
    The bill contains a requirement for staffing standards at 
the border. Although staffing standards can be directed 
administratively, I think in view of the sad history here at 
the border of inadequate staffing, that it would be appropriate 
for the legislation to direct a staffing standard. This is very 
important: to have enough inspectors so that the truckers know 
when they are coming across into that commercial zone that 
there is going to be a consequence, and that there is a chance 
of getting caught. If an inspector can only inspect 13 trucks a 
day, there is not much chance of getting caught if you are a 
driver in the other 1,900 of them.
    Second, we are going to be issuing a report next month on 
what we have found in the 24 States in which these Mexican 
trucks were operating. Most of those trucks should not have 
been in those 24 States.
    Senator Hutchison. How did they get through?
    Mr. Mead. Well, I thought that the commercial zones, having 
never been to one until this review, perhaps had a barrier 
around them and that Mexican trucks could drive across the 
border and then could not go on. But that is not so. There is 
nothing that actually physically prevents the trucks from going 
on into the interior States, or leaving the commercial zone and 
going into the interior of the State of Texas.
    There are some exemptions that do allow Mexican trucks to 
come into the United States, but they are fairly limited, and 
based on what we have seen so far and the trucks we have 
identified, most of them would not fall within the scope of 
those exemptions.
    Senator Hutchison. So you are saying in addition to more 
inspectors we need to have some sort of barrier that would 
eliminate the possibility of someone just getting through?
    Mr. Mead. Yes, control mechanisms of some sort. I visited 
the border crossing in the State of California--where the State 
government has established a first-rate facility and adequately 
staffed it with State inspectors--and the out-of-service rate 
for trucks at the border in Otay Mesa is a little higher than 
25 percent, which you quoted as the out-of-service rate for 
U.S. trucks, but not by much. That compares to almost 50 
percent at the crossings at El Paso and Laredo. That is 
unbelievable. 50 percent--even 25 percent--is nothing to write 
home about.
    Senator Hutchison. Well, I really commend California for 
taking that State effort, but honestly, it should not be a 
State requirement. It should be a Federal requirement, and we 
need to have Federal standards, Federal regulations, and 
Federal inspectors, and we are shirking our responsibility.
    Mr. Mead. We agree totally. It is an international border, 
after all. I think that it is clear that it is a Federal 
responsibility at the border.
    Senator Hutchison. I just want to ask you one quick 
question before my time is up, and that is, Mr. Wykle has, or 
perhaps Mr. Basso said that adding a new Deputy Secretary for 
safety would perhaps be sufficient, rather than an 
administration dedicated to safety. Would you comment on that?
    Mr. Mead. Yes. I view that as creating two agencies in one. 
I would agree that it would elevate the importance of motor 
carrier safety. But there is no way that an agency with a $100 
million budget is going to be able to compete effectively with 
an agency charged with investing $26 billion.
    The clear and preeminent purpose of the Federal Highway 
Administration is investment in infrastructure. The dynamics 
and profile of the trucking industry and the enormous growth 
and the loss of life suggests to us that the time has come to 
really focus on safety and we are going to need a special unit 
to do that.
    Senator Hutchison. Thank you. So you do not feel it is 
adequate just to add another Secretary, or Deputy?
    Mr. Mead. No, Madam Chair, I do not.
    Senator Hutchison. Thank you. Senator Breaux.
    Senator Breaux. Thank you, Madam Chair, and thank the 
witnesses for the presentation.
    Mr. Wykle, I think your administration is in serious danger 
of losing this program, and I am not sure that is a bad thing. 
I think the Inspector General makes a good point that the 
Federal Highway Administration in handling probably $20 billion 
a year in road construction funds is not the proper place to 
also do the inspection, that this is such a critically 
important area that it deserves a unit in and of itself that is 
separate from putting out funds to construct roads that I 
really think the case has been made and the facts are clear 
that it is not working.
    If you look back to when we passed the Motor Carrier Safety 
Act back in 1984 giving the Department of Transportation 
authority for safety, and that was delegated to the Federal 
Highway Administration, it has not been a great record. I mean, 
this is through several administrations. It is not just this 
administration, it is previous and several back.
    I note that the Highway Administration had promised to 
complete inspections of all motor carriers by July 1990. You 
all were quickly overwhelmed by the size of the job, and 
Congress back in 1989 gave 150 more inspectors, nearly doubling 
the size, but then the agency postponed the deadline for 
inspecting all motor carriers to September 1992, and then the 
agency scrapped that plan altogether saying it simply did not 
have the resources to check every motor carrier in the country.
    It seems, however, that they were not using really the 
money that we gave. I mean, if you look at some of the records, 
the agency let the number of inspectors drop from 348 
inspectors in 1991 to 260 last year, and going in the opposite 
direction, and during that same period the number of major 
safety inspections done by the agencies and State inspectors, 
as the IG has said, decreased by 30 percent from 9,272 to 
6,473.
    Then I am reading from the New Orleans Times-Picayune, 
which did an excellent job of looking at this particular 
situation, pointed out that in reviewing the Highway 
Administration's enforcement record, they point out the 
Inspector General discovered that few companies have been even 
paying fines for breaking the law.
    In 1998, just last year, 11 percent of the 22,000 serious 
safety violations resulted in fines, so almost 90 percent did 
not get fined, and the agency's Office of Motor Carriers was 
settling those cases with fines averaging $1,600 in 1998, which 
is down from an average fine of $3,700 in 1995.
    I think the record is not a good one. That is unfortunate. 
I am not here to point blame, but I suggest very strongly that 
it is simply not working where it is now, and this is such a 
high priority that it should be given the attention of an 
independent agency.
    What is wrong with that, Mr. Wykle?
    Mr. Wykle. Well, certainly the statistics you have quoted 
and those the IG found from his investigation are not good. 
Part of that is an issue of how resources had been applied and 
were being applied. As the IG pointed out, the balance was 
skewed more toward education and outreach, and the application 
of technology versus compliance reviews.
    Senator Breaux. On that point, isn't that fine if you have 
got a cooperative operator, but if you have a fly by-night 
operator, just educating them is not going to make a 
difference?
    Mr. Wykle. Certainly that is true, so the key is striking 
the right balance, and through these various----
    Senator Breaux. I am not sure you can balance safety. It is 
not a balancing question. It is a question of ensuring that the 
people who operate buses with innocent people on it are 
complying with the law. This does not cry out for balance as 
much as it does for enforcement. Why are we trying to balance 
safety? You cannot do that.
    Mr. Wykle. Well, that is the point I am trying to make, 
sir. We have gone too far in terms of the outreach, and the 
technology side, and we need to get back more on the compliance 
side, and so we set out to increase the number of compliance 
reviews by 100 percent over what we did last year.
    Senator Breaux. But you are not even close.
    Mr. Wykle. Well, we will never be able to inspect 460,000 
carriers each year.
    Senator Breaux. How many are you--how many did you inspect 
last year?
    Mr. Wykle. We conducted 6,000 compliance reviews last year.
    Senator Breaux: Out of 400,000 operators?
    Mr. Wykle. Yes, sir. Even doubling that only gets to 
12,000. A new Motor Carrier Administration is not going to be 
able to get----
    Senator Breaux. Why can't we have every bus that carries 
passengers for hire have some type of inspection that certifies 
that, like in the New Orleans case, the driver is subject to a 
drug test? I mean, your inspectors apparently gave that bus 
company a satisfactory rating. The Defense Department said they 
did not even have a drug inspection program.
    Mr. Wykle. Every motor carrier, whether it is a bus company 
or a for-hire carrier for freight is required to have a drug 
and alcohol testing program. One of the things we do when we go 
in on a compliance review is to validate that they in fact have 
that program and are applying that.
    Senator Breaux. Well, on that point, I mean, the tragic 
accident we had in New Orleans just 4 months after you said it 
was satisfactory, the Department of Defense inspection program 
turned them down for not even having a drug inspection program. 
How could they miss not even having a program?
    Mr. Wykle. We rated them conditional, but certainly that 
was permission for them to continue to operate.
    Senator Breaux. You did not rate them satisfactory?
    Mr. Wykle. 
    It was my understanding it was conditional. We have three 
ratings, satisfactory, conditional, and unsatisfactory.
    Senator Breaux. Every bit of information I have says you 
rated it satisfactory. Just 4 months later the Department of 
Defense turned them down saying they did not even have a drug 
program.
    Mr. Wykle. We will certainly go back and check that. My 
information was, it was a conditional rating, so we will 
clarify that, sir.
    Senator Breaux. Well, I think we have got a problem. I 
mean, we gave you more money to add 150 inspectors, and the 
number of inspectors actually went down. I mean, I just think 
that the concept of trying to balance safety with enforcement 
and education, you cannot balance safety.
    These are tragic incidents, and I think we ought to learn 
from them. I am not here to just blame people, but I think the 
Inspector General makes a good point that there has been an 
explosion of these companies and trucks on the road, but you 
have got a big task in building the highways of this country 
and keeping them in shape, and that the safety inspection 
program is so important that it at least deserves a separation 
from the Federal Highway Administration, and let you do what 
you do best and move on to something else.
    Mr. Wykle. Can I just comment on that, sir? I know the time 
is up there, but there are several core competencies that are 
in the Federal Highway Administration that I think relate 
directly to truck safety, and they should not be split apart. 
Highway design and construction, which really is the geometrics 
of the highway, really pertains to the large trucks, will stay 
in Federal Highways.
    Such things as traffic operation, truck size and weight, 
signs and signaling, a lot of things like that, technology, the 
intelligence transportation program for the Department is 
located in Federal Highway. The crash avoidance systems, all of 
that technology is in the Federal Highway Administration.
    Senator Breaux. I would not have any problem, when you are 
talking about weights and design, that is certainly something 
that should be under the expertise of the Federal Highway 
Administration.
    I am talking about ensuring that people who are drunk, on 
drugs, and have failed driving tests and inspections, or other 
conditions, are done by a group that focuses in on that, not to 
take away the design of bridges and roads and weight limits and 
all of that. That is something that is uniquely important to 
the Federal Highway Administration.
    But just a common-sense inspection to focus in on getting 
it done as their only mission--as their only mission--needs to 
be in a different Department.
    Thank you.
    Senator Hutchison. Thank you. Senator Cleland.
    Senator Cleland. Madam Chairman, I am struck by a line from 
Julius Caesar, when in doubt, reorganize.
    I am in serious doubt as to the ability of our Government 
to enforce compliance on the motor carrier industry here, 
resulting in creating risks to the traveling public, both 
drivers who drive trucks and those who are commingled with 
them, as on Interstate 285 in Atlanta, where that terrible 
accident happened. I think that is part of the challenge here. 
Trucks are intermingled with commuter traffic, as is the case 
in Atlanta on 285, as is the case more and more on our 
interstate highways.
    I would just like to try to get a gauge here and see--Mr. 
Mead, did you say that one out of four trucking companies that 
were investigated were noncompliant, or out of compliance?
    Mr. Mead. Those are trucks, Senator, that are stopped for 
roadside inspections. When inspectors stop these trucks and 
pull them off to the side, 25 percent are placed out of service 
for safety violations. In other words, that particular truck, 
or the person driving it, has such a serious safety problem 
that the inspectors cannot let that truck and the driver 
proceed.
    That is an enormously high rate and it is approaching 50 
percent at crossings in the State of Texas.
    Senator Cleland. Pardon me, I am new to this committee, but 
on the Surface Transportation Subcommittee that seems an 
unacceptably high risk to the motoring public, both to the 
drivers of the trucks and to the motoring public. The question 
is what to do about it. I am not sure what to do about it, but 
I think we have a problem.
    Second, did I hear you say, Mr. Mead, that 6,000 trucks 
total were out of compliance? I just wrote that down.
    Mr. Mead. I said, sir, that 6,000 motor carrier companies 
are operating in the United States today with a less-than-
satisfactory safety fitness rating.
    Senator Cleland. The total number of motor trucking 
companies are what, 460,000?
    Mr. Mead. In that neighborhood, sir, yes. Seventy percent 
of the population has not even been rated.
    Senator Cleland. Seventy percent of the motor trucking 
firms that are out there have not been rated, or in effect 
tested or evaluated?
    Mr. Mead. That is correct.
    Senator Cleland. Mr. Wykle, part of your argument is, as I 
understand it, that regardless of where the Office of Motor 
Compliance is located, and even if you doubled the compliance 
from, say, 6,000 checks a year to 12,000, that does not even 
come close to what we need. Is that part of your testimony?
    Mr. Wykle. Well, I was responding to Senator Breaux. I 
believe his comment was along the lines that we needed to 
inspect every one of those companies and give them a rating, 
and I was just saying, with the current manpower, and even by 
doubling the number of compliance reviews per year, it will not 
come close to that. You could get 12,000 out of the 460,000.
    So it is more than just the Federal Government going to 
inspect. The companies themselves have an obligation to put 
safe trucks on the road. We are trying to find the 10 to 15 
percent that are really out of compliance. It is just like 
speed enforcement. Law enforcement agencies go after the 10 to 
15 percent that are outside the norm.
    Based on the IG's report of a couple of years ago, he 
recommended that we change our safety rating system to try to 
target the highest risk carriers. We developed a Safe Stat 
system to do that. We inspect the highest risk carriers, 
looking at their past crash record, the vehicle-out-of-service 
rate, their driver out-of-service rate, and their overall 
safety program.
    Looking at those factors helps us target our efforts 
against those carriers that should be in the worst shape. Those 
are the ones that we focus on primarily.
    I would just like to point out, that of the 460,000 
trucking companies, the vast majority of those, about 70 
percent, are really small operators, one to five truck-size 
companies, so we have a lot of small businesses out there 
operating.
    Senator Cleland. I am on the Small Business Committee, so I 
am an advocate of small business. Do you find you have more 
noncompliance, more trucks that are dangerous on the road to 
operate with smaller companies rather than larger companies?
    Mr. Wykle. Generally that is true, because they do not have 
the capital to invest in driver training programs, to hire 
safety vice presidents, or establish safety programs to do 
their own internal training and so forth, so that is an issue.
    Senator Cleland. My time is up, but I would like to squeeze 
in one more question here.
    The terrible accident on I-285 in Atlanta seemed to be due 
to driver fatigue. Who sets the hours of service for motor 
drivers today?
    Mr. Wykle. We do that. There is an hours-of-service 
regulation, and I commented in my opening statement that the 
rule is 60 years old, and we are trying to update it. It is 
very complex, and it is very controversial, but we have a draft 
revision that is already put together. We are staffing that 
now, and we hope to have the notice of proposed rulemaking out 
this fall on proposed changes. We are responsible for that 
regulation.
    Senator Cleland. As a final comment, Madam Chairman, given 
what I have heard today about the risk out there with non-
compliant companies and non-compliant trucks and a 60-year-old 
hours of service regulation, many of our truck drivers may not 
live to be 60 years old.
    Thank you very much.
    Senator Hutchison. Thank you, Senator Cleland.
    Senator Snowe.
    Senator Snowe. Thank you, Madam Chairwoman.
    Obviously this is an issue that continues to be of 
tremendous concern to all of us. Because I think we have not 
seen any dramatic change that would suggest that we can see 
improvement on the issue of enforcement.
    Mr. Wykle, I included a provision when we eliminated the 
Interstate Commerce Commission back in 1995, that required a 
change in the rules regulating truck drivers and the hours they 
could be driving. The language required an advance notice of 
proposed rulemaking be issued no later than March 1, 1996. And 
then, with the ICC Termination Act, it also required the 
original proposal be followed by a notice of proposed 
rulemaking within 1 year, and a final rule within 2 years.
    It is now September 1999. Under the law, the final rule 
should have been published this year. The Federal Highway, the 
Office of Motor Carriers, have failed to publish this rule. It 
is required by law. The hours of service regulations are 62 
years old. They are older than the interstate highway system. 
And yet we have not seen any changes, any final rule, with 
respect to the hours of service regulations.
    Obviously, trucker fatigue is a serious issue, and has been 
the focus and the reason for so many truck fatalities in this 
country today. In my State of Maine over the last few years, we 
have had some horrendous accidents that have resulted in 
fatalities due to trucker fatigue. Yet your agency has yet to 
publish a final rule, as required by law.
    Can you tell this subcommittee why there has been no final 
rule published?
    Mr. Wykle. Yes, ma'am. That is the rule I was actually 
referring to with the Senator. An advance notice of proposed 
rulemaking did go out in November 1996. As I mentioned, it is a 
complex, controversial rule. We received 1,600 comments, and 
references to 120 different studies. So we have been trying to 
go through all that, as we are required to do, and consider 
those comments and studies, and respond to every one of those.
    We have basically completed that work. We have put together 
the draft notice of proposed rulemaking, and we hope to have 
that out this fall. But we are behind. It is very 
controversial, very complex. There is a lot of interest in it. 
We are working hard to get that out. Because it is important to 
get the rule out, get the comments, and get it finalized.
    Senator Snowe. When do you think it would be finalized? 
Obviously trucker fatigue is on the National Transportation 
Safety Board's 10 most wanted list when it comes to what is 
responsible for truck fatalities in this country.
    Mr. Wykle. Well, we have a very aggressive schedule. It is 
our intent to have it final within about 1 year. But that is 
extremely aggressive.
    Senator Snowe. Well, then we are talking probably almost 
more than half a decade by the time we could see something 
become a reality on the issue that is of utmost concern to 
people who have suffered as a result of trucker fatalities. I 
mean, there have been what, how many accidents, 5,000?
    According to Mr. Mead's audit, 5,355 deaths from large 
truck crashes. That is the equivalent of a major airline crash 
with 200 fatalities every 2 weeks. Can you imagine the airline 
industry and the reaction you would have here in the U.S. 
Congress or throughout America if that was the case with the 
airline industry?
    So there is something wrong. That is why Senator McCain has 
introduced this legislation about the transfer. It is going to 
be more than just an administrative change. It is going to be a 
substantial change. Because obviously the agency has failed to 
respond to the issues that are of genuine concern because of 
the significant number of truck fatalities that have occurred 
throughout this country, and we do not see any changes.
    I am sort of amazed to read Mr. Mead's testimony here this 
morning. Almost 86 percent of the inspectors called for 
stronger enforcement actions. So we even have a failure of 
enforcement. I mean people out in the field recognize that 
there has not been sufficient enforcement with respect to even 
those regulations that are currently on the books. So something 
dramatic has to change.
    I recognize it is contentious and controversial. But I do 
not think that the agency has demonstrated a commensurate 
response to the seriousness of the problem that is out there on 
our Nation's highways today.
    Mr. Wykle. Well, I am certainly not making excuses for the 
slowness in getting it out, other than pointing out the factual 
basis in terms of the number of comments and various studies 
that impact on that. In terms of the enforcement, as I 
mentioned, we have set a goal of doubling the amount of 
enforcement we do per year. We are well underway to doing that.
    While I said we conducted 6,000 compliance reviews last 
year, there were over 2 million roadside spot inspections done 
to check the mechanical condition of the vehicles. So 2 million 
of those out of 7 million trucks, theoretically every third to 
fourth year you would get through all the trucks. Now, we know 
that is not factually correct because some are repeat. But we 
get a lot of vehicles checked at roadside spot inspections. But 
the overall compliance review is a major challenge because of 
the sheer magnitude.
    Senator Snowe. Well, in U.S. News & World Report, in 
September, there is an article called ``Killer Trucks,'' that 
talked about various accidents that occurred. In one instance, 
State police found that only one of the truck's 10 brakes 
worked. The glove compartment of the truck was stuffed with 
crumpled failure slips from roadside inspections. Federal 
records showed the driver's vehicle was ordered out of service 
at 55 percent of its inspections in the past 2 years, but the 
truck always returned to the highway.
    So what does it take to get a truck off the road today? And 
how many trucks have never been subject to review with respect 
to compliance?
    Mr. Wykle. I cannot give you a number in terms of how many 
have never been inspected. I indicated to you we do 2 million a 
year. There are 7 million trucks on the road. Theoretically, 
every 3 and a half years we would go through every truck. But 
we know some trucks are inspected multiple times.
    In terms of when we find a vehicle out of service, we put 
it out of service right there. The driver cannot continue to 
drive until they come and repair that vehicle on the spot. But 
that is not to say that a week or 10 days later something else 
may go wrong with that vehicle, and we have to catch that at a 
subsequent roadside inspection. So you can get multiple 
failures in a given vehicle.
    Mr. Mead. Senator Snowe.
    Senator Snowe. Yes, Mr. Mead.
    Mr. Mead. I know the time has expired. I just had a 
perspective to offer.
    Senator Cleland said that even doubling the number of 
compliance reviews would jump the reviews up to about 12,000, 
and remember, there are 450,000 companies out there. It does 
not matter much if there is a compliance review, and it proves 
the truck is unsatisfactory from a safety point of view, if 
nothing happens. It does not matter much if a trucker can 
operate on the roads with an unsatisfactory fitness rating 
continues to operate, and there is no consequence, or the fine 
imposed is a nominal cost of doing business. The inspectors 
lose a lot of your leverage.
    As with the FAA, the FAA is never going to have enough 
inspectors to inspect planes as often as they would like, 
everywhere they would like. So you have to use the leverage of 
not only doing the compliance reviews, but when something is 
found wrong, taking some meaningful enforcement action. This 
program needs fundamental improvement in both of those areas.
    Senator Snowe. Well, mentioning the FAA, that was one of 
the issues that came before this committee over the last few 
years, about the dual mandate of the FAA with respect to the 
safety issues and at the same time encouraging the growth in 
the airline industry. We saw those dual mandates at FAA as 
incompatible and conflicting. We changed that.
    What do you think about this reorganization under Senator 
McCain's legislation? Is it possible to have a safety program 
without strong enforcement? My concern is that there is a lack 
of enforcement. I think that the agency already has said that, 
sending out a policy memorandum that says we are not, first and 
foremost, an enforcement agency, but rather a safety agency and 
enforcement should be the underpinning of our safety agency. 
Yet this agency has done fewer enforcements every year.
    So what can we do to ensure that that mandate includes 
strong enforcement?
    Mr. Mead. You need a safety agency, and as you point out 
with the FAA, there was this conflict, or perceived conflict, 
between promoting the industry and safety. The Congress 
clarified that, so now there is no doubt.
    This safety function is a very important function. Just 
like we have a Railroad Administration and an Aviation 
Administration, I think the time has come, given the size of 
the trucking industry, to focus like a laser on the safety 
mission. I just do not see the arithmetic adding up, where this 
mission, this safety mission in the Federal Highway 
Administration, can be the predominant mission. Arguably, nor 
should it be. We really want the Federal Highway Administration 
to focus on good, sound infrastructure investment.
    So it is not that anybody has ill intentions here or that 
anybody should be blamed. But I think it is a fact that the two 
missions are going to compete with each other. And that is not 
healthy.
    Senator Snowe. Thank you, Madam Chair.
    Senator Hutchison. By way of analogy, I think that is why 
the National Transportation Safety Board was created as a 
separate agency, so that it could be objective and not have to 
take into account a mission or promoting transportation. I 
think you are doing a terrific job, Mr. Mead.
    Mr. Wykle, I think you are trying, but you have a dual 
mission. That makes it very difficult when you are not able to 
separate those two. I understand that. But I am, coming from my 
safety background, convinced that when you are dealing with 
safety, you need to do it in a more focused atmosphere.
    I do have a few more questions for Mr. Wykle, but I think, 
in the interest of time, I am going to submit those for the 
record, so that I can call on the second panel.
    Senator Breaux. Madam Chair.
    Senator Hutchison. Yes, Senator Breaux.
    Senator Breaux. Just a quick comment on what we have all 
been saying. Mr. Wykle, it is not to condemn in any way the 
Federal Highway Administration. I think the chair has 
accurately stated it. You probably ought to be anxious to get 
rid of this portion of safety enforcement.
    [Laughter.]
    Senator Breaux. You have got everything you have got to do 
with highways and the construction. You do a terrific job. The 
standards are all very, very important. But what we are looking 
at, it is almost like a police operation, in the sense of 
enforcing the law and giving out sufficient penalties for 
violations. That is a whole other thing. You ought to be 
saying, good gosh, take this away from me and get somebody else 
to do it. I think it can be made to work better if we did that.
    Thank you.
    Senator Hutchison. That is a new approach.
    Mr. Wykle. I have been told that by others also, sir. Thank 
you.
    Senator Hutchison: Well, I thank you very much for coming. 
I think this has been a very helpful panel. I think it has 
clarified some of the issues. And I also especially appreciate 
the participation of the committee. I think we are coming to a 
consensus here.
    Thank you very much.
    Now I would like to call the second panel forward. The 
second panel I will introduce shortly. But as they are coming 
forward, I would like to submit for the record statements from 
the National Transportation Safety Board, the American Bus 
Association, the American Insurance Association, Citizens for 
Reliable and Safe Highways, and the American Association of 
Motor Vehicle Administrators. This will add to our written 
record. I will insert those.
    Senator Hutchison. Now, I thank all of you very much for 
coming. Because I think this will give us a fleshing out of the 
record from the standpoint of the diverse views that are 
represented here.
    I would like to welcome Mr. Steve Campbell, the Executive 
Director of the Commercial Vehicle Safety Alliance; Joan 
Claybrook, the President of Public Citizen and Board Member of 
Advocates for Highway and Auto Safety; Mr. Ken Bryant, of 
Teamsters Local 745, of whom I have had a great relationship in 
my hometown of Dallas, Texas; Mr. Walter McCormick, the 
President and CEO of American Trucking Associations; and Mr. 
Kevin Sharpe, the Illinois Customers Commission, on behalf of 
the National Conference of State Transportation Specialists.
    I thank all of you for being here. I will just start with 
Mr. Campbell, the Executive Director of the Commercial Vehicle 
Safety Alliance, for a statement of up to 5 minutes.

     STATEMENT OF STEPHEN F. CAMPBELL, EXECUTIVE DIRECTOR, 
               COMMERCIAL VEHICLE SAFETY ALLIANCE

    Mr. Campbell. Thank you, Senator, for the opportunity to 
speak to you today.
    CVSA, the Commercial Vehicle Safety Alliance, works to 
improve commercial vehicle safety on the highways by bringing 
Federal, State and Provincial truck and bus enforcement 
agencies together with representatives from industry in the 
United States, Canada and Mexico. Every State in the United 
States, all Canadian Provinces, the country of Mexico, and all 
U.S. Territories and Possessions are members of the Commercial 
Vehicle Safety Alliance.
    We believe S. 1501 is a good bill and the best step that 
this subcommittee and, hopefully, the full Senate can take on 
the matter of commercial vehicle safety. A separate Motor 
Carrier Safety Administration with a total and exclusive focus 
on commercial vehicle oversight will help ensure that.
    Let me reiterate a point I made before the full committee 
last April. CVSA's longstanding support of a separate 
administration should not be viewed as a criticism of the many 
hardworking and dedicated individuals in the current Office of 
Motor Carrier and Highway Safety. Current Program Director 
Julie Anna Cirillo should be given high marks for the efforts 
she has made since assuming her position last February.
    We just think that the OMCHS's work would be much more 
effective and produce better results when pursued under a 
separate agency, out from under the Federal Highway 
Administration, whose mission and goal, as we all know, is not 
primarily focused on truck and bus safety. The bill's funding 
increase of $50 million a year for the Motor Carrier Safety 
Assistance Program over the levels established in TEA-21 is 
also a positive step.
    However, we have two additional recommendations that we 
believe will strengthen the bill. The first deals with a 
special program for new entrants into the motor carrier 
business. The second deals with the procedure that establishes 
a certification program for safety specialists who perform 
carrier compliance reviews.
    The motor carrier industry is expanding. New motor carriers 
are entering the business at an estimated rate of close to 
40,000 a year. The majority of these carriers are small, with 
six or fewer trucks. Studies show that new carriers with fewer 
than 3 years' experience have higher crash rates and lower 
rates of safety compliance than carriers that have been in 
business longer.
    Thus, we feel there is a need for a new program, tailored 
specifically to the new entrant. The basis of such a program 
should include the filing of a safety management plan by the 
new entrant with the Department of Transportation. Regardless 
of the size or type of carrier, the plan should demonstrate an 
understanding of Federal safety rules and regulations and, more 
importantly, the methodology for compliance.
    Our next recommendation is outlined in recent legislation 
which was introduced by Senator Breaux, S. 1524, the Motor 
Carrier Safety Specialist Certification Act. The Act specifies 
a process to professionally certify all motor carrier safety 
specialists, whether in the public or private sector, that 
performs compliance reviews on truck and bus companies. We 
believe professional certification would ensure the highest 
quality compliance reviews and, most importantly, that accurate 
and timely safety data be filed with the DOT--a need the 
Inspector General has highlighted in his report.
    Until now, compliance reviews have not always been 
performed in a consistent and accurate manner, as evident in 
the recent tragic Mother's Day tour bus crash in Louisiana. The 
case history of that accident, as Senator Breaux mentioned 
earlier, reveals that just 4 months after compliance review 
data was presented to the FHWA, and a satisfactory safety 
rating issued to the bus company, a private, third party 
company, under contract to the Department of Defense, failed 
that same bus company for not having a drug and alcohol testing 
program.
    Unfortunately, this was not the only example of a flawed 
compliance review. The contractor responsible for reviewing 
carrier safety for the DOD found that 27 percent of the 
satisfactory rated FHWA carriers were unable to enter the DOD 
program because of noncompliance with FHWA safety regulations. 
These examples would seem to indicate a weakness in the FHWA 
compliance review program in terms of resources and structure, 
and to certify and train those who do compliance reviews.
    TEA-21 authorized the Secretary of Transportation to study 
the third party contractors, in conjunction with the motor 
carrier enforcement program. S. 1524 outlines a way to do that 
by directing the Secretary of Transportation, in consultation 
with a newly created Motor Carrier Safety Specialist 
Certification Board, to establish a program for the testing and 
certification of Federal, State and local government, and 
nongovernmental motor carrier safety specialists. I believe 
CVSA can be a key player in this certification program because 
of its many years of experience in certifying State roadside 
truck and bus inspectors.
    Again, we support S. 1501 as the best way to improve safety 
oversight in DOT and in the States, and offer these additional 
recommendations today to help us all achieve the goal of 
reducing truck and bus crash fatalities. Senator, thank you 
again for inviting me here today, and I welcome any questions 
that you have regarding my written or oral testimony.
    [The prepared statement of Mr. Campbell follows:]

     Prepared Statement of Steven F. Campbell, Executive Director, 
                   Commercial Vehicle Safety Alliance

                            I. INTRODUCTION

    I am Stephen Campbell, Executive Director of the Commercial Vehicle 
Safety Alliance (CVSA). Thank you for the opportunity to appear before 
the Subcommittee at today's hearing.
    CVSA (established in 1981) works to improve commercial vehicle 
safety on the highways by bringing federal, state, and provincial truck 
and bus enforcement agencies together with representatives from 
industry in the United States, Canada, and Mexico. Every state in the 
U.S., all Canadian provinces, the country of Mexico, and all U.S. 
Territories and Possessions have signed on as members of CVSA.
    CVSA's mission is to achieve uniformity and reciprocity of 
commercial vehicle roadside inspections and other enforcement 
activities throughout North America. CVSA achieves its mission by 
promoting effective motor carrier, driver, vehicle, and cargo safety 
standards and enforcement practices. While the Motor Carrier Safety 
Assistance Program (MCSAP) through its grant program to the states 
serves as the underpinning of a national commercial vehicle safety 
program, CVSA is the organization responsible for implementing this 
commercial vehicle safety program not only in the U.S., but 
implementing essentially a comparable program throughout North America 
even in jurisdictions without a program such as MCSAP.

                              II. S. 1501

    S. 1501, introduced by Senator McCain, is a good bill. We think 
that action on the bill is the best step that this Subcommittee, and 
hopefully the full Senate, can take to try and get a handle on the 
issue of commercial vehicle safety that Congress has been working on 
over this past year. The proposal in this bill to create a separate 
Motor Carrier Safety Administration with a total and exclusive focus on 
commercial vehicle safety oversight will enhance safety on the highways 
and help reduce commercial vehicle fatalities which is the only bottom 
line that counts.
    Let me reiterate a point I made before the full Commerce Committee 
last April. CVSA's long standing support of a separate administration 
should not be viewed as a criticism of the many hard working and 
dedicated individuals in the current Office of Motor Carrier and 
Highway Safety with whom we work on an almost daily basis, both in 
Washington and in the field. Its current Program Director, Julie Anna 
Cirillo, should be given high marks for the effort she has made since 
assuming her job this past February. We just think that their work will 
be much more effective and produce better results when pursued under a 
separate agency, out from under the Federal Highway Administration, 
whose mission and goal as we all know is not primarily focused on truck 
and bus safety.
    The bill's proposed increase in funding of an additional $50 
million a year for motor carrier safety and data improvement programs 
over the levels established in TEA-21 is a positive step and should 
allow the new Motor Carrier Safety Administration in partnership with 
states under the MCSAP program to implement programs to bring down 
fatalities.

                    III. ADDITIONAL RECOMMENDATIONS

    We do, however, have additional recommendations that we think will 
strengthen the bill even more and we would hope that you will give them 
serious consideration.
    The first deals with a special program for new entrants into the 
motor carrier business.
    The second deals with a program that establishes a certification 
program for safety specialists who perform carrier compliance reviews.

                        IV. NEW ENTRANT PROGRAM

    The motor carrier industry is expanding and new motor carriers are 
entering the business at a rapid pace. Since deregulation of the 
industry in 1980, the number of carriers has more than doubled. In 
recent years, the numbers of new entrants annually has reached 40,000. 
There are nearly 500,000 carriers operating today. According to the 
American Trucking Associations, approximately 78 percent of all motor 
carriers have 20 or fewer trucks and 69 percent have 6 or fewer trucks. 
Because of this, increased roadside enforcement is necessary and S. 
1501 will certainly help us achieve that. But we believe an increased 
roadside effort may not necessarily be enough to help us deal with the 
safety problems resulting from such a rapidly growing industry. We will 
also need a new program tailored specifically to the new entrant.
    Today, one can enter the business by obtaining a DOT number, 
checking a box on a form (self-certification) that one has knowledge of 
the Federal Motor Carrier Regulations, certifying proof of the 
requisite insurance, and listing the process agents.
    Studies show that new carriers with fewer than three years 
experience have higher crash rates and lower rates of safety compliance 
than carriers that have been in business longer. A process to deal with 
the problem of the new entrant is a way to get a handle on a 
significant part of the problem. The basis for such a program should 
include the filing of a safety management plan by the new entrant with 
the DOT. Let me make clear here that this new entrant may be an owner 
operator, but it is just as, or even more likely, to be a small carrier 
with 6 to 20 vehicles. Regardless of the size or type of carrier, the 
plan should demonstrate an understanding of federal safety rules and 
regulations and, more importantly, the methodology for compliance. This 
plan should describe methods for such key functions as driver 
selection, training, and controls; daily operation such as CDL 
requirements, hours-of-service and dispatch procedures; other federal 
record keeping requirements; compliance with drug and alcohol testing 
rules; vehicle maintenance procedures such as how to make sure that 
manufacturers equipment recommendations are followed and how roadside 
inspection violations will be addressed; policies for reporting and 
recording of accidents; and, of course, evidence of financial 
responsibility. If the new carrier plans to haul hazardous materials, 
there are additional regulations and financial responsibility 
requirements which must be met.
    It is important to point out that a safety management plan requires 
an investment of resources and money by the new carrier. Thus, the plan 
should demonstrate that the new carrier management is aware of, and has 
planned for, such items as the cost of vehicle maintenance. For 
example, are they aware of what it costs to buy new tires? If the new 
carrier happens to be a one person operation, the safety management 
plan should show a balance between the need to haul freight, to take 
care of various other management tasks, and to take the requisite days 
off to rest in order to comply with federal hours-of-service 
regulations.
    It is important that the filing record of these safety management 
plans be computer documented by the new Motor Carrier Safety 
Administration so that a data base can be developed for future follow 
up on these carriers. A point so consistently made during earlier 
hearings on motor carrier safety this year was the fact that close to 
two thirds of the carriers operating today are not found in any of the 
information systems such as SAFESTATE, SAFER, and PRISM. This new 
entrant program would help solve this problem.
    We are aware that Senator Lautenberg in his bill S.1559, would 
require that all new entrants be required to complete a short term 
training program (one or two day seminar). While this is certainly a 
good idea, mere attendance at an educational seminar is not enough. It 
is not, in and of itself, evidence of a long term commitment to 
necessary safety goals that a thorough and well thought-out safety 
management plan would be.
    Furthermore, a safety management plan provides a base from which 
the new small business owner (that is really what a new small carrier 
is) can measure progress so that it can succeed. It is also the basis 
for a safety investigator to do the follow-up compliance review, an 
important component of the new entrant program. If a new carrier 
entrant is treated as a small business and accorded that status along 
with thousands of other small business owners throughout the country, 
then to hold them to the requirement of a long term strategic safety 
management plan should bring positive results. Frankly, according them 
this status through the requirement of a safety management plan, more 
than anything else, may impress upon them the seriousness of the 
responsibility that goes with their new endeavor. More so than the just 
the requirement of attending a one or two day training course, 
meritorious though that may be.
    A follow-up with a more traditional compliance review of the type 
now performed on existing carriers, should be conducted on new entrants 
in a pre-set period of time that could range from six months to one or 
two years and then as often as needed.
    The initial safety assessment (plan submittal, review, and approval 
process) would require considerable resources on the part of federal 
and state enforcement agencies. Specific personnel must be assigned the 
task of conducting new entrant safety assessments as well as providing 
the necessary safety education for the new entrant. It is unlikely that 
even with the generous increase in funding provided for in S. 1501 and 
similar legislation passed by the House, that Federal and State 
governments would be able to carry out the program on their own.

                   V. SAFETY SPECIALIST CERTIFICATION

    This leads to our next recommendation which is outlined in recent 
legislation introduced by Senator Breaux, S. 1524, the Motor Carrier 
Safety Specialist Certification Act. The Act specifies a process to 
professionally certify all Motor Carrier Safety Specialists be they in 
the public sector (federal, state, local) or in the private sector 
(third parties) who perform compliance reviews on truck and bus 
companies. Such professional certification would ensure the highest 
quality compliance reviews on high risk carriers now operating and the 
highest quality safety assessments described above relative to new 
entrants. It also would ensure that accurate and timely safety data be 
filed with the DOT for which there is a pressing need as pointed out in 
the recent Inspector General's report on DOT motor carrier safety 
oversight. Until now, compliance reviews have not always been performed 
in a consistent and accurate manner as evident in the recent tragic 
Mother's Day tour bus crash in Louisiana.
    The case history of that accident reveals that back in July 1996, 
just four months after the Federal Highway Administration (FHWA) did a 
compliance review on the bus company and assigned it a satisfactory 
rating, a private third-party company under contract to the Department 
of Defense (DOD) failed that same company for not having a drug and 
alcohol testing program. Unfortunately, this was not the only example 
of a flawed compliance review. A total of 27% of motor carriers that 
were assigned a satisfactory rating by FHWA failed to enter the DOD 
program after a compliance review was done by the DoD contractor. These 
examples demonstrate that FHWA has a weakness in its compliance review 
program in terms of resources and structure to certify and train those 
who do compliance reviews. This results in compliance reviews that are 
not always performed in a consistent and accurate manner.
    TEA-21 authorized the Secretary of Transportation to approve the 
use of third party contractors in conjunction with the motor carrier 
enforcement program. Senator Breaux's legislation takes the next step 
and provides the Secretary with a means to carry out such a program. It 
would direct the Secretary of Transportation, in consultation with a 
newly created Motor Carrier Safety Specialist Certification Board, to 
establish a program for the training and certification of Federal, 
State and local government, and nongovernmental motor carrier safety 
specialists.
    This program enhances the role of the DOT to do its job of carrier 
rating and enforcement which is currently hampered by the lack of 
accurate information as the Inspector General pointed out in his recent 
report. It does not create a business totally separate from the DOT but 
creates a new force of qualified safety specialists who are partners 
with, and agents of, the government engaged in an effort to do 
compliance reviews on existing high risk carriers and new entrant 
safety assessments on many more carriers than present capacity allows. 
It will improve the skills and knowledge of those in both federal and 
state government who now do compliance reviews. Why can't we improve 
upon existing standards for the compliance reviews and those who do 
them? I believe we can through a certification program.
    The use of properly certified third party safety specialists is the 
only practical means of providing enough human resources to implement a 
safety assessment program for new entrants and to significantly 
increase compliance review efforts for existing high risk carriers.
    In conclusion, CVSA supports a certification program to improve the 
system already in place and to add considerable resources to it. CVSA 
would welcome an opportunity to be a key player in this effort and to 
help develop a program as outlined by Senator Breaux to ensure that 
everyone who does compliance reviews has the same level of training. 
This would provide the Motor Carrier Safety Administration with a 
consistent quality of data for rating purposes. I believe CVSA can be a 
key player because of its track record in certification as demonstrated 
by its successful program of certifying state roadside truck and bus 
inspectors since 1981. I might point out that the DOT has endorsed and 
participated in CVSA's roadside certification program from the start.
    Again, we support S. 1501 as the best way to improve safety 
oversight in DOT and in the states, and offer these additional 
recommendations to help us all achieve the goal of reducing truck and 
bus crash fatalities.
    Thank you again for inviting me here today.

    Senator Hutchison. Thank you, Mr. Campbell.
    Ms. Claybrook, in addition to your role in Public Citizen, 
you were also a former Director of the National Highway Traffic 
Safety Administration I met you when I was Vice Chairman of 
NTSB. And we have had a long and good relationship, working on 
safety for our highways. So I appreciate your being here.

   STATEMENT OF JOAN CLAYBROOK, BOARD MEMBER, ADVOCATES FOR 
                    HIGHWAY AND AUTO SAFETY

    Ms. Claybrook. Thank you very much, Madam Chairman. It is a 
pleasure for me to be here. And we very much appreciate this 
committee taking up this issue. It is a serious one and one 
that needs attention, as this committee has made very clear.
    The number of deaths and injuries that are occurring--
Senator Snowe said, if this were happening in airlines, 200 
people every 2 weeks in airline crashes, dying, the Nation 
would be going crazy, the press would be outraged, and so would 
the Congress. And we believe that, if you look at the truck 
statistics, trucks are really 3 percent of registered vehicles, 
are involved annually in 9 percent of the fatal crashes and are 
responsible for 12 percent of all deaths. So they are very 
over-involved and we are extremely concerned about it.
    The failures of the Federal Highway Administration in its 
regulatory and enforcement activities have been documented 
extensively by the Inspector General, by the GAO, by the 
National Transportation Safety Board, and in congressional 
hearings. And I do not need to repeat them. I would like my 
entire testimony submitted for the record, which outlines some 
of them.
    Senator Hutchison. It will be.
    Ms. Claybrook. A new thing that we are mentioning today is 
the public opinion on this subject. A public opinion poll that 
was just recently conducted by Public Opinion Research and for 
the Consumer Federation of America has found that when asked 
whether the public would pay more--which is interesting--would 
they pay more for a good shipped by truck in exchange for truck 
safety improvements, 78 percent said yes, they would. That is 
really quite remarkable, in our view.
    Also motorists know that fatigued drivers behind the wheel 
are a hazard. Ninety-three percent of the public said that 
allowing truck drivers to drive longer hours is less safe. And 
80 percent said that longer hours are much less safe.
    I would point out, in the rulemaking proceeding that is now 
pending on hours of service, that Senator Snowe queried Mr. 
Wykle about, it is our understanding that the proposal that is 
about to come out would allow longer hours of driving. Right 
now it is a maximum of 10 hours of continuous driving, 2 hours 
more than most people work without overtime. But FHWA is going 
to propose 12 hours of continuous driving time. They would 
increase the number of rest hours, which is essential and 
critical. And we support that. But we are very concerned about 
longer hours of continuous driving.
    In addition, on the public opinion poll, 81 percent said 
they were in favor of installation of new technologies, such as 
driver warning systems and black boxes. One of the major 
recommendations of the National Transportation Safety Board for 
15 years has been the installation of black boxes in trucks, as 
they are in airplanes, so that you would be able to enforce the 
hours of service rules effectively by electronic means, and 
also you would get data when there are crashes. And we 
certainly support that.
    With regard to the legislation, we very much support the 
transfer of the in-service vehicle rulemaking to the National 
Highway Traffic Safety Administration. Generally, this 
rulemaking done by OMC is to make sure that the rules issued by 
the National Highway Traffic Safety Administration for new 
trucks are kept up to date on the trucks on the road. And so it 
is very much an extension of what the agency already does.
    Rarely does the Office of Motor Carriers require a retrofit 
of old trucks that have never had these devices on them. So it 
really is an extension of what NHTSA already does and so, for 
that reason particularly, we believe that this authority should 
be transferred and that is a provision in Senator McCain's 
bill, and we very much support it.
    In addition, the National Highway Traffic Safety 
Administration has been effective at issuing regulations, 
unlike the Office of Motor Carriers. It has the expertise and 
the technical capacity to do so. And we certainly also support 
another provision in the bill which would require data 
collection and analysis and research transferred to NHTSA, 
because that agency has a very effective data system and the 
Office of Motor Carriers never has. In fact, OMC has no 
reliable State-by-State information, even the most basic data 
categories, for commercial vehicle operations and commercial 
driver licenses.
    We also support another provision in the bill for the 
Inspector General recommendations to be implemented by the 
Secretary. We think that without these three provisions, this 
creation of a new administration would be an empty box. Because 
the failures of OMC have been so substantial that if it were 
simply transferred as it now is into a higher-level 
administration, it would mean nothing. It has to have these 
additional provisions in order to make sure that it operates 
effectively.
    We also endorse CVSA's proposal for a new entrants special 
program. We would suggest that be added to the bill. Our 
reasons are that our greatest number of problems always occur 
with new entrants, so we definitely support that.
    We also support what Ken Mead suggested, which is that 
enforcement without any action is no enforcement at all. You 
have to have sufficient penalties and action. We believe that 
the penalties should be increased. We would be happy to work 
with the committee on our suggestions with regard to that.
    We also are concerned about conflicts of interest. Under 
the current OMC, there are many conflicts of interest that are 
involved in the granting of money to the trucking industry to 
do research preparatory to doing a rulemaking to regulate the 
trucking industry, and we think that is very inappropriate. We 
would like to see the bill contain provisions on conflict of 
interest, both as to the research activities and also as to the 
leadership of this new agency, because, without that, we think 
that it will not have appropriate conflict of interest 
controls.
    And we have several other suggestions. I see my time is up. 
In conclusion, I would say that we would suggest that the 
responsibility in the Department of Transportation for NAFTA, 
which is now diverse and spread all over this agency, this 
Department, be centralized. I would urge the committee to 
address that here. Because the only way that you are going to 
have effective enforcement at the border and effective 
implementation of the requirements on transportation as to 
NAFTA is if there is one person that you know is responsible 
for this and you can go to, and we can go to, to make sure that 
the border is properly managed. Because today it is not.
    I guess the last point, if I could just take 1 second to 
say it, is this issue of a dual mandate. This committee changed 
the FAA so that it would not have both promotional and 
regulatory responsibilities for safety. And you were not here 
in the Senate, either one of you, but I worked in the Senate in 
1966 when this Office of Motor Carriers was transferred from 
the ICC to the Department of Transportation so that it was out 
of the industry promotion business and safety was the only 
requirement of the Department of Transportation for truck 
safety.
    We think it would be terrible to have it have a dual 
mandate. Again, we think that the Congress was wise in 1966. We 
hope that you will make that clear in this legislation.
    Thank you very much for the opportunity to testify.
    [The prepared statement of Ms. Claybrook follows:]

   Prepared Statement of Joan Claybrook, Board Member, Advocates for 
                        Highway and Auto Safety

    Senator Hutchison and members of the Surface Transportation 
Subcommittee, thank you for the opportunity to testify at this 
extremely important hearing. I am Joan Claybrook, Program Co-Chair of 
Advocates for Highway and Auto Safety and president of Public Citizen. 
Advocates is a national highway and motor vehicle safety organization 
that I am proud to have helped to start in 1989. We are a unique, non-
profit group that is composed of a wide range of consumer, health, 
safety, and law enforcement organizations, and insurance companies and 
representatives who are dedicated to the belief that carefully focused 
actions to improve safety policies and practices at both the federal 
and state levels will reduce motor vehicle crashes, deaths, and 
injuries.
    Advocates is celebrating its tenth anniversary this year. During 
the past ten years we have worked closely with the Senate Commerce, 
Science, and Transportation Committee on a wide range of issues 
affecting highway and auto safety. Because of this committee's 
leadership and the legislation that members and committee staff have 
proposed and persisted in championing through enactment, the American 
public is driving safer motor vehicles, the government is providing 
better consumer information about auto safety, and motor carrier safety 
has been enhanced because of your timely initiatives on commercial 
licensing, truck and bus anti-lock brakes, as well as commercial driver 
drug and alcohol testing. The leaders of this committee are continuing 
this tradition of advancing public health and safety with these 
hearings on motor carrier safety and through Chairman John McCain's 
recent introduction of S. 1501.
    Today's hearing and its subject could not be more timely or more 
pressing. Each year, thousands of Americans are needlessly losing their 
lives and suffering severe, often permanently disabling, injuries 
because of motor vehicle crashes involving large trucks. Sadly, the 
overall number of passenger vehicle deaths due to truck crashes has 
increased over the past seven years. In 1998, 4,212 occupants of 
passenger vehicles were killed in big truck crashes, an increase of 33 
deaths over the 4,189 who died in 1997. Just as important are the 
injuries sustained by passenger vehicle occupants: almost 100,000 each 
year according to the National Highway Traffic Safety Administration 
(NHTSA). Overall, in 1998, 5,374 people died in truck crashes (an 
average of more than 100 people a week) and 127,000 were injured. If 
400 people died every month in airline crashes, this Committee would be 
demanding the resignation of the Federal Aviation Administration (FAA) 
Administrator, holding emergency hearings condemning airline 
operations, and the newspapers would make it front page news. Why is it 
that truck crash deaths are considered routine, not a crisis?
    These figures are disturbing enough on their own. However, when 
they are viewed from other statistical perspectives, they become 
especially alarming and demand a response from all levels of 
government:

        <bullet> Large trucks are much more prone to be involved in 
        fatal multiple-vehicle crashes than passenger vehicles and 
        their rate of involvement in such collisions has grown in 1998 
        to 84 percent. When big trucks have crashes with passenger 
        vehicles, more than four out of five of these collisions result 
        in deaths.
        <bullet> Ninety-eight (98) percent of the people killed in 
        crashes involving a passenger vehicle and a large truck are 
        passenger vehicle occupants.
        <bullet> Although big trucks account for only 3 percent of 
        registered vehicles, they are involved in 9 percent of all 
        fatal crashes and in 12 percent of all passenger vehicle 
        deaths.
        <bullet> Even more startling is the fact that more than one out 
        of five (22 percent) of all passenger vehicle occupant deaths 
        on our roads and highways result from crashes with large 
        trucks.

    I do not think that these horrifying facts and figures from NHTSA 
and the Insurance Institute for Highway Safety are a coincidence. They 
are unacceptable and intolerable losses that have increased 
dramatically since the Federal Highway Administration's (FHWA) Office 
of Motor Carriers (now the Office of Motor Carrier and Highway Safety) 
took a nosedive in the quantity and quality of its key safety 
stewardship at the start of the 1990's. FHWA's regulatory and 
enforcement lapses over the past several years were amply documented in 
1997, 1998 and 1999 by devastating reports from the U.S. Department of 
Transportation (DOT) Office of the Inspector General (OIG), in 
oversight studies by the U.S. General Accounting Office (GAO), and 
through repeated criticism and calls to action issued by the National 
Transportation Safety Board (NTSB).
    I also want to stress here that these critical evaluations showing 
FHWA's failure to advance commercial motor vehicle safety are not 
confined to the safety problems of our domestic trucking operations, 
but extend to foreign operations as well. Indeed, the GAO published two 
reports, in 1996 and in 1997, showing the abysmal failure of the U.S. 
DOT to ensure the safety fitness of drivers and commercial motor 
vehicles crossing into the U.S. at our southern border. And FHWA has 
not provided the kind of comprehensive inspection of these motor 
carriers to catch the dangerous vehicles and drivers, and provide a 
deterrent to those south-of-the-border trucking businesses that are 
violating our safety regulations. Even today, three years later, if 
this border were open to all truck traffic, there is de minimis 
capacity to detect the unfit and dangerous trucks and drivers.
    Taken together, these crash facts and oversight reports make it 
crystal clear that major actions are needed quickly to stem this 
terrible tide of crashes, deaths, and injuries that cost our country 
dearly. Increasingly, the systemic defects of FHWA's administration of 
motor carrier safety have been revealed over the past several years, 
with a crescendo of failures documented in reports issued by several 
government organizations and in letters, testimony, and regulatory 
comments filed by safety groups and victims over the past year alone. I 
would like to submit for the record a chronology which includes all of 
the hearings, meetings, workshops, and plans proposed by the U.S. 
Department of Transportation to address this serious safety problem. 
(See attachment).These basic failures by FHWA of its statutory 
responsibilities demand rapid--but carefully crafted--legislative 
corrections enacted by Congress. And Congress must pass comprehensive 
commercial motor vehicle safety reform legislation before it adjourns 
this year. The American public cannot endure another year of horrific 
reports of fatal big truck and bus crashes, confirmed by recent 
government figures, that are portrayed almost daily on television and 
in the newspapers. The issue is too important to await more plans and 
reports detailing the failures of the federal motor carrier safety 
program or the release of new government figures confirming that the 
large number of truck-related deaths and injuries are a national 
disgrace. In fact, the public has recently weighed in on truck safety 
and the results are clear: the majority of Americans are very concerned 
about the safety of big trucks on our roads.
    Today, Advocates is releasing for the first time the results of 
three recent polling questions on truck safety. Two public opinion 
questions were contained in a survey conducted this summer by Opinion 
Research Corporation International, prepared for the Consumer 
Federation of America and Advocates. When asked whether they would pay 
more for goods shipped by trucks in exchange for truck safety 
improvements, 78% of the American public said they would be willing to 
pay more. This clearly shows that consumers see an obvious benefit in 
paying more for their goods when lives are at stake. On another truck 
safety issue, motorists know that fatigued truck drivers behind the 
wheel are a safety hazard on the road, and that the problem would only 
be worsened by allowing longer driving hours. An overwhelming 93% of 
the public said that allowing truck drivers to drive longer hours is 
less safe, and 80% of respondents said that driving longer hours is 
much less safe. Moreover, a large majority of the public--81%--said 
they would favor the installation of new technologies such as driver 
warning systems and black boxes in trucks to improve enforcement of 
motor carrier safety regulations, in a September, 1999 survey conducted 
by Lou Harris for Advocates. The American public continues to voice its 
concern on the issue of truck safety and now looks to the Congress and 
the Administration to make a real difference in saving lives.
    Let me first state that the best fundamental reform of motor 
carrier safety is to transfer all of the safety regulation and 
enforcement responsibilities currently housed in FHWA to NHTSA. The 
NHTSA track record of timely, carefully targeted safety regulation and 
its field office infrastructure complements its excellent data 
collection, analysis, and crash research capabilities. NHTSA can and 
will do the job. However, if a complete transfer of authority is not 
made to NHTSA, at a minimum some basic safety responsibilities need to 
be transferred to it, regardless of the final venue for core motor 
carrier functions currently administered by the Office of Motor Carrier 
and Highway Safety (OMCHS). At the top of the list is the duty for 
issuing regulations addressing the motor vehicle standards, 
maintenance, and safety performance of key components and equipment of 
commercial motor vehicles already in service. We simply can no longer 
tolerate FHWA's shortsighted regulatory actions to delay or avoid 
requiring important safety improvements for trucks and buses already on 
the road. That is why we strongly support the provision (Section 2) in 
S. 1501 that transfers to NHTSA the regulation of the safety equipment 
on existing trucks, trailers, and buses.
    Even when FHWA finally gets around to extending the new vehicle 
regulations issued by NHTSA for in-service trucks and buses, it usually 
applies these safety rules only to a small portion of the existing 
fleet, by limiting its regulations to the maintenance of safety 
equipment on these vehicles required by NHTSA in standards for newly-
manufactured commercial vehicles. This approach, however, avoids 
correcting widespread safety deficiencies for most of the existing 
fleet, especially for trailers which can have service lives as long as 
20 years. For example, when FHWA published its final rule just several 
weeks ago requiring carriers to maintain rear underride guards on 
trailers to prevent these lethal crashes by small vehicles, the agency 
only made the rule prospective in application from 1996 onward, the 
effective date for NHTSA's standard for newly-manufactured vehicles. 
This ensures that the overwhelming majority of trailers on the road 
still fitted with the dangerous, obsolete Interstate Commerce 
Commission type of rear trailer guard required in 1953 will not be 
removed and upgraded to the current NHTSA standard. For many years to 
come, these inadequate, and even lethal, trailer guards will continue 
to threaten the lives of all the motorists who are unlucky enough to 
run into the back of a tractor-trailer.
    Another example involves improved heavy truck conspicuity, where 
FHWA issued a final rule for combination truck trailers manufactured 
before a NHTSA regulatory compliance date. The rulemaking took nearly 
six years and was a sham safety decision for trailers already on the 
road. In essence, FHWA essentially grandfathered trailers produced 
before the NHTSA compliance date by giving carriers up to 10 years to 
comply if they already had other, non-conforming retroreflective 
treatment of the sides and rear ends of trailers. This means that most 
of these trailers will reach the end of their useful service lives 
without being retrofitted to NHTSA specifications. In the meantime, 
FHWA has undermined the benefits of the NHTSA regulation by allowing 
thousands of existing trailers with non-complying reflective markings, 
even with colors such as blue and green, to continue to operate. 
Improving trailer visibility for motorists by requiring uniform 
markings is an inexpensive fix for a dangerous and costly problem, and 
importantly, reduces the chances of drivers of small passenger vehicles 
running into the back ends of trailers. Nevertheless, FHWA found a way 
for motor carriers to avoid ever having to comply with the rule.
    These examples show why Congress must enact the provision in S. 
1501 to transfer important safety regulatory powers to NHTSA so that 
timely, compatible policy decisions can be made by a single agency 
coordinating its new vehicle safety standards with standards to 
maintain and improve the safety performance of on-the-road trucks and 
buses.
    In order to give full effect to Section 2 of S. 1501, and transfer 
regulatory authority over retrofit and maintenance of in-service 
commercial motor vehicles to NHTSA, Congress will also need to amend 
another law. Section 104(c)(2) of Title 49 United States Code, requires 
the FHWA Administrator to carry out duties and powers under Chapter 315 
of Title 49, which includes the authority to prescribe requirements for 
the safety of operation and equipment of motor carriers. Enactment of 
Section 2 of S.1501, without a corresponding amendment to Section 104, 
may create dual jurisdiction in both NHTSA and FHWA over these 
regulatory issues, a situation that will not lead to regulatory 
efficiency or improve safety. In addition, Section 104(d) prevents the 
Secretary of Transportation from transferring this authority from the 
FHWA Administrator. To clarify this situation, S. 1501 should include a 
technical amendment that deletes the reference to Chapter 315 now 
contained in Section 104(c)(2).
    Similarly, we strongly support the provision in S. 1501 (Section 6) 
that transfers data collection, analysis, and administration of motor 
carrier reporting systems to NHTSA. The U.S. DOT OIG's April 1999 
report stressed FHWA's poor data and data collection. Even in its 
recent rulemaking proposal to revamp the Motor Carrier Safety 
Assistance Program (MCSAP), FHWA itself admitted that it has no 
reliable State-by-State information on even the most basic data 
categories for commercial vehicle operations or commercial driver 
licenses. In addition, FHWA has repeatedly repudiated even the need for 
doing careful crash causation studies, including its public statements 
to that effect at a major NTSB hearing just this past March. FHWA does 
not know why or how many truck crashes happen. Moving the 
administration and evaluation of truck safety data, including crash 
causation analysis, to NHTSA is a baseline requirement of motor carrier 
safety reform. It is crucially important for Section 5 of S. 1501 to be 
made the law of the land.
    Another central feature of agency reform contained in S. 1501 is 
the provision in Section 4 directing the Secretary to implement the 
safety improvement recommendations in the OIG's April 26, 1999, report 
(TR-1999-091). This provision is critical to the success of this 
legislation because it is the only provision in the bill addressing the 
safety inspection and compliance review responsibilities of motor 
carrier oversight. A complete and detailed fulfillment of the OIG 
findings and recommendations--appropriately strengthened by the OIG's 
March 1997 report, as well as by GAO reports on safety in both domestic 
and cross-border commercial traffic, and by recent NTSB reports and 
hearing findings on truck and bus safety--is pivotally important to the 
establishment of a vigorous safety inspection and compliance review 
system. A new, independent motor carrier agency is simply a bankrupt 
idea unless it is accompanied by a renewed motor carrier enforcement 
mission that addresses the enormous backlog of unrated carriers and 
inadequate roadside and border inspections. Advocates strongly supports 
the purposes of Section 4, which is central to the success of S. 1501 
in reforming the federal administration of motor carrier safety.
    There are two more features of the bill that we believe are forward 
looking and will ensure improved commercial vehicle safety on a 
national scale. First are the strong provisions mandating further 
strengthening of the successful Commercial Driver License (CDL) program 
by closing the last loopholes in the system and increasing the 
penalties for violations, as well as setting penalties for infractions 
overlooked in FHWA's regulations. Section 5 is particularly strong in 
its no-nonsense message to the states to administer its CDL programs to 
the highest standards. In particular, we support the decertification 
authority provided the Secretary to suspend a State's authority to 
issue commercial licenses until it complies with all of its 
responsibilities under federal safety regulations for the program. 
Although other, financial penalties suspending and reallocating federal 
funds can have significant deterrent effects, the legislated authority 
to issue a decertification order is a powerful incentive to the States 
in foreseeing and curbing abuses, particularly in view of the 
misadministration of this program in some states.
    Second, we also strongly support the rulemaking action of Section 5 
to integrate the federal medical certificate confirming driver 
qualification under the physical fitness standards of the Federal Motor 
Carrier Safety Regulations with the CDL in each State. If States issue 
renewed medical certificates on the same cycle as their CDLs, this will 
correct the abuse of drivers failing a medical examination but 
continuing to drive because their licenses have not yet come up for 
renewal.
    The allied provision, mirroring FAA requirements, for a national 
registry of medical providers, will substantially improve the fail-safe 
approach to CDLs and physical qualification by ensuring a pool of 
health care providers with demonstrated knowledge about the special 
medical standards which apply to new CDL applicants and current license 
holders. A few years ago, there was a strong majority among the members 
of an FHWA negotiated rulemaking committee supporting such a national 
registry, including motor carrier industry representatives, health care 
providers, and Advocates. There are just too many documented cases, 
corroborated by FHWA and the States, of drivers being certified by 
health care providers who are unaware of the higher medical standards 
that a driver must pass to become or remain eligible to operate a 
commercial motor vehicle in interstate commerce. Controlling the 
quality of the physical requirements required for operating a 
commercial vehicle in interstate commerce is long overdue because it 
will enhance the protection of the traveling public.
    The provisions of S. 1501 which I have just reviewed are its great 
strengths and I believe they will go a long way toward reforming motor 
carrier safety. However, we believe there are other provisions, if 
incorporated in S. 1501, would advance safety even further. Let me 
review these briefly.

        <bullet> Compliance Reviews, Safety Ratings, and Roadside 
        Inspections.

    In a September 13, 1999, interview with Transport Topics, published 
by the American Trucking Associations, a senior OMCHS official stated 
that the number of federal motor carrier compliance reviews would 
increase until they reach the 1992 average of more than 9,000 per year 
(roughly 770 per month). When that 1992 level is reached, OMCHS would 
take a look at safety and ``see if we can ease off a bit.''
    However, reducing the number of compliance reviews is the last 
thing that we need. This agency official failed to acknowledge that 
there are almost twice as many registered motor carriers today as there 
were in 1992: nearly 478,000 interstate motor carriers, according to 
FHWA figures. The OIG's April 1999 report stated that FHWA has 
performed 30 percent fewer compliance reviews since 1995 while there 
has been a 36 percent increase in the number of registered interstate 
motor carriers in only four years. In fact, in March 1998, the agency 
even failed to perform compliance reviews on 248 (or 15 percent) of the 
high-risk carriers recommended for such a review.
    Given FHWA's indifferent attitude toward its oversight and 
enforcement mission, we believe that Congress needs to set a firm goal, 
perhaps even a specific number, for the agency's completion of motor 
carrier safety reviews. Without specific legislated targets, we are not 
confident that government regulators will ever overcome the enormous 
backlog of unreviewed carriers and carriers that are either unrated or 
bearing out-of-date ratings.

        <bullet> New Motor Carriers.

    Looking forward, we also recommend that the bill contain a 
provision requiring the Secretary to conduct rulemaking to establish a 
new motor carrier entrant proficiency examination. If the backlog of 
unreviewed and unrated carriers seems daunting, we need to avoid adding 
to it by allowing new applicants for interstate operating authority to 
begin operations simply by paying a fee and showing proof of insurance. 
FHWA records show that carriers early in their business lives are more 
prone to rack up violations, often in large part because their owners 
simply do not know the federal regulations that govern their interstate 
operations. This safety problem can be avoided by requiring applicant 
carriers to pass a federally prescribed proficiency test demonstrating 
their understanding of the Federal Motor Carrier Safety Regulations. 
Within a year of gaining operating authority, these new carriers should 
undergo a compliance review that either confirms or changes their 
initial safety rating.

        <bullet> Minimum Penalties for Federal Violations.

    It is high time to stop the widespread federal practice of 
routinely either forgiving any monetary sanctions for safety regulation 
violations or reducing them to nominal sums so that carriers, when 
fined, simply regard the fines as incidental costs of doing business. 
The April 1999 OIG report underscored the chronic problem of federal 
enforcement officials looking the other way when stiff fines are called 
for. In response, the OIG called for legislation to raise the statutory 
penalty ceilings.
    While we support this recommendation wholeheartedly, Advocates 
believes that the first order of business is to establish a floor for 
the minimum amounts that can be assigned for violations. We believe 
that a figure equal to one-half the maximum amounts listed in the 
Federal Motor Carrier Safety Regulations as the minimum permitted by 
law is a good benchmark. Curtailing regulators' discretion to forgive 
all fines or make them just a ``slap on the wrist'' will make motor 
carriers understand that safety violations can have serious financial 
consequences. We also suggest the committee adopt a strong provision in 
H.R. 2679, Section (b)(2), inserted at the request of Rep. James 
Oberstar (D-WI), that mandates agency imposition of the maximum civil 
penalties when enforcement officials find that a motor carrier has 
twice committed the same or related violations. Advocates supports this 
``get-tough'' approach, which clearly will deter repeated violations 
and urges the committee to include a similar provision in S. 1501. We 
also support routine updating of the schedule of penalties in 49 Code 
of Federal Regulations to keep pace with the Consumer Price Index.

        <bullet> Conflicts of Interest.

    It is imperative that Congress imposes effective controls on the 
abuses involving FHWA's provision of federal funds to the trucking 
industry and its affiliates to conduct sensitive motor carrier safety 
research which directly affects prospective regulatory actions and 
policy choices of the agency. This is nothing more than the regulated 
industry producing studies to serve as the basis for the FHWA 
regulations governing the industry. It is using taxpayer dollars to pay 
the fox to dwell in the chicken coop. Right now, there are several 
research efforts underway, including investigations directly affecting 
commercial driver hours of service rules, being conducted by an arm of 
the trucking industry. Recent studies costing millions of dollars and 
taking several years, such as the Driver Fatigue and Alertness Study 
conducted in part by the Trucking Research Institute of the American 
Trucking Associations, have prejudiced major rulemaking initiatives. 
Despite the numerous flaws in this and other research studies, FHWA 
most inappropriately continues to rely on them as a basis for its 
regulatory and other policy decisions. In three separate NTSB hearings 
held this year on motor carrier safety and technology, Chairman Jim 
Hall decried the prejudiced research conducted with the trucking 
industry concerning whether on-board recorders are needed to show 
commercial driver compliance with hours of service regulations.
    This is a practice which NHTSA would never condone or engage in. 
Having vehicle manufacturers federally contracted and paid with 
taxpayer money to conduct research bearing directly on forthcoming 
regulations affecting the industry's safety standards is simply 
inconceivable. Yet this is exactly the practice consistently pursued by 
FHWA with study after study carried out by the trucking industry at a 
cost of millions and millions of taxpayer dollars directly impacting 
federal motor carrier safety standards. In a word, this practice must 
be stopped. A large part of the intransigent attitude of FHWA toward 
vigorous federal safety regulation is due directly to the research 
findings it relies on being produced by the regulated industry. If 
Congress wants to achieve significant changes in the way motor carrier 
safety standards are finally adopted, it must eliminate the conflict-
of-interest problem in motor carrier safety research and regulation.
    This pervasive, chronic problem of prejudiced research contracts 
provides important instruction on controlling any future federal 
appointments to high-level administrative positions regarding motor 
carrier safety. Congress also needs to enact strong conflict of 
interest provisions to ensure that any agency officials overseeing 
motor carrier regulation and enforcement have unimpeachable 
credentials. Employment in the motor carrier industry or strong 
financial ties to the industry through repeated contracted work, for 
example, should immediately disqualify any prospective candidate for an 
appointed position. If Congress creates a new, separate motor carrier 
agency and does not address these two major conflict-of-interest issues 
of agency research and agency leadership, public confidence in the 
impartiality of the policy decisions of a separate motor carrier agency 
will be undermined from the start and, more importantly, a new era of 
motor carrier safety will not occur.

        <bullet> State and Federal Motor Carrier Law and Regulation.

    According to the NTSB, perhaps one-half of the deaths from big 
truck crashes each year involve intrastate-only motor carriers. Because 
of the Tolerance Guidelines adopted by FHWA (49 CFR Pt. 350, App. C) as 
a result of the 1991 amendments to the Motor Carrier Safety Act, many 
states' rules significantly differed from the Federal Motor Carrier 
Safety Regulations for intrastate-only commercial vehicle operations. 
For example, medical standards in many states are lower for in-state 
CDLs. Also, a number of states have more liberal hours-of-service rules 
than the Federal requirements, such as permitting drivers to operate 
trucks and buses for up to 12 continuous hours instead of 10 hours, the 
interstate limit. In some instances, statewide operations in larger 
states allowing longer driving hours result in longer trips and more 
annual vehicle-miles-traveled than some regional interstate carriers 
accrue in their operations traversing two or three northeastern states.
    Congress has made it clear in successive hazardous materials 
transportation reauthorization acts that it expects the U.S. Department 
of Transportation to conform intrastate hazardous materials truck 
transport to the Federal Hazardous Materials Regulations issued by the 
Research and Special Programs Administration (RSPA). In fact, RSPA just 
this past year adopted new regulations requiring hazmat truck movements 
to comply with the Federal safety rules, save for a few exceptions 
carefully crafted to reduce burdens on farmers and small businesses 
using small quantities of materials of trade.
    If it is important to reduce risks to public safety from all hazmat 
incidents on our highways, we think Congress should take a careful look 
at reducing the public's exposure to the increased risks of crashes 
resulting from intrastate safety regulations which often are not as 
stringent as the Federal Motor Carrier Safety Regulations. Let me 
emphasize again that in small vehicle-big truck fatal crashes, 98 
percent of the deaths are suffered by the occupants of the passenger 
vehicles. This means that more than 2,000 fatalities may result from 
truck-car crashes with intrastate-only motor carriers. We strongly 
encourage Congress to adopt a provision directing the Secretary to 
conduct public rulemaking on whether the deviations by the States from 
federal interstate safety standards pose a safety threat that should be 
eliminated.

        <bullet> Commercial Driver License.

    Another important safety area which needs legislative attention in 
this bill is the extension of the CDL to drivers of commercial vehicles 
in interstate commerce between 10,001 and 26,000 pounds gross vehicle 
weight. S. 1501 pays close attention to refining the CDL system, but 
these changes, if enacted, will increase the already considerable 
differences between the CDL program and the requirements and penalties 
applying to drivers of big trucks below 26,000 pounds.
    When Congress enacted the CDL program in 1986, part of the reason 
for confining CDLs to for-hire carriers of passengers and to private 
and for-hire freight carriers above 26,000 pounds was simply the burden 
involved in asking the States to implement across-the-board CDL systems 
for all commercial vehicles weighing 10,001 pounds or more. Also, in 
that era, single-unit trucks in the 10,000-26,000 pounds commercial 
vehicle segment were responsible for a smaller portion of the annual 
crash deaths and injuries compared with trucks more than 26,000 pounds.
    In recent years, however, single-unit trucks in the lower weight 
range have contributed disproportionately to the annual truck crash 
death toll. In fact, fatality figures for 1997 and 1998 show that 
nearly one-third of all deaths in large truck crashes involve single-
unit trucks. Many of these trucks are in interstate commerce, 
especially on a regional service basis, yet the disparity of the 
licensing approaches used by many States between their CDL requirements 
and non-CDL licenses for commercial vehicles in the lower weight range 
are even more glaring when compared with pending proposals to further 
strengthen the CDL system.
    For example, many states do not even issue a special truck license 
for drivers of single-unit trucks in the lower weight range or require 
these drivers to meet special safety standards. Apart from the medical 
qualification under federal regulations, the States do not have to 
require drivers of trucks between 10,000 and 26,000 pounds to take 
specific knowledge and skills tests. Furthermore, even though federal 
regulations prohibit any driver of any commercial motor vehicle in 
interstate commerce from having more than one driver license, only the 
CDL program for vehicles more than 26,000 pounds contains the 
safeguards for preventing multiple license acquisition. And, last, the 
real paradox is that the weight range division between trucks above and 
below the 26,000 pound threshold is essentially arbitrary. This 
arbitrary division has been made even more acute by FHWA's recent 
amendment to the federal regulations which now makes actual on-the-road 
weight--and not the weight rating assigned by a vehicle manufacturer--
the basis for whether a vehicle is or is not to be regarded as a 
commercial motor vehicle subject to the Federal Motor Vehicle Safety 
Standards.
    The bottom line is that there are hundreds of thousands of single-
unit trucks on the road right now that are more than 26,000 pounds 
whose drivers must have CDLs. But there are hundreds of thousands of 
single-unit trucks which fall below 26,000 pounds, sometimes only by 
small margins, whose drivers do not have to meet any of the standards 
or suffer the same penalties for federal violations prescribed for CDL 
holders.
    This simply makes no sense. Given the disproportionate rise in 
single-unit truck-related crash deaths over the past several years, 
Congress needs to consider extending the CDL requirements below 26,000 
pounds for commercial drivers in interstate commerce. If the rules for 
a CDL are going to be tightened, the safety payoff of stronger 
standards for commercial drivers of vehicles between 10,000 and 26,000 
pounds also need to be addressed. The best way, now that we all have 
seen the tremendous benefits of the CDL, is simply to extend the CDL 
program throughout the entire range of interstate commercial drivers.

        <bullet> North American Free Trade Agreement Truck Safety.

    Advocates continues to be very disturbed about the lack of 
concerted effort by the Department of Transportation to deal with the 
serious, pervasive foreign motor carrier safety violations occurring 
especially at our southern border. One of the problems in dealing with 
this in an effective and timely manner appears to be a lack of focused 
resources and personnel in the Department to put a well-crafted border 
safety plan into operation. There are several offices and individuals 
spread among the modal administrations and in the Secretary's office 
which have been assigned duties to improve border safety, including 
customs interdiction, criminal law enforcement, and motor carrier 
safety inspection. Congress should take a hard look at whether a 
single, focused resource--perhaps a single office--in one location 
should be created in the Department and charged specifically with the 
sole responsibility of taking actions to rapidly improve commercial 
vehicle safety at our borders. Right now, it seems as if almost 
everybody is responsible for some aspect of commercial motor vehicle 
border safety which, in the end, means that there really is no one 
whose sole job is to ensure quick improvement of border safety 
inspections. We believe that Congress should consider directing the 
Secretary to collect the expertise and resources spread throughout the 
Department dealing with border safety and house them in a single 
office, give them targeted goals to achieve in a time certain, and hold 
them accountable when those goals are not met. Without this, the same 
diffuse, indeterminate response to commercial vehicle safety violations 
at our southern border seems certain to continue.

        <bullet> Dual Mandate for Federal Motor Carrier Regulation and 
        Enforcement.

    Even strong provisions in final legislation mandating comprehensive 
motor carrier safety reforms can be undermined if a ``dual mandate'' is 
established by law. By a ``dual mandate'' I mean legal permission for 
or direction to a new federal motor carrier safety agency to place 
safety policies and actions in the scales and weigh them against the 
productivity or economic interests of the industry. This kind of dual 
role blunts the possibility of federal safety regulators choosing 
policies which maximize safety improvements. I cannot emphasize enough 
how important it is in legislating any new approach to federal motor 
carrier oversight to avoid underwriting this destructive approach to 
safety stewardship and, instead, to ensure that the sole mission of 
federal motor carrier oversight is safety enhancement. This is the 
reason the Bureau of Motor Carrier Safety (now OMC) was removed from 
the Interstate Commerce Commission (ICC) in 1966 and placed in the U.S. 
Department of Transportation.

        <bullet> Findings and Purposes.

    I would also like to support the addition of a strong preliminary 
section for S. 1501 stressing both general and specific actions that 
need to be taken by a reinvigorated federal motor carrier safety agency 
to achieve big reductions in truck and bus crashes, deaths, and 
injuries. The kind of legislative direction provided in a well-crafted 
findings and purposes section can have a substantial, positive impact 
on agency behavior. For example, the most recent hazardous materials 
reauthorization act contained strong, directive language for guiding 
the regulatory initiatives of the Research and Special Programs 
Administration, particularly in conforming intrastate hazardous 
materials surface transportation more closely with the requirements of 
the Federal Hazardous Materials Regulations.
    Section 2 of H.R. 2679 contains exactly the kind of legislated 
guideposts for agency observance which produce much more impact on and 
control over subsequent strategic planning, problem identification, and 
policy choices than stating the same ideas in accompanying report 
language. Advocates endorses adoption of Section 2 as the preface for 
S. 1501 because it epitomizes the basic failures of federal motor 
carrier safety oversight and sets forth the central issues that need 
primary attention by federal safety regulators. In this regard, Section 
2 is very similar to important findings and purposes sections that have 
introduced the pivotally important Motor Carrier Safety Acts enacted in 
the 1980s.
    That completes my testimony. I again want to express my deep thanks 
that this committee has confronted the serious problem of commercial 
motor vehicle safety head-on in this session. We support your efforts 
and we support your bill. I hope that the modest but essential 
suggestions I have made today can make your strong bill even better. 
Advocates believes that these issues, which literally are matters of 
life and death, cannot be deferred to another session of Congress. We 
need a bill enacted now. I am pleased to answer any questions you may 
have about my testimony.

                    A Year of Discussion and Debate
                     Time for Decisions and Actions

In June, 1998, Rep. Frank Wolf (R-VA), Chair of the House 
Appropriations Subcommittee on Transportation, proposed moving the 
Office of Motor Carriers (OMC) from the Federal Highway Administration 
(FHWA) to the National Highway Traffic Safety Administration (NHTSA) in 
the FY 1999 Department of Transportation (DOT) Appropriations bill. 
This proposal was strongly endorsed by more than 40 consumer, health, 
safety, victims, medical and insurance organizations because of the 
failed performance of OMC in stemming the rise in truck-related deaths 
and injuries, the unprecedented drop in truck inspections and 
compliance reviews, the abysmal record of ignoring serious safety 
violations and levying inadequate fines, OMC's insufficient or 
nonexistent data collection systems, and the failure to issue federal 
safety standards including those mandated by Congress.

In the past year there have been:

        <bullet> Two critical DOT Inspector General reports and a 
        General Accounting Office (GAO) report documenting OMC 
        failures;
        <bullet> A half dozen major Congressional hearings, involving 
        more than 50 witnesses from government, industry, law 
        enforcement, labor, insurance, health and safety organizations;
        <bullet> A three-day investigation of motor carrier safety 
        programs by the National Transportation Safety Board (NTSB) 
        involving more than 80 participants;
        <bullet> Two plans offered up by the DOT;
        <bullet> A 90-day review of OMC and consultations with more 
        than 25 groups at the request of Secretary Slater, resulting in 
        a plan recommended by former Rep. Norm Mineta;
        <bullet> Countless discussions and meetings among the various 
        stakeholders convened by Rep. Wolf, former Rep. Mineta, and 
        NTSB;
        <bullet> Two workshops held by DOT in the summer of 1999.

    The following chronology demonstrates that there has been plenty of 
debate and discussion about proposals and now it's time for decision-
making and actions.
    June, 1998: Rep. Frank Wolf includes a provision in the FY 1999 DOT 
spending bill to transfer OMC to NHTSA.
    October, 1998: Trucking interests succeed in stripping the transfer 
provision from the FY 1999 DOT spending bill.
    January 14, 1999: U.S. DOT Inspector General investigation reveals 
that senior OMC staff improperly worked with trucking interests to 
lobby Congress against the transfer and that the actions of some senior 
staff of OMC foster at a minimum an appearance that OMC does not have 
the ``arms length'' relationship called for between government safety 
regulators and the industry.
    February 2, 1999: Rep. Wolf introduces HR 507, legislation to 
transfer OMC to NHTSA.
    February, 1999-April, 1999: Rep. Wolf convenes a series of meetings 
involving DOT, trucking interests, law enforcement and safety groups on 
strategies to improve motor carrier safety programs.
    February 11, 1999: The House Transportation and Infrastructure 
Committee holds the first in a series of hearings on the OMC with three 
witnesses from DOT.
    February, 1999: Former Rep. Mineta is requested by Secretary Slater 
to undertake an independent review of motor carrier safety, functions 
and operations within DOT.
    February 23, 1999: The House Appropriations Subcommittee on 
Transportation holds hearings on motor carrier safety with 16 witnesses 
representing government, victims, safety, insurance and trucking 
interests. The General Accounting Office (GAO) testifies that OMC 
activities to reduce fatalities are likely to have ``little short-term 
effect'', and that projected increases in truck traffic are likely to 
result in more than 6,000 truck related fatalities in the year 2000.
    March 12, 1999: The first motor carrier safety plan is proposed by 
OMC with the issuance of a draft ``Safety Action Plan'' covering 1999-
2003.
    March 17, 1999: The House Transportation and Infrastructure 
Committee holds a second oversight hearing on motor carrier safety 
programs.
    March 25-26, 1999: The House Transportation and Infrastructure 
Committee holds additional hearings on motor carrier safety programs.
    April 14-16, 1999: The National Transportation Safety Board (NTSB) 
holds three days of hearings on truck and bus safety involving more 
than 80 experts, including OMC staff, industry representatives, 
victims, insurance and safety groups highlighting serious deficiencies 
in OMC's data collection, inspections, research and regulatory 
programs.
    April 26, 1999: A second report is issued by the U.S. DOT Office of 
Inspector General at the request of the Congress to determine the 
effectiveness of OMC safety programs. The major conclusions are that 
OMC programs are not sufficiently effective and enforcement activities 
do not adequately deter noncompliance.
    April 27, 1999: The Senate Commerce, Science, and Transportation 
Committee holds oversight hearings on motor carrier safety and hears 
testimony from eight witnesses on the necessary steps to improve 
safety.
    May 25, 1999: A second plan of action is announced by Sec. Slater 
and Administrator Ken Wykle to improve motor carrier safety. The 
announcement includes a goal of achieving a 50% reduction in truck 
crash fatalities over the next ten years and outlines key components of 
a safety plan.
    May 26, 1999: At the request of DOT, another plan of action is 
unveiled by former Rep. Norm Mineta including the results of his review 
of the OMC and details about specific actions, strategies and 
recommendations to the U.S. DOT for reducing truck related deaths and 
injuries. Rep. Mineta's efforts involved three roundtable discussions 
with 14 different stakeholder groups and meetings with 11 other 
individuals and groups. DOT also reveals in testimony before the House 
Transportation and Infrastructure Committee that the final truck 
fatality figure for 1997 is 5,398, an increase of 43 deaths from 
preliminary FARS fatalities indicating 5,355 deaths.
    May 27, 1999: DOT announces ``preliminary data'' on 1998 motor 
vehicle fatalities and injuries. Fatalities associated with large 
trucks dropped only 1.8%, from 5,398 in 1997 to an estimated 5,302 in 
1998. However, injuries associated with large trucks jumped by 6% (from 
133,000 in 1997 to 141,000 in 1998).
    June 23, 1999: The House adopts HR 2084, the FY 2000 DOT 
Appropriations bill including a provision which prohibits funding of 
OMC activities, including a $70 million increase, unless it is 
transferred from FHWA.
    July 14-15 and August 3-4, 1999: DOT holds workshops on the future 
of the Commercial Motor Vehicle Industry to design long-term strategies 
for DOT, industry, labor and others on ``dramatically increasing safety 
in the trucking industry''.
    August 3, 1999: House Transportation and Infrastructure Chair, 
Ranking Democrat and other senior members hold a press conference to 
introduce the Motor Carrier Safety Act of 1999. The bill creates a new 
separate modal administration, the National Motor Carrier 
Administration. Safety groups object to provision giving new agency a 
dual mandate of safety and industry promotion. Provision is dropped. 
Rep. Shuster (R-PA) introduces by request HR 2682, the Administration's 
proposal to reform motor carrier safety.
    August 4, 1999: The House Transportation and Infrastructure 
Subcommittee on Ground Transportation marks-up HR 2679, the Motor 
Carrier Safety Act of 1999.
    August 5, 1999: Senator John McCain (R-AZ), Chair, Senate Commerce, 
Science, and Transportation Committee, introduces S 1501, the Motor 
Carrier Safety Improvement Act of 1999. The bill creates a new separate 
modal administration, the Motor Carrier Safety Administration, requires 
OMC to implement the recommendations of the U.S. DOT Inspector General 
and gives NHTSA responsibility for data collection and issuing retrofit 
safety rules for commercial motor vehicles on the road. The House 
Transportation and Infrastructure full committee marks-up and reports 
out HR 2679. Senator Frank Lautenberg (D-NJ) introduces S 1559, the 
Administration's proposal to reform motor carrier safety.
    September 29, 1999: The Senate Commerce, Science, and 
Transportation Subcommittee on Surface Transportation and Merchant 
Marine, holds a hearing on S. 1501, the Motor Carrier Safety 
Improvement Act of 1999.

    Senator Hutchison. Thank you.
    I do want to pursue at some point the agencies coming 
together for border control. Because I see it just in Customs 
and Border Patrol and not having enough coordination there. And 
of course, inspections by Customs are a very important 
component of safety. So I do think more coordination and a 
bigger picture on the border would be very helpful.
    I would like to call on Mr. Ken Bryant, representing the 
International Brotherhood of Teamsters, a member of the 
Teamsters Local 745 in Dallas, and just say that I have worked 
with the Teamsters on truck safety issues for over 8 years now, 
and I appreciate that effort that they have made and the focus 
they have put on truck safety. It has been a very important 
component of our deliberations on this bill. I welcome you.

         STATEMENT OF KEN BRYANT, TEAMSTERS LOCAL 745, 
          DALLAS, TEXAS, INTERNATIONAL BROTHERHOOD OF 
                           TEAMSTERS

    Mr. Bryant. Thank you, Madam Chair.
    Madam Chair and members of the Subcommittee, I am Ken 
Bryant, Business Agent for Teamsters Local 745, which is 
located in Dallas, Texas. I have been employed as a truck 
driver for 20 years, the last 11 as a Teamster. It is within 
the last 2 years that I have joined the administrative staff of 
Local 745.
    I am pleased to appear today before this subcommittee, and 
especially my home State Senator, on behalf of 1.4 million 
members of the Teamsters Union and the hundreds of thousands of 
our members who literally make their living on our Nation's 
highways.
    The Teamsters Union has taken a serious interest in the 
work that Congress, and in particular this Subcommittee, has 
undertaken to address the problems that have been identified in 
recent months at the Office of Motor Carriers and Highway 
Safety. Now, as this Subcommittee moves forward with hearings 
concerning the legislation that Senator McCain introduced, S. 
1501, the Motor Carrier Safety Improvement Act of 1999, we are 
pleased to have the opportunity to share our views on this 
legislation.
    In general, we believe that S. 1501 will go a long way 
toward strengthening motor carrier safety. The bill emphasizes 
better enforcement of current regulations, calls for increased 
inspections, compliance reviews, makes significant improvements 
to the commercial driver's license program and data collection 
activities, and addresses other weaknesses in the OMC's motor 
carrier safety program through structural reforms.
    The Teamsters Union now believes that the right approach to 
improving motor carrier safety is the establishment of a 
separate administration. Senator McCain's bill would create 
that new administration which, in our view, is appropriately 
named the Motor Carrier Safety Administration. We believe that 
safety must be the primary mission of this agency. It is 
certainly logical to emphasize ``safety'' in its title.
    We also support other provisions in the bill. These include 
ensuring the new administrator be appointed by the President, 
requiring the Secretary of Transportation to implement the 
safety improvement recommendations in the Inspector General's 
April 26th audit report, and establishing a commercial motor 
carrier advisory committee.
    In our written testimony, we have suggested additional ways 
that motor carrier safety can be improved through this 
legislation but, due to time constraints, my comments today 
will focus on one issue that is a great concern to the 
Teamsters Union. That is the issue of NAFTA cross-border 
trucking.
    Madam Chair, in order to improve motor carrier safety, we 
must not ignore the possibility of the pending invasion of 
unsafe and unqualified drivers coming across our border from 
Mexico under the NAFTA cross-border trucking provisions. While 
we would assume that increased funding levels in S. 1501 would 
filter down to the border States and bolster a rather 
lackluster inspection and enforcement regime, there is no 
certainty of that occurring, especially with the recent track 
record of the OMC.
    Neither can one simply throw additional money at a problem 
and expect a solution. While Congress should not micromanage a 
Federal department or agency, there are a number of directives 
that a new agency can be given to help ensure that it addresses 
the most serious threat to the future safety of our highways--
that of unsafe Mexican trucks and unqualified drivers undoing 
whatever gains the Congress intends to make with the creation 
of the new agency.
    One such directive is contained in H.R. 2679, the House 
Transportation and Infrastructure Committee's version of the 
Motor Carrier Safety Act of 1999, which calls on the Secretary 
of Transportation to develop and implement appropriate staffing 
standards for Federal and State motor carrier safety inspectors 
in the international border areas. Developing standards, volume 
of traffic, hours of operation of the border facilities, types 
of commercial vehicles and cargo, and delineation of 
responsibility between Federal and State inspectors would be 
some of the issues to be considered.
    This goes directly to the findings of the I.G. report, 
which noted that Mexican trucks entering the U.S. through 
Arizona, New Mexico and Texas are unlikely to be inspected, 
because those States' border crossings do not have sufficient 
inspectors on duty during all commercial operating hours, and 
some border crossings do not have any inspectors assigned. The 
report concluded that the placement of adequate inspection 
resources at the Southern Border is an essential control 
mechanism to ensure that Mexican trucks comply with U.S. safety 
regulations.
    The creation of an Office of International Affairs within 
the new agency is another area where the McCain bill is less 
adequate than its counterparts. The importance of possibly 
integrating another 4 million commercial motor vehicles from 
Mexico onto our highway system and continuing a high level of 
safety in this country warrants a separate office to oversee 
this major facet of motor carrier safety. The House bill 
contains such a provision, and we strongly support its 
creation.
    Last, the Teamsters Union is very concerned with evidence 
that suggests that Mexican motor carriers are operating outside 
of the currently permitted commercial zones. A letter sent to 
Senator Shelby from the Inspector General shows that 68 Mexican 
motor carriers are currently operating in 24 States, well 
beyond the commercial zones, even though they are not 
authorized to do so. Many of these States are represented by 
members of this panel.
    What disturbs the Teamsters Union is that the DOT knew 
these Mexican carriers were operating illegally in the U.S., 
and that no enforcement actions, such as assessing fines and 
penalties or revoking the carriers' operating privileges in 
commercial zones, were taken against them. We therefore urge 
the committee to include S. 1501 language to ensure that such 
actions are taken in the future. I ask that this language be 
submitted for the record.
    Senator Brownback. Without objection.
    Mr. Bryant. Madam Chair, the serious safety issues 
surrounding cross-border trucking should raise deep concerns 
for the State of Texas and your constituents, especially as we 
approach the deadline for opening the border to these unsafe 
Mexican trucks in the year 2000. The Teamsters Union urge you 
and the members of this Subcommittee to work with Senator 
McCain to include our recommendations regarding cross-border 
trucking in the final version of the motor carrier safety bill.
    Thank you, again, for providing me the opportunity to 
testify. I would be happy to answer any questions that you may 
have.
    [The prepared statement of Mr. Bryant follows:]

 Prepared Statement of Ken Bryant, Teamsters Local 745, Dallas, Texas, 
                 International Brotherhood of Teamsters

Madam Chair and Members of the Committee:
    The International Brotherhood of Teamsters represents hundreds of 
thousands of workers who make their living on our nation's roads, 
whether they are interstate highways or city streets. Department of 
Labor statistics show that these transportation workers are employed in 
one of the most dangerous of all occupations, and the Teamsters Union 
is very much committed to making their workplace as safe as any other 
jobsite.
    We have taken a serious interest in the work that Congress and, in 
particular, this Committee has undertaken to address the problems that 
have been identified in recent months at the Office of Motor Carriers 
and Highway Safety (OMCHS). The fact that safety compliance reviews 
have decreased, Level 1 inspections are down, and prosecutions are at a 
10-year low, while fatalities involving commercial trucks has remained 
somewhat stagnant over the last few years, points to the fact that 
changes must be made to improve the functions of the agency. The 
Teamsters Union has testified before the House Transportation and 
Infrastructure Subcommittee on Ground Transportation (3/25/99) and the 
Senate Commerce, Science and Transportation Committee (4/27/99) 
concerning the focus of motor carrier safety programs and the 
organizational structure of the OMCHS.
    Now, as this Subcommittee moves forward with hearings concerning 
the legislation that Senator McCain has introduced, S. 1501, the Motor 
Carrier Safety Improvement Act of 1999, we are pleased to have the 
opportunity to share our views on this legislation and to suggest 
additional ways that motor carrier safety can be improved.

                  MOTOR CARRIER SAFETY ADMINISTRATION

    The discussion over the future of the Federal Highway 
Administration's (FHWA) Office of Motor Carriers (OMC), which is 
responsible for monitoring the operation of commercial motor vehicles 
and their drivers, is not new. It first began in the 1980's when the 
Ranking Member of this Committee, Senator Ernest Hollings, introduced 
legislation to create a new motor carrier administration. His purpose 
was to promote organizational efficiency and enhance the effectiveness 
of motor carrier safety. While no further action was taken on this 
legislation, it is clear that the problems plaguing the OMC in the 80's 
still remain.
    This was most evident last fall when the Department of 
Transportation's (DOT) Inspector General (IG), Kenneth Mead, released 
the findings of an investigation into activities of the OMC aimed at 
rallying the trucking industry to oppose a proposal by House 
Transportation Appropriations Subcommittee Chairman Frank Wolf to 
transfer the OMC to the National Highway Traffic Safety Administration 
(NHTSA).
    The activities criticized included drafting and editing opposition 
letters for the American Trucking Associations (ATA) and individual 
motor carriers to send to Congress and contacting heads of large 
trucking firms to urge them to voice their opposition to the proposal 
with Senate Majority Leader Trent Lott (R-MS). In the end,the IG 
concluded that these activities fostered ``at a minimum an appearance 
that the OMC does not have the arms length relationship called for 
between government safety regulators and the industry.'' These actions 
are unacceptable, and the Teamsters Union has stated on numerous 
occasions that the incident itself shakes the confidence of all of us 
who rely on the OMC to effectively carry out its functions in 
overseeing the motor carrier industry and enforcing important safety 
regulations.
    Since the release of the IG report, the Teamsters Union has 
reviewed several proposals to restructure or reform the OMC, including 
proposals to transfer the agency in whole or in part to NHTSA, to 
create a new administration, or to elevate the role of the OMC within 
the FHWA. During Congress' early debate in exposing the problems of the 
OMC, we concentrated our efforts on ensuring that reforms are made 
within the agency to better target the bad carriers and bad drivers and 
strengthen enforcement mechanisms, rather than focus on where the OMC 
should be housed.
    Now that those problem areas have been identified and real 
solutions have been proposed, the Teamsters Union believes that the 
right approach to improving motor carrier safety is the establishment 
of a separate administration. Senator McCain's bill would create that 
new administration, which in our view is appropriately named the Motor 
Carrier Safety Administration. We believe that safety must be the 
primary mission of this agency, and it is certainly logical to include 
safety in its title.
    We also support Senator McCain's recommendation for an 
Administrator who is appointed by the President, and subject to 
confirmation by the Senate. Strong leadership is crucial for the 
success of an agency that has squandered the public trust. 
Unfortunately, the organizational structure offered in S. 1501 doesn't 
go far enough. What a new administration needs to function properly is 
a logical division of the core responsibilities of the agency. The 
agency should be properly segmented to provide leadership and 
accountability in key areas. Missed deadlines, policy missteps and 
overall disarray that have infected the performance of the OMC cannot 
be allowed to continue in the new Administration. In addition, the 
public has a right to know who is responsible for specific functions of 
the agency. The Teamsters Union therefore suggests that the Committee 
closely examine H.R. 2679, the House companion bill to S. 1501, which 
we believe offers the appropriate structural and organizational 
framework for a new Administration. It requires that the Deputy 
Administrator be appointed by the Secretary, with the approval of the 
Senate, and creates new positions for a Chief Safety Officer and a 
Regulatory Ombudsman--all of which are essential to improving the 
performance of the new Administration.

         RECOMMENDATIONS FOR STRENGTHENING MOTOR CARRIER SAFETY

    In addition to structural reforms, the Committee must address other 
problems within OMC. If you look at the enforcement activities of the 
agency in the last few years, you will find that compliance reviews 
have fallen by 30 percent since FY 1995 (the latest information 
available), even though there has been a 36 percent increase in the 
number of motor carriers over this period. According to the IG in a 
second Audit Report, Report Number: TR-1999-091, Motor Carrier Safety 
Program, nearly 250 high-risk carriers that were recommended for a 
compliance review in March 1998 did not receive one. Also in FY 1995, 
1,870 motor carriers received a less-than-satisfactory rating. From 
October 1, 1994 through September 30, 1998, 650 of those same carriers 
have had over 2,500 crashes resulting in 132 fatalities and 2,288 
injuries. Currently, there are about 6,000 motor carriers operating 
with a less-than-satisfactory rating that received those ratings from 
October 1995 through September 1998.
    In addition, Level 1 inspections (a 27-step process) have fallen 
off in favor of Level 2 (walk-around) and Level 3 (driver only) 
inspections. And while the Federal government has prosecuted trucking 
companies for flagrant violations in a few highly visible cases 
recently, statistics show that prosecutions by the Federal government 
have dropped to the lowest level since 1989. In FY 1998 alone, only 11 
percent of the more than 20,000 violations cited by safety 
investigators resulted in fines, and were settled for 46 percent of the 
dollar amounts initially assessed. The average settlement per OMC 
enforcement case was $1,600. According to the IG, this is little more 
than ``a cost of doing business'' for motor carriers.
    The IG concluded that the ``OMC was not sufficiently effective in 
ensuring that motor carriers comply with safety regulations, and that 
the OMC enforcement program did not adequately deter compliance.'' To 
address these problems, the IG made several recommendations aimed at 
ensuring compliance with Federal Motor Carrier Safety Regulations and 
improving the effectiveness of the Motor Carder Safety Program. 
Specifically, the IG recommended that the FHWA Administrator:

        <bullet> Strengthen its enforcement policy by establishing 
        written policy and operating procedures to take strong 
        enforcement action against motor carriers with repeat 
        violations of the same acute or critical regulation. Strong 
        enforcement actions would include assessing fines at the 
        statutory maximum amount, the issuance of compliance orders, 
        not negotiating reduced assessments, and when necessary, 
        placing motor carriers out of service.
        <bullet> Remove all administrative restrictions on frees places 
        in the Uniform Fine Assessment program and increase the maximum 
        fines to the level authorized by the Transportation Equity Act 
        for the 21st Century (TEA-21).
        <bullet> Establish stiffer fines that cannot be considered a 
        cost of doing business and, if necessary, seek appropriate 
        legislation raising statutory penalty ceilings.
        <bullet> Implement a procedure that removes the operating 
        authority from motor carriers that fail to pay civil penalties 
        within 90 days after final orders are issued or settlement 
        agreements are completed.
        <bullet> Establish criteria for determining when a motor 
        carrier poses an imminent hazard.
        <bullet> Require follow-up visits and monitoring of those motor 
        carriers with a less-than-satisfactory safety rating, at 
        varying intervals, to ensure that safety improvements are 
        sustained or if safety has deteriorated that appropriate 
        sanctions are invoked.
        <bullet> Establish a control mechanism that requires written 
        justification by the OMC State Director when compliance reviews 
        of high-risk carders are not performed.
        <bullet> Establish a written policy and operating procedures 
        that identify criteria and time frames for closing all 
        enforcement cases, including the current backlog.
        <bullet> Require applicants requesting operating authority to 
        provide the number of commercial vehicles they operate and the 
        number of drivers they employ and require all motor carriers to 
        periodically update this information.
        <bullet> Revise the grant formula and provide incentives 
        through the Motor Carrier Safety Assistance Program grants for 
        States to provide accurate, complete and timely commercial 
        vehicle crash reports, vehicle and driver inspection reports 
        and traffic violation data.
        <bullet> Withhold funds from the Motor Carrier Safety 
        Assistance Program grants for those States that continue to 
        report inaccurate, incomplete and untimely commercial vehicle 
        crash data, vehicle and driver inspection data and traffic 
        violation data within a reasonable notification period such as 
        one year.
        <bullet> Initiate a program to train local enforcement agencies 
        for reporting of crash, roadside inspection data including 
        associated traffic violation.
        <bullet> Standardize OMC and NHTSA crash data requirements, 
        crash data collection procedures, and reports.
        <bullet> Obtain and analyze crash causes and fault data as a 
        result of comprehensive crash evaluations to identify safety 
        improvements.

    While the Teamsters Union believes that these recommendations are a 
good step toward improving motor carrier safety, it's up to the OMC, or 
the new Administration, to implement them. We must question whether 
that will ever happen given the OMC's poor track record in executing 
recommendations from past reports. It is important to note that six 
other General Accounting Office and IG Audit Reports regarding the 
Motor Carrier Safety Program dating back to 1991 made similar 
recommendations. Thankfully, S. 1501 addresses our concern by requiring 
the Secretary of Transportation to implement the safety improvement 
recommendations included in the IG report. The Secretary is also 
required to report to the Senate Commerce, Science, and Transportation 
Committee and the House Transportation and Infrastructure Committee 
beginning 90 days after the date of enactment of the bill, until all of 
the recommendations have been implemented.
    The Teamsters Union, however, would suggest two additions. First, 
we ask the Committee to include language in S. 1501 to require all new-
entrant owners and operators to attend and pass an educational program 
that covers, at a minimum, safety, employee training, size and weight, 
and financial responsibility regulations administered by the Secretary 
prior to being granted the authority to conduct business on our 
nation's roads. This will ensure that new entrants have the knowledge 
to comply with the Federal Motor Carrier Safety Regulations rather than 
merely checking-off a box on the application form, as is currently the 
case.
    The Teamsters Union also requests that the Committee include 
language in S. 1501 to direct the newly established Motor Carrier 
Safety Program to require carriers to reregister every five years. This 
was mandated under the Interstate Commerce Commission Termination Act 
of 1995, but was never implemented by the OMC. This is crucial as the 
volatility of the industry causes many carriers to go out of business 
while new carriers enter the market everyday. In addition, many 
carriers grow to the point where Class III new entrants have become 
Class I carriers. Without re-registration, the OMC has no way of really 
tracking the growth of these carriers.

                      NAFTA CROSS-BORDER TRUCKING

    Madam Chair, if this committee is committed to improving motor 
carrier safety through the proposals that we are discussing today, then 
we must not ignore the possibility of the pending invasion of unsafe 
and unqualified drivers coming across our border from Mexico under the 
NAFTA cross-border trucking provisions. While we would assume that the 
increased funding levels in S. 1501 would filter down to the border 
states and bolster a rather lackluster inspection and enforcement 
regime, as outlined in the Audit Report of the DOT Inspector General, 
Report Number TR-1999-034, Motor Carrier Safety Program For Commercial 
Trucks at U.S. Borders, there is no certainty of that occurring, 
especially with the recent track record of the OMC.
    Neither can one simply throw additional money at a problem and 
expect a solution. And while Congress should not micromanage a Federal 
department or agency, there are a number of directives that a new 
agency can be given to help ensure that it addresses the most serious 
threat to the future safety of our highways, that of unsafe Mexican 
trucks and unqualified drivers undoing whatever gains the Congress 
intends to make with the creation of the new agency.
    One such directive is contained in H.R. 2679, the House 
Transportation and Infrastructure Committee's version of the Motor 
Carrier Safety Act of 1999, which calls on the Secretary of 
Transportation to develop and implement appropriate staffing standards 
for Federal and State motor carder safety inspectors in the 
international border areas. In developing standards, volume of traffic, 
hours of operation of the border facilities, types of commercial 
vehicles and cargo, and delineation of responsibility between federal 
and state inspectors would be some of the issues to be considered. This 
goes directly to the findings of the IG audit report which noted that 
``Mexican trucks entering the U.S. through Arizona, New Mexico and 
Texas are unlikely to be inspected because those States' border 
crossings do not have sufficient inspectors on duty during all 
commercial operating hours, and some border crossings do not have any 
inspectors assigned.'' The report concluded, ``that the placement of 
adequate inspection resources at the southern border is an essential 
control mechanism to better ensure that Mexican trucks comply with U.S. 
safety regulations.'' The provision in the House bill also provides the 
Secretary with an enforcement mechanism to ensure that the levels of 
staffing required by the standards are deployed.
    While we have mentioned organization and structure of the new 
agency as important to its success, the creation of an Office of 
International Affairs within the new agency is another area where the 
McCain bill is less adequate than its counterparts. The importance of 
possibly integrating another four million commercial motor vehicles 
from Mexico onto our highway system and assuring a high level of safety 
in this country warrants a separate office to oversee this major facet 
of motor carrier safety. The House bill contains such a provision and 
we strongly support its creation.
    In addition, the Teamsters Union is very concerned with evidence 
that suggests that Mexican motor carriers are operating outside of the 
currently permitted commercial zones. In fact, a letter sent to Senate 
Transportation Appropriations Subcommittee Chairman Richard Shelby from 
the DOT's IG (see Attachment 1) shows that Mexican motor carriers are 
currently operating beyond the commercial zones of the four border 
states, irrespective of the fact that they are not authorized to do so. 
Specifically, the letter states that in 1998 roadside inspections were 
performed: (1) beyond the commercial zones on 68 Mexican motor 
carriers, and were performed more than once for 11 of those carriers; 
(2) on the 68 Mexican motor carriers at least 100 times in 24 states 
not on the U.S.-Mexico border, outside of the commercial boundaries, 
including Montana, Missouri, Kansas, Louisiana, North Dakota, Nevada, 
and Oregon; and (3) on the 68 Mexican motor carriers outside the 
commercial zones but within the four border states more than 500 times. 
This information was obtained from the OMC's Management Information 
System. What disturbs us is that the DOT knew these Mexican carriers 
were operating illegally in the U.S. and that no enforcement actions, 
such as assessing fines and penalties or revoking these carriers' 
operating privileges in commercial zones, were taken against them. We 
therefore urge the Committee to include in S. 1501 language to ensure 
that such actions are taken in the future (see Attachment 2).
    In the last few weeks since the disclosure of these illegal 
operations by Mexican carriers, the DOT has inferred that it has no 
authority to regulate Mexican trucks operating in foreign-to-foreign 
commerce. Therefore, according to statements made by ``unnamed'' DOT 
officials, Mexican trucks can traverse the United States if traveling 
directly to Canada. This as yet ``unofficial'' policy of the DOT is 
totally unacceptable and is counter to the Administration's decision 
not to open the border to unsafe Mexican trucks for the safety and 
protection of the American public.
    DOT staff has proffered 49 U.S.C. Section 13906 and 49 C.F.R. 
Section 387.321 which provides that foreign motor carriers may only 
transit the U.S. if they provide certain financial security which is 
accepted by the Secretary, in support of their position. But since the 
Secretary does not and cannot register motor carriers to operate beyond 
the commercial zones because of the serious safety concerns, he should 
not accept evidence of financial security from the same motor carriers, 
thereby permitting them to operate a vehicle on roads throughout the 
U.S.
    Furthermore, DOT's position is in direct conflict with its own 
representation to the U.S. Court of Appeals for the D.C. Circuit that 
it would ``not approve applications by Mexican carriers seeking to 
provide cross-border trucking services into the United States pending 
the outcome of ongoing consultations on safety issues between the two 
countries.'' (Order of Jan. 21, 1997, No. 95-1603, International 
Brotherhood of Teamsters v. Secretary of Transportation, United States 
of America). Only after a determination is made that Mexican trucks are 
fit for operation on U.S. highways are they to be granted unlimited 
access to the border States. That determination has not yet been made, 
and, in fact, no one denies the fact that Mexican trucks are still 
prohibited from entering these states beyond the commercial zones.
    It is therefore ludicrous to now suggest that these trucks, while 
unfit for entry into the border States, should be allowed unlimited 
nationwide access to U.S. highways for the purposes of traveling to 
Canada. Such a policy would seriously endanger the lives of all highway 
users and cannot and should not be tolerated by this Committee and this 
Congress.

              COMMERCIAL MOTOR VEHICLE ADVISORY COMMITTEE

    The Teamsters Union is pleased that S. 1501 authorizes the newly 
established Motor Carrier Safety Administration to create a Commercial 
Motor Vehicle Advisory Committee. This Committee, which we believe 
should be entitled the Motor Carrier Safety Advisory Committee, given 
the nature of this bill, will ensure that the new Administration is 
more receptive to the diverse interests represented by the motor 
carrier community. After all, participation in developing rulemakings, 
coordinating educational programs, and discussing pending and future 
initiatives and other activities should not be limited to industry 
representation.
    It is important to mention that the concept of establishing such an 
advisory committee is not new. Years ago, a committee existed within 
the FHWA but was disbanded over disagreements among the members. 
Similarly, the Federal Railroad Administration (FRA) has created the 
Railroad Safety Advisory Committee (RSAC), under the leadership of FRA 
Administrator Jolene Molitoris. And the Occupational Safety and Health 
Administration has formed the National Advisory Committee on 
Occupational Safety and Health (NACOSH). The NACOSH was established 
under Section 7(a) of the OSH Act of 1970 to advise the Secretaries of 
Labor and Health and Human Services on matters related to 
administration of the Act.
    Like RSAC and NACOSH, S. 1501 requires that the Committee be 
structured in a way that would ensure the new Administration does not 
fall victim to the same type of influence from the industry as 
currently exists at the OMC. Specifically, the Committee would be 
comprised of individuals affected by rulemakings, including 
representatives of labor, industry, safety advocates, manufacturers, 
and safety enforcement officials, but no one interest would be 
permitted to constitute a majority of the Committee. It should be 
noted, however, that unlike RSAC and NACOSH there is no term limit for 
Committee members.
    Also unlike RSAC and NACOSH, the role of the Committee is limited 
to assisting the Secretary in the timely completion of ongoing 
rulemakings by utilizing negotiated rulemaking procedures. S. 1501 
should not stipulate that all current rulemakings must be resolved 
through negotiation. Negotiated rulemakings only work when the 
stakeholders have a reasonable belief that a consensus can be reached 
on the issues. In certain circumstances, negotiated rulemakings do work 
but that process should be decided on a case-by-case basis, not 
mandated by Congress.
    In contrast to S. 1501, the House companion bill allows the 
Committee to advise, consult with and make recommendations to the 
Administrator on all matters relating to activities and functions of 
the new Administration. Not all policy matters are necessarily decided 
in rulemakings, and this approach better allows all parties to have 
input on a broad range of activities of the new Administration.

                   HOW THE OMC CONDUCTS ITS RESEARCH

    Finally, the Teamsters Union has long been concerned with how the 
OMC conducts its research. For example, since 1996, the OMC has awarded 
over $8 million to the ATA and its consultants to perform research on 
various issues, including driver fatigue and graduated licensing. What 
concerns us is that this research often serves as the basis for future 
rulemakings governing the trucking industry.
    Such was the case with the Driver Fatigue and Alertness Study 
(DFAS), which was intended to provide non-biased research on drivers' 
hours of service. Instead, its conclusions "coincidentally" benefited 
the industry by justifying their arguments for allowing truck drivers 
to drive more consecutive hours with less rest. Thankfully, a peer 
review panel saw through ATA's attempts and discredited the DFAS, 
stressing that it ``suffered from poor design and inappropriate 
statistical approach to address the objectives''
    The OMC and several Members of Congress would probably argue that 
these funds were earmarked for ATA in appropriations bills and thus it 
is the responsibility of the agency to carry-out these congressional 
directives. This is not, however, entirely true. We refer to a Federal 
Register notice published in July 1999 that seeks public comment on a 
proposed survey to be conducted by the ATA's Transportation Research 
Institute (T) on the development of a graduated or provisional 
Commercial Drivers License program (CDL). Specifically, the notice 
states:
            ``Conference Report 104-286 to accompany H.R. 2002 to the 
        DOT Appropriations Bill directs the FHWA to contract, during FY 
        1996, with the ATA's TRI to perform applied research to address 
        a number of highway safety issues, such as driver fatigue and 
        alertness, the application of emerging technologies to ensure 
        safety, productivity and regulatory compliance, and commercial 
        drivers licensing, training and education. The amount allocated 
        was to be not less than $4 million. A survey of industry 
        opinion pertaining to a graduated CDL is one of these projects 
        under the congressionally-mandated cooperative agreement with 
        the TRI.''

            However, upon reading Conference Report 104-286 we found 
        the following:

            ``In fiscal year 1994, the Congress continued its 
        participation in the development of an aggressive research 
        agenda by directing the FHWA to undertake three projects 
        totaling $1,750,000: truck loading and unloading as a possible 
        contributor to driver fatigue; technology to automate 
        commercial vehicle roadside inspection; and guidelines for the 
        inspection and maintenance of wheels and bearings. In fiscal 
        year 1995, the Congress identified additional studies, totaling 
        $2,500,000, for the implementation in the same fashion with 
        TRI: the use of 'smart cards' to facilitate compliance with 
        motor carrier safety rules; medical requirements associated 
        with commercial vehicle operation; and electronic truck and 
        intermodal information systems...The conferees therefore 
        reiterate the direction to FHWA to use unobligated balances to 
        make grants to, enter into cooperative agreements or contracts 
        with, or use any existing technical support services agreements 
        with TRI, in amounts totaling not less than $4,000,000 to 
        conduct the six studies referenced above...''

    Once again, Congress intended these funds to cover six specific 
studies (truck loading and unloading as a possible contributor to 
driver fatigue; technology to automate commercial vehicle roadside 
inspection; guidelines for the inspection and maintenance of wheels and 
bearings; ``smart cards'' to facilitate compliance with motor carrier 
safety rules; medical requirements associated with commercial vehicle 
operation; and electronic truck and intermodal information systems). 
What it did not intend was for the OMC to provide ATA with unlimited 
resources to conduct numerous studies on a broad range of topics, like 
graduated CDLs. The fact is that the OMC has contracted with the ATA 
for at least 18 studies/projects since 1996, as follows:

            Fatigue Research: $1,080,000
            Conference on Technological Countermeasures to Fatigue: 
        $40,000
            International Industry Conference of Fatigue: $118,000
            Operating Practices on Commercial Driver Alertness: 
        $1,000,000
            Ocular Dynamics as a Predictor of Fatigue/Pilot Napping 
        Study: $300,000
            TRI and NPTC Safety Promotion and Compliance Workshops: 
        $280,000
            Recommended Management Practices for Driver Training and 
        Evaluation:
            $172,000
            Pilot Test of Fatigue Management Technologies: $1,654,000
            Survey of Emerging ITS Technologies: $430,000
            Graduated Licenses Survey: $243,000
            Driver Wellness Program $520,000
            Truck Stop Fitness Facility Utilization Study: $200,000
            Survey of Scheduling Practices and Their Influence on 
        Driver Fatigue:
            $509,000
            How to Drive/No-Zone: $301,000
            Sloop Apnea Prevalence and Severity: $1,008,000
            Heavy Vehicle Brake Use and Maintenance: $188,000
            ITS Industry Champion: $25,000
            Driver Acceptance of In-Vehicle Technologies: $130,000

    Given this information, the Teamsters Union requests that the 
Committee examine H.R. 2679 and include its bill language to require 
the Motor Carrier Safety Administration to comply with Section 
1252.209-70 of Title 48, Code of Federal Regulations (which deals with 
conflicts of interest) in awarding any contract for research. This is 
crucial to ensuring that unethical practices of the past do not carry 
over to the new Administration.

                               CONCLUSION

    The Teamsters Union believes that S. 1501 will go a long way toward 
strengthening motor carrier safety. The bill emphasizes better 
enforcement of current regulations, the importance of increased 
inspections and compliance reviews and the need for significant 
improvements to the Motor Carder Safety Program.
    Again, we appreciate the opportunity to present our views on truck 
safety, and look forward to continuing to work with Chairman McCain, 
Ranking Democratic Member Hollings, Senator Hutchison and members of 
the Subcommittee on this important legislation as it moves through the 
Senate.
                                                       Attachment 1
June 14, 1999

The Honorable Richard C. Shelby
Chairman, Subcommittee on Transportation
Committee on Appropriations
Washington, DC 20510-5037
Dear Chairman Shelby:
At the February 9, 1999 hearing before your committee on the Top Ten 
Management Issues within the Department of Transportation you asked if 
Mexican trucks drive beyond the commercial zone boundaries of the four 
border states. The answer is ``yes'', even though Mexican trucks are 
not authorized to go beyond the commercial zones.
All interstate motor carriers operating in the United States, including 
Mexican motor carriers operating in the commercial zones, are required 
to obtain a Department of Transportation (DOT) identification number 
and to display this unique identifying number on their commercial 
trucks. We used the identification number to get the information needed 
to answer your question.

Under the Motor Carrier Safety Assistance Program, state safety 
inspectors perform roadside inspections of commercial trucks and 
drivers throughout the United States to ensure compliance with U. S. 
safety regulations. Therefore, Mexican trucks operating inside or 
outside the commercial zones are subject to roadside inspections.
The Office of the Inspector General extracted the DOT identification 
numbers for motor carriers identified as domiciled in Mexico from the 
Office of Motor Carriers Management Information System. We compared 
these unique numbers to the FY 1998 roadside inspections of commercial 
vehicles also contained in the Office of Motor Carriers Management 
Information System. The results of our comparison indicate that:

        <bullet> Roadside inspections were performed beyond the 
        boundaries of the commercial zone on 68 motor carriers 
        identified as domiciled in Mexico, and were performed more than 
        once for 11 of the 63 camera.
        <bullet> Roadside inspections were performed on the 68 motor 
        carriers at least 100 times in 24 states not on the US.-Mexico 
        border, which include the States of New York, Florida, 
        Washington, Montana, North Dakota, Colorado, Iowa, South 
        Dakota, and Wyoming.
        <bullet> Roadside inspections were also performed on the 68 
        motor carriers outside the commercial zones but within the four 
        border states (Arizona, California, New Mexico and Texas) more 
        than 500 times.

This demonstrates that Mexican trucks are operating well beyond the 
designated commercial zones Enclosed is a copy of our recent report on 
the Department's Motor Carrier Safety Program. It identifies the 
current problems that impact negatively on motor carrier safety 
together with recommendations to address those issues.
If I can answer any questions, or be of further assistance, please feel 
free to contact me at 366-1959 or my Deputy, Raymond J. DeCarli at 366-
6767.
Sincerely,

Kenneth M. Mead

Inspector General

Enclosure

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                                       Attachment 2

                FOREIGN MOTOR CARRIER DISQUALIFICATIONS

The Teamsters Union is concerned with the contents of a letter sent to 
Senate Transportation Appropriations Subcommittee Chairman Richard 
Shelby from the Department of Transportation's (DOT) Inspector General 
(IG) Kenneth Mead which shows that Mexican motor carriers are currently 
operating beyond the commercial zones of the four border states, 
irrespective of the fact that they are not authorized to do so. 
Specifically, the letter states that: (1) roadside inspections were 
performed beyond the commercial zones on 68 Mexican motor carriers, and 
were performed more than once for 11 of those carriers; (2) roadside 
inspections were performed on the 68 motor carriers at least 100 times 
in 24 states not on the U.S.-Mexico border, outside of the commercial 
boundaries, including New York and Illinois; and (3) roadside 
inspections were performed on the 68 motor carriers outside the 
commercial zones but within the four border states more than 500 times. 
This information was obtained from the Office of Motor Carriers 
Management Information System. What disturbs us is that the DOT knew 
these Mexican carriers were operating illegally in the U.S. and that no 
enforcement actions, such as assessing fines and penalties or revoking 
these carriers' operating privileges in commercial zones, were taken 
against them. To ensure that such actions are taken in the future, we 
urge the Senate Commerce Committee to include in its motor carrier 
safety bill the following language:

FOREIGN MOTOR CARRIER DISQUALIFICATIONS.--Section--------of Title 49 
United States Code is amended by inserting the following:``Foreign 
Motor Carrier Disqualifications.--
``(1) FIRST VIOLATION. The Secretary of Transportation shall issue a 
civil penalty of up to $10,000 and disqualify from operating a motor 
vehicle anywhere within the United States for a period not to exceed 
six months any foreign motor carrier or foreign motor private carrier 
(as such terms are defined under section 13102) who is found to operate 
outside the boundaries of any commercial zone prior to the 
implementation of the land transportation provisions of the North 
American Free Trade Agreement (see NAFTA Implementation Act, Chapter 
12(B) (3).
``(2) SECOND VIOLATION. The Secretary shall issue a civil penalty of up 
to $25,000 and permanently disqualify from operating a motor vehicle 
anywhere in the United States any foreign motor carrier or foreign 
motor private carrier (as defined under section 13102) who commits more 
than one violation of operating outside the boundaries of a commercial 
zone prior to the implementation of the land transportation provisions 
of the North American Free Trade Agreement (see NAFTA Implementation 
Act, Chapter 12 (B) (3)).'' 

    Senator Brownback. Thank you, Mr. Bryant.
    There was a switch that took place while you were 
testifying here. So I apologize about that. ``Madam Chair''--I 
have been called worse.
    [Laughter.]
    Senator Brownback. But I appreciate your testimony and the 
good points you raise, particularly about the NAFTA 
implementation. I am going to have some questions for you about 
that.
    When that NAFTA agreement was negotiated, those things were 
all supposed to be taken care of. And so I will be interested 
to hear what you have to say regarding whether they were or 
were not.
    Next to testify is Mr. Walter McCormick, President and CEO 
of the American Trucking Associations. Mr. McCormick, welcome 
to the committee. The floor is yours.

  STATEMENT OF WALTER B. McCORMICK, JR., PRESIDENT AND CHIEF 
    EXECUTIVE OFFICER, AMERICAN TRUCKING ASSOCIATIONS, INC.

    Mr. McCormick. Mr. Chairman, thank you very much. It is a 
pleasure to be here today, representing the American Trucking 
Associations. The American Trucking Associations is a 
federation, comprised of 50 State associations, 14 affiliated 
organizations that represent the various segments of the 
industry, and thousands of dues-paying motor carrier members.
    And, Mr. Chairman, we care deeply about highway safety, 
because the highways are our work place. And we therefore 
support Senator McCain's call for a separate Motor Carrier 
Administration. You see, today, trucking represents 82 percent 
of freight transportation revenues. Since 1980, the number of 
motor carriers registered to do business in the United States 
has increased from 55,000 to over 450,000. And you heard Mr. 
Wykle say earlier today that each year, between 20,000 and 
25,000 new motor carriers are registered to do business.
    The other 18 percent of freight transportation revenues is 
split between air, rail, pipeline, and water transportation. 
Yet every one of those modes is regulated by an independent 
administration, with a Presidential appointee, Senate-confirmed 
administrator. Trucking, alone, is not regulated by an 
administration. Instead, it is regulated by a small office, 
deep within the Federal Highway Administration.
    Going back as far as 1985, Senator Hollings called for a 
separate Motor Carrier Administration, and was joined in that 
call by then-Senator Gore. We believe that now, 15 years later, 
it is even more imperative that this committee move forward to 
establish such an administration. Because trucking has grown so 
exponentially and because the highways are ever more congested.
    In addition, we support other important provisions in this 
legislation. We support the legislation's call for a 
Department-wide policy on access to electronic records. There 
needs to be a single policy for air, rail, maritime, and motor 
carriers that will encourage the adoption of safety-related 
technologies.
    We support the call for improvements in commercial driver's 
licenses. We need to have CDL's reflect all moving violations, 
not just those in a truck, but also in a car. A bad driver is a 
bad driver.
    We need to prevent States from masking violations for 
remedial testing. And we need to eliminate special licenses, 
such as provisional licenses or hardship licenses. If a driver 
violates the law, he should have his license yanked.
    We support the bill's provisions calling for improved data 
collection. If we are going to improve highway safety, then we 
need to know more about accident causation. We have to identify 
the ailments before proposing cures.
    We do have some concerns with the legislation. We think 
that the legislation inappropriately transfers jurisdiction 
over retrofits to NHTSA. And I take issue with Ms. Claybrook's 
position, where she said it is an extension of what NHTSA 
already does. It is not at all an extension of what NHTSA 
already does.
    NHTSA regulates manufacturers. And once a vehicle is 
manufactured, NHTSA may call for a recall for a defect 
investigation. But just as once an automobile is in the hands 
of the user, once a truck is sold to a trucker, it then becomes 
a matter of operations, and it is the Federal Highway 
Administration or, hopefully in this case, a separate Motor 
Carrier Administration, that should have jurisdiction over 
determining whether or not there should be an appropriate 
retrofit.
    We would also like the legislation strengthened with some 
provisions suggested by Senator Breaux. Senator Breaux, we 
think that your call for testing of inspectors and standardized 
inspection procedures is an important reform. We think that 
legislation that has been introduced, called for accountability 
on the part of those who aid and abet violations for hours of 
service or speed limits--we believe an Office of Motor Carriers 
should have jurisdiction to hold liable those who engage in 
that kind of activity. It is a kind of dram shop liability.
    Finally, it was just yesterday that ATA was able to review 
the testimony that will soon be given by the National 
Conference of State Transportation Specialists with regard to 
the Single-State Registration System. No mention was made of it 
in my written remarks, so I would like to focus on that briefly 
now.
    Congress saw the need to establish a 50-State program for 
ensuring that all trucks, for hire and private fleets, have 
adequate insurance. The current system leaves 12 States out. 
And it does not include private trucks. That is why Congress 
created the Uniform Carrier Registration System. Under SSRS, a 
few States-a few States-do receive funds for a purpose that is 
no longer necessary under the Uniform Carrier Registration 
System. If there is a desire to replace funding for motor 
carrier safety programs, the American Trucking Associations is 
willing to work with the Congress on that. But we insist it 
should be a 50-State program, and all money collected from the 
trucking industry should be dedicated to motor carrier safety--
neither of which is the case under the current program.
    Mr. Chairman, thank you for having me to testify.
    Senator Brownback. Thank you very much, Mr. McCormick, for 
you thoughts. I have questions for you afterwards.
    [The prepared statement of Mr. McCormick follows.]
     Prepared Statement of Walter B. McCormick, Jr., President and 
     Chief Executive Officer, American Trucking Associations, Inc.
I. Introduction
    I am Walter B. McCormick, Jr., President and Chief Executive 
Officer of the American Trucking Associations, Inc. The ATA is a 
federation that includes thousands of dues paying motor carrier 
members, 50 affiliated state trucking associations, and 14 conferences 
that represent virtually all segments of the trucking industry.
    Our industry has been a leader in the improvement of highway 
safety. Truck safety, and overall highway safety, is ATA's highest 
priority as it represents those who move America's freight. Placing a 
sincere and genuine focus on safety is not only the responsible thing 
to do for us as a transportation trade group, but it also makes good 
business sense for our members. Safety really is good business.
    Therefore, on behalf of the ATA federation, I would like to thank 
Chairwoman Hutchison and the members of this subcommittee, for your 
interest in truck safety, for holding this hearing, and for allowing us 
the opportunity to testify.
II. ATA Supports Senator McCain's Legislation to Create a Separate 
        Motor Carrier Administration
    I begin by applauding Senator McCain for introducing the Motor 
Carrier Safety Improvement Act of 1999, S.1501, calling for the 
creation of a separate Motor Carrier Administration to regulate the 
trucking industry. Fifteen years ago, Senator Ernest F. Hollings had 
the wisdom to propose a separate Motor Carrier Administration. More 
recently, nearly every major stakeholder has signed on to this 
initiative, including the National Private Truck Council, The Owner 
Operators Independent Drivers Association, and the Commercial Vehicle 
Safety Alliance. Even the U.S. Department ofTransportation's Inspector 
General has called for the creation of a motor carrier administration 
to focus exclusively on the motor carrier industry.
    It may sound strange for an industry to promote a separate 
government oversight organization; however, because the trucking 
industry is interstate in nature, we believe there must be a strong 
federal agency with the appropriate manpower to effectively ensure the 
operating safety of thousands of companies nationwide.
    The necessity of such an agency is clear. Trucking's impact on the 
economy is enormous. The numbers show that the trucking industry 
dominates freight transportation in this country. In 1998, 82 percent 
of the freight transportation bill in this country went to trucking. 
That 82 percent totaled $346 billion. The remaining 18 percent was 
split between freight hauled on the rails, in the air, in pipelines, 
and on the water.
    And while these other modes are regulated by separate 
administrations, the safety and efficiency of the trucking industry is 
regulated by a small office within the Federal Highway Administration 
(FHWA), the nation's highway building agency. The trucking industry and 
the motoring public deserve a Federal agency that has truck and bus 
safety as its core mission. This would allow an administrator, 
appointed by the President and confirmed by the Senate, to sit with 
other administrators from the other modes as an equal.
    As I mentioned, this is not a new idea. In fact, Vice President 
Gore supported such an administration in 1985 when it was proposed by 
Senator Hollings. At that time, according to the Congressional Record, 
Senator Hollings said ``a Motor Carrier Administration would serve 
several important functions...it would fulfill the purposes of the 
Department of Transportation Act relative to transportation 
policy...safety...improving transportation systems and protecting 
consumer interests...[and] would provide comprehensive research, 
planning, and programming that will enable Congress and the Federal 
Government to make well founded and properly directed legislative and 
regulatory decisions...''. Now, 14 years later, as our economy has 
grown even more reliant on trucking, and our highways have become even 
more crowded, we agree with this committee, with CVSA and others that 
it is the right time to create this long needed organization to further 
advance the many motor carrier safety issues before us.
III. ATA Supports Additional Provisions of S. 1501

A. A DEPARTMENT-WIDE POLICY ON THE PRIVACY OF ELECTRONIC RECORDS COULD 
      ENCOURAGE MOTOR CARRIERS TO ADOPT SAFETY-RELATED TECHNOLOGY

    ATA supports the provision in S.1501 requiring the Secretary of 
Transportation to establish a department-wide policy protecting privacy 
for any individual or entity utilizing electronic recorders or other 
electronic performance or location monitoring device. Currently, the 
agencies within the Department of Transportation have conflicting 
policies with respect to the use of electronic records for accident 
investigation and enforcement purposes, and the privacy of truck owners 
and operators should receive no less protection than the privacy of 
airplane or train operators.
    For instance, the FAA has recognized that to encourage carriers to 
participate in their Flight Operations Quality Assurance Program, a 
voluntary program that relies on safety related technology and 
electronic data, the agency must guarantee that the data generated by 
this program not be used for routine enforcement purposes. In a press 
release dated December 2nd, 1998, FAA Administrator Jane Garvey wisely 
stated that FAA will not use safety data generated in the FOQA program 
for enforcement action except in egregious cases and that ``Safety is 
President Clinton's highest transportation priority. We encourage 
airlines to participate in this program, which will provide the FAA 
with an additional tool to make the world's safest aviation system even 
safer.''
    FHWA's policy in this area, however, offers no such guarantee. In 
addition, certain FHWA-funded intelligent transportation systems (ITS) 
programs generate vehicle-tracking data that is being used for purposes 
entirely unrelated to safety improvement, such as tax collection. 
Therefore, some motor carriers are discouraged from adopting safety-
related technologies for fear of possible self-incrimination or 
expanded taxation. This inconsistency in department policies is 
illogical and unnecessary. Hopefully, this legislation will bring 
greater privacy protection and uniformity to how the Department treats 
electronic data and will encourage the further adoption of safety-
related technology in the trucking industry.

         B. WE SUPPORT MANY OF THE CDL IMPROVEMENTS IN S. 1501

    I would like to note for the record that ATA has called for and 
supports many of the Commercial Drivers License (CDL) improvements now 
found in S. 1501. When I had the privilege of testifying before the 
full Commerce, Science and Transportation Committee in April, I 
outlined ATA's Safety Agenda, an inventory of safety-related 
legislative and regulatory reforms that we intended to pursue. 
Commercial Drivers License improvements were high on our agenda and I 
am pleased to see that they are on yours too.
    For instance, there is a substantial need to include on a driver's 
CDL record all moving violations regardless of whether or not they were 
committed in a commercial motor vehicle. An unsafe driver is an unsafe 
driver. States, law enforcement officers and motor carriers need to 
know a driver's complete driving history--not just a history of serious 
violations, or violations which occurred in a commercial truck.
    Federal law must also be amended to prohibit states from 
``masking'' violations of traffic laws so that they do not appear on a 
driver's commercial driving record. This practice of removing 
violations for drivers who attend remedial training classes, or take 
some other similar action, interferes with the intent of the act that 
created the CDL. The states that engage in this activity are simply 
circumventing the requirement to post these convictions on a driver's 
record. It is critical that this record be complete so that employers, 
insurers and other state licensing and enforcement agencies can make 
appropriate and fully informed decisions affecting drivers. These 
decisions have a direct impact on highway safety.
    States must also be prohibited from issuing ``special'' licenses to 
disqualified truck drivers. Federal regulations provide specific 
sanctions for drivers who commit certain violations and forbid them 
from operating a commercial motor vehicle for a given length of time. 
However, some states will issue hardship or provisional licenses to 
these drivers and continue to allow them to drive. This practice 
contradicts the intent of the law and is unacceptable. Drivers who 
commit disqualifying offenses should be taken off the road for the 
appropriate period of time-no exceptions.

  C. BETTER COLLECTION OF DATA IS NECESSARY TO IDENTIFY MEASURES THAT 
                WILL HAVE THE GREATEST IMPACT ON SAFETY

    One of the most important provisions of S. 1501 may be that which 
calls for a program to improve the collection of crash data, especially 
with respect to crash causation. Clearly, to identify regulatory and 
legislative proposals that will have the most impact on safety, we must 
identify the principal causes of truck crashes and ways to prevent 
them. To draw a parallel, before proposing a cure one must first 
identify the ailment. Otherwise, without truly understanding the 
factors leading to truck crashes, we cannot identify and implement 
effective countermeasures.
    On this note, the Department of Transportation has recently 
completed some interesting and compelling, albeit limited, research 
looking at crash causation. Through a contract with the University of 
Michigan Transportation Research Institute, DOT examined the factors 
involved in fatal crashes between trucks and passenger vehicles. The 
findings of the study, released this past April, show that in more than 
two-thirds of fatal passenger vehicle/large truck crashes, the driver 
of the passenger vehicle was the only one cited for a related factor 
contributing to the crash. The physical evidence from these crashes 
(e.g., pavement gouge marks, location of oil and other fluids from the 
vehicle) is even more compelling. For instance, in 89% of fatal head-on 
crashes between a large truck and a passenger vehicle, the passenger 
vehicle had crossed the centerline into the truck's lane of travel.
    In light of such evidence pointing to the causes of many fatal car/
truck crashes, ATA has been actively involved in educating drivers of 
all types of vehicles on how they can safely share the road with 
trucks. For instance, the industry has supported DOT's ``No-Zone'' 
campaign, an education program to enlighten drivers about the size and 
location of a truck's blind spots. We have also urged state licensing 
agencies to include information in their drivers' manuals about trucks' 
unique operating characteristics such as braking distances and turning 
radiuses.
    Further understanding of the causes of truck crashes will provide 
us with additional opportunities to find and implement effective 
countermeasures.
IV. ATA Has Concerns With Some Provisions In S. 1501
    ATA has met with committee staff regarding S. 1501 to express some 
concerns with the bill. Let me discuss some of our most critical 
concerns.

 A. SHIFTING RESPONSIBILITY FOR VEHICLE RETROFIT REQUIREMENTS TO NHTSA 
                        WOULD NOT PROMOTE SAFETY

    The proposal to shift responsibility for retrofit requirements to 
the National Highway Traffic Safety Administration (NHTSA) is ill-
conceived. It is apparently based on a notion that NHTSA would issue 
retrofit rules in a more timely fashion than past efforts by FHWA. The 
example most commonly cited by critics of FHWA is the conspicuity tape 
retrofit rulemaking for older truck trailers. These groups are critical 
of the fact that it took FHWA 6 years to complete a rulemaking 
requiring older trailers to be retrofitted with conspicuity tape. These 
groups believe that NHTSA would have completed the rulemaking more 
quickly. The fact is that while it took FHWA 6 years to complete the 
retrofit rulemaking, it took NHTSA 12 years to complete the original 
rulemaking requiring conspicuity material for newly manufactured 
vehicles.
    NHTSA's current methods for writing standards are inconsistent with 
the way retrofit requirements should be developed. New vehicle 
standards are written so manufacturers can design components to meet 
certain specifications that can be tested in a laboratory or on a test 
track. The regulations require the components to perform to a certain 
standard manufacturers can test using special equipment and procedures. 
Motor carriers do not have the means or equipment to meet these 
standards nor are they mounting components on brand-new, showroom 
condition vehicles. The development of standards for these two 
purposes, new vehicle and retrofit, would take place on separate paths. 
In addition, NHTSA does not have the staff or infrastructure to enforce 
retrofit requirements once they were written.
    Additionally, NHTSA is not a truck-oriented agency. In fact, less 
than 5% of its staff is currently devoted to large trucks. Why? There 
are far more cars on the road, far more car crashes and much more that 
must be done to make cars safer, especially as cars get smaller. In 
addition, it is illogical to have trucking regulated by two separate 
agencies. The ultimate goal of regulation is increased safety through 
compliance with effective standards. This is a goal that cannot 
possibly be met if the regulations are too difficult for motor carriers 
to understand. As it is today, the regulations are far too complex. By 
subjecting motor carriers to vehicle regulations from two separate 
agencies, NHTSA for retrofitting vehicles and a Motor Carrier 
Administration for maintaining them, it would make a bad situation 
worse.

 B. REVOKING A STATE'S AUTHORITY TO ISSUE CDLS IS MISPLACED PUNISHMENT

    The provision of the bill that calls for rescinding a state's 
authority to issue CDLs if the state is not in compliance with the CDL 
requirements concerns ATA. While the trucking industry has long been an 
advocate of the CDL, we believe this approach to enforcing the CDL 
program requirements at the State level is a wrong one. In effect, this 
provision would punish drivers, not the state agency, since the drivers 
would no longer be able to get licenses from their state. As a result, 
the state's economy will suffer from a lack of truck drivers to deliver 
the freight.
    It is important to note that the states the bill proposes to 
penalize are not out of compliance due to an unwillingness to adopt the 
required procedures. Instead, these states often lack the 
infrastructure, personnel and data systems to implement the CDL system 
as required. Sanctioning these states will have little effect on their 
likelihood of coming into compliance. Therefore, we support the 
provision of the S. 1501 that provides up to $1,000,000 each to non-
compliant states to fund the changes necessary to bring them into 
compliance. It is this approach that is more likely to achieve the 
desired result.

C. CREATING A REGISTRY OF MEDICAL PROVIDERS TO CONDUCT DRIVER PHYSICALS 
                      WILL NOT IMPROVE THE PROCESS

    While we agree that the process for conducting driver physical 
examinations could stand some improvements, we do not agree with the 
method S.1501 proposes in order to make these improvements. The biggest 
problem lies in the fact that some medical examiners are simply 
unfamiliar with the physical qualification requirements for truck 
drivers. Others are aware of the requirements, but do not enforce them 
as diligently as possible since the system does not hold them 
accountable for doing so. The solution to these two problems is to 
better educate medical examiners and to hold them at least partially 
accountable for certifying only those drivers who meet FHWA's strict 
medical criteria.
    We recognize that in proposing a registry of medical examiners to 
conduct driver physicals, the Senate may be attempting to ensure that 
only qualified medical examiners perform physicals. But the creation of 
a registry alone can neither assure that an examiner is knowledgeable 
and will not necessarily hold an examiner accountable. Instead, a 
registry will simply limit the number of medical examiners who can 
conduct these physicals, drive up costs to motor carriers and make it 
more difficult for drivers, especially those in rural areas, to find 
examiners who can certify them.
    The solution is to improve the flow of information to examiners, to 
better educate them on the physical qualification requirements and to 
impress upon them their responsibility to ensure that only qualified 
drivers are medically certified. We feel that all of these objectives 
can be achieved through improvements to the form that FHWA requires 
examiners to complete when evaluating a driver. The form provides 
detailed instructions to examiners, contains information on the 
physical qualification requirements and requires physicians to attest 
to the fact that the driver is qualified. It may interest you to know 
that FHWA is in the process of revising the medical form to address 
these issues, and expects to have the improved form in place within a 
matter of months. We believe the new exam form is certain to improve 
the way drivers are medically examined and qualified.
V. ATA Also Supports Safety Improvements in Related Legislation
    While S. 1501 proposes some real, substantive truck safety 
improvements, we would like to point out that other legislation 
currently under consideration has identified additional improvements 
that we support as well. For instance, S. 1524 introduced by Senator 
Breaux and S. 1559 introduced by Senator Lautenberg contain some 
related safety measures that deserve mention in this forum.

  A. THE MOTOR CARRIER SAFETY SPECIALIST ACT WILL ALSO IMPROVE TRUCK 
                                 SAFETY

    S. 1524 recently introduced by Senator Breaux proposes a means to 
raise the training standards for those who audit the safety records of 
motor carriers. It will also help standardize the process used by 
inspectors who conduct these compliance reviews. We support this 
legislation as improved training of inspectors and standardized 
procedures are growing increasingly necessary.
    Currently, there is no formal training requirement for government 
or private sector investigators and consultants who conduct compliance 
reviews. While Federal government inspectors typically complete an 
initial training program, state inspectors who conduct federal 
compliance reviews are not required to do so. Private sector 
consultants who conduct reviews of motor carriers' operations also have 
no formal training requirement.
    While the standards against which carriers are judged during a 
compliance review are fairly uniform, the procedures for determining if 
a carrier meets the standards are not. For instance, when sampling 
records for review no two inspectors may select the same number of 
records nor will they use the same selection method (e.g., random or 
targeted). For these reasons, it is important to establish formal 
training requirements which should, at a minimum, include standard 
procedures for conducting compliance reviews.

  B. THE PROPOSAL TO REQUIRE NEW ENTRANTS TO DEMONSTRATE THEIR SAFETY 
                          COMPETENCE HAS MERIT

    We are aware of a provision in S. 1559 that would require new 
carriers to demonstrate their knowledge of and compliance with the 
Federal Motor Carrier Safety Regulations. We are generally supportive 
of this proposal since there is a need to ensure the safety of the tens 
of thousands of new motor carriers who are entering the industry each 
year. The industry is growing at a tremendous rate and we must search 
for new and innovative ways to ensure that the industry's safety 
performance continues to improve.
    We have some suggestions, however, with how FHWA should implement 
this mandate if it is ultimately issued. Naturally, completing the task 
of certifying the safety of all new motor carriers could be quite 
difficult given the industry's explosive growth. On average, an 
additional 20 to 25 thousand motor carriers register with the FHWA each 
year. It is simply unrealistic to expect FHWA to perform an on-site 
review of each of these carriers' operations, as some have suggested. 
FHWA currently only has sufficient resources to audit approximately 2% 
of the existing motor carrier population which translates into about 
8,000 motor carrier compliance reviews annually.
    As an alternative, we would support an industry-based self-
reporting program to assure that new carriers are familiar with the 
safety regulations and have mechanisms in place to support safe 
operations.

   C. FHWA SHOULD PENALIZE ANY PARTY IN THE TRANSPORTATION CHAIN WHO 
           INDUCES CARRIERS TO VIOLATE THE SAFETY REGULATIONS

    Finally, I would like to bring to your attention Section 109 of 
S.1559 that gives FHWA the authority to issue fines against anyone who 
aids, abets or induces a carrier to violate the safety regulations. The 
purpose of the provision is to penalize shippers or others who require 
carriers to deliver loads on violation of the hours of service 
regulations or state speed limits. It also provides a means to enforce 
against those who are not directly employed by motor carriers but who 
are nonetheless responsible for violations of the Federal Motor Carrier 
Safety Regulations.
    ATA strongly supports this provision as a means to improve 
commercial motor vehicle safety. Motor carriers sometimes face great 
difficulty in meeting the demands of shippers while at the same time 
complying with the safety regulations. However, the need to comply with 
the regulations is not of foremost concern for some shippers, since 
FHWA does not have the authority to enforce against them. Yet, we 
believe that all parties in the transportation chain should bear 
responsibility for highway safety and should be held accountable for 
violating the regulations, or inducing others to do so.

VI. Conclusion
    Madam Chairwoman, the time has come to advance the motor carrier 
safety agenda and truly make a difference. We support a separate modal 
administration dedicated to the advancement of the many motor carrier 
safety improvements proposed in S. 1501.
    We look forward to working with you and Chairman McCain, Senator 
Hollings, the members of the Committee, all members of Congress, the 
DOT, and all reasonable parties involved in making the roads as safe as 
possible.
    Thank you for providing ATA an opportunity to submit this 
information to the Subcommittee.

    The final panel member, Mr. Kevin Sharpe, Illinois Commerce 
Commission, testifying on behalf of the National Conference of 
State Transportation Specialists.
    Mr. Sharpe, welcome to the committee.

  STATEMENT OF KEVIN SHARPE, ILLINOIS COMMERCE COMMISSION, ON 
   BEHALF OF THE NATIONAL CONFERENCE OF STATE TRANSPORTATION 
                          SPECIALISTS

    Mr. Sharpe. Thank you very much, Mr. Chairman. I can barely 
see the lights there. So if I run over, I would appreciate a 
tap on the shoulder.
    Senator Brownback. OK.
    Mr. Sharpe. On behalf of the National Conference of State 
Transportation Specialists and the Illinois Commerce 
Commission, and especially on behalf of the motorists we deal 
with every day, I would like to commend the committee for its 
concern over trucking safety, as shown by this hearing today.
    The National Conference of State Transportation Specialists 
is a national organization whose members are State agencies 
engaged in transportation regulatory functions. In addition to 
many other activities, the NCSTS provides oversight of and 
assistance to States participating in the Single-State 
Registration System, established by Congress in the Intermodal 
Surface Transportation Efficiency Act of 1991.
    The NCSTS, through its SSRS steering committee, promotes 
uniformity in the administration of the rules, and has served 
as the focal point for communication of State concerns and 
interests to the Federal Highway Administration. Since 
intrastate trucking deregulation in 1994, the States have 
become increasingly concerned about the safety of the motoring 
public in an environment of unsafe trucks and trucking 
operations.
    In Illinois alone, we issue licenses to over 100 new motor 
carriers each month. Many of these new license holders are 
seriously underfinanced, and represent a considerable safety 
concern. Our experience is repeated in every State in the 
Union. The NCSTS States have dealt with this problem for years. 
And it is from this perspective that I appear before you this 
morning.
    NCSTS and the State of Illinois are in favor of most all of 
the provisions discussed here today in Senate Bill 1501, and 
congratulate Congress for addressing motor carrier safety in 
this manner. But I would like to direct my remarks to a 
specific section of the bill, and to two separate actions being 
proposed. First, in Section 6, Subsection G, that is titled 
Motor Carrier Safety Initiatives, it proposes two significant 
actions which, if approved, would significantly impact the 
safety, compliance and enforcement activities of the 38 
participating SSRS States.
    The first action would strike the last sentence of 
Subsection D of Section 13908, which would eliminate the 
statutory requirement for fees to be collected and distributed 
to the States. Approximately $95 million of State funds are at 
risk.
    The second action calls on the U.S. DOT to create a unified 
Federal program that actually subsumes the States' current SSRS 
registration program. In effect, the current language gives the 
Federal Highway Administration, or its successor, the authority 
to Federalize a successful State registration program, and 
possibly eliminate or reduce State revenues.
    On behalf of the States, I want to emphasize that we are in 
favor of a Uniform Carrier Registration System. We have 
advocated this for years, and have demonstrated to 
representatives of the Federal Highway Administration how it 
could be done rapidly, at virtually no additional cost, and in 
a manner that avoids the creation of a new Federal bureaucracy. 
The States' proposal would provide the public with vastly more 
effective protection from uninsured trucking companies, because 
it would be enforced at the roadside.
    Our proposal would provide Congress and the U.S. DOT with 
accurate and reliable motor carrier demographic information for 
the first time. We believe this last point is very important. 
Were Congress to ask the U.S. DOT today for accurate 
information about the trucking industry, and FHWA sent out a 
survey to its carriers of record, we believe about half would 
be returned ``address unknown.'' This is because the FHWA data 
base has never been updated, whereas the State data bases are 
refreshed each year via an annual registration.
    The States have been disappointed that FHWA has not 
proceeded with the 13908 rulemaking called for in the ICC 
Termination Act. As far as the States are concerned, none of 
the implementing problems that FHWA has alleged are not to be 
overcome. They are minor and could be easily overcome, rather.
    The language in S. 1501, which directs FHWA to complete 
rulemaking within a year, is a sound idea. Representatives of 
the States have met many times with the representatives of the 
American Trucking Associations, but despair of ever getting ATA 
to agree to the creation of an effective enforcement program. 
The prospect of getting a Federal fee cut at the expense of the 
States seems to be their objective.
    For our part, we think it is anomalous that a motor carrier 
safety bill could be the vehicle to cut $95 million of revenue 
to States used to enforce safety. Please understand that that 
is exactly what elimination of State revenues under the current 
State registration program would accomplish. It would in fact 
diminish each State's overall safety reach.
    Many States use SSRS money for the local match to the Motor 
Carrier Safety Assistance Programs. Others use it directly for 
their State police to administer their insurance oversight, 
such as the Illinois Public Guardian Program, and for a wide 
range of safety activities. I have attached to my written 
remarks an analysis of how much revenue each State collects and 
how the revenue is used.
    The States take exception to a recent handout the ATA has 
distributed, which purported to demonstrate that the States 
were not using the moneys collected for safety purposes. We 
believe that our figures and other information that the States 
can provide would show that the information purported by ATA is 
not accurate, and that States do use a preponderance of the 
moneys collected for safety.
    With that, I will conclude my remarks. If there are any 
questions, I would be happy to entertain them.
    Senator Brownback. Thank you, Mr. Sharpe.
    This has been an excellent panel. Let us run the time clock 
here for 10 minutes. Maybe we can bounce back and forth.
    Senator Breaux, since you were here before me, if you would 
like to go ahead and proceed first.
    Senator Breaux. I will be as brief as I can, Mr. Chairman. 
Thank you for chairing the remainder of the hearing. And I 
thank the panel for their presentations.
    The accident that I referred to in New Orleans, where 22 
people were killed, was indeed a very tragic and unnecessary 
and avoidable accident. What would be even more tragic is if we 
do not learn anything from it, and even worse if we do not do 
anything about it. I think that we have an opportunity to do 
that, to learn from what happened and to try and understand how 
it happened.
    The more I delve into exactly what happened, it just is 
very difficult, I think, to explain to people how something 
like that could happen. I was looking more into the details 
about the particular bus driver, who is now deceased, who was 
driving at the time of the accident. If you look at the history 
of how he was employed, you wonder why this was not caught 
before. How did this fall through the system?
    What can we do to correct the system that allowed a driver 
to have been rejected the same year he was hired by this 
company, by another company that he had interviewed with after 
testing positive for cocaine? And it was at least the fifth 
time that this driver had failed a drug test. The fifth time. 
In 1996, he was fired by one transit company for testing 
positive for marijuana for a second time. He was then fired 
from another transit authority, where he had failed two drug 
tests.
    And then, when he applies to work for this company, he does 
not say anything about those prior incicdents on his 
application. There was no information that they could go to, I 
guess, to check out what was the guy's history. So he just 
files his application and does not mention anything about his 
previous employers and the number of times he had failed drug 
tests for marijuana and cocaine and the violations for driving 
18 hours in 1 day, and all of the other numerous violations 
that he would be required to comply with.
    Apparently, there is a Federal requirement that he should 
have stated that on his application, but he did not. The bus 
company does not check. Here we have a bus driver who, by any 
measurement or standard, should not have been on the road.
    Then to have the Federal Highway Administration say that 
they had a good drug testing program, and then, 4 months later, 
the Department of Defense says they do not even have one. This 
thing was such an accident waiting to happen with this company.
    State and Federal inspections show that in the past 3 
years, the company had violated 31 Federal safety requirements. 
State troopers found violations by the company in 36 of their 
53 inspections. A violation rate of 68 percent.
    So you have a company that has a terrible, terrible record, 
hiring a person who should never have been hired. The poor guy 
should have probably been in the hospital before the accident. 
He was in such bad shape, but he was driving on Mother's Day 
with a bunch of elderly people in a bus. It is not surprising 
that this happened.
    So the question is, what did we learn from this? It is even 
more tragic if we do not do anything about it. So we have got a 
number of bills, and let me just talk about that in general.
    The question is, where do we put this new agency? I think 
we would really have to take it out of the promotion end of the 
highways and put it somewhere else. My staff has suggested, the 
way it is now, it is kind of like the Maritime Administration 
doing the work of the Coast Guard. The Maritime Administration 
is supposed to support maritime transportation. The Coast Guard 
enforces the laws. But it would be really ironic if the 
Maritime Administration enforced the laws. It would not work 
very well.
    So the question, we have got the National Transportation 
Safety Board, we have got the National Highway Traffic Safety 
Administration, we have got the OMC, we have got all these 
alphabets out there, so what do we do? How do we construct 
this? I think Senator McCain has talked about creating a new 
agency or a new department. What are your suggestions about who 
should do the enforcement of the rules for this particular 
problem? Where do we put this? Any comments?
    Mr. Campbell.
    Mr. Campbell. Senator, I would be happy to comment. I think 
that a measure of what we do now with regard to who has 
oversight or who is responsible needs to be in anything that we 
do in the future. First and foremost, roadside inspections 
throughout this country are conducted--you heard Administrator 
Wykle talk about 2 million roadside inspections, and they 
characterize them as spot inspections, and they are anything 
but spot inspections now.
    They are not all level 1, which is a full inspection, where 
you look at every component on the vehicle, you actually 
measure the brakes, you look at everything that is involved 
with the driver, you look at his commercial driver's license, 
you look at his compliance with the hours of service 
regulations. We would like to say that every one of those 
inspections are that level of inspection. In all honesty, they 
cannot be done at the roadside in that formal a manner.
    But we need to have, as the heart and soul of any 
enforcement program, a continued effort at roadside 
inspections, conducted where those trucks operate. That is in 
the States and in the localities of this country.
    Senator Breaux. I understand what you are saying. I agree 
with that. My question is, who do we get to do that? Where do 
we put it?
    Mr. Campbell. We say it pretty strongly, that it needs to 
be a separate administration within the Department of 
Transportation. But it needs to be a separate administration, 
apart from the Federal Highway Administration, in our view. 
That is the way our people do those inspections every year. Our 
people are responsible for motor carrier safety in the States. 
They need to be in an administration in the Federal Government 
that has full responsibility for that activity, and not just 
highways or road building.
    Senator Breaux. Ms. Claybrook, you have been around this 
town and the Department. What do you think we ought to do with 
it?
    Ms. Claybrook. Well, first of all, we think there needs to 
be a change, without any question. It has to come out of the 
Federal Highway Administration. Several Secretaries of 
Transportation have recommended, over the years, that the 
Office of Motor Carriers be transferred to the National Highway 
Traffic Safety Administration, because it is the major agency 
doing surface transportation highway safety.
    The bill that is before the committee recommends creating a 
separate administration, but having some of the rulemaking and 
the technical work of data collection and research be conducted 
by the National Highway Traffic Safety Administration, and 
enforcement carried out, the on-the-road enforcement, the NAFTA 
enforcement, the compliance reviews and the penalty imposition, 
carried out by a separate administration.
    We do not necessarily oppose that. We think that the most 
important issue, if that is going to happen, is that it be 
clear that the recommendations of the Inspector General, which 
are quite extensive, be mandated by law to be carried out, so 
that this is not just moving a box into another box and the 
rulemaking work for in-service vhicles which the NHTSA is very 
expert at, and the data collection, which it has done the best 
job in the Department of doing, that that be carried out by 
NHTSA.
    The standards that are issued for on-the-road trucks are 
extensions, in most cases, of the new standards already issued 
by NHTSA for new trucks. In other words, when NHTSA issues a 
standard for an underride guard, then the on-the-road truck 
standard is to keep that in good working order. It is rarely to 
do something brand-new.
    So we feel that it makes a lot of sense, with NHTSA's 
expertise in issuing standards, to have the follow-through to 
the new vehicle standard be issued by the same agency. And it 
will be done on a more timely and effective basis. There have 
been years of delay.
    NHTSA has not been a perfect agency. Let me say that I have 
been a critic of it, both when I ran it and since I have left--
and before I went. So that is what our role is, is it not? But 
we do think that it has been a lot better than the OMC, and 
particularly in the technical rulemaking activity, the data 
collection and research.
    A major issue that we have recommended for the new 
administration that this bill would create is that there be 
clear conflict of interest standards. Because there have been 
tremendous conflicts of interest in the Office of Motor 
Carriers. The Inspector General and the GAO have documented 
these extensively.
    So we think that it is not just moving the box, but how you 
do that movement. The other statutory requirements--I know that 
Senator Snowe got a provision in law in 1995, requiring the 
issuance of an hours of service rule in a very timely manner, 
and it has not happened.
    The law has to be clear on its mandate to the agency. And I 
would urge that the recommendations of this panel be given 
serious consideration in the way you write the rules and the 
obligations of this new administration. But oversight by this 
Committee and others is very important, too. I think the I.G. 
has done an enormous service to you and to us for the work that 
he has done, bringing this all to our attention.
    Senator Breaux. Thank you. I also would commend that. Mr. 
Chairman, I do not think you were here when the I.G. testified, 
but they really did a fine job of looking at this and giving us 
some valuable suggestions, which is their role.
    I, for one, and I think many others, are not anxious just 
to go around creating more agencies or more boxes out there. We 
want to make sure that we give the people the tools to do the 
job, that they are not somehow lost in a bureaucracy that has a 
thousand other missions, and that safety is one of the missions 
way down on the bottom of their list and they wished it would 
go away. We have not given motor carrier safety the attention 
it deserves and the American public I think wanted it to have.
    Safety is such an important thing, and we have got to learn 
from these accidents that are occurring out there, and we need 
to do it better. Certainly, in many cases, better inspections 
and more enforcement would avoid a lot of people who are not 
here today because of an accident.
    Ms. Claybrook. Mr. Breaux, there was a terrible crash today 
on the interstate highway just outside of Washington, D.C., two 
trucks and a van. It has tied up traffic for 3 or 4 hours. So 
there are many, many costs to these truck crashes. As you know, 
in Virginia, just 2 months ago, traffic was stopped for a whole 
day because of hazardous cargo that was being carried.
    Senator Breaux. Yes.
    Ms. Claybrook. I would urge that the committee look at the 
relationship between the State rules and the Federal rules, as 
well, for intrastate traffic and interstate traffic. Because 
that is very relevant to making sure all the trucks on the 
highway are safe.
    Senator Breaux. I want to thank also the American Truckers 
Association and the Teamsters for I think a very positive 
statement about recognizing this, and not just opposition to 
any more changes. I think you all have been very positive in 
what you all have suggested, as well.
    I think, Mr. Chairman, clearly this is one of those rare 
issues that should not be Republican or Democrat. We should be 
able to do this in a bipartisan fashion, and work together on 
something like this. We should be able to get it done.
    I thank the panel very much.
    Senator Brownback. Thank you, Senator Breaux.
    In looking through some of the testimony that you put 
forward and listening to some of the testimony, I do not think 
anybody here, as Senator Breaux mentioned, would be or is 
opposed to increasing safety on the highways and clearly that 
provided by trucks. And we need to do that for the wrecks that 
happen out there.
    I would be curious, Mr. McCormick, from your perspective, 
what would be the single most important thing that we could do 
to improve safety amongst truckers and the trucking industry? 
And I am going to ask you, Mr. Bryant, that same question next.
    Mr. McCormick. Mr. Chairman, we believe that the reforms in 
this bill, the creation of a separate Motor Carrier 
Administration. We think that agencies do best when they have a 
core mission. And when people go to work, they say, What is my 
job?
    At the Federal Railroad Administration, it is: You make 
railroads safe. At the Federal Aviation Administration, it is: 
You make sure aviation is safe. At the Federal Transit 
Administration: You take care of transit. But with trucking, we 
do not have that. We need to have people who go to work each 
day and they say: ``I am responsible for trucking.''
    That is also why we believe that it should follow the model 
that has worked with the other modes, and that it should not be 
split between agencies, between a new Motor Carrier 
Administration and NHTSA. When the people at NHTSA go to work, 
they say: What is my job? They say: Well, it is automobiles and 
it is pedestrians.
    We want folks to know that if it comes to trucks and buses, 
it is the Office of Motor Carriers. And that is what this 
committee and this Congress is holding them accountable to.
    Senator Brownback. You believe that would be the most 
important thing we could do to increase safety?
    Mr. McCormick. We believe that is the single most important 
thing.
    Senator Brownback. Mr. Bryant.
    Mr. Bryant. Thank you. Let me first say that the unionized 
carriers participate in the random drug testing program. 
Drivers are chosen in a random pool. There is no way that a 
driver can get prepared in the event that he is positive for 
any kind of drug or alcohol. We have methods in the National 
Master Freight Contract to ensure that those guidelines are 
complied with.
    In respect to who should enforce these administrations, it 
is important that we have clear directives, whoever enforces 
them. The Teamsters supports a separate administration. The 
Teamsters also support an advisory committee, made up by people 
of everyday walks of life. It is important that the hands-on 
people have a say-so in what goes on.
    I can relate a story where 2 weeks ago I got a phone call 
from one of my drivers that was in Laredo, Texas. And he said: 
``Well, they are at it again.'' I said: ``What are you talking 
about?'' He said: ``Well, they are lining up on the other side 
of the border. The hotel is five stories tall.''
    The Mexican trucks line up on the other side of the border 
and wait for the Border Patrol inspection to close down. Once 
they close down, the Mexican trucks have free rein. There is a 
serious problem there, and it needs to be addressed. Those 
inspection stations should be open 24 hours a day.
    Senator Brownback. That situation has been reported, or 
that story, to the proper authorities, that that is the common 
operating procedure?
    Mr. Bryant. As far as I know. They only have hours to 
operate. And when those hours are over, they shut the system 
down, and it is just free rein across the border. There are no 
inspections going on.
    Senator Brownback. I would sure hope people are made aware 
of that when that happens, if that is a common operating 
procedure. That ought to be something that people could get a 
hold on pretty fast.
    Ms. Claybrook. Mr. Chairman, it has been in the media. It 
is very commonly known.
    Senator Brownback. Ms. Claybrook, what would you say? You 
have been both on the inside and outside. What is the single 
most important thing we could do?
    Ms. Claybrook. Well, I would say that the dilemma that 
faces both the enforcement people today, where they are 
located, and that I think is a conundrum for this committee, as 
well as for ourselves, is the huge number of trucking 
operations and the very small number of inspectors, 
unfortunately, that can inspect them. What do you do about 
that?
    Our view is that the way to start dealing with this 
terrible backlog is to focus on new entrants. New entrants are 
most over-involved in crashes. And we believe that there should 
be an entrance test, if you would, for new entrants, to make 
sure that those companies know what the rules and regulations 
are and what their obligations.
    Senator Brownback. That would be the lead thing you would 
suggest, so that new entrants would know and be aware?
    Ms. Claybrook. Well, yes. There are about 14,000 new 
entrants a year. And they can enter the business, and they are 
just in the mix of all the trucks and companies that there are 
on the road. We think that they ought to be selected out each 
year for an entrance exam, if you would, to enter into this 
business, because it is so important for safety. And they 
should be listed at the end of the first year for a compliance 
review.
    The focus of the agency's efforts should be on new 
entrants, because they are definitely the most over-involved in 
crashes. If they are given a tough entrance experience, then 
they are much more likely to both be aware and to behave. We 
think that that is an enormous focus that ought to be on the 
Federal agency's docket and also in the money that it gives to 
the States and for the State activity that is carried out.
    Senator Brownback. That is a good suggestion.
    Mr. Campbell.
    Mr. Campbell. Senator, I would agree by saying that if you 
held me to one suggestion and only one suggestion, it would be 
the establishment of a separate Motor Carrier Administration, 
closely followed by a new entrant program that would establish 
the safety procedures that a new entrant would have to follow 
and that the new entrant would have to lay out as to how they 
would comply with those regulations. And then, a methodology 
for going back and testing that.
    We have highlighted the specifics of how that program, in 
our view, should be operated in our full testimony. We believe 
that those are the two single most important things that you 
could do to impact safety.
    Senator Brownback. Mr. Sharpe, any other additions to those 
suggestions?
    Mr. Sharpe. I would like to just say I agree with the panel 
on that--with the last two members of the panel.
    One additional thing that I think has to be included in 
that is that the States' registration systems, and the entrance 
exams that are talked about here, have to include local input. 
For instance, if in fact there is a corporation that applies 
for a license, someone locally has to check and see if that 
corporation is in fact a viable entity. If someone operates 
under an assumed business name, those assumed business names 
have to be registered with the States.
    So all of this leads us to good demographics. Do you have a 
handle on who these operators are? What is their past 
experience? Have they been in business with another DOT number 
20 minutes ago, 2 days ago, a year ago? Did they have a problem 
there? Did they just simply change their name and start into 
another business?
    So the original MCMIS data base, the Motor Carrier 
Management Information System, that dates back into the early 
eighties, was designed as a census. It was not designed as an 
enforcement data base. So entry standards, I would say, are 
paramount.
    I come from an old Commerce Commission. We are the last ICC 
in the country. For the what-it's-worth department, this sounds 
a lot like regulation to me. Harkening back, entry standards 
were part of the regulatory structure. And safety fitness was a 
large part of the hearings we used to conduct on motor carrier 
entry. So there is a pattern there, and it is a way to look 
back and see history repeat itself there.
    Ms. Claybrook. I would add, Mr. Chairman, that the 
Inspector General mentioned before you came in today another 
factor that I think plays an important role in this whole 
enforcement problem. That is that there has to be consequences 
when violations are found. Today, often these penalties are 
either not imposed, they are not paid, or they are at the level 
of a cost of doing business. And unless you have a tough 
enforcement operation with sufficient penalties to get the 
attention of the companies that are violating the law, they are 
never going to bother to violate the law.
    And we know that, whether it is individuals who commit 
crimes or whether it is companies that commit crimes. So we 
believe that the tough enforcement has to be followed up with 
penalties that are sufficient. And if there is a second 
violation of the same problem, they ought to get a maximum 
penalty. They ought to get hit where it hurts--in the 
pocketbook--and then they will say: ``It is not worth the risk 
of continuing to behave this way.''
    Senator Brownback. Those are good suggestions.
    It has been an excellent panel. I want to thank the 
panelists for traveling here and providing your expertise to 
us, as well.
    With that, the hearing is adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]

                            A P P E N D I X

Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 
      Kenneth Wykle, Administrator, Federal Highway Administration

    Question 1. On page 9 of your testimony, you mentioned that 
the Department does not have licensing or registration 
authority over Mexican trucks traversing the U.S. that go to 
Canada. Don't you think this policy should be changed?
    Answer: Under current law, the Department has no authority 
to license or register a Mexican motor carrier using the United 
States essentially as a ``land bridge'' to reach Canada. 
Moreover, a 1943 treaty involving American automotive traffic 
provided the right for foreign carriers to ``circulate freely 
on the roads'' of the United States. Thus, carriers may operate 
anywhere in the United States to get from Mexico to Canada, so 
long as they meet insurance filing and safety requirements. A 
review of data currently available to us suggests that such 
foreign country to foreign country commercial crossing of the 
United States is highly infrequent. Because such transportation 
is infrequent, permitted by international law, and already 
subject to Federal and State safety laws and financial 
responsibility requirements, we do not, at this time, see a 
need for changing Federal policy in this area. However, we do 
intend to monitor this situation carefully.
    Question 2. One of the Department's goals is to increase 
the number of federal inspectors from 13 to 40 on the U.S. 
Mexico border. Do you really think this would be an adequate 
level of inspectors for the large amount of truck traffic 
coming across the border?
    Answer: The Office of Motor Carrier Safety (OMCS) currently 
employs 40 Federal safety inspectors at border locations. 
Thirteen were hired in 1995 and 1996. and twenty-seven were 
hired in June 1999. In FY 2000 Congress appropriated $816,000, 
which is used to support the twenty-seven recent hires. We will 
evaluate whether this is sufficient with the FY 2001 budget. 
The Office of the Inspector General has recommended that from 
73 to 126 Federal inspectors should be maintained at the 
border. Last May, former Congressman Norman Y. Mineta's review 
of the motor carrier safety program recommended an increase of 
50 Federal inspectors. While we continue to increase the 
Federal enforcement presence, we are equally committed to 
providing the States the resources they need for inspection 
facilities, additional inspectors, equipment, and 
implementation of electronic clearance technologies.
    So that we may better assess the number of inspectors 
needed, we have initiated discussions with the United States 
Customs Service to obtain crossing data to determine the number 
of vehicles that enter the U.S. Even though we have nearly 4 
million crossings per year, we know that many of the vehicles 
make 2-3 crossings per day. The information would enable us and 
the States to more effectively deploy inspectors at each port 
of entry.
    Question 3. I am very concerned about the safety issues 
associated with the cross-border trucking provisions of NAFTA. 
What is the Department of Transportation doing to insure that 
Mexican trucks are inspected and meet U.S. safety standards?
    Answer: The Department of Transportation has been working 
with the States, the Commercial Vehicle Safety Alliance (CVSA), 
the International Association of Chiefs of Police (IACP), and 
with Mexico to improve the safety infrastructure on both sides 
of the U.S.-Mexico border. We have initiated a variety of 
activities to increase truck safety at the Southern border. and 
we are committed to taking further actions in the months ahead.
    To step up State enforcement activities, we are providing 
special border grants to border slates. Since 1995, we have 
provided the border States with over $10 million in additional 
grants to conduct additional inspections, purchase equipment, 
conduct training, conduct education and outreach activities, 
purchase laptops and fund projects designed to improve data on 
Mexican carriers. TEA-21 continues the special funding to 
border states by authorizing the Secretary to dedicate up to  
percent of Motor Carrier Safety Assistance Program (MCSAP) 
funds for border commercial motor vehicle safety program and 
enforcement activities and projects through FY 2003. In fiscal 
year 1999, $4.5 million was made available to both the Southern 
and Northern border States on a competitive basis. Following is 
a summary of the amount awarded to each State that applied for 
the funds:


Texas:..................................................      $1,826,300
California:.............................................      $1,505,800
Arizona:................................................        $530,900
New Mexico:.............................................        $551,000
Washington:.............................................         $60,000
Vermont:................................................          $6,000



    In applying for the grants, States used performance-based 
principles to develop programs that address both the State and national 
safety concerns. The majority of the funds were used for personnel 
services to increase inspection and other compliance and enforcement 
activities. Other specific projects funded include: purchase of 
vehicles, laptop computers, and other equipment needed by inspectors; 
traffic enforcement activities; and development of software to 
integrate Mexican motor carriers into the existing automated pre-
clearance systems. Projects which lead to improved and more timely data 
and projects that include additional inspection activities will be 
given priority consideration in the distribution of FY 2000 special 
border enforcement grants.
    We are encouraging States to consider inspection facilities when 
applying for Federal funds under the National Corridor Planning and 
Development Program, the Coordinated Border. Infrastructure Program, 
and other Federal-aid programs. Approximately $7.1 million in Federal 
dollars was awarded in FY 1999 from the Border and Corridor Grant 
Programs for infrastructure improvements to support safety enforcement 
activities at the Southern border. The projects included:

        <bullet> Nogales, AZ-Site Development work for commercial 
        vehicle inspection and weighing-$2.5 million

        <bullet> California-Coordinated Border Transportation Study: 
        study of feasibility of new border crossing; planning for port 
        of entry improvements and planning for improving border 
        transportation efficiencies in the vicinity of Mexicali; and to 
        improve border transportation system with Baja California-
        $340,000

        <bullet> El Paso County, Texas - Border station improvements at 
        the International Bridge of the Americas in El Paso County-$2.4 
        million

        <bullet> Hidalgo, Texas (Port of Entry)-Construction of a 
        safety inspection facility, a bus processing center, 
        development of an electronic vehicle traffic management system, 
        and related improvements at three border crossing locations-
        $1.9 million

    The leveraging of the Federal-aid funds with the grants States 
receive under MCSAP and other TEA-21 discretionary programs should 
provide the States with a greater opportunity to expand their 
enforcement capabilities.
    To promote greater understanding and awareness of the U.S. safety 
standards, the OMCS and the CVSA worked through CVSA's International 
Affairs Committee to train Mexican civilian inspectors and law 
enforcement officials to perform driver and vehicle inspections using 
the North American Standards Inspection (NASI) procedures. The NASI 
procedures are the same procedures used to inspect commercial motor 
vehicles operating in the United States and Canada. The goal is to 
ensure that the majority of Mexican vehicles and drivers are in 
compliance with the safety standards even before they reach the border, 
and to achieve uniformity of inspection procedures throughout North 
America. We are also providing Mexico with technical assistance to 
develop information systems to improve its capabilities to monitor the 
safety compliance of its commercial vehicle operations. Once the 
systems and appropriate links are completed, the U.S. and Mexico will 
be able to exchange safety information about drivers, vehicles, and 
carriers.
    OMCS is considering three draft Notices of Proposed Rulemaking 
(NPRM) which would propose (1) to require an enhanced safety fitness 
showing by Mexican carrier applicants seeking authority under NAFTA, as 
well as for Mexican carriers operating in U.S. border commercial zones; 
(2) to reissue Certificates of Registration issued to border zone 
carriers to update our data base and discourage fraudulent use of the 
authorizations; and (3) to provide for an accelerated safety monitoring 
and enforcement program.

    Response to Written Questions Submitted by Hon. John McCain to 
   Jacqueline S. Gillan, Vice President, Advocates for Highway Safety
Thank you for your follow-up questions to the important hearing held by 
your committee on September 29, 1999. Advocates has provided detailed 
responses to your questions which consist of recommendations for 
strengthening S. 1501 to make it a comprehensive approach to motor 
carrier safety reform. We are prepared to supply additional materials 
and explanations on any topics discussed in our answers, as well as to 
respond to any other concerns you may have about allied issues. We are 
convinced that S. 1501, with modest changes, is a forward-looking bill 
which can save lives and prevent crashes on our streets and highways.

1. I would like each of the panelists to identify which provisions in 
S. 1501 they believe are key to improving truck safety and then to 
offer their suggestions for how the legislation might be further 
improved. 

    S. 1501 is an appropriate legislative response both to the problem 
of increasing truck crashes, deaths, and injuries as well to the 
declining quality of federal motor carrier safety oversight, 
regulation, and enforcement. There are important areas of motor carrier 
safety improvement which could be added to the bill. In some instances, 
these are modifications or extensions of existing provisions, and in 
other cases adding new provisions would further strengthen S. 1501. 
Advocates has specific language prepared for each of our 
recommendations.

Findings and Purposes.

        <bullet> Statement of Motor Carrier Safety Needs. S. 1501 
        currently has no overall assessment of the present condition of 
        motor carrier safety, including the unacceptable status of the 
        regulatory and enforcement responsibilities statutorily 
        assigned to the federal steward. Advocates recommends that the 
        fundamental concepts of Section 2 of H.R. 2679 as passed by the 
        House on October 14, 1999, be incorporated as a statement of 
        Congressional purpose for enactment of S. 1501. Characterizing 
        the basic goals and mechanisms of major legislation such as 
        this bill has significant impact on the force and effect of 
        mandatory provisions set forth in the body of the legislation 
        in a way that cannot be achieved with report language. A recent 
        example showing the important influence of a strong, 
        preliminary Findings and Purposes section is the Congressional 
        statement of the need to strengthen both national and State 
        hazardous materials regulation and oversight in the 1995 
        hazardous materials reauthorization bill as enacted.

Section 2. Establishment Of A Motor Carrier Safety Administration.

<bullet> Separate Motor Coach Safety Division. Subsection (d): This is 
a necessary and commendable charge to a new agency which is long 
overdue. However, amending the provision slightly to ensure that motor 
coach oversight includes the establishment of safety standards specific 
to the operation of motor coaches will appropriately refine the 
statutory direction to the Secretary in this important area of 
commercial motor vehicle safety.

National Highway Traffic Safety Administration Jurisdiction. Subsection 
(c)(2): The charge to NHTSA in administering certain after-market 
safety regulations needs to be made clearer because the term 
``retrofit'' does not accurately describe all the rulemaking areas for 
which NHTSA should be made responsible with regard to in-service 
commercial vehicles. These include safety standards governing retrofit, 
safety maintenance practices and components, and equipment performance 
of trucks, buses, trailers, and tractors on the road. Accordingly, 
Advocates suggests that 49 U.S.C.Sec.  30102(a)(9) be amended by 
changing the period after ``performance'' to a comma and adding: 
``including the equipment retrofitting, maintenance, or other safety 
performance enhancement of in-service vehicles greater than 10,000 
pounds gross vehicle weight or carrying 8 or more passengers and the 
driver.'' Also, 49 U.S.C.Sec.  31502(b)(1) is amended by striking the 
words ``and equipment of''; (b)(2) is amended by striking the words 
``,and standards of equipment of,''; (b)(3) is amended by striking the 
words ``and equipment.''

<bullet> Transfer of Office of Motor Carrier and Highway safety. 
Subsection (e)(1): This would transfer highway safety functions of the 
reorganized Office of Motor Carriers and Highway Safety (OMCHS), 
including the administration of, e.g., highway safety appurtenances as 
well as traffic engineering issues (the Manual on Uniform Traffic 
Control Devices), to the new Motor Carrier Safety Administration which, 
given the provisions in the remainder of the bill, is not the actual 
intent of the legislation. Highway safety and traffic engineering 
functions of the OMCHS should remain at the Federal Highway 
Administration because they address road design and safety oversight 
issues properly assigned to a highway authority.

Section 4. Administrative Improvements.

<bullet> List Inspector General Findings and Recommendations for 
Implementation. This provision could benefit from fine-tuning the 
charge to the Secretary by listing the specific recommendations of the 
Inspector General's (IG) April 1999 report. In addition, not all of the 
shortcomings identified by the IG needing action were formally 
enshrined as explicit recommendations. Finally, a number of major 
deficiencies in the OMCHS administration of federal motor carrier 
safety regulation and enforcement were identified in preceding reports 
issued over the past few years by the IG and the General Accounting 
Office. These include:

<bullet>  Motor Carrier Safety: Federal Highway Administration, TR-
1999-091.

<bullet> Motor Carrier Safety Program for Commercial Trucks At U.S. 
Borders, TR-1999-034.

<bullet> Motor Carrier Safety Program: Federal Highway Administration, 
AS-FH-7-006.

<bullet> Truck Safety: Motor Carriers Office's Activities to Reduce 
Fatalities Are Likely to Have Little Short-Term Effect, T-RCED-99-89.

<bullet> Truck Safety: Effectiveness of Motor Carriers Office Hampered 
By Data Problems and Slow Progress on Implementing Safety Initiatives, 
T-RCED-99-122.

<bullet> Truck Safety: Motor Carriers Office Hampered By Limited 
Information On Causes of Crashes and Other Data Problems, RCED-99-182.

<bullet> Commercial Passenger Vehicles: Safety Inspection of Commercial 
Buses and Vans Entering the United States From Mexico, RCED-97-194.

<bullet> Commercial Trucking: Safety Concerns About Mexican Trucks 
Remain Even as Inspection Activity Increases, RCED-97-68.

<bullet> Commercial Trucking: Safety and Infrastructure issues Under 
the North American Free Trade Agreement, RCED-96-61.

    If a specific listing of the recommendations and findings of the 
IG's April 1999 report is not possible, then Advocates strongly 
suggests that the bill (a) amend Sec. 4 to state ``the safety findings 
and recommendations provided for in the Department of Transportation 
Inspector General's Report . . .'' and (b) provided legislative report 
language to accompany the bill which refers the Secretary to these 
preceding IG and GAO reports for a comprehensive understanding of the 
measures necessary to ensure reform of federal motor carrier safety 
regulation and enforcement required through the creation of a new 
agency.

<bullet> Implementation Oversight. Three other changes would greatly 
benefit Section 4. First, Secretarial reporting to Congress on progress 
made in accomplishing the findings and recommendations of preceding IG 
and GAO reports should be governed by a deadline. Advocates suggests 
February 1, 2001. Second, the Secretary should be required to file a 
report with Congress a few months before the deadline stating which 
actions have been taken in accordance with these findings and 
recommendations, such as by October 1, 2000, and which actions will not 
be accomplished by the deadline, the reasons for not meeting the 
deadline, and the date by which completed action can be expected. 
Third, the IG should be made an active part of the ongoing oversight of 
the new agency's progress in meeting the safety goals of the IG and GAO 
reports. The IG should be charged with reviewing the agency's actions 
on a semi-annual basis and reporting its findings and recommendations 
to the Secretary and to the Congressional committees of jurisdiction in 
both houses.

<bullet> Office of Inspection General Semiannual Enforcement Audit. 
With regard to a statutorily guaranteed role for IG continuing 
oversight of the actions of the new federal motor carrier safety 
steward, Advocates endorses Section 208, Subsection (e) of H.R. 2679 as 
passed by the House on October 14, 1999, which requires a semiannual 
audit by the IG specifically of the quality of the enforcement effort 
undertaken by the new federal steward. Congress needs an independent 
assessment of the extent to which the federal enforcement authority is 
imposing fines and other penalties which are commensurate with the 
severity of violations, which make significant inroads on the large 
backlog of violations, and which provide measurable deterrent effects 
on the willingness of drivers and carriers to commit violations of the 
safety regulations.

Section 5. Improvements To The Commercial Drivers License Program. 

<bullet> Commercial Driver Disqualifications. S. 1501 would benefit 
from the carefully drawn provisions of Section 201 of H.R. 2679 as 
passed by the House on October 14, 1999. which identifies serious 
driver offenses not previously contained in federal law and regulation. 
These are important controls on driver abuses which formerly had no 
federal sanctions for such violations.

<bullet> Definition of Imminent Hazard. Two different definitions of 
imminent hazard are currently used in motor carrier transportation 
statutes. The hazardous materials-related definition in Title 49 
U.S.C.Sec.  5102(5) refers to a safety or environmental ``condition 
that presents a substantial likelihood that death, serious illness, 
severe personal injury'' may occur before the ``completion date of a 
formal proceeding'' brought by the Government to lessen the hazardous 
condition. This definition requires a high burden of proof because the 
safety or environmental hazard will not occur immediately, but at some 
time in the future, i.e., during the weeks or months required to 
complete a formal proceeding. Although the hazard is ``imminent,'' the 
provision does not require the immediate cessation of the activity to 
protect the public. Moreover, this definition is tied to the 
commencement of a civil action in federal court under 49 U.S.C.Sec.  
5122. The Government has more time to meet the demanding burden of 
showing that the condition presents a substantial likelihood of death 
or serious illness or injury.

    By contrast, the definition of imminent hazard found in Title 49 
U.S.C.Sec.  521(b)(5)(B), refers to safety hazards that threaten to 
cause death or injury if not ``discontinued immediately.'' Currently, 
Sec.  521(b)(5)(B) defines an imminent hazard as any ``condition of 
vehicle, employee, or commercial motor vehicle operations which is 
likely to result in serious injury or death if not discontinued 
immediately.'' The word ``likely'' imposes a burden on the Secretary to 
establish that the hazard results in serious injury or death more often 
than not. Section 521(b)(5)(A) requires that the Secretary of 
Transportation, on finding an imminent hazard, place a vehicle or 
driver Out Of Service, or order the employer to cease operations. This 
provision focuses on emergency situations and conditions that must be 
dealt with summarily, through immediate discontinuance of activity, in 
order to protect public safety. Enforcement takes place at the scene, 
and review of Out Of Service orders or orders to cease operation are 
only permitted subsequent to the enforcement action. The immediate 
nature of safety hazards addressed by Sec.  521(b)(5), as well as the 
summary nature of the enforcement actions required by that provision, 
necessitate that the definition of the term ``imminent hazard'' as used 
in Sec.  521(b)(5) require a lower burden of proof than the definition 
specified in Sec.  5102(5).
    These issues need to be viewed against the problems occasioned by 
Section 214 of H.R. 2679, as passed on October 14, 1999. Section 214 of 
H.R. 2679 would amend existing language in Sec.  521(b)(5)(B) by 
striking ``is likely to result in'' and substituting ``substantially 
increases the likelihood of'' death or serious injury if not 
discontinued immediately. This wording, which is similar to the wording 
in Sec.  5102(5) (''presents a substantial likelihood''), imposes far 
too high a burden of proof on enforcement officers1 and severely limits 
the discretion of the Secretary to take quick action to protect public 
safety. The proposed substitute wording means that not only must a 
dangerous condition be ``likely'' to result in death or serious injury, 
but also requires additional proof that the condition ``substantially 
increases'' the likelihood of death or serious injury before 
intervention by law enforcement authorities is permissible. This 
wording ties the hands of law enforcement and can result in even fewer 
Out Of Service orders when dangerous conditions are found.
    Further, Section 201 of H.R. 2679 mistakenly links the emergency 
disqualification of drivers to the definition of imminent hazard found 
in Sec.  5102(5). This linkage is inapposite, since the definition in 
Sec.  5102(5) is specifically geared toward hazardous material-related 
safety risks that will occur at some point over a prolonged time span, 
referencing the completion of legal proceedings. The legal proceedings 
contemplated in Sec.  5102(5) are civil actions filed in federal 
district courts under 49 U.S.C.Sec.  5122. Since section 201 of H.R. 
2679 provides authority for the temporary emergency disqualification of 
drivers for 30 days, and is unrelated to hazardous materials transport, 
the citation to Sec.  5102 is erroneous and should instead cite 49 
U.S.C. Sec.  521.
    Given these considerations, Section 110 of S. 1559 offers a 
definition of ``imminent hazard'' which is simply unworkable. The 
proposed wording would impose a very high standard on the Secretary to 
show that an ``imminent hazard'' could likely result in a crash if 
operation of the vehicle is not discontinued within 24 hours. This has 
been interpreted in S. 1559, the U.S. Department of Transportation bill 
introduced by Senator Lautenberg, to mean that ``the Secretary must 
demonstrate that a crash could happen in the next 24 hours without 
corrective action.'' Such a specific, hard number time frame imposes a 
new requirement that is impossible to sustain against legal challenges. 
In addition to requiring that a crash is probable, this provision would 
require additional evidence that it is likely to occur within 24 hours 
of the discovery of the safety violation. Such prognostication is 
beyond the capability of law enforcement authorities and is not a 
reasonable requirement. Alternatively, if the proposed wording is 
interpreted to mean that the enforcement action, not the crash, has to 
occur within 24 hours in order to avoid an imminent hazard, the 
Secretary, in that case, would have to prove that a failure to act 
within 24 hours would in fact result in a crash. This also imposes a 
burden that cannot be met since it requires proof of a contrary-to-fact 
conditional if a carrier is stopped from operating.
    Rather than raising the burden of proof beyond what is currently 
required, i.e., that a condition be likely to result in death or 
serious injury, 49 U.S.C. Sec.  521 should be amended in S. 1501 to 
provide greater enforcement discretion to the Secretary. The definition 
of imminent hazard should allow enforcement action even when the chance 
that a hazardous condition will result in serious injury or death is 
higher than normally encountered. Advocates strongly recommends that S. 
1501 adopt a definition of ``imminent hazard'' in Sec.  521(b)(5)(B) as 
a condition of a vehicle, employee, or operation that presents a 
``reasonable possibility'' of serious injury or death if not 
discontinued immediately. This provides the Secretary and law 
enforcement personnel the flexibility necessary to protect public 
safety in emergency circumstances without the need to establish that 
serious injury or death is probable.

<bullet> Unique commercial driver personal identifier. There should be 
a provision requiring the Secretary to establish requirements in a time 
certain for the states to use unique, fraud-proof personal identifier 
(not necessarily a biometric identifier) in order to prevent illegal 
issuance and use of Commercial Driver Licenses (CDL).

<bullet> Out-Of-Service Order Violation Records. Subsection (a)(6): 
There should be a provision complementing the prohibition on masking or 
expunging driver records pursuant to the violations delineated in 49 
U.S.C. Sec.  31310 which specifically directs the Secretary to ensure 
that the 10-year record of violations currently required in federal 
regulations for tracking driver Out-Of-Service (OOS) orders is 
maintained by the States. Neither the States nor FHWA have been 
maintaining the necessary 10 years of OOS order records which control 
license suspension, revocation, and driver disqualification for 
violations of the Federal Motor Carrier Safety Regulations. According 
to both federal and state officials, thousands of drivers who have 
repeatedly violated OOS orders continue to drive with impunity, 
although these commercial operators should have had their driving 
privileges suspended or revoked. Since Section 6 of S. 1501 directs 
major reform of data acquisition and transmittal systems to ensure 
timely electronic recordation and retrieval for, among other things, 
ensuring careful oversight of the CDL program, asking the States and 
federal government to maintain the necessary 10-year records for OOS 
order violations would not be burdensome.

<bullet> Merger of Commercial Driver License With Medical Certificate. 
Subsection (c)(1): Integration of medical certificates with the CDL is 
highly desirable, but additional language needs to be provided which 
requires the renewal cycle for medical certificates in each State to 
coincide with the renewal cycle for CDLs. In many States, the federal 
medical certificate can expire prior to CDL expiration (e.g., the 
driver fails the physical examination and is not reissued a valid 
medical certificate). The result is drivers taking their chances in 
driving without a valid medical certificate until their CDL comes up 
for renewal.
    Also, although (c)(1) mandates the initiation of a rulemaking to 
provide for integration of the medical certificate with the CDL, it 
does not require the Secretary to issue a final rule nor does it 
establish a deadline for completing rulemaking. Advocates suggests that 
(c)(1) be amended to state that a final regulation shall be issued no 
later than 18 months following enactment of this legislation.
<bullet> National Medical Provider Registry Rulemaking. Subsection 
(c)(2): The problem of no mandated final regulation and no rulemaking 
completion date also needs to be corrected for this provision 
establishing a national registry of preferred medical providers to 
conduct examinations of commercial drivers.
 Commercial Driver Training And Certification. There should be a 
provision requiring the Secretary to establish entry-level and advanced 
endorsement commercial driver training standards as a condition for 
taking the CDL test in each State. Inadequate training especially of 
young, new commercial drivers is a major reason for the high crash 
rates of entry-level drivers. Moreover, the special endorsement tests 
for driving Longer Combination Vehicles (LCVs), tank trucks, and 
vehicles carrying placarded quantities of hazardous materials are 
knowledge examinations without demonstration of driving skills. 
Commercial drivers should be required to be trained in safely operating 
all vehicles requiring additional endorsements as a condition for 
taking the special endorsement tests.

<bullet> Commercial Driver Safety Standards Proficiency Examination. 
There also should be a provision requiring CDL applicants to 
demonstrate their adequate understanding of the Federal Motor Carrier 
Safety Regulations through a proficiency examination. The current CDL 
test is a multiple-choice examination which does not demand a 
demonstration of actual applicant familiarity with the Federal Motor 
Carrier Safety Regulations.

<bullet> Improved Commercial Driver And Motor Carrier Oversight and 
Enforcement. Including H.R. 2679 Sec. 201(a), (b), (c), and (d) in S. 
1501 will increase the safety of commercial drivers by ensuring 
national uniformity of the disqualification period, specifying new 
serious traffic violations overlooked in current federal law and 
regulation, and providing for the immediate cessation of an imminent 
hazard. However, the definition of ``imminent hazard'' in Sec. 201(b) 
must be amended to cite the proper section of Title 49 (Sec.  
521(b)(5)(B)) and to establish a realistic, flexible standard for the 
Secretary's application of enforcement authority to protect public 
safety, as explained in our discussion above on pages 3-5.

<bullet> Extending The Commercial Driver License To Drivers Of Trucks 
Less Than Twenty-Six Thousand Pounds Gross Vehicle Weight. S. 1501 and 
H.R. 2679 together substantially strengthen the CDL program, close 
remaining loopholes, and, in the process, increase the disparity of the 
stringency of licensure for commercial vehicles greater than 26,000 
pounds gross vehicle weight with the current licensing requirements for 
non-CDL operators of commercial vehicles in interstate commerce. In 
many states operators of commercial vehicles between 10,001 and 26,000 
pounds gross vehicle weight are required to have only a passenger 
vehicle or chaffeur license to operate a medium truck. In the last 
several years, the contribution of medium trucks to annual commercial 
vehicle fatalities has risen disproportionately to the point where they 
are responsible for nearly one-third of the more than 5,300 deaths. 
Advocates strongly recommends that S. 1501 include a provision 
directing the Secretary to conduct rulemaking to determine the benefits 
of extending the CDL requirements to drivers of commercial motor 
vehicles between 10,001 and 26,000 pounds gross vehicle weight.

Section 6. Improved Data Collection And Motor Carrier Safety.

<bullet> Ensuring The Role Of The National Highway Traffic Safety 
Administration. Subsection (f): Although prior subsections of Section 6 
explicitly assign responsibility for improved data acquisition and 
analysis to NHTSA, this subsection, preceded by a funding subsection 
(e) which appears to conclude the enumeration of NHTSA's 
responsibilities, can easily be interpreted as a charge to the 
Secretary which does not include delegation to NHTSA for the 
development with the States of a uniform system for electronic 
transmission of commercial driver violation data. This should be 
clarified, preferably in the provision itself, to ensure that NHTSA is 
legislatively authorized for all motor carrier-related data gathering 
and oversight.

<bullet> Use Of National Data Banks And Reform Of The Commercial Driver 
Licensing Information System. Inclusion of H.R. 2679 Section 206 would 
further strengthen the goals and mechanisms of Sections 5 and 6 because 
Section 206 ensures that states access national, uniform driver record 
data banks (the National Driver Register and the Commercial Driver 
Licensing Information System (CDLIS)) rather than requesting the 
driver's violation record only from the State issuing the CDL. Section 
6 of S. 1501 would ensure reform of CDLIS.

<bullet> Bar Against Enforcement Use Of Electronically Recorded Data. 
Subsection (g)(1): This subsection goes beyond the provision of Privacy 
Act protection and effectively bars enforcement authorities from 
accessing and relying on electronically recorded data monitoring 
commercial motor vehicle compliance with the Federal Motor Carrier 
Safety Regulations (such as conformity to commercial driver hours of 
service limits), as well as compliance with other federal laws and 
regulations governing routing restrictions, and size and weight limits. 
The provision could be interpreted to prevent the discovery and use of 
such data for forming charges, and assessing civil and criminal 
sanctions, against a commercial driver or motor carrier. As a result, 
the subsection essentially legislates that enforcement authorities 
maintain a pre-electronic data posture in documenting violations. This 
means relying only on paper receipts, paper logbooks, and other non-
electronic evidence. FHWA and State enforcement officials have 
repeatedly shown that both paper logbooks as well as supplementary 
paper documentation are easily and widely falsified. This kind of bar 
would also thwart the National Transportation Safety Board's 
recommendations for the explicit use of recorders to abate safety 
standards violations. Accordingly, this provision needs significant 
clarification to ensure that the kinds of data we refer to above will 
be accessible by enforcement authorities for determining regulatory 
violations and assessing penalties while appropriate privacy protection 
for individuals is secured. Furthermore, the establishment of a privacy 
policy in statute should not be indexed to agency regulatory policies 
but should independently state the specific sphere of interests to be 
protected. If certain agency privacy protection policies are considered 
salutary, these should be mentioned only in an accompanying legislative 
report.

Section 7. Commercial Motor Vehicle Safety Advisory Committee.

<bullet> Advisory Committee. Subsection (b): This kind of generic 
advisory committee is ill-suited to perform the highly detailed and 
technical work of a specially empaneled negotiated rulemaking committee 
which must be composed of specialized experts in a specific area of 
expertise. In addition, Subsection (b) would permit such a committee to 
intervene during active rulemaking, thereby triggering a violation of 
the Administrative Procedures Act (APA) in certain circumstances. 
Advocates recommends that the culminating phrase of the subsection ``by 
utilizing negotiated rulemaking procedures'' be struck.
Other Provisions:

Several other provisions could substantially strengthen S. 1501 by 
making it more comprehensive and effective in advancing motor carrier 
safety reform.

<bullet> Conflicts of Interest. As pointed out in September 29, 1999, 
testimony presented before the Subcommittee on Surface Transportation 
and Merchant Marine, FHWA has regularly awarded major research and 
study contracts to arms of the regulated industry to conduct sensitive 
research directly affecting the regulation of the industry. Much of 
this research has been poorly done and FHWA has even been warned by the 
Secretary's office not to continue conducting certain invalid research 
investigations and not to rely on their conclusions for forming motor 
carrier safety policy. However, the agency has persisted in allowing 
industry to conduct research impacting federal rulemaking in sensitive 
areas, such as commercial driver hours of service requirements. S. 1501 
should contain a strong provision barring research contracts bearing on 
agency safety regulation and policy from being awarded to industry and 
its affiliates, or to any other person or organization receiving 
significant financial support from the industry.

<bullet> Minimum Penalties Assessed For Safety Regulation Violations. 
The IG's April 1999 report carefully documents the poor enforcement 
record of FHWA in assessing penalties for violations, including the 
imposition of penalties in only a small percentage of cases or lowering 
penalty amounts to nominal sums which can be regarded by motor carriers 
as only incidental costs of doing business. S. 1501 would amply 
reinforce a new federal steward's enforcement authority and provide 
strong deterrent value of fine assessments by including a provision 
which mandates the imposition of at least one-half of the maximum 
penalty currently listed in the schedule of fines in 49 U.S.C. Sec.  
521. Moreover, repeat violations should automatically trigger the 
application of the maximum fine amount. Allowing the federal 
enforcement authority unfettered discretion to impose penalty amounts 
can result again in low sums assessed for violations which creates a 
scofflaw environment because carriers believe that the financial 
consequences of enforcement actions can be disregarded.

<bullet> New Motor Carrier Applicants For Interstate Operating 
Authority. At the present time, there are no requirements in federal 
law and regulation for applicant motor carriers to demonstrate their 
familiarity with the Federal Motor Carrier Safety Regulations and to 
provide assurance that they have functioning safety management 
programs. It is well known, as verified by FHWA, that new motor 
carriers have the highest rates of safety regulation violations in the 
early stages of operation because of their lack of knowledge about the 
regulatory compliance responsibilities accompanying an award of 
interstate operating authority. Interstate operating authority 
applicants should be required to demonstrate proficiency in the 
understanding and application of the safety regulations in an 
examination and to file a safety management plan with the federal 
steward for approval as conditions for an award of operating authority. 
In addition, motor carriers should be required periodically to refile 
updated management schemes for approval in order to sustain their 
operating authority. Finally, new carriers awarded operating authority 
should undergo a full federal safety compliance review no later than 
one year after beginning interstate operations. These controls are 
crucial because a new federal authority needs to control the safety 
quality of new motor carriers given the enormous backlog of unrated, 
misrated, and obsolete rated motor carriers.

<bullet> Interstate-Intrastate Motor Carrier Safety Law And Regulation. 
According to the National Transportation Safety Board, about half of 
all fatalities in the U.S. involving commercial motor vehicles are the 
product of crashes by intrastate-only carriers. Unfortunately, many 
states have significantly weaker safety requirements for in-state motor 
carriers even though, in some cases, annual mileage and risk exposure 
for many intrastate carriers are the same as some interstate carriers. 
Despite often lower safety standards for such areas as in-state 
licensure, medical qualifications, and hours of service limits, all 
states currently qualify for federal funds under the Motor Carrier 
Safety Assistance Program (MCSAP). S. 1501 should either amend 49 
U.S.C. Sec.  31104 to ensure that State requirements for intrastate 
motor carriers conform to the Federal Motor Carrier Safety Regulations 
or include a provision directing the Secretary to conduct rulemaking to 
increase the compatibility of intrastate commercial motor vehicle 
safety law and regulation with federal safety standards. It should be 
noted that Congress in the Hazardous Materials Transportation Safety 
Act of 1990 directed that the states conform their intrastate hazardous 
materials laws and regulations to the federal model in order to ensure 
increased public safety. This admirable goal is just as applicable to 
general freight transportation given the disproportionate contribution 
of truck crashes to the annual death and injury toll on our highways.

<bullet> Certification Of Corrections Of Safety Violations By Motor 
Carriers. Currently, there is no system of verifying that safety 
violations detected by State and Federal enforcement authorities are 
actually corrected by changed management practices, as in the case of 
carrier violations of hours of service requirements, or by appropriate 
repairs of components and operating systems of commercial vehicles 
which directly affect operating safety and are the subjects of roadside 
inspections and Out Of Service orders. The federal steward, Congress, 
and the public need assurance that defects identified by safety 
inspectors are corrected in a timely manner. Accordingly, a provision 
should be included in S. 1501 which requires each State on an annual 
basis to submit appropriate certification with supporting information 
that it has ensured timely correction and repair of safety violations 
cited as the result of vehicle and driver inspections carried out with 
funds authorized under 49 U.S.C. Sec.  31104. This certification system 
could operate similar to the one in place for State vehicle size and 
weight certification pursuant to 23 U.S.C. Sec.  141.

<bullet> Registration Enforcement. Advocates supports inclusion of the 
purposes of Section 210 of H.R. 2679 in order to abate the increasing 
number of verified instances of carriers operating illegally because of 
a failure to possess proper registration, including foreign carriers 
operating illegally outside the boundaries of the U.S. southern border 
zone. However, we believe that the Secretary shall place any carrier 
out of service in new 49 U.S.C. Sec.  13902(e)(1) which is operating 
without evidence of proper registration. We note here that a passenger 
vehicle driver without proof of registration is not allowed to operate 
the vehicle under the Manual of Nationally Uniform Traffic Laws and 
Ordinances. Given the disproportionate risks associated with commercial 
vehicle operation, no commercial driver should be permitted to continue 
operating a large truck or bus without proper registration and should 
immediately be placed out of service unless and until such proof of 
legal registration is forthcoming.

<bullet> School Bus Commercial Driver License Endorsement. Inclusion of 
the basic concept of H.R. 2679 Section 202 requiring minimum testing 
standards for operating a school bus and the addition of a special 
endorsement to the existing roster of additional CDL endorsement is an 
important safety provision. However, the examination and special 
endorsement should be required just as the current endorsements are 
mandatory for those operating motor coaches, tank trucks, Longer 
Combination Vehicles, and vehicles transporting placardable quantities 
of hazardous materials. In addition, the endorsement should require 
both a knowledge test and a skills test because the current motor coach 
endorsement requires both.

Question 2. Would each of the panelists please provide the Committee 
their thoughts on the Administration's truck safety proposal introduced 
by Senator Lautenberg. I would be specifically interested in knowing 
which provisions you believe should be most closely considered by the 
Committee as we work toward a final truck safety bill.
Advocates has found a number of excellent provisions in Senator 
Lautenbergs bill, S. 1559, which, in some cases with a few recommended 
changes, would increase the comprehensive treatment of motor carrier 
safety reform in S. 1501. We list and discuss these provisions below:

<bullet> Section 102(c). Drug- Or Alcohol-Related Violations. This 
subsection prohibits any commercial license applicant from being 
awarded a new or renewed CDL if the applicant has been convicted within 
the previous three years of a drug- or alcohol-related traffic 
violation whether in a commercial or other vehicle. A strong provision 
like this simultaneously prevents higher risk applicants from securing 
CDLs and operating large trucks and buses, as well as providing 
deterrence of controlled substance and alcohol abuse by those desiring 
to operate large commercial vehicles with CDLs. The provision should be 
extended, however, to cover all commercial vehicle operators, including 
drivers of trucks between 10,001 and 26,000 pounds gross vehicle weight 
in interstate commerce. Advocates urges inclusion of Section 102(c), 
with these changes, in S. 1501.

<bullet> Section 105. On-Board Recorders. Directs the Secretary, after 
notice and opportunity to comment on a proposed rule, to issue 
regulations requiring installation of on-board recorders or other 
technologies on commercial motor vehicles to manage the hours of 
service of drivers. Although Advocates strongly supports mandatory on-
board recorders and other technologies, this provision would require 
amendment to ensure that enforcement authorities were enabled to 
retrieve and use commercial vehicle electronic data to gather evidence 
and assess penalties for violations of the Federal Motor Carrier Safety 
Regulations. As drafted, the provision is easily read as only mandating 
these technologies for management purposes by motor carriers without 
authorizing the use of such data for determining regulatory compliance. 
Advocates would support amendment of this provision to ensure access 
and use of on-board recorder, GPS system, and other technologies data 
for federal and state enforcement purposes, and its inclusion in S. 
1501.

<bullet> Section 106. Driver Compensation And Safety Study. This 
provision directs the Secretary to conduct a study identifying methods 
of commercial driver compensation and how they each affect motor 
carrier safety and federal safety regulatory compliance. However, 
contrary to the gloss provided for Section 106, it does not require an 
evaluation of the safety and compliance effects of the Fair Labor 
Standards Act of 1938 (29 U.S.C. Sec.  201 et seq.) . Advocates 
believes that this study is very important to reform of driver 
compensation systems which encourage systematic violation of hours of 
service restrictions, falsification of paper logbooks, and widespread 
commercial vehicle speed zone violations because commercial drivers are 
primarily paid by the mile. Advocates supports this provision for 
inclusion in S. 1501 and recommends that it specifically direct the new 
agency to study the effects of the Fair Labor Standards Act and to 
forward the findings and recommendations to Congress.

<bullet> Section 108. Periodic Refiling Of Motor Carrier Identification 
Reports. The provision directs the Secretary to amend the Code of 
Federal Regulations to require both foreign and domestic motor carriers 
to refile the forms verifying their continued or lapsed interstate 
operations. Carriers frequently cease business operations, yet are 
still listed in federal and state records as active interstate 
carriers. Periodically updating the interstate motor carrier census 
will enable the new federal motor carrier safety authority to know 
which carriers are actually in business. Advocates urges inclusion of 
this provision in S. 1501.

<bullet> Section 112. Research On Heavy Vehicle Safety And Driver 
Performance. Advocates strongly supports this dedicated funding for 
targeted research to be conducted by NHTSA on heavy vehicle safety, 
specifically on the key factors leading to truck and bus crashes or 
increasing their severity, including braking capabilities, static roll 
stability, and heavy vehicle aggressivity amelioration to reduce the 
severity of crashes with smaller vehicles. However, we believe that the 
separately specified study of driver performance should focus solely on 
improving driver skills and behavior in the operation of commercial 
motor vehicles, not all vehicles. This provision supplies important 
funding for commercial vehicle research which has been chronically 
underfunded at NHTSA.

Question 3. Recently, the DOT-IG found that 68 Mexican-based carriers 
were operating in the U.S. beyond the permitted commercial zones. 
According to the IG, roadside inspections were performed on the 68 
Mexican-based carriers at least 100 times in 24 states beyond the US-
Mexican border. I would like each of the panelists to comment on the IG 
findings and to offer their suggestions on what should be done to 
address these disturbing findings.

    Answer. Advocates agrees that these systematic and widespread 
violations of the commercial zone at the U.S.-Mexican border show that 
a scofflaw attitude is beginning to be manifested by some Mexican 
trucking businesses. Only stern measures will abate these violations. 
We suggest the following actions:

1. Border inspection, including review of Mexican registration, proof 
of surety/insurance, manifests, and bills of lading, must be radically 
increased in order to deter carriers from operating beyond the border 
zone.
2. As we argue above in our evaluation of Section 210 of H.R. 2679, 
carriers found to be operating outside the legal scope of their 
registration, such as intrastate-only carriers found to be operating in 
another state or foreign carriers currently restricted to operating 
only in the narrow commercial zone at the U.S.-Mexican border, or with 
expired registration or no on-board proof of registration, shall 
immediately be placed out of service. Also, violations should be 
charged and adjudicated under strict liability. In the case of carriers 
which are unable to provide any legal registration for their operations 
or which are operating illegally, vehicles should be impounded. Owners 
who can eventually provide proof of registration showing the legality 
of their operations should be able to move these commercial vehicles 
under their own power after payment of appropriate fines. Owners who 
cannot demonstrate the legality of their operations should be 
prosecuted, fined, and any vehicles and drivers allowed to return to 
legal domiciles only through other methods of transport -- these trucks 
or buses may not be driven, and the drivers associated with the 
violations may not drive these or other commercial vehicles.
    If these severe penalties were applied in all violation instances 
described above under the doctrine of strict liability, there would be 
substantial deterrence of similar violations.

Question 4. As you know, S. 1501 proposes to transfer FHWA's Office of 
Motor Carrier and Highway Safety to the new agency. I would be 
interested in receiving each panelist's view on whether the Office in 
its entirety should be moved or if safety would be better served by 
retaining some of the highway safety functions with FHWA?

    Answer. Advocates found the original FHWA reorganization plan to be 
both defective and poorly rationalized when it was first placed into 
effect more than a year ago. The reorganization simultaneously demoted 
motor carrier safety to a lower program stature within the agency and 
commingled its clear statutory mission with highway safety design and 
traffic engineering functions which are not directly relevant to its 
regulatory and enforcement responsibilities. The chief functions of the 
Office of Highway Safety, primarily oversight of state highway and 
traffic safety engineering and operations, including funding of hazard 
elimination projects and revision of the national Manual on Uniform 
Traffic Control Devices, should be retained at FHWA. Only core motor 
carrier safety functions, without the additional compromise of 
responsibility for industry economic regulation and oversight, should 
be the focus of the new safety agency.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John McCain to Kenneth 
          Wykle, Administrator, Federal Highway Administration

    Question 1. In late May, Secretary Slater announced a Departmental 
goal of reducing commercial vehicle-related deaths by 50 percent in the 
next 10 years. Obviously, this is a significant goal that cannot be 
easily accomplished. In fact, with the exception of 1998 statistics, 
truck-related fatalities have been rising in recent years while the 
fatality rate has remained relatively consistent.
        (a) Other than your sanction proposal to take away highway 
        funding and penalizing states that don't reduce commercial 
        vehicle-related fatality rates by five-percent a year, what 
        specific actions has the Department taken since this May 
        announcement and what else is planned? Perhaps this Committee 
        should consider a sanction against DOT if it doesn't reduce 
        commercial vehicle-related fatality rates by five-percent a 
        year, since you seem to think such an approach is good for the 
        states? Should DOT's budget be cut by each percentage point 
        reduction it misses?
        (b) What type of communications have taken place since the May 
        announcement between the Department and the States in an effort 
        to help reduce truck and bus accident fatalities?
    Answer: (a) The Administration proposed in Section 104 of the Motor 
Carrier Safety Act of 1999 to redistribute unused Federal-aid highway 
obligation limitation as an incentive to States to reduce the number of 
fatalities that result from large truck and bus crashes. Thus, our 
proposal should not be viewed as a sanction. Our intent was never to be 
punitive. We believed the proposal would encourage States to model 
their programs after those of other States who discover ways to achieve 
safety improvements. Under current law, obligation limitation is 
subject to lapse if the Department or a State does not use it before 
the end of the fiscal year. The limitation is redistributed annually to 
those States that can obligate funds before the end of the fiscal year. 
Section 104 would amend existing law to create an incentive for States 
to reduce the number of fatalities and provide additional obligation 
authority to further improve the condition and safety of their roads.
    Described below are actions taken by the Department since May to 
improve motor carrier safety. Some of the Department's anticipated 
actions are also identified.

    Administrative and Legislative Actions Completed 

        <bullet> Hired and trained 27 new roadside inspectors to 
        increase the enforcement presence along the Southern border.

        <bullet> Added 10 new safety investigators for non-border 
        locations, who are now in training and will be in the field by 
        the end of December 1999.

        <bullet> Requested an annual $55.8 million supplemental 
        appropriation to fund increased enforcement, improved data and 
        technology deployment.

        <bullet> Proposed the Motor Carrier Safety Act of 1999, which 
        would have required, among other things, additional training 
        for new carriers and drivers, improvements to the Commercial 
        Driver's License program, regulations for on-board recorders, 
        improvements to motor carrier information systems, and 
        additional funding for enforcement.

    Rulemakings Actions Completed 

        <bullet> Issued NPRM on unfit carriers to reflect TEA-21 
        enforcement provisions (August 1999).

        <bullet> Issued NPRM on new TEA-21 definition of a passenger 
        carrier (September 1999).

        <bullet> Issued NPRM on driver CDL disqualification for 
        railroad grade crossing violations (September 1999).

        <bullet> Issued final rule requiring carriers to maintain 
        trailers with rear underride guards (September 1999).

    Enforcement Actions Completed 

        <bullet> Increased the number of reviews per investigator by 59 
        percent, with a goal of 4 to 5 reviews per investigator per 
        month.

        <bullet> Reduced the overall backlog of enforcement cases by 
        over 66 percent.

        <bullet> Implemented higher civil fines and penalties for 
        violations of the Federal Motor Carrier Safety Regulations 
        (FMCSRs), incorporating the changes in the Uniform Fine 
        Assessment model accessible to the safety investigators via 
        laptop computers.

        <bullet> Limited negotiated settlements for safety violations 
        resulting in fine settlements doubling from an average of 
        $1,600 per case to approximately $3,200 per case.

        <bullet> Established progressive sanctions for repeat 
        violators.

    Data and Information Systems Actions Comnleted 

        <bullet> Provided funding to NHTSA to undertake a truck crash 
        causation study.

        <bullet> Developed a new truck crash investigation data 
        collection course for police officers; currently completing a 
        pilot program.

    Rulemakings Actions Anticipated 

        <bullet> Issue rules required by the Motor Carrier Safety 
        Improvement Act of 1999.

        <bullet> Issue an NPRM on driver hours-of-service regulations.

        <bullet> Complete the zero-base review of the Federal Motor 
        Carrier Safety Regulations. This is a complete revision of the 
        existing rules to provide clarity and to simplify the 
        requirements where possible.

        <bullet> Establish a Unified Carrier Register (UCR) that 
        replaces the carrier registration system, the former ICC's 
        licensing and insurance system, and the Single-State 
        Registration System. The UCR is a single, Federal on-line 
        system that identifies interstate and intrastate motor 
        carriers, shippers, brokers, and freight forwarders.

        <bullet> Propose training requirements for entry-level drivers 
        of commercial motor vehicles and training standards for 
        multiple trailer combination vehicle drivers.

        <bullet> Propose a revised safety rating process.

    Enforcement Actions Anticipated 

        <bullet> Expeditiously implement the enforcement provisions in 
        the Motor Carrier Safety Improvement Act of 1999.

        <bullet> Completely eliminate the current backlog of 
        enforcement cases by January 1, 2000.

        <bullet> Create a new entrant program to ensure safety 
        compliance by new motor carriers.

        <bullet> Expand the PRISM program, linking State vehicle 
        registration and safety fitness to approximately 20 States by 
        the end of FY 2000. The program tracks high-risk carriers from 
        initial identification through the compliance review. 
        Progressive sanctions are applied if safety improvements are 
        not made.

        <bullet> Monitor progress of enforcement actions to ensure 
        consistency with guidelines and a high level of enforcement.

        <bullet> Provide MCSAP incentive funding to States to increase 
        compliance reviews performed by States, roadside inspections, 
        and traffic enforcement.

        <bullet> As required by TEA-2 1, complete an assessment of the 
        extent of shipper involvement in safety violations and provide 
        Congress with an implementation plan.

    Data and Information Systems Actions Anticipated 

        <bullet> Expand the on-going OMCS/NHTSA commercial driver 
        history initiative to improve the completeness and accuracy of 
        driver history files and the exchange of the information 
        between State agencies and among States.

        <bullet> Provide a crash investigation course to State police 
        to improve crash investigation data collection.(b) The Office 
        of Motor Carrier Safety has issued specific guidance to the 
        States regarding formulation of their Commercial Vehicle Safety 
        Plans. That is, the primary focus of any State plan is the 
        reduction of fatal accident numbers, fatal accident rates, and 
        the adoption of programs that meet specified safety performance 
        criteria. In addition, in a series of meetings held across the 
        nation, OMCS headquarters and field staff have personally met 
        with all State MCSAP administrative personnel to further 
        emphasize the need to focus on crash reduction. The Acting 
        Director, OMCS, and other headquarters staff have addressed 
        State MCSAP personnel at two CVSA conferences, and conducted 
        workshops related to MCSAP and accident/fatality reduction. 
        OMCS headquarters staff meet periodically with CVSA staff to 
        develop enforcement and education strategies designed to 
        achieve further accident reductions.

    Question 2. Please provide for the Committee a status report on the 
DOT's implementation of each of the safety recommendations outlined in 
the JG's April report. Also, when should the Committee expect the 
recommendations to be fully implemented? 
    Answer: Provided below are the 010 recommendations from its April 
report number TR-1999-091 and the status of action taken on the 
recommendations. The Motor Carrier Safety Improvement Act of 1999 
provides new authority and additional resources to help the OMCS and 
the new FMCSA implement the OJG recommendations. The Department hopes 
to implement the recommendations as soon as possible in FY 2000 in 
accordance with the Act and will provide regular reports on progress 
being made.

    Recommendation A1. Obtain Departmental approval to revise the motor 
carrier safety goal to substantially reduce the absolute number of 
deaths per year.
    Status: The Department's FY 2000 performance plan was revised on 
April 14, 1999, to include the absolute number of deaths per year.

    Recommendation A2. Strengthen its enforcement policy by 
establishing written policy and operating procedures to take 
enforcement action against motor carriers with repeat violations of the 
same acute or critical regulation. Strong enforcement actions would 
include assessing fines at the statutory maximum amount, the issuance 
of compliance orders, not negotiating reduced assessments, and when 
necessary, placing motor carriers out of service.
    Status: Enforcement guidance was issued in April 1999 and June 1999 
to double the number of compliance reviews performed by safety 
specialists and increase penalties provided in TEA-21. OMCS established 
a repeat violators policy and limits negotiated settlements except in 
unusual circumstances. OMCS issued an NPRM in August 1999 on the TEA-21 
shutdown authority.

    Recommendation A3: Remove all administrative minimum fines placed 
in the Uniform Fine Assessment (UFA) program and increase the maximum 
fines to the level authorized by TEA-21.
    Status: Guidance was issued in June 1999 that updates the Uniform 
Fine Assessment (UFA) model with the TEA-21 fine schedule, including 
progressive sanctions for repeat violators. The Motor Carrier Safety 
Improvement Act of 1999 recommends the establishment of minimum civil 
penalties for violations.

    Recommendation A4. Establish stiffer fines that cannot be 
considered a cost of doing business and, if necessary, seek appropriate 
legislation raising statutory penalty ceilings.
    Status: OMCS updated the UFA model with the TEA-21 fine schedule 
and set progressive sanctions for repeat violators with an effort to 
obtain settlement for the full amount of assessment. OMCS will continue 
to monitor the appropriateness of fine levels.

    Recommendation A5. Implement a procedure that removes the operating 
authority from motor carriers that fail to pay civil penalties within 
90 days after final orders are issued or settlementagreements are 
completed.
    Status: The Motor Carrier Safety Improvement Act of 1999 includes 
authority to take strong sanctions against carriers that fail to pay 
civil fines. This will be implemented as quickly as possible.

    Recommendation A6. Establish criteria for determining when a motor 
carrier poses an imminent hazard.
    Status: An NPRM on the new shutdown authority was issued August 
1999. In addition, the Motor Carrier Safety Improvement Act of 1999 
revises the definition of imminent hazard.

    Recommendation A7. Require follow-up visit and monitoring of those 
motor carriers with a less-than satisfactory safety rating, at varying 
intervals, to ensure that safety improvements are sustained or, if 
safety has deteriorated, that appropriate sanctions are invoked.
    Status: A key feature of the nationwide implementation of the 
Performance and Registration Information Systems Management (PRISM) 
program is the Motor Carrier Safety Improvement Process (MCSIP). This 
process was adopted in all PRISM States and their companion Division 
offices, including a monitoring program and a progressive sanction 
program. The MCSJP tracks high-risk carriers through compliance reviews 
and applies progressive sanctions, if safety improvements are not made. 
Additional funding was requested by the Administration to rapidly 
expand PRISM. An eight month follow-up is required for those carriers 
with an enforcement case. In addition, carriers with unsatisfactory 
safety ratings will be subject to shutdown orders under TEA-21.

    Recommendation A8. Establish a control mechanism that requires 
written justification by the OMCS State Director when compliance 
reviews of high-risk carriers are not performed.
    Status: Each State Director is expected to complete reviews on all 
high-risk carriers identified by SAFESTAT prior to the next SAFESTAT 
list. A review may not be performed if the carrier has been subject to 
a review within the previous 12 months. If a review is not performed on 
a high-risk carrier, the Director must have evidence of corrective 
action by the motor carrier. Completion of compliance reviews on all 
high-risk carriers is monitored by headquarters.

    Recommendation A9. Establish a written policy and operating 
procedures that identify criteria and time frames for closing all 
enforcement cases, including the current backlog.
    Status: Enforcement guidance has been issued on enforcement cases. 
To date the OMCS has reduced the overall backlog by over 66 percent.

    Recommendation B1. Require applicants requesting operating 
authority to provide the number of commercial vehicles they operate and 
the number of drivers they employ and require all motor carriers to 
periodically update this information.
    Status: OMCS has a pending rulemaking that, among other things, 
would propose requiring applicants for operating authority to submit a 
Motor Carrier Identification Report, Form MCS-150, with the application 
to capture vehicle and driver data. The Motor Carrier Safety 
Improvement Act of 1999 requires that motor carriers update their motor 
carrier identification report one year from enactment. Also, to ensure 
that the information is updated periodically, the OMCS is implementing 
the PRISM program. States participating in PRISM require carriers to 
update their MC-150 annually when their commercial vehicles are 
registered.

    Recommendation B2. Revise the grant formula and provide incentives 
through the Motor Carrier Safety Assistance Program grants for those 
States that continue to report accurate, complete and timely commercial 
vehicle crash data, vehicle and driver inspection data, and traffic 
violation data within a reasonable notification period, such as one 
year.
    Status: The OMCS issued the March 1999 MCSAP Notice of Proposed 
Rulemaking to encourage States to meet the target deadlines for 
reporting accurate, complete, and timely data, and the final MCSAP rule 
is now being prepared.

    Recommendation B3. Withhold funds from the Motor Carrier Safety 
Assistance Program (MCSAP) grants for those States that continue to 
report inaccurate, incomplete, and untimely commercial vehicle crash 
data, vehicle and driver inspection data, and traffic violation data 
within a reasonable notification period, such as one year.
    Status: In some cases, the lead enforcement agency which receives 
the MCSAP funding is not the same State agency that collects the data. 
In such cases it can be difficult for the State agencies to correct 
data problems. OMCS is examining how withholding of MC SAP funds could 
be used in appropriate cases. In addition, OMCS is taking steps to 
amend the MCSAP formula to provide incentives for better data. OMCS 
hopes to avoid the possible consequence of reducing enforcement.

    Recommendation B4. Initiate a program to train local enforcement 
agencies for reporting of crash and roadside inspection data, including 
associated traffic violations.
    Status: OMCS has been working with the State of Minnesota to create 
a crash investigation course for police to improve crash investigation 
data collection. OMCS will offer the course more broadly in FY 2000. 
Courses directed at MCSAP personnel are open to local enforcement 
agencies, space permitting. Study of crash reporting problems in the 10 
worst reporting States and in the 10 largest States has been completed. 
Forty States have submitted crash data improvement plans.

    Recommendation B5. Standardize OMC and NHTSA crash data 
requirements, crash data collection procedures, and reports.
    Status: OMCS and NHTSA have been working together for several years 
to standardize a core set of data elements that each State would 
include on their police crash reports. This effort, the Model Minimum 
Uniform Crash Criteria, would enhance crash data for both agencies. 
State training in the use of criteria will begin in FY 2000.

    Recommendation B6. Obtain and analyze crash causes and fault data 
as a result of comprehensive crash evaluations to identify safety 
improvements.
    Status: OMCS and NHTSA have an interagency agreement to conduct a 
large truck crash causation study within the framework of the NHTSA 
National Automotive Sampling System. This effort will collect detailed 
truck crash data and build a heavy truck crash data base. The crash 
causation feasibility study was completed by NHTSA in August 1999. Data 
collection methods and forms are now in development and crash data 
investigations will begin in pilot States in June 2000. In addition, 
the Motor Carrier Safety Improvement Act of 1999 and the FY 2000 DOT 
Appropriations Act provide special funding to build a large truck crash 
data base with NHTSA.

    Question 3. The Administration's truck safety legislation 
introduced by Senator Lautenberg includes a provision seeking to 
mandate the use of on-board recorders to enforce federal hours-of-
service regulations.
        (a) Doesn't the Department currently have legal authority to 
        carry out such a directive and how does your proposal differ 
        from the voluntary pilot program you have entered into with 
        Werner Enterprises?
        (b) S. 1501 would direct the Secretary to establish a 
        department-wide policy to ensure the protection of privacy for 
        any individual or entity utilizing electronic recorders or 
        other technology to monitor vehicle and operator performance. 
        This policy is expected to be similar to the protections 
        already afforded users and owners of flight data recorders and 
        other voice recorders. What is the Administration's view on 
        this proposal?
    Answer: (a) We have the authority to propose and subsequently 
require on-board recorders after going through a notice and comment 
rulemaking. However, we believed an expression of Congressional intent 
on this highly debated issue would be valuable and would aid the 
Department's efforts. The pilot demonstration project in which Werner 
Enterprises participates is totally voluntary and intended primarily to 
test whether the potentially less time consuming method of recording 
drivers' work/rest schedules (in lieu of paper logbooks) is also 
effective and practical from a regulatory compliance verification 
viewpoint. To date, those results have been positive, but comparatively 
few carriers are opting for this method of compliance verification.
    (b) The Department strongly supports the safeguarding of individual 
privacy and agrees that privacy issues should be addressed in each mode 
with the expanding utilization of electronic recorders or other 
technologies. However, such policies cannot effectively be developed or 
applied on a Department-wide basis. In fact, the most fair and 
effective privacy protections may be those developed with attention to 
unique operating requirements and conditions of individual modes. We 
believe the presently drafted language on this issue, which extends the 
same privacy policies developed for cockpit voice recorders or flight 
data recorders, is inappropriate for application to other types of 
electronic recorders which could legitimately and appropriately be used 
to verify that drivers of large trucks and buses adhere to reasonable 
hours-of-service requirements.

    Question 4. TEA-21 required, among other things, that all 
commercial vans carrying more than 8 passengers be covered by most 
federal motor carrier safety rules by June 1999, except to the extent 
DOT exempts operations as it determined appropriate via rulemaking. I 
understand DOT failed to issue an implementing rule by the June 
deadline and is not enforcing the law in this regard.
    As you know, there have been a number of deadly accidents involving 
these vans ``the so-called camionetas'' particularly in the border 
states of Texas and Arizona. Further, TEA-21 wasn't the first effort to 
get unsafe ``camionetas'' off the road. Let me remind you that FHWA was 
directed to address this van safety issue 4 years ago as part of the 
ICC Termination Act of 1995. The TEA-21 provision was included out of 
frustration over the lack of action by the Department to regulate these 
vehicles. I continue to be concerned that DOT--the agency that 
repeatedly reminds Congress and the public that safety is its ``NORTH 
STAR''--is still not regulating these potentially deadly vehicles, and 
instead, has actually ``exempted'' the entire class of vehicles from 
regulations until further notice.
    When can we expect DOT to uphold the law and require these van 
operations to comply with our federal safety regulations? And, why 
should we approve your request for more authority when you won't act on 
the safety authority you already have including specific mandatory 
directives?
    Answer: Understanding the serious concerns about the length of time 
it has taken to address this issue, the Department will move as 
expeditiously as possible to complete the rulemaking for small 
passenger vans as required by the Motor Carrier Safety Improvement Act 
of 1999.

    Question 5. I am sure you won't be surprised to hear that truckers 
across the nation are very concerned over FHWA's lack of timely action 
to revise the 60-year-old federal hours of service regulations. Despite 
the technological advancements and dramatic changes in the motor 
carrier industry, those rules have remained largely unchanged after all 
these years. In addition to the National Transportation Safety Board's 
repeated call for the department to develop new hours of service rules 
that reflect current research on truck and bus driver fatigue, the ICC 
Termination Act of 1995 required the Department to issue an Advance 
Notice of Proposed Rulemaking (ANPRM) by March 1996 and a final rule by 
March 1999, although those deadlines were not met.
    There have been a number of press reports that the Department 
already has developed its proposal and the alleged revisions that some 
truckers are hearing about have them up-in-arms. Safety groups are also 
complaining about proposals circulating at DOT.
    What should we expect in the Department's proposed rule to revise 
these regulations and when should we expect it?
    Answer: The Department's proposed rule will emphasize increased 
opportunities for rest, address circadian rhythm concerns, consider 
flexibility for different types of motor carriers, and address various 
record keeping methods.
    We are working diligently to complete this important proposed rule, 
with a goal of publishing it in the Federal Register in 2000.

    Question 6. I understand the Administration has not embraced the 
idea of establishing a separate motor carrier safety agency. But in the 
event a separate agency is established, we certainly want to consider 
the Administration's views as extensively as possible. S. 1501 proposes 
to transfer the responsibilities of FHWA's Office of Motor Carriers and 
Highway Safety to the new agency. Since FHWA had recently restructured, 
creating that office through the merging of two separate offices, it 
seems reasonable to move the Office in its entirety given the recent 
merging, but I am certainly open to considering the views of others. In 
your view, should FHWA's highway safety activities be transferred or 
should they remain at FHWA? Please include in your response a 
description of how the recent merger of FHWA's Office of Motor Carriers 
with the Office of Highway Safety has affected motor carrier safety in 
the short term.
    Answer: The Department of Transportation supports the creation of a 
new Administration for motor carrier safety and is actively working 
toward the January 1, 2000 date for establishment of the Federal Motor 
Carrier Safety Administration (FMCSA), as required by the Motor Carrier 
Safety Improvement Act of 1999.
    On October 9, prior to enactment of H.R. 3419--the Motor Carrier 
Safety Improvement Act of 1999, the Department established a separate 
Office of Motor Carrier Safety (OMCS), which did not include the 
highway safety functions. The Department strongly recommends that 
highway infrastructure safety activities remain with FHWA to ensure 
that infrastructure safety is adequately addressed in delivery of the 
national highway program. FHWA, along with NHTSA, is responsible for 
achieving a 20 percent reduction in highway-related fatalities and 
injuries in 10 years (by 2008). The 1998-1999 merger of the FHWA's 
Offices of Motor Carriers and Highway Safety, although brief, provided 
positive benefits for both groups. FHWA Office of Highway Safety staff 
are now more aware of truck-related safety issues and their 
relationship to the highway infrastructure. The Office of Motor Carrier 
Safety staff are now more informed about infrastructure issues 
including single vehicle run-off-the-road crashes, speed-related 
crashes, and pedestrian crashes and the role large trucks play in these 
priority safety areas. In addition, the significant involvement of 
large trucks in highway-rail grade crossing crashes and work zone 
crashes are areas where cooperative efforts will continue to focus on 
improving highway safety.

    Question 7. How do you explain the IG's findings that Mexican 
trucks have been found traveling in 24 states beyond the border? Is the 
Department taking any action on this? What specific actions have the 
Department taken to address the IG's findings and what future 
initiatives are planned?
    Answer: The IG's findings reaffirm our assessment that a more 
aggressive enforcement program is needed to make certain the Mexican 
trucks are properly registered and do not operate outside the scope of 
their registration. Currently, we initiate enforcement cases on 
carriers found to be operating outside the scope of their registration 
or found to be operating without registration. Carriers are subject to 
civil penalties and loss of operating privileges. We are considering 
additional enforcement options, and supported provisions in the Motor 
Carrier Safety Improvement Act of 1999 to provide authority to deny 
entry of all carriers that are not properly registered, assess higher 
penalties, and place vehicles out-of-service if they are found 
operating outside the scope of their registration authority. However, 
in order to be effective, it is essential that our state MCSAP partners 
become more fully involved in the effort to detect and deal with 
Mexican carriers operating outside border commercial zones.
    We should also note that a limited group of Mexican carriers have 
authority to operate outside the commercial zones. Under current law, 
the Department has no authority to license or register a Mexican motor 
carrier using the United States essentially as a ``land bridge'' to 
reach Canada.
    Moreover, a 1943 treaty involving American automotive traffic 
provided the right for foreign carriers to ``circulate freely on the 
roads'' of the United States. Thus, carriers may operate anywhere in 
the United States to get from Mexico to Canada, so long as they meet 
insurance filing and safety requirements. A review of data currently 
available to us suggests that such foreign country to foreign country 
commercial crossing of the United States is highly infrequent. In 
addition, a small number of Mexican carriers obtained authority to 
operate in the U.S. before the issuance of the moratorium established 
in the Bus Regulatory Reform Act of 1982, and U.S.-owned, Mexican-
domiciled carriers are permitted to operate in the U.S. if carrying 
cargo under certain circumstances. Finally, Mexican passenger carriers 
conducting international charter and tour bus operations may operate in 
the U.S. pursuant to the first entry provision of the North American 
Free Trade Agreement.

    Question 8. Please provide the Committee with an update on the 
Department's efforts to establish the uniform registration system 
required by the ICC Termination Act of 1995. When can we expect the 
system to be in operation?
    Answer: Before the operating authority/insurance database which 
supports Motor Carrier number issuance can be combined with the Motor 
Carrier Management Information System (MCMJS) Census database which 
supports USDOT number issuance, a rulemaking must be conducted to 
define the functions the unified registration system will be required 
to perform.
    Assuming no major adjustments, we would expect the system to be in 
place 1 year after a final rule was published.
    The following steps have already been taken towards satisfying the 
requirements for a Unified Carrier Register:

        <bullet> An Internet web site is now available for public 
        access that provides the operating authority and insurance 
        status information for individual for-hire motor carriers. This 
        provides a method for the States to do insurance verification 
        which serves the central function of the SSRS.

        <bullet> We are now in the process of redesigning the MCMIS so 
        that it will be operated on a system compatible with the 
        licensing and insurance system. The software currently in use 
        on the MCMIS is not transferable to the licensing and insurance 
        system or vice versa. Upon completion of the new system design, 
        all of the programming code for the hundreds of MCMIS support 
        programs will be rewritten to operate on the new system. This 
        will allow the two systems to be combined when the rulemaking 
        is complete.

        <bullet> We are also in the process of identifying the 
        differences in the MCMIS and licensing databases and getting 
        the mechanisms in place to resolve them. We have developed 
        programs which have resolved tens of thousands of records 
        between the two databases. However, additional work will be 
        required and is ongoing to resolve differences such as current 
        names, addresses, etc. for thousands of remaining carriers that 
        automated programs could not resolve.
                                 ______
                                 
Response to Written questions Submitted by Hon. John McCain to Kenneth 
     M. Mead, Inspector General, U.S. Department of Transportation
    Question 1. S. 1501 proposes to transfer the responsibilities of 
FHWA's Office of Motor Carrier and Highway Safety to a new Motor 
Carrier Safety Administration. Since FHWA had recently restructured, 
creating that office through the merging of two separate offices, it 
seems reasonable to move the office in its entirety given the recent 
merging, but I am certainly open to considering the views of others. In 
your view, should FHWA's highway safety activities be transferred or 
should they remain in FHWA?
    Answer: The reorganization of the Federal Highway Administration 
merged the Offices of Motor Carriers and Highway Safety and 
consolidated their functions. Prior to October 9, 1999, OMCHS was 
responsible for developing regulations and policies and providing 
guidance for the motor carrier and highway infrastructure safety 
programs, including highway and ramp design functions. However, highway 
design issues are not unique to commercial vehicles. We believe the 
functions of highway safety that relate to highway safety design for 
all vehicles, should remain with FHWA.
    Question 2. One provision in S. 1501 which has received some 
attention concerns the transfer of commercial vehicle safety retrofit 
authority from FHWA to the National Highway Traffic Safety 
Administration. Although this provision was not part of the 
recommendations included in your report, it has been suggested by 
others involved in highway safety. What are your views regarding the 
proposal?
    Answer: We believe that this proposal would allow the National 
Highway Traffic Safety Administration (NHTSA) to more efficiently 
conduct cost benefit analyses associated with rulemakings and more 
effectively gauge the impact of those rulemakings on the motor carrier 
industry. It should also result in quicker implementation of safety 
requirements for in-service trucks. However, we are concerned that this 
change could harm the timeliness of NHTSA's rulemaking and we would 
want to see provisions made for meaningful and timely input by the 
Motor Carrier Safety Administration in advance of issuing draft and 
final rules.

    Question 3. I want to ensure this legislation is not misconstrued 
as largely expanding the size of the federal bureaucracy and as such, 
included language in the bill to cap funding and personnel. Can you 
offer any additional suggestions for helping ensure this new entity is 
established with as little additional expense to the American taxpayers 
as possible?
    Answer: Yes, the Congress should direct that most administrative 
services such as personnel, financial, etc., be obtained from other 
Operating Administrations that already have established systems, 
including FHWA. Congress should require periodic reporting from the new 
Motor Carrier Safety Administration to monitor the number of staff 
assigned to the organization's primary safety mission.

    Question 4. I am very concerned about the safety issues associated 
with the cross-border trucking provisions of NAFTA. Last December, your 
office issued a critical report on the Department's safety program for 
commercial trucks along the U.S.-Mexican border. The report cited that 
``far too few'' trucks were being inspected and ``too few'' of the 
inspected Mexican trucks met U.S. safety standards. More recently, you 
reported that Mexican trucks were found traveling widely throughout the 
United States. In fact, you found Mexican carriers in 24 states beyond 
the border.
        (a) How has the Department responded to your December report?
        (b) Are you aware of any actions the Department has taken in 
        response to the identified shortcomings?
        (c) Could you provide any additional comments on your findings 
        of the Mexican trucks traveling beyond the commercial zones?
    Answer: (a) The Department submitted a written response to our 
December report on February 1, 1999. The response did not address, with 
any specificity, two of the recommendations regarding increasing the 
number of inspectors and inspection facilities at the border. A 
significant increase is urgently needed in the number of inspectors, 
the number of trucks inspected, and the hours of inspection coverage to 
make sure trucks entering the United States from Mexico are safe. OMC 
and the border States point to each other as having responsibility for 
inspecting trucks entering the United States.
    (b) Following our report, the Department:

        <bullet> increased the number of inspectors at the U.S.-Mexico 
        border from 13 to 40 by adding 27 temporary inspectors in 
        Texas;

        <bullet> provided some portable buildings and computer 
        equipment; and

        <bullet> drafted a rulemaking on the application process for 
        Mexican carriers to obtain U.S. operating authority, the 
        establishment of distinct U. S. Department of Transportation 
        identification numbers and the accelerated monitoring and 
        oversight of the Mexican carriers operating outside the 
        commercial zones.

    (c) Mexico-domiciled motor carriers are operating improperly in the 
United States and violating U. S. statutes by operating outside the 
commercial zones and by not obtaining the required operating authority 
to operate in the United States. Adequate fines are not being levied 
against these motor carriers who are discovered operating outside their 
operating authority. These unauthorized motor carrier operations are 
occurring because an effective oversight system with adequate control 
mechanisms is not in place to ensure compliance with U.S. statutes. We 
are preparing a report on these issues and will provide this Committee 
a copy of the report in early November.

    Question 5. In addition to the matters discussed during today's 
hearing, are there other issues that you would like to bring to the 
Committee's attention that should be considered as we move forward with 
motor carriers safety legislation?
    Answer: Yes, there are several.
    First, increase driver accountability. Make the driver responsible 
for inspecting the truck just like a pilot must do for the aircraft. 
The driver must be held accountable for ignoring safety deficiencies. 
By implementing this requirement, both the company and the driver could 
be sanctioned for out-of-service violations related to vehicle 
condition.
    Second, require periodic inspections. Require all trucks to undergo 
an independent inspection not less than annually, similar to the 
requirements that exist for automobiles in some states. Companies 
determined to have good safety inspection processes could be certified 
to self-inspect their vehicles and perhaps those of other companies as 
well.
    Third, adopt a 60-mile-per-hour maximum truck speed, nationwide. 
There is no national speed limit. The impact of a full ``18-wheeler'' 
weighing as much as 80,000 pounds hitting another vehicle, perhaps an 
automobile or a minivan weighing about 3,000 pounds, at a speed greater 
than 60 miles per hour is often fatal. Some of the largest trucking 
companies in the United States support a truck-speed limit of 60 or 
lower.

    Question 6. It has been suggested that motor carrier safety 
legislation should mandate that new carriers demonstrate knowledge of 
truck safety regulations prior to being granted authority to operate 
and once in operation, such carriers should be more closely monitored 
than operators already on the road. What is your view of such a 
proposal?
    Answer: We support this proposal. Past FHWA research has indicated 
that new motor carriers registering with the Department have, on 
average, higher crash rates and are less likely to comply with safety 
regulations. Establishing minimum standards for new entrants into the 
motor carrier industry to ensure the safety fitness of new carriers is 
a positive step toward improving safety and reducing fatalities 
involving large trucks.

    Question 7. I understand that a recent Order by a U.S. District 
Court concerning a motor carrier suspected of engaging in criminal 
activities may affect your Office's authority to continue investigative 
work in this area. Please provide to the Committee the circumstances 
surrounding this specific Order and its potential impact on future 
investigations by your office.
    Answer: We received a referral from the Office of Motor Carriers 
regarding alleged criminal violations by a motor carrier based in 
Arizona, including alleged systemic falsification of drivers' hours-of-
service records (drivers' logs).
    A U.S. Magistrate Judge in Arizona approved a search warrant that 
was executed by special agents from our office. Subsequently, the motor 
carrier moved to quash the search warrant and demanded return of the 
seized evidence. The Magistrate Judge concluded that our agents did 
have the necessary authority to conduct such criminal investigations 
and recommended that the District Court deny the motor carrier's 
motion.
    Unfortunately, the District Court Judge did not agree with the 
Magistrate's recommendation and he issued an Order on September 22, 
1999, stating that we did not have the authority to conduct this type 
of criminal investigation because the motor carrier did not directly 
receive DOT funds nor were they suspected of being in collusion with 
DOT employees. The Judge ruled that the search warrant was improperly 
issued and he ordered the evidence returned. The motor carrier has 
agreed to stay return of the evidence pending probable appeal of the 
Order.
    We are urging the Department of Justice to appeal this Order, which 
we believe is contrary to the IG Act and DOT Orders, as well as recent 
legal decisions, including a similar case decided last year by a 
District Court in Iowa.
    Since January 1997, criminal investigations conducted by our 
special agents have resulted in more than one hundred indictments and 
convictions and almost $5 million in fines, restitution and recoveries 
in the area of Motor Carrier Safety and the illegal transportation of 
Hazardous Materials. 
    In the area of Unapproved Aircraft Parts, another of our priority 
criminal investigative programs, we also obtained hundreds more 
convictions and $65 million in fines, restitution, and recoveries since 
1990.
    Most of our investigations are based on referrals from Departmental 
and state regulators. We work with other federal, state, and local law 
enforcement agencies in criminally investigating and prosecuting 
criminal elements which defraud DOT's safety programs through false 
certifications and statements.
    The Order itself only affects cases in Arizona, of which there are 
few. However, it has the potential of adversely impacting our future 
investigations by inviting further challenges. About half of our cases 
involve fraud against DOT programs where federal funds are not involved 
nor are there allegations of criminal relationships between non-
Government entities and DOT employees. These cases involve parties 
subject to DOT regulations which make false certifications or 
statements to DOT pursuant to the safety regulations. Any challenges 
similar to what we face in Arizona would have the potential of impeding 
our investigations in the area of public safety.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John McCain to David S. 
Addington, Senior Vice president and General Counsel, American Trucking 
                              Associations

    Question 1. I would like each of the panelists to identify which 
provisions in S. 1501 they believe are key to improving truck safety 
and then to offer their suggestions for how the legislation might be 
further improved.
    ATA Response: The American Trucking Associations, Inc. (ATA) 
strongly supports enactment of legislation to create within the U.S. 
Department of Transportation a separate trucking administration focused 
on strengthening safety in the trucking industry as the industry 
strives to meet America's economic needs. In 1998, the vast majority--
82 percent--of the country's freight transportation bill was for 
trucking. Although the trucking industry is the country's most 
important provider of freight services, the U.S. Department of 
Transportation (DOT) lacks a trucking administration that corresponds 
to the separate DOT administrations for the rail industry, air 
industry, and ship industry. Enactment of a final version of S. 1501/
H.R. 2679 will remedy this shortcoming in the organization of the 
Department of Transportation and ensure that the DOT can focus properly 
on the safety and other issues important in the trucking industry.
    The ATA views the following provisions of S. 1501 as introduced as 
key to trucking safety and related matters:
        Section 2--Establishment of a Motor Carrier Safety 
        Administration. Section 2 of S. 1501 achieves the vital goal of 
        establishing a separate trucking administration within the U.S. 
        Department of Transportation. The ATA strongly supports the 
        Senate approach of specifying the functions, powers and duties 
        of the separate trucking administration by reference to 
        existing provisions of law, without the introduction of novel 
        legal standards (such as that contained in Section 113(b) of 
        Title 40 of the U.S. Code as enacted by Section 101(a) of H.R. 
        2679 as passed by the House) that would inappropriately skew 
        the rulemaking processes of the new trucking administration and 
        result in needless litigation. The ATA notes, however, that it 
        opposes the provision in Section 2 of S. 1501 that mandates 
        assignment to the National Highway Traffic Safety 
        Administration (NHTSA) of the authority to promulgate motor 
        vehicle safety standards applicable to the manufacture and 
        retrofit of trucks and buses, because NHTSA is ill-suited to 
        that role.
        Section 5--Improvements to the Commercial Drivers License 
        Program. Section 5 of S. 1501 strengthens the Commercial 
        Drivers License (CDL) program, with which a State must comply 
        as a condition of receiving its full share of Federal highway 
        funding. Section 5 includes the following important changes in 
        the CDL program that contribute directly to improved safety:

                <bullet> A State that disqualifies a CDL holder from 
                operating a commercial motor vehicle will be required 
                to keep a record of the violation that caused the 
                disqualification and to ensure its entry into the CDL 
                information system.

                <bullet> A State will not be able to issue a special 
                license or permit that allows an individual to drive a 
                commercial motor vehicle during a period in which the 
                individual is disqualified from operating such a 
                vehicle.

                <bullet> A driver's CDL record will reflect all the 
                drivers moving violations, regardless of whether the 
                driver committed the violations in a commercial vehicle 
                or in a non-commercial motor vehicle.

                <bullet> A State will not be able to allow information 
                regarding violations by a CDL holder that constitute 
                grounds for disqualification to be withheld or masked 
                from the record of that CDL holder.

        Section 6(f)--Harmonization of Reporting of Violations by 
        States. Section 6(f) of the S. 1501 requires the Secretary of 
        Transportation to develop a uniform system to support 
        electronic transmission of data State-to-State on violations of 
        all motor vehicle traffic control laws by individuals 
        possessing a commercial driver's license. Implementation of 
        such a uniform system will strengthen the ability of States to 
        gain and act on relevant safety information about applicants 
        for and holders of commercial driver's licenses.
        Section 6(g)(1)--Motor Carrier Safety Initiatives/Event 
        Recorder Privacy. Section 6(g)(1) of S. 1501 requires the 
        Secretary of Transportation to establish a policy applicable 
        throughout the Department of Transportation to ensure the 
        protection of privacy for any individual or entity utilizing 
        electronic recorders or other technology to monitor vehicle and 
        operator performance or location. The department-wide privacy 
        policy must grant at least as much protection of privacy as 
        current Federal Aviation Administration and National 
        Transportation Safety Board privacy procedures or regulations 
        currently grant with regard to users and owners of flight data 
        recorders, cockpit voice recorders, and other forms of safety 
        information. ATA views Section 6(g)(1) as an important first 
        step in recognizing the importance of protecting the privacy of 
        individuals and entities with regard to electronic recorders or 
        other technology and of protection against the use of the data 
        provided by electronic recorders or other technology for 
        liability purposes. The purpose of using electronic records and 
        other technology to monitor vehicle and operator performance or 
        location should be for safety only, and not for litigation or 
        invasion of personal or business privacy.
    The ATA recommends that changes to improve S. 1501 include the 
following:

        1. Change: In Section 113(c)(2) of Title 49 of the U.S. Code as 
        enacted by Section 2 of S. 1501, strike ``, except for the 
        authority to promulgate motor vehicle safety standards 
        applicable to the manufacture and retrofit of trucks and buses 
        which authority shall be in the National Highway Traffic Safety 
        Administration''.
                Reason: The new trucking administration, like the 
                existing Office of Motor Carrier Safety, will be better 
                suited than NHTSA to handle the motor vehicle safety 
                standards applicable to the manufacture and retrofit of 
                trucks and buses.

        2. Change: In Section 113(e) of Title 49 of the U.S. Code as 
        enacted by Section 2 of S. 1501, strike ``immediately before 
        the effective date of such Act'' and insert in lieu thereof 
        ``October 8, 1999''.
                Reason: This technical amendment ensures that the 
                functions as of October 8, 1999 of the Office of Motor 
                Carrier and Highway Safety (OMCHS) of the Federal 
                Highway Administration (FHWA) will be transferred to 
                the new trucking administration created by S. 1501. 
                This technical amendment takes account of the enactment 
                on October 9, 1999 of the Department of Transportation 
                and Related Agencies Appropriations Act, 2000 (Public 
                Law 106-69), Section 338 of which forced the Secretary 
                of Transportation to move the office of motor carriers 
                out of FHWA and into the Office of the Secretary of 
                Transportation (see page 56270 of volume 64 of the 
                Federal Register, October 19, 1999).

        3. Change: At the end of Section 31312 of Title 49 of the U.S. 
        Code as enacted by Section 5 of S. 1501, add ``The Secretary 
        shall by regulation ensure that individuals domiciled in a 
        State that is prohibited under this section from issuing a 
        commercial driver's license can, if qualified for a commercial 
        driver's license in accordance with this title, obtain such a 
        license without undue burden from the U.S. Department of 
        Transportation or another State.''
                Reason: Under Section 31312 of Title 49 of the U.S. 
                Code as enacted by Section 5 of S. 1501, the Secretary 
                of Transportation must bar a State from issuing 
                commercial driver's licenses if the State is in 
                substantial noncompliance with chapter 313 of Title 49 
                of the U.S. Code, which governs commercial motor 
                vehicle operators and the CDL program. The legislation 
                should not punish applicants or renewal applicants for 
                a commercial driver's license because of the failures 
                of State commercial driver's license bureaucracies to 
                be in substantial compliance with chapter 313. The 
                change ensures that, if the Secretary must bar a State 
                from issuing a CDL, the Secretary must provide an 
                alternative means for an applicant or renewal applicant 
                to obtain a CDL elsewhere than from the barred State, 
                without undue burden. The applicant must, of course, be 
                otherwise qualified for a CDL. The requirement that the 
                alternative means not impose an undue burden on 
                applicants or renewal applicants ensures that the 
                legislation will not impose on applicants a requirement 
                to devote substantial time and financial resources to 
                the objective of obtaining or renewing a commercial 
                driver's license (e.g., will not be required to make a 
                long and expensive trip to a distant location).

        4. Change: Strike Section 6(g)(3) of S. 1501 and instead add at 
        the end of S. 1501 the following new section (which is the text 
        of Section 217 of H.R. 2679 as passed by the House, with the 
        addition of a new subsection (e) at the end of the section):
                ``SEC.------. REGISTRATION OF MOTOR CARRIERS.
                ``(a) REGISTRATION OF MOTOR CARRIERS BY A STATE.----
                (l) INTERIM RULE.--Section 14504(b) of title 49, United 
                States Code, is amended--
                ``(A) in the first sentence by striking `The' and 
                inserting `Until January 1, 2002, the'; and
                ``(B) in the second sentence by striking `When' and 
                inserting `Until January 1, 2002, when'.
                ``(2) REPEAL.--Effective January 1, 2002, section 14504 
                of such title and the item relating to such section in 
                the analysis for chapter 145 of such title are 
                repealed.
                ``(b) COMPREHENSIVE REGISTRATION--Section 13908 of such 
                title is amended-
                ``(1) in the first sentence of subsection (a) by 
                inserting `the requirements of section 13304,' after 
                `this chapter,';
                ``(2) by striking the last sentence of subsection (a);
                ``(3) in subsection (b)--
                ``(A) by striking paragraphs (1), (2), and (3); and
                ``(B) by redesignating paragraphs (4), (5), and (6) as 
                paragraphs (1), (2), and (3), respectively;
                ``(4) in subsection (c) by striking `cover' and 
                inserting `equal as nearly as possible'; and
                ``(5) by striking subsection (d) and inserting the 
                following:
                `(d) STATE REGISTRATION PROGRAMS.--Effective January 1, 
                2002, it shall be an unreasonable burden on interstate 
                commerce for any State or political subdivision 
                thereof, or any political authority of two or more 
                States, to require a motor carrier operating in 
                interstate commerce and providing transportation in 
                such State or States to, or to collect fees to--
                `(1) register its interstate operating authority;
                `(2) file information on its interstate Federal 
                financial responsibility; or
                `(3) designate its service of process agent.'.
        ``(c) DEADLINE.--Section 13908(e) of such title is amended--
                ``(1) by striking `Not later than 24 months after 
                January 1, 1996,' and inserting `By January 1, 2002,';
                ``(2) by inserting `and' after the semicolon at the end 
                of paragraph (1);
                ``(3) by striking paragraph (2); and
                ``(4) by redesignating paragraph (3) as paragraph (2).
        ``(d) CONFORMING AMENDMENT.--Section 13304(a) of such title is 
        amended by striking `and each State' and all that follows 
        through `filed with it'.
        ``(e) IDENTIFICATION OF VEHICLES; EXCLUSIVE REGISTRATION; 
        INCLUSION OF PRIVATE MOTOR CARRIERS.--(1) Section 13908 of 
        title 49, United States Code, as amended by subsection (b) of 
        this section, is further amended by adding at the end thereof 
        the following new subsection:
                `(f)(1) Regulations prescribed by the Secretary to 
                implement the single, on-line Federal system shall--
                `(A) identify a carrier by the carrier's name and a 
                carrier-specific alpha/numeric identifier; and
                `(B) shall provide for a transition period of not less 
                than five years after which carriers must use the 
                carrier's name and carrier-specific alpha/numeric 
                identifier on commercial motor vehicles operated by the 
                carrier.
                (2) No State or political subdivision thereof, or any 
                political authority of two or more States, may require 
                a carrier registered in the single, on-line Federal 
                system to display any form of identification on or in a 
                commercial motor vehicle, except for the carrier's name 
                and carrier-specific alpha/numeric identifier under the 
                regulations for which paragraph (1) provides.
                `(3)(A) It shall be an unreasonable burden on 
                interstate commerce for any State or political 
                subdivision thereof, or any political authority of two 
                or more States, to require a carrier to register its 
                intrastate operations if the carrier has registered 
                with the Department of Transportation pursuant to 
                Section 13902 of this title.
                `(B) Nothing in paragraph (3)(A) shall be construed to 
                prohibit a State from requiring a carrier to display--
                `(i) a credential that identifies the carrier's 
                participation in, and isconsistent with, the 
                International Registration Plan as set forth in section 
                31704 of this title;
                `(ii) a credential that identifies the carrier's 
                participation in, and is consistent with, the 
                International Fuel Tax Agreement as set forth in 
                section 31705 of this title;
                `(iii) information to the extent required by Federal 
                law to meet Federal requirements for hazardous 
                materials transportation as set forth in section 5103 
                of this title; or
                `(iv) information to the extent required by Federal law 
                to meet Federal vehicle inspection standards as set 
                forth in section 3 1136 of this title.
                `(4) The term ``motor carrier'' as used in section 
                13902 and this section shall include motor private 
                carriers as defined in section 13 102(13) of this 
                title.'
                `(2) Section 13908 of title 49, United States Code, as 
                amended by subsection (b) and paragraph (e)(1) of this 
                section. is further amended by striking `to motor 
                private carriers and' in paragraph (3) of subsection 
                (b) of section 13908.''.
        Reason: The change requires an end to the Single State 
        Registration System, effective January 1, 2002, in favor of a 
        uniform, on-line Federal registration system for motor 
        carriers. The change facilitates interstate commerce and 
        removes a patchwork of State registration-related requirements 
        that constitute an undue burden on interstate commerce. The 
        change consists of the text of Section 217 of H.R. 2679 as 
        passed by the House, with the addition of a new subsection (e) 
        at the end of the section. Under the new subsection (e), 
        carriers registered under the uniform, on-line Federal 
        registration system have only a single Federal identification 
        number to identify them; States may not impose additional 
        identification numbering requirements; States may not require a 
        motor carrier registered with the Department of Transportation 
        under 49 U.S.C. Sec. 13902 to register their intrastate 
        operations with the States; and the Federal registration 
        obligations under 49 U.S.C.Sec. 13902 apply to motor private 
        carriers.

    5. Change: Amend Chapter 5 of Title 49 of the U.S. Code by 
inserting the following after Section 526 (and making a conforming 
change to the table of contents of Chapter 5 of Title 49):
        ``SEC. 527. Aiding and abetting.
        ``A person who knowingly aids, abets, counsels, commands, 
        induces, or procures a violation of a regulation or order 
        issued by the Secretary of Transportation under chapter 311 or 
        section 31502 of this title shall be subject to civil or 
        criminal penalties under this chapter to the same extent as the 
        motor carrier or driver who commits a violation.''.
        Reason: Chapter 311 and Section 31502 of Title 49 govern 
        commercial motor vehicle safety. The change ensures that the 
        Federal government can impose penalties on people who knowingly 
        aid or abet a violation of commercial motor vehicle safety laws 
        and implementing regulations. The requirement that a violation 
        be ``knowing'' ensures that penalties for aiding or abetting 
        will apply only to those whose conduct merits such penalties. 
        The provision appears in Section 109 of S. 1559, which was 
        referred to the Senate Committee on Commerce, Science and 
        Transportation on August 5, 1999.

        6. Change: Add at the end of S. 1501 the text of Sections 3 
        through 7 of S. 1524.
    Reason: Sections 3 through 7 of S. 1524, which was referred to the 
Senate Committee on Commerce, Science and Transportation on August 5, 
1999, establish a program for the training and certification of 
governmental and nongovernmental motor carrier safety specialists. 
Implementation of these provisions would substantially improve the 
standards and capabilities of those who audit the safety records of 
motor carriers, yielding improved safety.

    7. Change: Add at the end of S. 1501 the text of Section 219 of 
H.R. 2679 as passed by the House, relating to a study of the 
feasibility and merits of requiring a report of positive results of a 
test of a commercial driver for controlled substances to the State that 
issued the driver's commercial driver's license and requiring 
prospective employers of a driver to check with States for such 
reports.
        Reason: ATA supports the conduct of the study contemplated by 
        Section 219 of H.R. 2679. because the potential system to which 
        Section 219 refers is likely to improve safety by assisting 
        employers in ensuring that they do not hire as operators of 
        commercial vehicles people who abuse controlled substances.

    8. Change: Add at the end of S. 1501 the following new section:
                ``SEC.--------. Study and Report on Adulterants in Drug 
                Testing.
                ``(a) The Secretary of Transportation, in coordination 
                with the Attorney General and the Director of the 
                Office of National Drug Control Policy as appropriate, 
                shall study the availability and use of products that 
                are-
                ``(1) designed to defeat, or sold for the purpose of 
                defeating, the ability of a controlled substances test 
                to detect the presence of controlled substances in a 
                body fluid; and
                ``(2) which may reasonably be expected to assist an 
                individual in defeating the ability of a controlled 
                substances test to detect the presence of controlled 
                substances in a body fluid.
                ``(b) The Secretary of Transportation, after 
                coordination with the Attorney General and the Director 
                of the Office of National Drug Control Policy as 
                appropriate, shall, not later than six months after the 
                date of enactment of this Act, submit to the Senate and 
                the House of Representatives a report of the results of 
                the study conducted pursuant to subsection (a), 
                together with the Secretary's recommendations on 
                whether a law should be enacted to penalize the sale or 
                use of products described in subsection (a).''.
        Reason: The validity of drug testing of truck drivers and 
        driver applicants is essential to motor carrier safety. The use 
        by a driver or applicant who abuses controlled substances of 
        products that would allow that driver or applicant to defeat a 
        drug test would pose a threat to safety. The change would 
        require the Secretary of Transportation to examine and report 
        to Congress on the issue, and to make recommendations 
        concerning whether a law should be enacted to penalize the sale 
        or use of such products.

    9. Change: At the end of S. 1501, add the following new section:
                ``SEC.--------. EXPIRATION OF APPROVALS
                ``Section 13703 of title 49. United States Code, is 
                amended--
                ``(I) by striking subsection (d); and
                ``(2) by redesignating subsections (e), (I), (g), and 
                (h) as subsections (d), (e), (I), and (g) 
                respectively.''.
        Reason: Section 13703 of Title 49 of the U.S. Code authorizes 
        motor carriers to make agreements with other motor carriers 
        with regard to aspects of the transportation business specified 
        in the statute. The agreements take effect upon approval by the 
        Surface Transportation Board (STB). The STB approval also 
        confers protection from the antitrust laws for implementation 
        of the STB-approved agreements. Under current law, the STB 
        approval of the agreement expires 3 years after it is granted, 
        unless the STB renews its approval. The change eliminates the 
        3-year restriction on the duration of STB approvals. The STB 
        would continue to have the authority to impose as part of its 
        approval process ``reasonable conditions'' on the agreements 
        under Section 13703(a)(3) and to conduct investigations under 
        Section 13703(a)(5).
    The ATA appreciates the opportunity to express its views on the 
contents of S. 1501.

    Question 2. Would each of the panelists please provide the 
Committee with their thoughts on the Administration's truck safety 
proposal introduced by Senator Lautenberg. I would be specifically 
interested in knowing which provisions you believe should be most 
closely considered by the Committee as we work toward a final truck 
safety bill.
    ATA Response: The American Trucking Associations, Inc. (ATA) notes 
that many of the subjects addressed in S. 1559, as introduced by 
Senator Lautenberg and referred to the Committee on Commerce, Science 
and Transportation on August 5, 1999, are addressed in S. 1501 as 
introduced by Senator McCain. As stated in response to Subcommittee 
Question 1, the ATA supports addition to S. 1501 of the Section 109 of 
S. 1559, relating to civil and criminal penalties for persons who 
knowingly aid or abet violations of Federal motor carrier safety laws 
and regulations.

    Question 3. Recently the DOT-IG found that 68 Mexican-based 
carriers were operating in the U.S. beyond the permitted commercial 
zones. According to the IG, roadside inspections were performed on the 
Mexican-based carriers at least 100 times in 24 states beyond the US/
Mexican border. I would like each of the panelists to comment on the IG 
findings and to offer their suggestions on what should be done to 
address these disturbing findings.
    ATA Response: The American Trucking Associations, Inc. (ATA) is 
concerned that the U.S. lacks an effective capability to enforce 
trucking safety regulations through inspections at border checkpoints 
and that Mexico-based carriers that have operating authority to transit 
in U.S. commercial zones often operate illegally in the U.S. outside 
those zones. The ATA supports enactment of Sections 207 and 210 of H.R. 
2679 as passed by the House of Representatives, which encourage the 
Secretary of Transportation to implement appropriate staffing standards 
for motor carrier safety inspections at international borders and 
require trucks of carriers based in Mexico or Canada to maintain 
evidence of registration in accordance with U.S. law. The ATA would 
support stronger steps, such as addition at the end of S. 1501 of the 
following provision:

        ``SEC. --------. (a) The Secretary of Transportation, in 
        cooperation with the Secretary of the Treasury and other heads 
        of executive departments as appropriate, and, as appropriate, 
        in coordination with the States, shall ensure that the United 
        States assigns sufficient personnel and funds to the mission of 
        enforcing motor carrier safety regulations through inspections 
        at international border checkpoints of trucks bound for the 
        United States.
        ``(b) The Secretary of Transportation, in cooperation with the 
        Attorney General and other heads of executive departments or 
        agencies with law enforcement responsibilities and, as 
        appropriate, in coordination with the States, shall ensure that 
        motor carriers based in countries other than the United States 
        do not operate in areas of the United States for which they do 
        not have the requisite authority to operate under United States 
        law.
        ``(c) The Secretary of Transportation shall ensure that this 
        section is implemented in a manner consistent with the 
        obligations of the United States under treaties and other 
        international agreements and other applicable United States 
        law.
        ``(d) The Secretary of Transportation shall submit to the 
        Senate and the House of Representatives not later than six 
        months after the date of enactment of this Act a detailed 
        report on the actions taken by the Secretary to implement this 
        section.''.
    The ATA also is concerned that a Mexico-based carrier may abuse the 
leasing out of its trucks as a means to circumvent U.S. law restricting 
movement of Mexico-based carriers' trucks in the U.S. beyond the U.S. 
commercial zones for which they have transit authority. For example, a 
Mexico-based carrier could move one of the its trucks and a driver to 
the U.S., into a U.S. commercial zone that it has operating authority 
to transit. While in that commercial zone, the Mexico-based carrier 
might then lease that truck and driver to a U.S. carrier (which might 
be a bona fide U.S. carrier or, in a worse case, a U.S. ``paper'' 
subsidiary created by the Mexico-based carrier). The U.S. carrier could 
then operate the truck with that driver throughout the U.S. To correct 
this leasing loophole for foreign-based carriers to get around U.S. 
law. ATA recommends inclusion in S. 1501 of the following provision:

        4``SEC. ------. Section 14102 of title 49, United States Code, 
        is amended by adding at the end thereof the following new 
        subsection:
        ``'(c)(l) During any period in which a suspension, condition, 
        restriction or limitation imposed under section 13902(c) 
        applies to a motor carrier, that motor carrier may not lease a 
        commercial motor vehicle to a motor carrier or a motor private 
        carrier to transport property in the United States.
        ``(2) As used in this subsection, the term ``motor carrier'' 
        has the meaning given that term in section 13902(e).
        ``(3) The Secretary of Transportation shall ensure that this 
        subsection is implemented in a manner consistent with the 
        obligations of the United States under treaties and other 
        international agreements in force on the date of enactment of 
        this subsection.'''.

    The ATA appreciates the opportunity to address these concerns.

    Question 4. As you know, S. 1501 proposes to transfer FHWA's Office 
of Motor Carriers and Highway Safety to the new agency. I would be 
interested in receiving each panelist's view on whether the Office in 
its entirety should be moved or if safety would be better served by 
retaining some of the highway safety functions in FHWA?
    ATA Response: Subsequent to the Subcommittee's posing the question, 
the Department of Transportation and Related Agencies Appropriations 
Act, 2000 was enacted (Public Law 106-69, 10/8/99), Section 338 of 
which forced the Secretary of Transportation to move the office of 
motor carriers functions out of the Federal Highway Administration 
(FHWA) and into a new Office of Motor Carrier Safety in the Office of 
the Secretary of Transportation (OST) (see page 56270 of volume 64 of 
the Federal Register, October 19, 1999). The ATA response to the 
Subcommittee's question is made with reference to the Office of Motor 
Carriers and Highway Safety (OMCHS) of the FHWA as it existed on 
October 8. 1999 (i.e., before enactment of Public Law 106-69 and before 
the transfer of motor carrier functions from FHWA to the new Office of 
Motor Carrier Safety in OST).
    The ATA believes that the functions performed by the OMCHS/FHWA 
Office of Highway Safety Infrastructure (including the Safety Design 
Division and the Safety Programs Division) should remain with FHWA, as 
its functions relate to the safety of the infrastructure. The functions 
performed by the remaining elements of OMCHS/FHWA should be transferred 
to the new trucking administration, including the functions performed 
by the Office of Data Analysis and Information Systems, Office of Motor 
Carrier Enforcement, Office of Motor Carrier Research and Standards, 
Office of National and International Safety Programs, Office of Policy 
and Program Management. Office of Program Evaluation, Office of 
Technology Evaluation and Deployment, and the National Training Center.
    As a matter of legislative drafting, ATA recommends that S. 1501 
continue to define the functions, powers and duties of the 
Administrator of the new trucking administration by reference to 
existing statutes and assign all personnel and resources that carry out 
those functions to the Administrator. That is a better approach than 
attempting in legislation to catalogue by name particular existing 
elements within the motor carrier bureaucracies for transfer to the new 
Administrator, because the labeling and location of those elements is 
in flux as a result of the Secretary of Transportation's efforts to 
comply with Section 338 of the Department of Transportation and Related 
Agencies Appropriations Act, 2000.
                                 ______
                                 
  Response to Written Questions by Hon. John McCain to Kevin Sharpe, 
        National Conference of State Transportation Specialists

    Question 1. I would like each of the panelists to identify which 
provisions in S.1501 they believe are key to improving truck safety and 
then to offer their suggestions for how the legislation might be 
further improved?
    Answer: We believe the most effective provisions in S.1501 are the 
establishment of the Motor Carrier Safety Administration, and the 
inclusion of the recommendations of the Department of Transportation 
Inspector General's Report. We strongly support both provisions.
    Of utmost concern to the states is the elimination, in this bill, 
of the Single State Registration System (SSRS). This state-run safety 
program is a crucial component of any national motor carrier 
registration program, and in many states provides the state matching 
funds for federal MCSAP grants. As introduced, S. 1501 will eliminate 
SSRS, and its approximate $105 million in direct funding to the states. 
Section 6, Subsection (g), titled ``Motor Carrier Safety Initiatives'' 
would first eliminate the statutory requirement that the States receive 
the SSRS revenues, and secondly, calls on the US DOT to create a 
unified federal program that subsumes SSRS. In effect, this language 
gives the Federal Highway Administration, or its successor, the 
authority to federalize a successful state safety program, eliminate 
state revenues, and establish a new federal program that will be much 
less effective than the state program it replaces, because it lacks 
adequate administrative or roadside enforcement.
    The States recommend that the Committee consider combining the ICC/
FHWA insurance system, US DOT numbering system, ICC/FHWA registration 
system and the Single State Registration System into a single national 
on-line system as required by Section 13908 of the ICC Termination Act. 
The States would collect and enter registration information into a 
single on-line database maintained by the new agency and the States as 
suggested more that a decade ago in the States' centralization 
proposal. The States would continue to enforce compliance with 
registration and other requirements according to standards established 
by a cooperative Federal/State agreement.
    Presumably, the final goal of such a system would be the 
dissemination of enforcement information to the states regarding motor 
carrier insurance status and other related safety information. Under 
the above proposed solution, the states would collect registration 
fees, as they do now, to fund their enforcement activities. The funding 
proposal in S.1501 is adequate only to cover the costs of the 
registration system creation and maintenance, with no provision to fund 
enforcement activity or data management. The elimination of direct 
funding to the states will severely hamper, or eliminate their ability 
to keep carrier information current or provide meaningful roadside 
enforcement of insurance and safety fitness requirements.

    Question 2. Would each of the panelists please provide the 
Committee their thoughts on the Administration's truck safety proposal 
introduced by Senator Lautenberg. I would be specifically interested in 
knowing which provisions you believe should be most closely considered 
by the Committee as we work toward a final truck safety bill?
    Answer: The States support the inclusion of a requirement that the 
owners of motor carrier companies, applying for authority, complete 
safety training programs before a permit is issued. We believe there 
should be more emphasis on the motor carrier company's responsibility 
to maintain safe equipment and train safe drivers. Too much emphasis 
has been placed on the individual trucks and drivers rather than on the 
companies ultimately responsible for assuring their safe operation. 
Government's role in motor carrier safety can be much more effective if 
efforts are concentrated on company level oversight and enforcement, 
rather than on the current practice of trying to inspect every truck in 
the country. We believe consideration should also be given to Senator's 
Breaux's proposal in S.1524, which specifies a process to 
professionally certify all personnel who perform motor carrier 
compliance reviews. We would also recommend, that the Commercial 
Vehicle Safety Alliance (CVSA), as the front-line experts on safety 
certification, be consulted in the development of any certification 
process.

    Question 3. Recently, the DOT-IG found that 68 Mexican-based 
carriers were operating in the U.S. beyond the permitted commercial 
zones. According to the IG, roadside inspections were performed on the 
68 Mexican-based carriers at least 100 times in 24 states beyond the 
US-Mexican border. I would like each of the panelists to comment on the 
IG findings and to offer their suggestions on what should be done to 
address these disturbing findings.
    It was clear from the testimony and discussion that the operation 
of Mexican carriers outside the permitted commercial zones is a problem 
for the individual border states, as well as for US DOT. The States 
have a program that has the ability to screen carrier safety and 
insurance compliance records at the roadside for 100 percent of the 
carriers passing a particular location. This enables enforcement 
personnel to target their limited resources on those carriers most 
likely to be out of compliance. The system, an offshoot of SSRS, is 
just one of many state system initiatives developed with SSRS funding. 
The NCSTS would be pleased to demonstrate this technology for the 
Committee members and/or to enforcement personnel at the border 
crossings.

    Question 4. As you know, S. 1501 proposes to transfer FHWA's Office 
of Motor Carrier and Highway Safety to the new agency. I would be 
interested in receiving each panelist's view on whether the Office in 
its entirety should be moved or if safety would be better served by 
retaining some of the highway safety functions with FHWA?
    The States support the Inspector General's testimony and 
recommendations that a separate new agency needs to be created. All 
current functions within the present Office of Highway Safety and Motor 
Carriers of the FHWA should be moved. We would encourage Congress to 
clearly and specifically set out the mission of the new agency and vest 
it with quasi-judicial powers and with the ability to publicly docket 
complaints, revoke licenses and impose civil penalties in amounts that 
represent to the violators more than just ``the cost of doing 
business''
                                 ______
                                 
  Response to Written Questions Submitted by Hon. John McCain to the 
                   Commercial Vehicle Safety Alliance

    Question 1. I would like each of the panelists to identify which 
provisions in S. 1501 they believe are key to improving truck safety 
and then to offer their suggestions for how the legislation might be 
further improved.
    Answer: CVSA believes that S.1501 is on balance a good bill and 
that the key provision is the one which establishes a separate Motor 
Carrier Safety Administration within the Department of Transportation. 
A new agency with a mission and focus exclusively on motor carrier 
safety is the best way to ensure implementation of the other provisions 
in the bill. With a new culture and environment geared solely to truck 
and bus safety, the other proposals in the bill designed to improve 
enforcement efforts will be much easier to carry out.
    Two provisions in the bill, however, are cause for concern. One 
would shift the responsibility for vehicle retrofit requirements to 
NHTSA and the other, although providing for a new Uniform Carrier 
Registration System (UCR), replacing the Single State Registration 
System (SSRS), does not specify that states that use the proceeds from 
the current SSRS system for their commercial vehicle safety program 
would be guaranteed replacement funding.
    With respect to vehicle retrofit requirements, we believe this 
should be a function of the new agency. The whole idea of creating a 
new agency is to eliminate the "stove-pipe" approach to motor carrier 
safety and pull together as many truck and bus safety functions as 
possible within one agency. If anything, the new vehicle standard 
setting function should eventually be transferred from NHTSA to the new 
agency.
    With respect to repeal of the SSRS program, we strongly urge that 
those states that can substantiate the amount of SSRS proceeds used for 
commercial vehicle safety be guaranteed replacement of such funds.

    Question 2. Would each of the panelists please provide the 
Committee their thoughts on the Administration's truck safety proposal 
introduced by Senator Lautenberg. I would be specifically interested in 
knowing which provisions you believe should be most closely considered 
by the Committee as we work toward a final truck safety bill.
    Answer: CVSA offers the following comments on the Administration's 
bill introduced by Senator Lautenberg (S. 1559).
    With respect to Section 103, Safety Fitness of Owners and 
Operators, we think this proposal is a step in the right direction, but 
as indicated in our testimony before the Committee on September 29, a 
new entrant program should go beyond just ensuring that the new entrant 
is familiar with the federal motor carrier safety rules. A safety 
management plan should be required.
    With respect Section 112, Research on Heavy Vehicle Safety and 
Driver Performance, and Section 113, Improved Data Analysis System, we 
suggest that the new Motor Carrier Safety Administration should in the 
near term coordinate efforts with the National Highway Traffic Safety 
Administration (NHTSA) in these areas.
    NHTSA does have a process carried out through its Fatal Accident 
Reporting System (FARS) analysts in each state that could be enhanced 
to gather truck and bus accident reports as well as those they now 
collect on automobile accidents. This appears to be the quickest way to 
correct current deficiencies in the truck accident reporting system.
    Similarly, NHTSA's accident investigation teams that now operate 
out of 24 major cities around the country could be expanded to include 
investigations of truck accidents. This effort, along with additional 
funding for state enforcement agencies to send officers to a new truck 
accident investigation and causation training program conducted by the 
state of Minnesota, will provide reliable accident causation statistics 
and a data base that does not exist today.
    This collaboration with NHTSA on accident data and causation, 
should be viewed only as a temporary measure until such time as the 
Motor Carrier Safety Administration's capacity to do this is fully 
developed. Truck and bus accident reporting and causation should be 
major functions of the Motor Carrier Safety Administration. These are 
functions on which new motor carrier safety rules, regulations, and 
standards should be based and promulgated, and the new Motor Carrier 
Safety Administration is the promulgating agency, not NHTSA. It is 
important to nurture this capacity in the new Motor Carrier Safety 
Administration, not siphon off such functions to NHTSA. These functions 
should become as well developed in the new Motor Carrier Safety 
Administration with respect to commercial motor vehicles, as they now 
are in NHTSA with respect to automobiles.

    Question 3. Recently, the DOT-IG found that 68 Mexican-based 
carriers were operating in the U.S. beyond the permitted commercial 
zones. According to the IG, roadside inspections were performed on the 
68 Mexican-based carriers at least 100 times in 24 states beyond the 
U.S.-Mexican border. I would like each of the panelists to comment on 
the IG findings and to offer their suggestions on what should be done 
to address these disturbing findings.
    Answer: We believe that the new Motor Carrier Safety Administration 
should work with the state motor carrier safety enforcement agencies to 
develop a timely and accurate reporting system with respect to any 
carrier found to be operating without the proper authority including 
Mexican carriers that may be found operating illegally in the United 
States.

    Question 4. As you know, S. 1501 proposes to transfer FHWA's Office 
of Motor Carrier and Highway Safety to the new agency. I would be 
interested in receiving each panelist's view on whether the Office in 
its entirety should be moved or if safety would be better served by 
retaining some of the highway safety functions with FHWA?
    CVSA recommends that those functions transferred from the Federal 
Highway Administration's (FHWA) Office of Highway Safety to the then 
FHWA Office of Motor Carriers last year should be transferred back to 
FHWA. These functions include such programs as pedestrian and highway 
safety infrastructure programs. While very important programs, they are 
not really directly related to motor carrier enforcement, and any 
resources directed to such programs would dilute motor carrier safety 
enforcement, research, and regulatory efforts.
                                 ______
                                 
                                                       May 15, 1999
The Honorable John McCain, Chairman
United States Senate Commerce, Science,
    and Transportation Committee
508 Dirksen Senate Office Building
Washington, D.C. 20510

Dear Senator McCain:

    We are pleased to submit this statement setting forth the 
Amalgamated Transit Union's views on ``The Future of the Office of 
Motor Carriers (OMC)'' as part of the record in connection with the 
April 27, 1999, hearing held by the Committee on Commerce, Science and 
Transportation.
    The Amalgamated Transit Union, AFL-CIO, (ATU) represents more than 
165,000 transportation workers in the United States and Canada, 
employed in the mass transit, over-the-road, school bus and paratransit 
industries. We fully support this Committee's focus on ensuring the 
safety of transportation industry employees and the riders we serve. As 
both this Congress and the Department of Transportation focus on 
improving the safety of truck and bus operations throughout the United 
States, a refocused, restructured and well-funded Office of Motor 
Carriers can play a pivotal role in ensuring effective development and 
enforcement of our nation's transportation safety laws and regulations.
    Throughout the ATU's 106-year history, ensuring the safety of our 
members and the passengers we carry has and continues to be of 
paramount concern. In fact, the ATU was the first union to require 
binding arbitration in lieu of strikes to avoid both economic risk and 
potential dangers to our passengers if transit operations sought to run 
without trained ATU professionals. We were among the first unions to 
fight for and secure the 6-day work week and the 8-hour day. And, we 
were the first union to convince our employers and State legislatures 
of the necessity for covered booths for operators to shield them from 
harsh weather conditions which affected employee health and safety and 
interfered with safe transit operations. Throughout the United States 
and Canada, the ATU has also been a leader in implementing programs to 
stop workplace violence and provide employees assistance through 
jointly funded health plans.
    We have also stressed individual responsibility to prevent 
substance abuse, and, through our commercial driver's license training 
programs, sought to make sure that every employee is trained to uphold 
the highest standards of job safety.
    More recently, in response to recent assaults on transit operators 
and passengers, the ATU supported the introduction of H.R. 1080, the 
``Protect America's Transit Workers and Riding Public Act'' that would 
make it a Federal crime to assault mass transit or school bus employees 
or their on board passengers.
    Today, as we seek to strengthen the legislative and regulatory 
framework supporting the Department of Transportation's surface 
transportation safety programs, we must recognize that safe operations 
require not only well-trained professional operators and mechanics, but 
equipment that is also properly designed, tested and inspected, as 
well. The third leg of our transportation safety stool involves the 
vast network of roads, bridges, tracks and tunnels on and through which 
our nation's trucks and buses operate. And, without opening the scope 
of this inquiry too wide, it is fair to say that commercial motor 
vehicles do not drive on roads in isolation, but must confront and deal 
with numerous risks from those who share our ``office'' space. The 
effective regulation and enforcement of all these components are 
essential to maximizing safety in public transit and transport.
    As we now turn to the debate over the Office of Motor Carriers, one 
overriding but simple point must be made and kept in mind: A truck is 
not a bus. All of our concerns, and those expressed by our counterparts 
in the truck and bus industries over the Federal regulatory scheme, 
including the role of the OMC and the priorities governing the 
expenditure of DOT resources, are driven by this simple distinction.

            Given the vast differences in equipment, travel and 
        transport functions, training, and operating environment, the 
        federal Office of Motor Carriers should establish a separate 
        regulatory and enforcement division with responsibilities over 
        intercity bus operations.

    To date, the inspection, investigative, and other enforcement 
resources of the OMC have been targeted in the trucking sector, 
rendering bus operation a mere stepchild in their oversight role. By 
way of example, the current effort to consider revisions to the hours 
of service regulations has, as in the past, begun with a unified set of 
alternative options governing both truck and bus operators. Yet, given 
the substantial difference in day-to-day operations and scheduling, any 
proposed changes should begin with a separate inquiry concerning the 
current rules effects on safe bus operations to determine whether any 
changes are warranted. A separate, refocused division within the OMC 
could help overcome this ``information gap.''

            Expanding the use of new technologies to improve commercial 
        motor vehicle safety also compels separate consideration of 
        both truck and bus operations.

    Recently, there has been much interest in using technology to 
improve commercial motor carrier safety. Yet, many of these ``systems'' 
have not been developed or tested for application to motor coaches. 
Simply transferring technology such as ``black boxes'' or ``global 
positioning systems'' (GPS) modules from other modes can be dangerous 
and may even compromise our shared commitment to bus safety. It is 
vital, therefore, that the development of these systems include input 
from motor coach employees, their representatives, companies, 
manufacturers and passengers, as well as other government agencies.
    For example, while the ATU believes the use of ``on board 
recorders'' (black boxes) could assist in proving the accuracy of 
driver logs and monitor engine performance, we question whether this 
equipment can play a role comparable to that in the airline industry. 
Unlike aircraft accidents, such incidents in the bus industry rarely 
involve circumstances where operators, passengers or witnesses could 
not be interviewed for investigative purposes. And, without question, 
communications and global positioning systems can assist our drivers in 
emergency situations, allowing for the tracking of vehicles and 
providing opportunities for immediate accident response. At the same 
time, recent experience with so-called ``collision avoidance'' systems 
tested by Greyhound in the early 1990's has not been successful. 
Drivers and passengers were constantly distracted by false alarms and 
the systems were ultimately deactivated on those buses where they had 
been installed. These concerns and cautions clearly warrant a 
comprehensive examination of the contributions, if any, such systems 
can make to improve safe bus operations.

            Increased funding and resources are needed to support 
        effective bus safety regulation.

    According to the National Safety Council, in an average year, more 
than 360 million bus passengers travel 28 billion passenger miles in 
North America. Yet, very few government resources are dedicated to 
ensuring that these passengers arrive at their destinations safely. 
Other modes of transportation such as aviation and rail have separate, 
well-fund agencies dedicated to overseeing the safe operation of their 
industries.
    Increasing resources for effective enforcement is critical in the 
years ahead. Perhaps no more compelling argument for expanding such 
resources can be made than with reference to the potential safety risks 
that may arise from full implementation of the North American Free 
Trade Agreement (NAFTA). Under its provisions, both Mexican truck and 
bus operators are to be permitted full access throughout the United 
States. Fortunately, in December 1995, given widespread concerns over 
the potential safety risks of such expanded operations, the Clinton 
Administration suspended efforts to open the border. Current plans call 
for expanded cross-border operations in January 2000. Already, 
according to an August 1997 Government Accounting Office report, from 
January to May 1997 an estimated 90,000 commercial passenger vehicles 
crossed the border, yet only 528 buses were inspected, and 22 percent 
of those inspected were placed out of service. In comparison, about 10 
percent of the U.S. commercial passenger vehicles inspected from 
October 1996 through June 1997 were placed out of service. While 
commendable efforts have been undertaken by both countries to ensure 
comparable safety and training standards and effective enforcement of 
those laws, no one can question the necessity for additional resources 
to meet the challenges of increased cross-border operations.
    Finally, we wish to highlight one area where existing safety 
regulations are clearly insufficient to both measure and monitor 
transit operations.
    Current DOT regulations allow commercial passenger vans carrying 
less than 16 passengers to operate outside of any Federal safety 
regulations. At the same time, however, increased funding under both 
the Department of Labor's Welfare to Work grant program and the Federal 
Transit Administration's Job Access program will result in a 
significant expansion of these vehicles operating on our nation's roads 
and highways. The Transportation Equity Act for the 21st Century (TEA-
21) mandated application of the Federal Motor Carrier Safety 
Regulations to commercial passenger vans capable of carrying nine (9) 
individuals including the driver, but the only vans ``captured'' by the 
new law involved those in interstate commerce. Yet, the vast majority 
of 8-passenger vans operate within state borders and are exempt from 
even this new regulatory safety net. We strongly recommend that both 
the Congress and DOT pursue efforts to develop the appropriate 
legislative and regulatory framework necessary to apply the FMCS 
standards to all vans capable of carrying eight or more passengers plus 
a driver.
    In conclusion, we again express our appreciation for the 
opportunity to express our safety concerns to the Committee.
    If you have any questions or require any additional information 
concerning our views, please do not hesitate to contact our office.
Sincerely,

Jim La Sala

International President
                                 ______
                                 
 Prepared Statement of the National Conference of State Transportation 
            Specialists and the Illinois Commerce Commission
    On behalf of the National Conference of State Transportation 
Specialists, and the Illinois Commerce Commission, and especially on 
behalf of the motorists we deal with every day, I would like to commend 
the Committee for its concern over trucking safety as shown by this 
hearing today.
    The National Conference of State Transportation Specialists (NCSTS) 
is a national organization whose members are state agencies engaged in 
transportation regulatory functions. These state agencies include state 
departments of transportation, public utility commissions, public 
service commissions, departments of motor vehicles and state commerce 
commissions. In addition to many other activities the NCSTS provides 
oversight of and assistance to states participating in the Single State 
Registration System (SSRS) established by Congress in the Intermodal 
Surface Transportation Efficiency Act of 1991 and implemented through 
rules adopted by the Interstate Commerce Commission (ICC) on May 18, 
1993. The NCSTS, through its SSRS Steering Committee, promotes 
uniformity in the administration of the rules and has served as the 
focal point for communication of state concerns and interests to the 
Federal Highway Administration (FHWA).
    Since the trucking deregulation in 1994, the states have become 
increasingly concerned about the safety of the motoring public in an 
environment of unsafe trucks and trucking operations. In Illinois 
alone, we issue licenses to over 100 new motor carriers per month. Many 
of these new license holders are seriously under financed and represent 
a considerable safety concern. Our experience is repeated in every 
State in the Union. The NCSTS states have dealt with this problem for 
years, and it is from this perspective that I appear before you this 
morning.
    NCSTS and the State of Illinois are in favor of most of Senate Bill 
1501, and congratulate Congress for addressing motor carrier safety. 
But I would like to direct my remarks to a specific section of the bill 
and two separate actions being proposed. Section 6, Subsection (g) 
Motor Carrier Safety Initiatives proposes two significant actions, 
which if approved would significantly impact the safety compliance and 
enforcement activities of the thirty-eight participating SSRS states. 
The first action would strike the last sentence of Subsection (d) of 
Section 13908 of Title 49, United States Code, which would eliminate 
the statutory requirement for fees to be collected and distributed to 
the states. Approximately $95 million dollars of state funds are at 
risk. The second action calls on the US DOT to create a unified federal 
program that subsumes the states' current SSRS registration program. In 
effect, the current language gives the Federal Highway Administration, 
or its successor, the authority to federalize a successful state 
registration program and possibly eliminate or reduce state revenues.
    On behalf of the states, I want to emphasize that we are in favor 
of a Uniform Carrier Registration System (UCR). We have advocated this 
for years and have demonstrated to representatives of the FHWA how it 
could be done rapidly, at virtually not additional cost and in a manner 
that avoids the need to create a new federal bureaucracy. The states' 
proposal would provide the public with vastly more effective protection 
from uninsured trucking companies because it would be enforced at the 
roadside. Our proposal would provide Congress and the United States 
Department Of Transportation (US DOT) with accurate and reliable motor 
carrier demographic information for the first time. We believe this 
last point is very important. Were Congress to ask US DOT for accurate 
information about the trucking industry and FHWA sent out a survey to 
its carriers of record, about half of them would be returned ``address 
unknown''. This is because the FHWA database has never been updated, 
whereas the state databases are refreshed each year via annual 
registration renewals.
    The States have been disappointed that the FHWA has not proceeded 
with the 13908 rulemaking called for in the ICC Termination Act. As far 
as the States are concerned, none of the implementing problems FHWA 
alleges are more than minor and could easily be overcome. Language in 
SB 1501, which directs FHWA to complete rulemaking within a year, is a 
sound idea.
    Representatives of the States have met many times with 
representatives of the American Trucking Association (ATA), but despair 
of ever getting ATA to agree to the creation of an effective 
enforcement program. The prospect of getting a federally mandated fee 
cut at the expense of the states seems to be their only objective. For 
our part, we think it is extraordinary that a motor carrier safety bill 
could be the vehicle to cut $95 million of revenue the states use to 
enforce safety. And please understand that is exactly what elimination 
of state revenues under the current state registration program would 
accomplish. It would lead to a diminution of each state's overall 
safety reach.
    Many states use SSRS money for the local match for the Motor 
Carrier Safety Assistance Programs. Others use it directly for their 
State police, to administer their insurance oversight, such as 
Illinois' Public Guardian program, and for a wide range of safety 
activities. I have attached to my written remarks an analysis of how 
much revenue each state collects and how that revenue is used. The 
States take exception to a handout ATA distributed recently which 
purported to demonstrate that the states were not using monies 
collected for safety purposes. We believe that our figures and other 
information that States can provide would show that the information 
purported by ATA is inaccurate and that the states do use a 
preponderance of the monies collected for safety.
    Historically, the States needed a duplicative registration system 
in order to obtain the necessary information to enforce state and 
federal registration and insurance requirements. The stakes were too 
high to depend on the outdated information in the Federal databases. 
Strides in technology have now rendered duplicative systems as 
burdensome and unnecessary. But that is not a blanket endorsement for a 
strictly federal solution to state registration. Technology has not 
eliminated the need for states to continue to enforce registration and 
insurance requirements within their borders at the roadside nor the 
need to have accurate and real time data available to do so. The states 
have relied on the funding from state registration under the Single 
State Registration System (SSRS) and its predecessor Cab Card Stamp 
program to fund motor carrier regulatory and safety programs for almost 
thirty-five years. These state funds were not federalized until 1995 by 
Section 13908 of the Interstate Commerce Commission Termination Act. It 
is anomalous to propose to jeopardize almost $95 million in safety 
funding in a bill that is intended to promote and improve motor carrier 
safety. To eliminate SSRS funding would set back safety enforcement and 
compliance in most of the SSRS participating states. A number of the 
states use SSRS funding as the match for MCSAP funding.
    It is our understanding that this proposal, at least in part, is 
being put forward because USDOT has said that it has been unable to 
develop a UCR that would keep the states whole with respect to SSRS 
funding. The ICC Termination Act required USDOT to develop a single 
online data system in cooperation with the states. The states, through 
NCSTS, have been trying to work with DOT over the last three years to 
do just that. In all that time no one from DOT has ever said that they 
were unable to develop a UCR that did not keep the states funding 
intact. Never once did anyone from DOT come to the states and ask for 
assistance in this area. Regardless of DOT's position, we know that it 
is possible to develop a UCR that is effective, efficient and keeps the 
states funding in tact. More important than the question of whether or 
not it is possible to develop a UCR that maintains the states funding 
is whether or not the funding is required to promote motor carrier 
safety and compliance. If the funding is necessary and the states 
believe it is, then a way must be found to keep the funding intact. On 
the other hand if the funding were determined not to be an integral 
part and necessary for the states to carry out their motor carrier 
safety functions it should be eliminated regardless of the ease or 
difficulty in integrating it in to a UCR system. We are concerned that 
if US DOT is relieved of the requirement of maintaining the states 
funding derived from SSRS it will take the easy way out and ignore it 
in their development of the UCR.
    On October 24, 1996 the NCSTS submitted its comments in response to 
the FHWA advance notice of proposed rulemaking (ANPR) published in the 
Federal Register, Volume 61, No. 166, August 26, 1996. Since that time 
representatives of NCSTS, on behalf of the conference and in the 
interests of its member state agencies, have participated in an almost 
continuous dialog with all interested and affected parties in an effort 
to come to a resolution that would meet the needs of FHWA and state 
agencies and be the least burdensome, economically and 
administratively, on both the motor carrier and insurance industries. 
Over the last three years, NCSTS representatives have met with FHWA 
administrators, American Trucking Association and other motor carrier 
industry representatives, insurance company representatives and 
congressional staff members in an effort to better communicate our 
interests and concerns, better understand the interests and concerns of 
other affected parties and work together to try to develop a proposal 
that met the interests and concerns of all the parties.
    NCSTS and its member states are committed to the development and 
implementation of a UCR that meets the needs of all concerned parties. 
To this end, NCSTS adopted ``Recommendations for a Unified Carrier 
Registration System'' at the NCSTS 1998 annual conference in San 
Antonio. This document varies little in substance from the views 
presented in NCSTS original response to the ANPR in October 1996, but 
does incorporate some of the ideas and concerns that surfaced 
subsequent to the original submission. Representatives from twenty-
seven of the thirty-eight SSRS participating states were present at the 
San Antonio meeting adopting the recommendations for a UCR without 
opposition (copy attached). After the San Antonio meeting the ATA gave 
its written support to the UCR document but has since withdrawn that 
support.
    During the almost three year process since the ANPR was originally 
released fully thirty-six of thirty-eight SSRS participating states 
have been involved in the NCSTS effort. While NCSTS does not presume to 
speak officially for any state, we feel confident that the system as 
proposed by NCSTS will be embraced by a significant majority of SSRS 
participating states and represents the interests and needs of most, if 
not all, of the states.
    We are aware that to fully implement a truly unified carrier 
registry system that meets the needs of all of the concerned parties 
will require legislation in addition to rulemaking. NCSTS and its 
member states are prepared to work with FHWA, the motor carrier and 
insurance industries and congress to implement, monitor and maintain a 
unified carrier registry. The States believe that state infrastructure 
is in place to gather the most accurate industry data, make the data 
available to enforcement officers and provide the best service to the 
industry in the process. States are use to gathering and entering data 
into single national databases for vehicle inspections, issuing US DOT 
numbers to purely intrastate operations and implementation of national 
clearinghouses. States have also been exchanging data between states 
for a number of years.
    States have developed business plans and are preparing detailed 
deployment plans to implement Commercial Vehicle Information Systems 
and Networks (CVISN) for the Intelligent Transportation System (ITS)/
Commercial Vehicle Operations (CVO). Within these plans, state computer 
systems will integrate national core infrastructure systems that 
include the Commercial Drivers License Information System, 
clearinghouses for fuel tax, licensing and hazardous materials 
information, the Safety and Fitness Electronic Records (SAFER) system, 
the UCR and other state and federal agencies with state roadside 
enforcement. This system will allow for compliance verification of 
motor carriers' vehicles traveling on the highways at highway speeds. 
States will be able to use this information and its limited resources 
to focus on non-compliant and unsafe operations. Implementation of 
CVISN has been slow because federal funding has only been approved for 
a few core states. It appears that some additional funding could be 
available to the states in this bill to begin integration of state 
systems and access to the UCR.
    Section 6, Subsection (g) of this bill would add a deadline for an 
operational system and implement a uniform carrier registration no 
later than one year after the date of enactment of the Motor Carrier 
Safety Improvement Act of 1999. The States are committed to implement a 
new UCR as quickly as possible but would recommend that the timing of 
the implementation coincide with the current calendar year process for 
registration renewals for interstate carriers. Implementing a new 
system at the beginning of a calendar year would create less confusion 
in the industry and allow a smoother transition from one program to 
another.

                                                       Attachment A
       Recommendations for a Unified Carrier Registration System

    The following summary represents the NCSTS's Interstate 
Registration Committee recommendations for combining of the ICC/FHWA 
insurance system, US DOT numbering system, ICC/FHWA registration system 
and the Single State Registration System into a single national on-line 
system as reference in section 13908 of the I.C.C. Termination Act. The 
information is consistent with the original NCSTS' response to Federal 
Highway Administration's advanced notice of proposed rulemaking and 
serves to update and clarify the states recommendations for a Unified 
Carrier Registration System. It is the states' intention to present 
these recommendations to the Federal Highway Administration and then 
aggressively lobby for adoption of this plan with the Public, Congress, 
Industry and Federal Highway Administration.

                            National System

    Proposal: The States would collect and enter registration 
information into a single on-line database maintained by the Federal 
Highway Administration, and/the States, or an outside vendor on their 
behalf of the FHWA and the States. States would continue to enforce 
compliance with registration and other requirements under a cooperative 
Federal/State agreement. All State registration processes would be 
subject to Federal oversight. Each State would be bound by a standard 
and uniform set of rules for the accuracy and veracity of data it 
enters.
    Access to registration and other information maintained in this 
system will be available to all government entities at no cost and will 
be accessible to the insurance industry and other interested parties 
for a fee. The data access fee would be used for administration of the 
program. The registration program would apply to interstate for-hire 
carriers, private carriers, freight forwarders, brokers and, at the 
option of the States, carriers operating exclusively in intrastate 
commerce. A national numbering system, preferably the USDOT number, 
will be utilized. When fully implemented, no in-cab or vehicle specific 
registration credential will be issued by the States. All interstate 
vehicles will be required to display the USDOT number, and State's will 
also have the option of using the USDOT number for carriers' operating 
exclusively in intrastate commerce. All registrants will be required to 
provide proof of financial responsibility. A fee would be collected and 
retained by the States for administering and enforcing federal safety 
fitness and financial responsibility requirements. Designation of 
Process Agents would be filed with the registration forms.
    Justification: The States have proven that they can quickly and 
efficiently implement a national interstate registration program and 
administer that program in an efficient and accurate manner. Other 
trucking-related programs in this country such as safety enforcement, 
fuel tax collection, vehicle licensing, Commercial Vehicle Information 
Systems and Networks (CVISN) and others are moving towards base-state 
systems.
    The States have the infrastructure in place to administer the 
renewals, registration and enforcement processes. Problem resolution, 
whether enforcement related or simply a matter of clerical 
``housekeeping'' issues will be better addressed as a local, State 
problem. The carrier community will have adequate access to essential 
services only if the program is administered by the States.

                        Single State Processing

    Proposal: Each state would serve as the registration point for 
motor carriers domiciled in their state. Currently, 38 states 
administer the Single State Registration System for carriers located in 
their State, neighboring states and foreign countries. These 38 States 
will be able to continue to register all carriers in the new system. 
States not currently participating in SSRS will also be able to 
register carriers.
    Justification: The vast majority of the interstate and intrastate 
carriers are small operations. These motor carriers need access to 
local officials for assistance and service. It is also efficient to 
provide service at the local level. Carriers can achieve compliance 
more quickly at the State level and thus enter the marketplace and 
provide greater economic benefit. The federal Government is currently 
allocating millions of dollars in funds to effectuate Electronic One-
Stop Shopping in the States. Consolidating this program with those 
efforts makes sense. A State system will also allow states to 
voluntarily apply federal requirements to intrastate operations thus 
eliminating duplication and promoting national uniformity.

                              Registration

    Proposal: Registration will be renewed periodically and will be 
applicable to all for-hire, private motor carriers, brokers and freight 
forwarders.
    By incorporating all private and exempt motor carrier operations 
into the registration system, states will voluntarily waive any future 
State-specific interstate registration requirements for these carriers. 
Motor carriers would be required to file a Designation of Process Agent 
for Service of Process. The States would issue the USDOT number in 
conjunction with this registration. States will be encouraged to issue 
a USDOT number to intrastate only carriers.
    Justification: The renewal process will enhance the accuracy of 
motor carriers demographic information, and serve to verify a 
companies' continuing safety fitness to operate, and compliance with 
financial responsibility requirements. Filing of Designation of Process 
Agents would continue to protect the public in case of any legal 
actions taken.

                               Insurance

    Proposal: Financial responsibility data will eventually be 
electronically transmitted by insurance companies into a central 
database. Insurance companies may initially submit proof of financial 
responsibility at the State level during a transition period. All 
registrants will be required to provide proof of financial 
responsibility. The limits of liability will be established by Federal 
Highway Administration. Self-insurance capability will continue at the 
federal level or at the state level if available. Notice of non-
compliance, warning, suspension and revocation will be administered and 
enforced by the States. A Certificate of Insurance filing and 
maintenance fee will be established.
    Justification: Financial responsibility is the key to effective 
administration and roadside enforcement efforts. The system provides 
for interactive electronic filing of certificates of insurance. This 
process allows the insurance industry immediate real time access of 
filing of certificates and cancellations and promotes an exchange of 
information that serves the public interest. Electronic filings and 
State access to this system will encourage non-duplicative filings of 
similar information for intrastate operations and combined filing 
requirements, and state access to this system will encourage non-
duplicative filings of similar information for intrastate operations 
and combined filing requirements.

                             State Funding

    Proposal: All registrants will pay annual fees. Fees collected will 
be used for carrier safety fitness and financial responsibility 
compliance, registration processing, and administration and roadside 
enforcement. A company based fee, calculated by fleet size, would be 
implemented in the transition period and the current per vehicle fee 
will be phased out. Each State would continue to receive at least the 
same level of funding received in the Federal fiscal year 1995. Monthly 
distribution of company fees would be based on each State's percentage 
of total dollars for the year 1995. Each State will submit that 
percentage of its total monthly revenues to each other State. The 
annual fee would include administrative costs incurred in registering 
previously excluded motor carriers or other costs associated with 
establishing this program. The amount of fees needed for this program 
will not exceed the 1995 level plus the additional administrative costs 
associated with this program. The shift to carrier based fees would be 
phased in over three years. For the first and second year the per-
vehicle fee and vehicle credentials requirements will remain under the 
SSRS program for the for-hire carriers. All other registrants will be 
charged a nominal filing fee. In the third year, a new per company 
based fee will be in place. The Single State Registration System will 
be discontinued at that time.
    Justification: Time will be needed for States and Federal Highway 
Administration to review, upgrade or develop new systems. This time 
will also be needed to write procedures, develop processes, and forms 
and implement rules and regulations at the federal and state level. 
State legislation may be needed. Some state legislatures meet every two 
years. States will need to develop an accurate database of the carriers 
that will be incorporated into this new system. When the exact number 
can be determined, the company base fee structure can be determined. 
States do not need, or desire, new or additional revenue as a result of 
implementing this new system.


                                                        SSRS FUNDS DISTRIBUTION SURVEY FALL 1995
--------------------------------------------------------------------------------------------------------------------------------------------------------
                 Total Collected
    State    -----------------------            Where Deposited                     State/Fed MCSAP Match           Total Spent On Motor Carrier Safety
               AMT (MIL)     PCT                                                                                         And  Insurance Enforcement
--------------------------------------------------------------------------------------------------------------------------------------------------------
AL                 2.99       3.21%  PSC Fund & Motor Carrier Fund          .6mil St                               2.5 mil spent on insurance & safety.
                                                                                                                    584,000 to MC Fund for matching Fed
                                                                                                                    funds up to 2.9 mil used for highway
                                                                                                                    maintenance.
--------------------------------------------------------------------------------------------------------------------------------------------------------
AR                 1.94       2.08%  General Fund
--------------------------------------------------------------------------------------------------------------------------------------------------------
CA                 1.3        1.40%  Public Ultilities Transportation       3.2 mil-Fed 800,000-St                 CHP spends 53.0 mil on size and
                                      Reimbursement Account                                                         weight enforcement and 12.0 mil on
                                                                                                                    off- MC inspections. PUC spends 1.3
                                                                                                                    mil on safety and insurance
                                                                                                                    enforcement.
--------------------------------------------------------------------------------------------------------------------------------------------------------
CO                 1.6        1.72%  Motor Carrier Fund                     1.1 mil-Fed 275,000-St                 2.0 mil spent by combined enforcement
                                                                                                                    efforts of DPS, PUC & Dept of Rev
                                                                                                                    (Ports of Entry).
--------------------------------------------------------------------------------------------------------------------------------------------------------
CT                 3.375      4.01%  Transportation Fund                    784,000-Fed 196,000-St                 Allused for MC enforcement and
                                                                                                                    administrative activities funded
                                                                                                                    from Transportation Fund.
--------------------------------------------------------------------------------------------------------------------------------------------------------
GA                 4.856      5.22%  General Fund                           1.8 mil-Fed 1.7 mil-St                 8.0 mil
--------------------------------------------------------------------------------------------------------------------------------------------------------
ID                 0.537      0.58%  General Fund                           220,000-St                             PUC-500,000; State Police 200,000
                                                                                                                    field enforcement DOT spent an
                                                                                                                    indeterminate amount on MC safety/
                                                                                                                    insurance enforcement.
--------------------------------------------------------------------------------------------------------------------------------------------------------
IL                 3.1        3.33%  Transportation Regulatory Fund         Proposed SSRS/MCSAP match 3.2mil/      3.1
                                                                             800,000
--------------------------------------------------------------------------------------------------------------------------------------------------------
IN                 2.1        2.26%  Motor Carrier Regulation
--------------------------------------------------------------------------------------------------------------------------------------------------------
IA                 0          0.43%
--------------------------------------------------------------------------------------------------------------------------------------------------------
KS                 4.272      4.59%  Motor Carrier License Fee Fund         289,000-St                             1.415 mil used by Ks Corp Comm for MC
                                                                                                                    administration and enforcement; 3.8
                                                                                                                    mil transferred to department of
                                                                                                                    transportation for roadside and
                                                                                                                    MCSAP enforcement.
--------------------------------------------------------------------------------------------------------------------------------------------------------
KY                 5.48       5.89%  Road Fund                                                                     12 Million
--------------------------------------------------------------------------------------------------------------------------------------------------------
LA                 4.518      4.85%  Transportation Regulatory Fund         Yes                                    20% SSRS $ to LaPSC for Safety/
                                                                                                                    fitness and insurance enforcement
                                                                                                                    and administration; 80% to General
                                                                                                                    Fund for State Police and DOTD for
                                                                                                                    MC enforcement programs including
                                                                                                                    IFTA, size & weight and general
                                                                                                                    administration.
--------------------------------------------------------------------------------------------------------------------------------------------------------
ME                 1.847      1.98%  Traffic Safety Fund                                                           1.847 mil.
--------------------------------------------------------------------------------------------------------------------------------------------------------
MA                 2.359      2.53%  General Fund                                                                  2.359 mil used by State Police for
                                                                                                                    insurance and safety enforcement.
--------------------------------------------------------------------------------------------------------------------------------------------------------
MI                 2.4        2.58%  Public Service Commission Fund         3.2 mil-Fed 800,000-St                 900,000 to Truck safety Commission
                                                                                                                    which funds 15+ MC Safety Officers;
                                                                                                                    300,000 to PSC for safety/fitness
                                                                                                                    and insurance enforcement; 1.2 mil
                                                                                                                    to State Police for MC Division
                                                                                                                    operations and enforcement.
--------------------------------------------------------------------------------------------------------------------------------------------------------
MN                 1.289      1.38%  Trunk Highway Fund                     Yes                                    Trunk Highway Fund contributes to
                                                                                                                    MCSAP and funds all MC enforcement.
--------------------------------------------------------------------------------------------------------------------------------------------------------
MS                 4.411      4.74%  Dedicated Fund used exclusively for    3.2 mil-Fed 800,000-St                 3.182 mil used for MC enforcement.
                                      MC enforcement and admin.
--------------------------------------------------------------------------------------------------------------------------------------------------------
MO                 2.14       2.30%  Highway Fund                           Yes                                    2.140mil
--------------------------------------------------------------------------------------------------------------------------------------------------------
MT                 1.253      1.35%  General Fund                           500,000-Fed 100,000-St                 125,000 for economic and insurance
                                                                                                                    enforcement; Highway Patrol spends
                                                                                                                    all MCSAP money; DOT spends 3.2 mil
                                                                                                                    on size/weight enforcement; Highway
                                                                                                                    Patrol spend indeterminate amount on
                                                                                                                    MC Enforcement.
--------------------------------------------------------------------------------------------------------------------------------------------------------
NE                 0.70       0.75%  General Fund                                                                  Safety enforce provided by Highway
                                                                                                                    Patrol which is funded from General
                                                                                                                    Fund.
--------------------------------------------------------------------------------------------------------------------------------------------------------
NH                 2.841      3.05%  General Fund                           2.97 mil-Fed .74mil-St                 2.8 mil.
--------------------------------------------------------------------------------------------------------------------------------------------------------
NM                 3.5        3.76%  State Road Fund                        830,000-Fed 491,000-St                 MTD handles all MC enforcement and is
                                                                                                                    funded exclusively from road fund;
                                                                                                                    6.0 mil safety and insurance; 2.5
                                                                                                                    mil size and weight enforcement.
--------------------------------------------------------------------------------------------------------------------------------------------------------
NY                 4.0        4.30%  Transportation Regulatory Fund         250,000-St                             4.0 mil used exclusively for
                                                                                                                    administration and enforcement of MC
                                                                                                                    insurance and safety.
--------------------------------------------------------------------------------------------------------------------------------------------------------
NC                 0.440      0.47%  Highway Fund                           1.17 mil-Fed                           242,505
--------------------------------------------------------------------------------------------------------------------------------------------------------
ND                 2.674      2.87%  Highway Fund                           Yes                                    2.674 mil
--------------------------------------------------------------------------------------------------------------------------------------------------------
OH                 2.155     2.32.%  Motor Transportation Regulation Fund   3.1 mil-Fed 700,000-St                 All funds used for motor carrier
                                                                                                                    enforcement activiies.
--------------------------------------------------------------------------------------------------------------------------------------------------------
OK                 2.02       2.17%  State Corp Comm Revoling Funds which   316,000-St                             1.3 mil by Corporation Commission;
                                      funds Transportation Division and                                             indeterminate amounts spent by other
                                      Transportation Support Services.                                              agencies in ports and roadside
                                                                                                                    enforcement efforts.
--------------------------------------------------------------------------------------------------------------------------------------------------------
RI                 2.3        2.47%  General Fund                           .....................................  2.3 mil
--------------------------------------------------------------------------------------------------------------------------------------------------------
SC                 2.5        2.69%  General Revenue Fund                   923900-Fed 467,000-St                  .....................................
--------------------------------------------------------------------------------------------------------------------------------------------------------
SD                 1          1.04%  General Fund                           .....................................  972,000 used for State Highway
                                                                                                                    Patrol.
--------------------------------------------------------------------------------------------------------------------------------------------------------
TN                 4.396      4.72%  Motor Carrier Account                  1.2 mil State                          8.6 mil (4.4 SSRS; 3.0 Fines; 1.2
                                                                                                                    MCSAP).
--------------------------------------------------------------------------------------------------------------------------------------------------------
TX                 1.5        1.61%  General Fund                           .....................................  .....................................
--------------------------------------------------------------------------------------------------------------------------------------------------------
UT                 1.7        1.83%  800,000 to DOT; 350,000 to DPS         1.2 mil-Fed 720,000-St                 DPS-Roadside enforcement; DOT-Fixed
                                                                                                                    inspections; total both depts =1.2
                                                                                                                    mil.
--------------------------------------------------------------------------------------------------------------------------------------------------------
VA                 2.66       2.86%  .....................................  .....................................  DMV recieves 2.1 mil State Police
                                                                                                                    recieves 1.6 mil VDOT recieves 2.5
                                                                                                                    mil.
--------------------------------------------------------------------------------------------------------------------------------------------------------
WA                 2.5        2.69%  Dedicated fund all 2.5 mil stays inWA  1.2 mil-Fed 300,000-St                 5.5 mil spend by combined efforts of
                                      Utilities and Transportation                                                  State Patrol, Dept of Labor, and
                                      Commission for MC safety program                                              Utilities and Transportation
                                      (until 1/1/96-then transferred to                                             Commission.
                                      State Patrol for same purpose).
--------------------------------------------------------------------------------------------------------------------------------------------------------
WV                 1.4        1.50%  PSC Motor Carrier Fund                 500,000-Fed 780,000-St                 2.1 mil on MC safety programs.
--------------------------------------------------------------------------------------------------------------------------------------------------------
WI                 2.3        2.47%  Transportation Fund                    1.5 mil-Fed 372,000-St                 2.3 used for transportation related
                                                                                                                    activities, especially size/weight
                                                                                                                    enforcement, roadside inspections,
                                                                                                                    CDL enforcement, and commercial
                                                                                                                    vehicle enforcement by State Patrol.
--------------------------------------------------------------------------------------------------------------------------------------------------------
TOTAL             93.085    100.00%
--------------------------------------------------------------------------------------------------------------------------------------------------------
NOTE: These numbers represent the net SSRS revenue collected by the states and available to them for expenditure on motor carrier safety programs.

                                 ______
                                 
           Prepared Statement of the American Bus Association
    ABA is the national trade association for the intercity bus 
industry. We have approximately 700 member companies that operate buses 
in intercity service. Some 100 of ABA's member companies provide 
regular route scheduled service, and nearly all of the operator members 
provide some sort of charter, tour or commuter service. Collectively, 
the membership of ABA offers:

        <bullet> regular route intercity service between fixed points 
        on set schedules;
        <bullet> charter service, where a group of passengers (such as 
        a church or organization) purchases all of the seats on a bus 
        for exclusive use on a particular trip;
        <bullet> tour service, for which seats are sold on an 
        individual basis, and which usually includes stops for 
        sightseeing and recreational purposes;
        <bullet> commuter bus services, generally from the suburbs into 
        urban areas; and
        <bullet> special operations, which is scheduled service to 
        enhance public transportation systems (such as bus service from 
        a city to an airport), or may be connected with a special 
        event, convention or attraction at the destination.

    The remaining 2,300 of ABA's members include representatives of the 
travel and tourism industry, and the manufacturers and suppliers of 
products and services used by the bus industry.
    ABA strongly supports S. 1501, the Motor Carrier Safety Improvement 
Act of 1999. It is a good bill that perceives the critical need to 
focus more effectively on safety issues in the industry by the 
establishment of a separate Motor Carrier Safety Administration within 
the Department of Transportation (DOT). We are also gratified that the 
legislation recognizes the clear distinction between truck operations 
and passenger carrier operations. For too long, the motorcoach industry 
has been regulated as if a bus were a truck. However, ABA prefers the 
language proposed in the House bill, H.R. 2679, which creates an 
``Office of Passenger Vehicle Safety.'' In our view, an Office, headed 
by a Senior Executive Service individual, and made up of several 
divisions would be better able to address the diverse nature of 
passenger safety in much more detail that a single division. We believe 
that passenger vehicle safety will be best served by the creation of an 
Office with sufficient staff resources to address the diverse nature of 
the passenger carrier industry rather than having all passenger vehicle 
safety issues housed in one small division within an office devoted 
only to trucking issues.
    As we have told the Senate Commerce Committee before, safety has 
always been our industry's and ABA's number one priority and current 
statistics bear this out. Travel by motorcoach is by far the safest 
mode of transportation available to the public. The National 
Transportation Safety Board (NTSB) highlighted this fact at their board 
meeting last week. In addition, according to the National Safety 
Council, during the last decade for which statistics are available, 
1987-1996, interstate motorcoach travel accounted for an average of 4.3 
fatalities per year compared to an average of 44,000 persons per year 
killed in all highway fatalities during this period. ABA and its member 
companies believe that even one fatality is tragic and is too many. 
Further, our industry continually looks to improve its safety record.
    At the same time, the record our industry achieved was accomplished 
by motorcoach operators and manufacturers through their own efforts to 
promote the highest standards of safe design and operation and through 
their compliance with stringent federal and state safety regulations. 
The very fact that ABA has a safety committee indicates just how 
important this issue is to our members. In addition, ABA has recently 
hired a safety director dedicated to enhance our members' performance. 
ABA's safety committee serves as a resource for the entire motorcoach 
industry and is proactive in advancing new safety concepts to its 
members. It also provides important information on regulatory 
compliance to our members and to the industry. We hope that with the 
creation of this new administration, ABA can serve a similar function. 
We have always had a good working relationship with the Office of Motor 
Carriers and Highway Safety (OMCHS) and expect to have a similar role 
with the new Motor Carrier Safety Administration.
    In addition to organizational issues, ABA also supports the 
legislation's proposed improvements to the Commercial Drivers License 
(CDL) program. It especially supports the initiation of a rulemaking 
action to provide for Federal medical qualification certificates to be 
made a part of commercial drivers' licenses by any state and a national 
registry of medical providers.
    ABA also endorses the provision that would make significant 
improvements in the way motor carrier safety data is collected. 
However, in addition to the data improvements proposed, we would like 
to see DOT develop definitions differentiating motorcoach, transit bus, 
and school bus operations as a way to improve the quality of the data 
collected. We would like to note that NTSB made a similar 
recommendation in the report that it issued last week.
    With respect to other motor carrier safety initiatives, ABA 
supports the bill's establishment of departmental policy to ensure the 
protection of privacy for those using electronic recorders or other 
technology to monitor vehicle and operator performance and/or location. 
We continue to believe, however, that the use of technology should be 
voluntary, and that the privacy of those users should be protected.
    With respect to the proposed Commercial Motor Vehicle Safety 
Advisory Committee, ABA fully supports the development of this group 
and would welcome the opportunity to participate.
    ABA strongly supports Section 6(g)(2) of S.1501 which mandates that 
the Federal Motor Carrier Safety Regulations (except Commercial Drivers 
Licenses and drug and alcohol testing) become applicable to commercial 
vans 60 days after the bill's enactment. This language is needed 
because DOT has simply not responded to prior congressional action 
intended to bring appropriate safety regulation to commercial vans.
    TEA-21 mandated that one year after its effective date, the Federal 
Motor Carrier Safety Regulations (FMCSR), with few exceptions, would 
apply to commercial vans carrying more than 8 passengers.
    Recent Federal Highway Administration (FHWA) rulemakings appear 
contrary to the TEA-21 mandate and the intent of Congress. For example, 
on August 16, 1999 it published a Notice of Proposed Rulemaking (NPRM) 
promulgating new safety fitness procedures for commercial motor 
vehicles. In doing so, it exempted commercial vans from those 
procedures even though they are part of the Federal Motor Carrier 
Safety Regulations (FMCSRs). ABA considers it a grave error to 
formalize a process that will not allow the FHWA to shut down 
interstate commercial van operators no matter how unsafe they prove to 
be.
    Second, both the interim final rule and NPRM on the applicability 
of FMCSRs to interstate commercial passenger vans also appears contrary 
to congressional intent. The interim rule exempts commercial vans for a 
period of 6 months while the FHWA considers comments submitted in 
response to the NPRM. However, the NPRM, as written, only requires 
commercial passenger vans to file a Motor Carrier Identification 
Report, comply with vehicle marking provisions, and complete an 
accident register. This NPRM completely ignores driver qualifications, 
including medical requirements, hours-of-service provisions, and 
vehicle maintenance and inspection requirements. Research shows that 
more that 250 people annually are killed in commercial passenger van 
accidents, far exceeding motorcoach fatalities. ABA is confident that, 
in light of these statistics, that Congress never intended for the FHWA 
to exclude the bulk of the FMCSRs. Section 6(g)(2) of S.1501 would 
mandate the long overdue application of a substantial portion of the 
FMCSRs to commercial vans, and we support it fully. However, in light 
of DOT's past inaction on this subject, it is also important to build 
into this provision language which ensures that DOT enforces these 
regulations.
    There are several issues in which ABA would like to see the 
legislation address, which are not part of S. 1501.
    One provision ABA would like to see included in the legislation is 
one involving alcohol and drug testing. We firmly believe that these 
alcohol and drug tests should be reported by the Medical Review Officer 
to a national database for use by carriers, with proper controls to 
ensure individual privacy.
    With regard to medical qualifications for drivers, ABA believes 
that medical professionals who perform DOT physicals should be 
certified to ensure that they understand and follow the DOT medical 
guidelines. We understand that the Congress is working with DOT to 
establish such a process.
    As you may know, ABA is a member of the Commercial Vehicle Safety 
Alliance's (CVSA) Passenger Carrier Committee. At a recent meeting of 
this Committee, it endorsed several concepts, some of which are 
incorporated into S.1501. The Passenger Carrier Committee voted to 
support the following: the creation of a Passenger Vehicle Safety 
Office within DOT; the establishment of minimum standards for driver 
and vehicle qualifications; the enhancement of data collection 
including driver accident histories, listing of violations, and a 
proper definition of a passenger vehicle; the prequalification of new 
carrier entrants; and semi-annual inspections on commercial vehicles by 
the states. ABA urges the Committee to consider these recommendations 
when mark-up commences.
    A final safety issue involves the certification of motor carrier 
safety specialists. ABA favors the establishment of a certification 
process for all those who perform safety reviews. Senator Breaux's 
bill, S.1524, would accomplish this and create a training and 
certification program for Motor Carrier Specialists at the federal, 
state, and local level as well as those non-governmental specialists 
(third parties) who perform safety reviews. Our view is that third 
parties will help alleviate the backlog of certain types of reviews, 
including those conducted on new companies and those initiated by 
company requests. ABA does not, however, support using third parties 
for normal compliance activities such as unscheduled compliance reviews 
and complaint investigations. We believe this certification proposal 
outlined in S.1524 will go a long way toward ensuring a more 
consistent, accurate, and uniform review process nationwide. We 
strongly believe that had this sort of program been in place already, 
accidents such as the tragic Mother's Day motorcoach crash in New 
Orleans might have been prevented. We hope that this legislation will 
somehow be incorporated into S. 1501 as the legislation advances to 
mark-up.
    ABA is committed to safety and has been pro-active both on the 
regulatory and legislative fronts to advance those proposals that 
enhance the safety of the motorcoach industry. S. 1501 marks a 
milestone in the effort to achieve this objective. The recognition that 
the operations of the motorcoach industry differ dramatically from the 
trucking industry is to be commended and the fact that a separate 
administration is being proposed that would be dedicated to motor 
passenger safety illustrates the commitment of Senator McCain to making 
safety a number one priority. ABA offers its resources and support as 
S.1501 advances in the legislative process and will dedicate itself to 
transforming the legislation into law.
                                 ______
                                 
    Prepared Statement of the American Association of Motor Vehicle 
                         Administrators (AAMVA)

    The American Association of Motor Vehicle Administrators (AAMVA) is 
an international association whose members are the chief motor vehicle 
administrators and chief law enforcement officials in the United States 
and Canada. Just recently, the federal government of Mexico joined the 
Association which expands our presence throughout North America.
    The Association appreciates the opportunity to comment on S. 1501, 
the Motor Carrier Safety Improvement Act of 1999 and will take this 
opportunity to report on our involvement in the highway safety arena as 
well as areas of the proposed legislation that are of concern to the 
AAMVA community.
    What is not widely recognized is the fact that the Association is a 
key participant in the many highway traffic safety programs, projects, 
and issues addressed in S. 1501. Our involvement is not on the 
periphery; AAMVA is a ``major player.'' AAMVA's Police Traffic Services 
Committee is represented by state police and highway patrol. In many 
instances the enforcement officials and highway patrol are one in the 
same. While motor vehicle agencies are involved with the collection of 
fees and revenues from the motor carrier community, we also have a 
significant role in ensuring that compliance programs are implemented. 
If Congress wants to implement new compliance, enforcement or training 
programs, our members are the ones relied upon to make it happen.
    The Association's members also have weighed in heavily on driver 
training. From a safety aspect, it's hard to argue with tying the 
training requirement for commercial drivers to the licensing process. 
But, it raises several motor vehicle related issues that need to be 
dealt with such as monitoring issues that need to be in place, as well 
as the critical issue of funding.
    Enhancement of the commercial drivers license program will require 
a change in the way we all do business; the Federal government, State 
agencies and the motor carrier industry. The Association is currently 
reviewing and revising the entire commercial drivers license test 
battery to make it stronger and more functional. The Association 
believes that there is much more involved in becoming a good, safe 
commercial motor vehicle operator than just passage of the knowledge 
and skills tests. We will look at the structure of the tests in an 
attempt to make them stronger, but we must also look at the training 
needs and find ways to tie training into the licensing environment. We 
also need to explore ways to get novice drivers more experience in a 
controlled environment. One of the ways to do that is through graduated 
licensing.
    We are working with FHWA, OMC and the industry in analyzing the 
feasibility of looking at establishing a graduated licensing program 
for commercial drivers. The other big issue to study is training--
training that is tied to the licensing process, strengthening the 
knowledge tests and incorporating some form of behind-the-wheel 
experience are aspects of the graduated licensing study.
    The Association also is taking a leadership role at our nation's 
borders. Border states are very concerned about the conditions of 
vehicles and the skill level of drivers soon to be entering their 
borders. We are focusing on the Mexican driver--how well they are 
trained, how their commercial driver licensing process works, their 
testing process and inspection procedures and whether their drivers 
hold valid commercial drivers licenses. The problems they face today in 
Mexico will become problems the United States will face tomorrow.
    Understanding this fact, AAMVA has developed a mutually beneficial 
working relationships with representatives of Mexico to share data on 
our commercial drivers licensing program and third-party examiner 
testing and training.
    It is for the above reasons that we believe housing all of the 
funding for enhancement of the commercial drivers license program under 
MCSAP does not work. Even though the funds for the MCSAP program are 
doubled in this legislation, rarely are those funds used to improve the 
training programs for the drivers. Most MCSAP funds are earmarked for 
compliance or enforcement programs. We believe a portion of the MCSAP 
funding should be appropriated for the commercial driver licensing 
program and those agencies that are responsible for administering those 
programs. The experience level of the driver should be of equal 
importance in any discussion of improved motor carrier safety on our 
highways.
    Specific issues of concern with S. 1501, as proposed, are as 
follows:
    1. Section 5(c)(1), Medical Certificates. Over the years, AAMVA has 
been involved with FHWA's Office of Motor Carriers' negotiated 
rulemaking process to amend the Federal Motor Carrier Safety 
Regulations with regard to the determination of physical qualifications 
to operate a commercial motor vehicle in the commercial driver 
licensing process. Incorporating the commercial driver fitness 
determination into state-administered commercial drivers license 
procedures may eventually eliminate the requirement that operators 
requiring a CDL carry a separate medical certification.
    Speaking on behalf of state motor vehicle agencies across the 
country, there is a great deal of concern among jurisdictions about 
tying driver medical qualifications to the licensing process. The 
issues and associated questions that states have are as follows.

        <bullet> Decision about whether the driver meets the FMCSR 
        standards. Who would be making the final determination 
        regarding a driver's physical qualifications? Would it be the 
        medical provider or the licensing agency?

    Uniformity. Should a federal medical standard be created to apply 
to both interstate and intrastate commerce drivers?
    Interim changes in medical conditions. Would states be capable of 
handling changes in medical conditions that may occur between licensing 
cycles?
    Tracking systems. Who would report unqualified drivers and to whom 
should those reports be made? Should the medical provider be required 
to report to FHWA the results of medical examinations? Should the motor 
carrier assume responsibility for reporting drivers who do not meet the 
medical requirements? What exactly is the role of the states in this 
activity?
    Report requirements for medical examinations. Should a reporting 
requirement be considered if a tracking system is created? Who would be 
liable for a driver who is not medically qualified? Should the medical 
examiner be accountable or should the responsibility lie solely with 
the motor carrier? If the responsibility for medical determinations is 
transferred to the states, would the states be responsible for follow-
up enforcement, or would they merely report to the federal authority.
    Renewal periods. Would there be a uniform renewal cycle for 
medicals in all states and who would it relate to the renewal period 
for drivers licenses?
    Cost. Who would pay for the driver's lost time and wages that are 
incurred as a result of compliance with the new system? Who will pay to 
implement and maintain the new system and registry?
    Enforcement. Who would be subject to enforcement action upon 
violation of these rules--the driver or the motor carrier? Will vehicle 
credentialing be tied to compliance?
    Record keeping/paper work. Who would be responsible for maintaining 
driver records--the motor carrier, the driver licensing agency or the 
driver?
    These are some of the concerns we have with such a system. However, 
our member jurisdictions would much rather see this current rulemaking 
process carried out to its fruition rather than legislating the 
creation of a federal medical qualification certificate process.
    2. In general there is widespread support for Section 5(a)(5) that 
prohibits states from issuing special licenses that permit an 
individual to drive a commercial motor vehicle during a period in which 
the individual is disqualified from operating a commercial motor 
vehicle or the individual's driver's license has been revoked, 
suspended, or canceled.
    3. We support the creation of a Commercial Motor Vehicle Safety 
Advisory Committee; however, we feel strongly that if such a committee 
is established that motor vehicle and driver licensing administrators 
be represented on the committee.
    4. Another issue of concern is funding. We feel that implementation 
of this bill would create a funding hardship, requiring an increase in 
personnel and extensive programming. It may also require legislative 
change in many jurisdictions. However, given ample lead time to pursue 
legislative changes, adequate funding assistance and leadership at the 
national level, we feel this bill could be successfully implemented. We 
do encourage the Committee to give serious consideration to dedicating 
funds to motor vehicle agencies to carry out the provisions of this 
bill. Without those obligated dollars, it is highly unlikely that 
states would be able to comply with and implement the provisions of 
this bill.
    5. The development of a uniform system to support the electronic 
transmission of data from state-to-state on violations of all motor 
vehicle traffic control laws by CDL holders is a technological 
advancement that the Association and its members are extremely 
interested in pursuing. As you are aware, monies were appropriated 
under Section 2006 of TEA-21 for AAMVA, in conjunction with the 
Secretary of Transportation, to conduct an assessment of available 
electronic technologies to improve access to and exchange of motor 
vehicle driving records. We would recommend that a portion of the 
funding being made available to implement the provision of this bill be 
dedicated to this technology assessment.
    6. Finally, the Association does not have any overriding concerns 
with the establishment of a new Motor Carrier Safety Administration.
                                 ______
                                 
   Prepared Statement of David F. Snyder, Assistant General Counsel, 
                     American Insurance Association

    The American Insurance Association represents more than 370 
insurers which provide 36% of the commercial vehicle insurance in the 
United States. They have extensive experience in truck safety issues as 
businesses and as safety advocates. On their behalf, we are pleased to 
state our strong support for S. 1501, the ``Motor Carrier Safety 
Improvement Act of 1999''. We also wish to take this opportunity to ask 
you to adopt some enhancements which are entirely consistent with the 
purpose and provisions of the S.1501.

                    TRUCK SAFETY IS A MAJOR CONCERN

    Truck crashes are a major public health, safety, economic and 
transportation efficiency issue for all citizens. During the last year 
for published statistics, despite a genuine commitment to safety by the 
affected industries, 5,282 persons were killed and nearly 20 times that 
number injured in large truck crashes. The total economic costs to 
society exceeded $15 billion in lost productivity, medical costs and 
property damage--costs shared by the victims and their families, 
employers, insurance consumers and taxpayers. Large truck crash 
fatalities reached their highest levels this decade in 1997 (5,295) and 
1998 (5,282). Clearly we have not yet achieved success.
    Insurers underwrite and charge premiums on the basis of safety 
performance. They also provide expert advice on reducing risk and 
improving the safety of operations. But they cannot substitute for a 
vigorous Federal regulatory program, which has often been lacking.
    Major causes of truck crashes, according to our member insurers, 
include fatigue, hours of service violations, speeding, brakes and 
general maintenance problems. They also believe that Federal regulatory 
programs should be more accountable and higher in visibility and 
effectiveness. S.1501 addresses most of the major issues.

  TO SUCCEED, FEDERAL TRUCK SAFETY PROGRAMS MUST BE MORE FOCUSED AND 
                              ACCOUNTABLE

    Federal truck safety programs are nearly invisible to the public 
and there is no apparent focal point or official to be held publicly 
accountable for truck safety matters. This has led directly to delays 
in critical rulemakings such as hours of service and worse safety 
results than expected. The most important reform S.1501 accomplishes is 
to create a highly visible and accountable truck safety focus in the 
Federal Government that, under the Interstate Commerce Clause, has the 
plenary responsibility for the subject.
    Simply pouring more resources into the current regulatory structure 
is like putting more gas into a car without a motor. S.1501 remedies 
this fundamental shortcoming by establishing an independent agency 
modeled on the Federal Aviation Administration. Considering the size 
and economic importance of trucking industry, crash costs and 
regulatory failures, this reform is essential for achieving success. 
The duties of the new agency are appropriately comprehensive, including 
implementing the US DOT Inspector General's recommendations on better 
and stronger enforcement, safety ratings and data analysis. Some added 
responsibilities are also assigned to the National Highway Traffic 
Safety Administration.

BEYOND REFOCUSING SAFETY PROGRAMS, SPECIFIC PROGRAM FLAWS AND INCREASED 
                   FUNDING ARE ADDRESSED BY THE BILL

    We support the increased funding levels in Section 3, especially 
because they will provide more resources to an updated and refocused 
federal regulatory structure established by Section 2 of S.1501. The 
payback should be quite significant.
    Section 4 provides that the new agency shall act to carry out the 
Inspector General's recommendations including tougher enforcement and 
oversight, more current safety ratings, and more extensive and better 
analyzed data, in addition to the restructuring. We support addressing 
all of these issues.
    Section 5 will remedy some of the current flaws in the Commercial 
Drivers License program. Most importantly, it will be changed to take 
account of violations by truck drivers that occur in other vehicles. To 
us this makes sense, because dangerous driving behavior is often not 
compartmentalized. The bill also contains provisions to assure better 
and more complete participation by the States.
    Section 6 addresses the paucity and comparatively poor analysis of 
data. It will also help harmonize differences between the States in 
data reporting. Section 7 creates an advisory committee. Because of 
their economic stake and relevant expertise, the provision should 
includecommercial vehicle insurers as members. Section 6 also moves 
closer to the use of event recorders.

          ADDITIONAL PROVISIONS WOULD IMPROVE THE LEGISLATION

    The issue of the safety of Mexican trucks entering the U.S. should 
be addressed. Repeated studies show high out-of-service rates, 
overweight loads, poorly maintained vehicles and hours of service and 
operator violations. The U.S. must assure that adequate programs, 
infrastructure and personnel are in place to achieve full compliance 
with U.S. safety laws. Nothing would hurt the cause of NAFTA or free 
trade more than a preventable truck crash with multiple casualties or 
environmental damage. Provisions addressing these issues should be 
included in the legislation.

             CHANGES ARE NEEDED ON SEVERAL INSURANCE ISSUES

    Section 6 helps establish an improved Federal proof of insurance 
system covering all commercial motor vehicles. Wasteful multiple 
insurance status reporting could be eliminated and all motor carriers 
included in a readily accessible and efficient proof of insurance 
system. However, S.1501 does not dispose of the duplicative and costly 
State system and does not cap system access fees to actual costs 
charged to provide information to, and receive information from, the 
system. Again, under the Interstate Commerce Clause, the Federal 
Government can and should exclusively perform this responsibility. 
Therefore, preemption language and fee limitation language should be 
added to S.1501.
    Section 8 concerns owner-controlled insurance programs. We support 
the concept of the Federal Government preventing grantees of Federal 
funds from inflating insurance reserves and using the money to offset 
their financial obligations for participation. However, the current 
language is overly broad and could be interpreted as infringing on the 
McCarran-Ferguson Act. We therefore request that this provision be 
limited clearly to the grantee of Federal funds, leaving to State 
regulation oversight of insurance companies. In this way, all parties 
will be subject to scrutiny but without conflict or duplication.

                               CONCLUSION

    We strongly support S.1501. We also urge the Congress to make some 
changes to strengthen and better carry out its clear intent.
Respectfully Submitted,

David F. Snyder
Assistant General Counsel
American Insurance Association
                                 ______
                                 
      Prepared Statement of Jennifer Mooney Tierney, Citizens for 
                       Reliable and Safe Highways

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to submit this testimony concerning S. 1501, the Motor 
Carrier Safety Act of 1999.
    The trucking industry in the United States is plagued by numerous 
safety problems. Oversize and overweight trucks, truck driver fatigue, 
substandard vehicle maintenance, insufficient regulatory enforcement, 
and lack of reliable truck crash data are all obstacles to safe 
trucking operations. The trucking industry consistently places 
productivity concerns over issues of safety. But we feel that the U.S. 
Congress, the U.S. Department of Transportation and trucking interests 
have a shared responsibility to truck drivers and to the motoring 
public to make safety a top priority. Safety must be an integral part 
of trucking operations, and it is our goal to ensure that safety is the 
highest priority and that it does not take a back seat to economic 
efficiency and productivity.
    According to fatality statistics recently released by the National 
Highway Traffic Safety Administration (NHTSA), 5,300 people died in 
over 400,000 truck-related crashes in 1998; 141,000 more were injured, 
26,000 suffering severe brain damage or loss of a limb. Now more than 
ever, the federal government must seriously address this public health 
crisis and overall improvements must be made in the safety of trucking 
operations in the U.S.
    Citizens for Reliable and Safe Highways (CRASH), formed in 1990, is 
a nationwide, grassroots non-profit organization dedicated to improving 
overall truck safety in the U.S. and eliminating the unnecessary deaths 
and injuries caused by truck crashes every year. We represent the 
millions of Americans who travel the nation's highways every day, 
including truck drivers, motorists, truck crash victims, and their 
families. Our goal is to make safety as important as productivity in 
all U.S. trucking operations.
    On behalf of our 45,000 members nationwide we would first like to 
thank this Subcommittee and the Congress for responding to the 
increasing numbers of motorists demanding greater transportation 
safety. Members of CRASH come from a broad spectrum of backgrounds and 
affiliations.
    CRASH volunteers are often members of medical associations, 
emergency care units, head injury foundations, state highway patrols, 
and crash reconstructionist teams. Together with the families of truck 
crash victims, these individuals truly understand the urgency behind 
our fight to save lives by improving truck safety standards.
    Truck drivers are also an integral part of the CRASH team, 
reminding us that the current system often forces drivers to choose 
between driving safely and making a living. CRASH's Board of Directors 
are national leaders who volunteer their services to advance our public 
safety objectives. Finally, many CRASH members are just regular people, 
motorists who share the roads with big trucks and share the goal of 
making truck operations safer.
    I am a CRASH Board member and a member of the CRASH Survivors 
Network. That means I can personally attest to the fact that commercial 
truck safety is a life and death issue that affects real people and 
real families. The course of my life changed drastically one night 15 
years ago, when my father, James William Mooney, Sr., was killed in a 
senseless, preventable side underride crash with a big rig truck on a 
dark country road in North Carolina. He had beautiful eyes but they 
never saw that truck backing up across both lanes of the road because 
there was no reflective tape on the sides of that truck. Since that 
night I have dedicated my life to preventing this tragedy from 
happening to others.
    It has been a difficult process to turn my grief into positive 
action. For six years I was on my own, talking to anyone who would 
listen and many more who didn't want to hear that daddy's crash didn't 
have to happen. I was a young woman when he died. Now I am middle-aged, 
married, with a teenage daughter of my own.
    In 1990, I discovered Citizens for Reliable and Safe Highways and 
knew immediately that I had found at last a means to amplify my voice 
and magnify my presence because I was no longer alone. There were tens 
of thousands of us representing millions of motorists who felt let down 
and betrayed by a system that seemingly values trucking industry 
productivity over public safety on the roads and highways of this great 
country.
    For 15 years I have struggled to solve the problem of truck 
conspicuity and many other dangers of unsafe trucks and trucking 
practices. I continue this work even when exhausted and outraged by the 
well-financed trucking industry's demands for bigger and heavier trucks 
and less stringent work rules. I do so as a volunteer because it's the 
right thing to do.
    The number of people personally affected by commercial truck 
crashes is staggering and grows every year. Yet the trucking lobbyists, 
the trucking media, even government officials charged to uphold safety, 
hide behind their spin on the terrible statistics by saying the numbers 
of crashes, deaths and injuries are up because the traffic is up. They 
say the fatality rate per vehicle miles traveled is down so they're 
proud of the job they're doing of making the highways safer. 5,300 
killed, 141,000 injured in 1998.
    The death toll in truck-involved crashes is equivalent to a fully 
loaded jetliner crashing every other week. If the airline industry were 
involved in plane crashes every other week, they would be grounded! And 
neither the government or the public would accept the argument that 
these crashes were acceptable because air miles traveled were 
increasing. And Congress would never tolerate a major airline crash 
every other week on the argument that it facilitates a more profitable 
and efficient aviation industry. Yet these are the arguments used by 
some trucking interests against rules which would improve the safety of 
commercial trucking.
    I am grateful that we are here today to continue focusing on 
restructuring the failed Office of Motor Carriers (OMC). The list of 
OMC regulatory and enforcement failures goes on and on and on. Because 
of its weakened culture the OMC has clearly lost the credibility to 
effectively oversee motor carrier safety. As a result, all motorists 
are suffering the effect of weak rules and laws and paralyzed 
compliance.
    A restructured, revitalized OMC can take more efficient and 
effective steps to reduce the pain and suffering of all motorists 
including truck drivers. A re-empowered and redirected OMC can reduce 
the threat to all who share the road and begin to restore balance to 
our nation's system of safely transporting people as well as freight.
    That is why CRASH supports the passage of S. 1501. Though the 
measure would create a separate motor carrier administration, it has 
other features which CRASH and other safety groups have been pushing 
for this past year and is, in general, a more comprehensive approach to 
improving the federal motor carrier safety programs. While the safety 
community maintains that the National Highway Traffic Safety 
Administration (NHTSA) is the best place for all motor carrier safety 
programs, S. 1501 is a better bill than others for three important 
reasons:

    1. S. 1501 gives NHTSA some additional regulatory authority over 
commercial motor vehicles (CMVs), which includes trucks and buses, on 
the road.
    2. S. 1501 gives NHTSA responsibility over all motor carrier data 
collection and analysis.
    3. S. 1501 directs the Department of Transportation (DOT) to 
implement the safety recommendations in the Inspector General's (IG) 
April 26, 1999 report.

    CRASH believes it is crucial to the safety of all motorists to keep 
these three key provisions in S. 1501. Additionally, there are other 
provisions that need to be added to S. 1501.
``PROVISIONS WE SUPPORT IN S. 1501''
    1. S. 1501 transfers additional regulatory authority from the 
Office of Motor Carriers (OMC) the National Highway Traffic Safety 
Administration (NHTSA).
    S. 1501 proposes to move responsibility for issuing motor vehicle 
safety standards for commercial motor vehicles (CMVs) already on the 
road from the Office of Motor Carriers (OMC) to the National Highway 
Traffic Safety Administration (NHTSA). NHTSA already issues motor 
vehicle safety standards for newly manufactured CMVs, while OMC 
currently has the authority to apply NHTSA standards for CMVs currently 
in service.
    One of the major criticisms of the safety community has been the 
long, unnecessary delays of OMC to apply NHTSA safety standards to CMVs 
already in service. For example, in 1992 NHTSA adopted a safety 
regulation to improve truck visibility by requiring uniform conspicuity 
markings on the sides and rear of new trailers. OMC delayed coming out 
with a comparable standard for trucks already in service for seven 
years, (until April, 1999) and only issued the regulation in the face 
of severe pressure. Even worse, OMC's regulation provided loopholes for 
industry that will allow thousands of truck trailers to operate for up 
to 10 years before complying with a safety rule that has minimum costs 
and maximum safety benefits. The trucking industry strongly opposes 
giving NHTSA this added authority and is working to strip the provision 
from S. 1501.
    Recommendation: Strongly support the provision in S. 1501 that 
grants authority to NHTSA to issue so-called ``retrofit'' safety rules 
to upgrade the safety of trucks on the road.
    2. S. 1501 gives NHTSA responsibility for motor carrier data 
collection.
    Improved data collection is crucial to improving motor carrier 
safety and enforcement programs. According to the Inspector General, 
``OMC cannot identify all the high-risk motor carriers because its 
database is incomplete and inaccurate, and data entry is not timely''. 
NHTSA's data collection, administration and analysis is far superior to 
OMC's efforts. S. 1501 gives NHTSA responsibility for working with the 
States to collect data and developing a national database which 
includes driver citation and conviction information.
    Recommendation: Strongly support the provision in S. 1501 that 
gives NHTSA responsibility for motor carrier data collection and 
analysis.
    3. S. 1501 Directs the Secretary of Transportation to implement the 
Department of Transportation's Inspector General (IG) Recommendations.
    Senator McCain asked the Inspector General to review the federal 
motor carrier safety program and to issue a findings report. S. 1501 
contains a provision that directs the Secretary of Transportation to 
implement all of the safety improvements recommended in the IG's most 
recent report criticizing OMC programs. The findings and 
recommendations in the report cover areas such as strengthened safety 
inspections and compliance reviews, tougher penalties for not complying 
with safety rules, and improved data collection. These are all issues 
identified by safety groups as needing immediate attention.
    Recommendation: Strongly support the provision in S. 1501 that 
directs the U.S. Secretary of Transportation to implement the Inspector 
General recommendations to improve truck safety.
``PROVISIONS THAT NEED TO BE INCLUDED IN S. 1501''
    S. 1501 fails to direct DOT to develop basic requirements for new 
motor carrier companies.
    When new motor carrier companies enter the market they should be 
required to demonstrate their knowledge of federal motor carrier safety 
laws, the safety practices of their drivers, and the safe condition of 
their vehicles. Current federal rules have failed to ensure this. At a 
minimum, carriers should have to pass a proficiency exam on the federal 
motor carrier safety laws, and all new motor carrier companies should 
receive a full compliance review within six months to a year of 
operation.
    Recommendation: S. 1501 needs to include provisions that direct DOT 
to ensure that new motor carrier companies are operating safely by: (1) 
requiring new motor carrier companies to pass a proficiency exam on 
federal motor carrier safety laws and to receive an initial safety 
rating; and (2) requiring new motor carrier companies to receive a full 
compliance review within six months to a year following issuance of 
interstate operating authority.

    <bullet> S. 1501 fails to address the current backlog of compliance 
reviews, safety ratings, and lack of inspections.

    According to the Inspector General, the number of compliance 
reviews OMC performed in 1998 has declined by 30% since 1995, even 
though there has been a 36% increase in the number of motor carriers 
over this period. Additionally, the number of comprehensive roadside 
safety inspections has also been declining while motor carrier 
operations are growing. Compliance reviews and inspections must be 
conducted more frequently and must be improved in quality. Chronic 
offenders in the motor carrier community need to have their operating 
authority suspended or revoked. Although federal law requires OMC to 
assign safety ratings to all motor carriers, according to the Inspector 
General only 28% have ever been rated.
    Recommendation: S. 1501 needs to include provisions that direct DOT 
to address the backlog of compliance reviews and safety ratings and to 
increase and improve the quality of inspections.

    <bullet> S. 1501 fails to adequately prohibit Conflicts of Interest 
in research and rulemaking.

    The American public would never trust tobacco industry research on 
the effects of smoking or research by the alcohol industry to determine 
drunk driving programs. Nonetheless, the Office of Motor Carriers 
repeatedly uses the trucking industry to conduct its basic research 
that is used to establish safety rules. This represents a clear 
conflict of interest.
    Recommendation: S. 1501 needs to include provisions on Conflict of 
Interest standards to ensure that:
    1. Research for rulemaking and other programs is not conducted by 
any interest affiliated with the trucking industry.
    2. Any individual who serves in a senior position within a new 
motor carrier agency is not affiliated with the trucking industry.
    In memory of my father and all who have suffered in truck involved 
crashes, thank you Mr. Chairman, for giving CRASH and me this 
opportunity to submit this information to the Subcommittee. Maintaining 
those provisions we support in S.1501, and adding the provisions we 
believe will make the bill stronger, will facilitate and expedite a 
significant restructuring of the OMC. This in turn will lead to the 
enhanced lifesaving truck safety rulemaking that CRASH advocates.
    With S.1501 you have the power and the opportunity to save lives 
and prevent injuries. On behalf of millions of motorists nationwide, we 
look froward to working with you, the Committee, Congress, the 
Administration, the appropriate agencies and all the shareholders 
involved so that one day soon, trucking will no longer be known as the 
country's most dangerous commercial enterprise.
                                 ______
                                 
   Prepared Statement of Jim Hall, Chairman, National Transportation 
                              Safety Board

    Good morning, Chairwoman Hutchison and members of the Committee. We 
appreciate the opportunity to provide the National Transportation 
Safety Board's views regarding S.1501, the Motor Carrier Safety 
Improvement Act of 1999, introduced by Chairman McCain. We applaud the 
Committee's continued efforts regarding this important safety issue.
    The number of registered large trucks on our nation's highways 
continues to grow, and with that growth come added concerns about the 
safety of motor carriers on our roads. In 1997, there were 5,355 fatal 
crashes--and countless others resulting in serious injuries--involving 
heavy trucks. Although large trucks accounted for only three percent of 
all registered vehicles, collisions involving large trucks accounted 
for nine percent of the 1997 traffic fatalities.
    The Safety Board has a long-standing interest in motor carrier 
safety, and throughout this year, we have addressed the complex safety 
issues related to heavy vehicle transportation through several venues. 
Below is a list of current and future Board activity regarding this 
issue.

        <bullet> March 1999--Issued a highway special investigation 
        report on selective motorcoach issues. This report addressed 
        the following safety issues: bus driver fatigue; Office of 
        Motor Carriers (OMC) safety rating methodology; emergency 
        egress; and passenger safety briefings.
        <bullet> April 1999--Conducted a hearing to review the 
        conditions and causes of truck/bus related crashes and evaluate 
        the effectiveness of Federal and state oversight of the large 
        truck and bus industry. Participants included representatives 
        from truck and bus companies, drivers, owner-operators, 
        associations, and government.
        <bullet> September 1999--Conducted a second hearing which 
        focused on advanced safety technology applications for 
        commercial vehicles. Testimony was received from 
        representatives of the U.S. government, the truck and bus 
        industry, technology manufacturers, public advocacy groups, and 
        foreign governments that have already implemented some of the 
        advanced technologies.
        <bullet> September 1999--Adopted a report on bus 
        crashworthiness as a result of crucial safety questions 
        regarding bus safety. The Board's report on bus crashworthiness 
        addressed: school bus occupant protection systems; the 
        effectiveness of Federal motorcoach bus crashworthiness 
        standards and occupant protection systems; discrepancies 
        between different Federal bus definitions; deficiencies in the 
        National Highway Traffic Safety Administration's Fatality 
        Analysis Reporting Systems bus ejection data; and the lack of 
        school bus injury data.
        <bullet> October 1999--A third hearing will be held to review 
        the highway transportation safety aspects of the North American 
        Free Trade Agreement (NAFTA).
        <bullet> January 2000--A fourth hearing will be held to address 
        issues related to the effectiveness of the Commercial Driver's 
        License (CDL) program that are being examined as a result of 
        recent highway accidents.
        <bullet> Spring 2000--The Board anticipates completion of a 
        special study that will explore intrastate truck operations and 
        their impact on highway safety.

    I would now like to comment on three issues addressed in S. 1501: 
improvements to the CDL program; improved data collection; and 
protection of data obtained from event reorders.

Improvements in the CDL Program
    According to the American Trucking Association, the trucking 
industry employs 9.5 million individuals and includes more than 442,000 
companies which operate more than 4 million medium and heavy trucks and 
haul about 6.5 billion tons of freight.Those same trucks travel more 
than 166 billion miles a year, and are driven by over 8 million CDL 
holders.
    A safety recommendation asking the Secretary of Transportation to 
develop a national driver license program was first issued by the 
Safety Board on July 14, 1986, following accidents involving heavy 
trucks that occurred in October 1982 in Lemoore, California, and July 
1984 near Ashdown, Arkansas. Although we have been a strong supporter 
of the CDL, there are still drivers who should not be behind the wheel 
of a heavy truck. For example, the Safety Board has recently 
investigated two tragic motorcoach accidents in which the bus drivers 
were impaired from either over-the-counter medications or elicit drugs.
    On June 20, 1998, near Burnt Cabins, Pennsylvania, a Greyhound bus 
on a scheduled trip from New York City to Pittsburgh, Pennsylvania, 
traveled off the right side of the roadway into an emergency parking 
area where it struck the back of a parked tractor-semitrailer, which 
was pushed forward and struck the left side of another parked tractor-
semitrailer. This accident resulted in the death of 6 bus occupants. 
Post-accident toxicological testing of the bus driver revealed that an 
antihistamine, a decongestant, and Tylenol were present in his system. 
The Board's investigation is examining whether these over-the-counter 
medications could have resulted in the bus driver's sleepiness.
    On May 9, 1999, in New Orleans, Louisiana, a tour bus going from La 
Place, Louisiana, to Bay St. Louis, Mississippi, departed the right 
side of the highway, struck the terminal end of a break-away cable 
guardrail, traveled along a grassy right-of-way, vaulted over a 
depressed golf cart walkway, collided with the far side of the 
embankment, and slid forward, upright. The accident resulted in 22 
fatalities. The bus driver died in August 1999. At the time of the 
accident, the driver was under treatment for kidney failure and 
congestive heart failure, and he was undergoing hemodialysis three 
times a week. Post-accident toxicological tests revealed marijuana and 
an over-the-counter antihistamine and decongestant in the bus driver's 
system.
    Mr. Chairman, if there had been a national driver registry of 
medical providers before the Louisiana bus accident, the driver would 
not have been licensed because of his medical history, and the 22 
passengers may be alive today. We believe the proposal for a national 
driver registry of medical providers, as proposed in S. 1501, would go 
a long way to assuring the American public that CDL holders are, and 
will remain, medically qualified to operate large commercial vehicles 
on the nations highways.

Improvements in Data Collection
    The second item we would like to discuss is the need to improve 
data collection. Poor accident data can preclude the ability to 
identify transportation safety concerns in a timely manner, lead to 
poor decisionmaking, and often result in inappropriate utilization of 
resources.
    In November 1998, the Safety Board completed a special 
investigation of transit bus safety that concluded that the accident 
data maintained by many Department of Transportation (DOT) 
administrations, including the Federal Highway Administration (FHWA), 
do not accurately portray the industry's safety record due to the 
limitations of each agency's database. There is currently little 
uniformity in the data collected by the 50 states following highway 
accidents. As a result, even though the states transmit their data to 
Federal government agencies, comparative analysis of the causes of 
accidents between states, or nationwide, is nearly impossible because 
there are few common data points upon which to base that analysis.
    We believe that the direction provided in S. 1501 will improve the 
quality of commercial vehicle crash data. This will contribute to the 
overall quality of the information to be gleaned from a database, and 
will thus lead to better decisions and help prevent the allocation of 
scant resources to projects that may not bring about improvements.
Protection of Data Obtained from Event Recorders
    The third item we would like to discuss is the need for protection 
of data obtained from event recorders. The need for on-board recording 
devices has been an issue on the Board's Most Wanted list since May 
1997. These devices can be used not only in accident investigation and 
reconstruction, but also by the trucking industry to identify safety 
trends, develop corrective actions, and can lead to operating 
efficiencies.
    In May, the Safety Board held an international symposium focusing 
on recorder devices for vehicles in all modes of transportation. The 
most frequent concerns raised by stakeholders attending the symposium 
were the issues of privacy and access to event recorder data.
    The Safety Board's request for reauthorization, pending before this 
Committee, addresses this issue and includes a section regarding 
withholding of voice and video recorder information for all modes of 
transportation from public disclosure, comparable to the protections 
provided for cockpit voice recorders. Industry representatives have 
advised they are reluctant to use on-board recorders because of privacy 
issues. Therefore, we believe the lack of statutory protection would 
limit the acceptance of new recorder technology. However, because 
current driver paper logs may not be reliable, the Safety Board has 
issued two recommendations that event recorders be used as a means to 
electronically monitor commercial vehicle operators' compliance with 
hours-of-service regulations.
    In addition, the proposed Motor Carrier Safety Administration 
should embrace other technology that can improve safety. Collision 
avoidance systems, electronic braking systems, and intelligent 
transportation systems, are available today and can be used to prevent 
crashes and save lives.

Conclusion
    If we are to improve highway safety, it is clear that effective 
leadership is needed, along with a desire to be more proactive and a 
willingness to be innovative--to try new approaches to solving not only 
the problems at hand, but those we know loom in the future. We believe 
that S. 1501 will establish a good framework for the DOT and the 
proposed Motor Carrier Safety Administration to begin the process of 
bringing about meaningful change to improve motor carrier oversight.
    That completes the Board's statement on this issue, and we 
appreciate the opportunity to provide our views for the Committee's 
information.
                                 ______
                                 
     Prepared Statement of Todd Spencer, Executive Vice President, 
          Owner-Operator Independent Drivers Association, Inc.

                              INTRODUCTION

    The Owner-Operator Independent Drivers Association is an 
association of over 45,000 small business truckers who own and operate 
their own trucks. Our members have a unique perspective on motor 
carrier safety because they represent the only trucking companies in 
which the business decisions are made by the people who drive the 
truck. Their ability to make their truck payments, sustain their 
business, support their families, and protect their own safety rests 
entirely upon the safe operation of their vehicles.
    OOIDA would like to thank Senator McCain and this committee for 
introducing and considering this important piece of legislation, S. 
1501, the Motor Carrier Safety Improvement Act of 1999. Establishing 
one strong federal authority that can act decisively on trucking issues 
is long overdue. The OOIDA Board of Directors endorsed the idea of a 
separate modal administration for trucking in 1998. In fact, we 
supported Senator Hollings's legislation to do the same thing over ten 
years ago.
    In addition to the creation of a Motor Carrier Safety 
Administration, there are several important aspects of this 
legislation. Foremost is the mandate to improve data collection on the 
causes of commercial motor vehicle crashes. Knowing what really causes 
truck crashes is the only way in which the federal government can 
develop effective safety regulations. Currently, the majority of truck 
regulation is based, at best, on incomplete data and anecdotal 
evidence. More accurate data on the causes of accidents will ensure 
that regulations that burden and impose costs on the industry actually 
improve safety.
    OOIDA also applauds the formation of a Motor Vehicle Safety 
Advisory Committee. Providing a forum for all parties interested in the 
motor carrier industry to discuss pertinent issues with the enforcement 
community is a very useful idea. It can help to broaden the public and 
industry's understanding of enforcement activities and better focus 
administration efforts to address potential safety problems before they 
arise.
    There are a few issues, however, that are either part of the 
legislation or have been proposed by others, that cause OOIDA concern. 
These are outlined below.

                   NEW CARRIER ENTRANCE REQUIREMENTS

    There has been significant testimony regarding a proposal to 
increase the requirements for new entrants into the motor carrier 
industry. This proposal is based on the suggestion that new motor 
carriers have a higher crash rate than do more experienced carriers. 
This claim is not borne out by either the Federal Highway 
Administration's own research or the experience of our members. OOIDA 
would like to suggest that the more important measure of the safe 
operation of commercial motor vehicles is the experience of the 
individual driver. A new motor carrier whose drivers have eighteen 
years of commendable safe operation on our highways (the average length 
of time our members have driven) are likely to have safer operations 
than the seventeen year-old older motor carrier from Missouri who 
earlier this year attempted to bring in inexperienced workers from 
Barbados to be trained to drive a truck within a few months of classes. 
No motor carrier is any safer than its worst driver, and no amount of 
enforcement can offset this fact.
    I have submitted with this written testimony a copy of a study 
published in February of this year by the Federal Highway 
Administration that considered the crash rate of motor carriers and the 
age of motor carriers. You will notice in Figures 5 through 8, under 
the heading ``Safety Compliance Violation Rate Analysis''that there is 
evidence that older motor carriers have significantly higher compliance 
rates with the safety regulations. We may reasonably conclude that the 
longer a motor carrier has been in business, the better that motor 
carrier understands and complies with the safety regulations. But can 
we also conclude that these motor carriers operate more safely? The 
Federal Highway Administration's own data does not support this 
conclusion.
    An examination of Figures 1 through 4 shows that the length of time 
a motor carrier has been in business has very little effect on a motor 
carrier's crash rate. In none of these figures are newer motor carriers 
the group with the highest crash rate. Neither do these figures show a 
measurable correlation between the age of the motor carrier and the 
motor carriers crash rate. (Nor, interestingly, does it show a 
correlation between compliance with regulations and the crash rate.)
    We urge the Committee to consider this evidence and refrain from 
imposing additional regulatory burdens on small business truckers that 
will have no measurable effect on reducing the number of truck crashes.
    OOIDA believes that the most significant factor in the safe 
operation of a motor carrier is the experience and knowledge of its 
drivers. Inexperienced drivers are more of a threat to highway safety 
than experienced drivers no matter how old the motor carrier for whom 
they drive.
    We advocate tougher requirements for individuals to get their 
Commercial Driver's License (``CDL''). Currently, there is no 
requirement that drivers go through any comprehensive training before 
getting their CDL. They only have to pass a written test and often 
times no more than a parking lot driving test. This is simply no 
substitute for on-the-road experience. OOIDA advocates that there be a 
graduated CDL, and that new drivers be required to spend a significant 
time, perhaps a year, driving with an experienced driver. At no time 
should a CDL be granted to anybody under twenty-one years of age. Only 
then will a new driver be prepared to safety operate a commercial motor 
vehicle alone over different terrain, in different traffic patterns, 
and through a variety of weather conditions. Under such conditions a 
new driver will also learn from a veteran driver the routine of 
inspecting and maintaining a safe commercial motor vehicle.
    The goal of safety legislation is to reduce the number of accidents 
that occur. It is important that the federal government's actions in 
this regard not be misled to create ineffective regulations that burden 
small businesses. Increasing the entry barriers to new motor carriers, 
rather than increasing the entrant requirement for new drivers, would 
be just such an effort.
    Efforts of existing for-hire and private motor carriers and their 
associations to refocus limited enforcement resources toward, for the 
most part, very small businesses who comprise the majority of new 
entrants and away from existing large carriers should be highly 
suspect. Past efforts at narrowing the focus of enforcement efforts 
resulted in a tremendous waste of resources and left relatively 
untouched a significant percentage of large motor carriers who control 
many trucks and drivers.

                   ``BLACK BOX'' RECORDERS IN TRUCKS

    OOIDA has a great concern for the proposal by some to put on board 
recording devices in trucks. Owner-operators believe that these devices 
are incapable of doing the job for which they are being prescribed, 
they are concerned for their privacy, and most disturbingly, they 
report that some trucking companies that require monitoring devices in 
their vehicles now use them to push drivers to work longer hours! OOIDA 
has heard estimates that on board recording devices may cost between 
two to four thousand dollars per vehicle. This is an enormous cost for 
a driver with a family and house who is lucky to net $35,000 a year. If 
owner-operators are to be required to bear this cost, they should be 
assured that they will be paid back in a measurable safety return.
    The critical problem with black boxes is that they could never 
accomplish the purpose for which they are offered, to monitor a 
driver's compliance with the federal hours of service regulations. The 
goal of hours of service regulations is to ensure that fatigued drivers 
are not operating a commercial motor vehicle. The rules proscribe the 
number of hours at a time that a driver may be ``on duty.'' The hours 
of service regulations define ``on duty time'' to include more 
activities than just driving the truck:

 TITLE 49--TRANSPORTATION DEPARTMENT OF TRANSPORTATION PART 395--HOURS 
             OF SERVICE OF DRIVERS-Sec. 395.2 Definitions.
                                 ______
                                 
    Driving time means all time spent at the driving controls of a 
commercial motor vehicle in operation. 
                                 ______
                                 
    On duty time means all time from the time a driver begins to work 
or is required to be in readiness to work until the time the driver is 
relieved from work and all responsibility for performing work. On duty 
time shall include: 

(1) All time at a plant, terminal, facility, or other property of a 
motor carrier or shipper, or on any public property, waiting to be 
dispatched, unless the driver has been relieved from duty by the motor 
carrier;
(2) All time inspecting, servicing, or conditioning any commercial 
motor vehicle at any time; 
(3) All driving time as defined in the term driving time; 
(4) All time, other than driving time, in or upon any commercial motor 
vehicle except time spent resting in a sleeper berth; 
(5) All time loading or unloading a commercial motor vehicle, 
supervising, or assisting in the loading or unloading, attending a 
commercial motor vehicle being loaded or unloaded, remaining in 
readiness to operate the commercial motor vehicle, or in giving or 
receiving receipts for shipments loaded or unloaded; 
(6) All time repairing, obtaining assistance, or remaining in 
attendance upon a disabled commercial motor vehicle; 
(7) All time spent providing a breath sample or urine specimen, 
including travel time to and from the collection site, in order to 
comply with the random, reasonable suspicion, post-accident, or follow- 
up testing required by part 382 of this subchapter when directed by a 
motor carrier; 
(8) Performing any other work in the capacity, employ, or service of a 
motor carrier; and 
(9) Performing any compensated work for a person who is not a motor 
carrier. 

    It makes sense that ``on duty time'' include all of these 
activities that contribute to a driver's fatigue. On board recorders 
may be able to measure the activity of a truck, but they cannot measure 
the activity of a driver. Black boxes would only record the activity 
described in Number 3 of the regulation's definition of ``on duty 
time,'' and then only if the truck is operated by a single driver and 
not a team. This is, at best, a gross underestimation of the time a 
driver spends in activities that contribute to a driver's fatigue. The 
Truckload Carriers Association released a study this year that found 
that drivers of dry vans (tractors plus non-refrigerated trailers) 
spend an average of 33 hours a week waiting at loading docks to be 
loaded and unloaded. During this waiting, drivers must remain alert to 
preserve their turn at the docks. None of this time is recorded by on-
board recording devices. Neither is the time a driver spends physically 
loading and unloading his vehicle. This activity can have a significant 
effect on a driver's tiredness, but would be unrecorded by the black 
box.
    OOIDA believes that although there are many forms of new technology 
that exist to record the movement and use of a truck, these 
technologies simply cannot measure the fatigue of a driver and are 
plainly incapable of measuring a driver's ``on-duty'' time as defined 
by the regulations. OOIDA has heard no proposal that shows how a 
partial recording of a driver activities would be helpful to enforcing 
the broadly defined hours of service regulations.
    Even if a partial accounting of a driver's on-duty time by 
measuring the activity of the truck were useful, there remain many 
unanswered questions as to whether it could do this job accurately. 
Would these recorders measure the number of miles driven? If so, how 
could it tell if a driver has spent long hours in heavy traffic 
congestion while traveling very few miles? Perhaps it could also 
measure the length of time that a truck is running. If so, how will it 
tell that the driver left the truck running to heat or cool his sleeper 
birth while he gets off-duty rest? It is unlikely that these devices 
will be made so that the driver can turn them on and off. The specific 
details on how these recording devices would work have been 
conspicuously absent from the proposals of those who have promoted 
their use.
    Most importantly, none of these devices can tell when a driver is 
tired. Drivers should have the flexibility to pull over, without 
penalty, any time they feel fatigued. The devices that have been 
employed by some trucking companies have the purpose of allowing the 
company to monitor the truck's use and location. If a company can 
monitor a driver's movement, and knows when a driver has stopped even 
though he has more ``on-duty'' time left in the day, it will have the 
ability to push the driver to keep driving even though he has 
determined he needs rest. Indeed we have received reports from 
individual drivers that this is the manner in which some companies are 
using monitoring devices.
    We appreciate the initiative Senator McCain has taken to propose 
privacy protections for information gathered by any on-board recording 
devices. An owner-operator's vehicle is not just his workplace, but his 
home away from home for as many as 300 days a year (and sometimes 
more). In recent months the press has reported that General Motors has 
begun to put recording devices in several of its new cars. The public's 
negative reaction against this uninvited collection of information 
(even by non-governmental parties) is an example of the same concern 
that truck drivers have for their privacy. Any time the government 
invades personal privacy rights it must balance the invasion of those 
individual rights with the public interest. We need to know precisely 
what kind of data will be collected and define specifically how this 
information will be used before we can perform this balancing test. 
Only then can we be sure that the public's safety needs are met with 
minimal intrusion into the individual's privacy.
    The proposal for on-board recorders needs much more consideration 
and definition before new laws are considered that would impose costly, 
privacy-compromising technology into commercial motor vehicles.
     jurisdiction of a the new motor carrier safety administration
    OOIDA would like to recommend that a new Motor Carrier safety 
administration be given oversight of all areas of motor carrier 
regulation currently assigned to the Office of Motor Carriers and 
Highway Safety (``OMCHS'') (and not otherwise specifically assigned in 
the S. 1501). This would strengthen that office's ability to enforce 
safety regulations, and simplify the federal bureaucracy with the 
authority to deal with trucking issues. Although S. 1501 allows the 
Secretary to give and take away that additional oversight, OOIDA 
believes that this authority should be mandated to the new Motor 
Carrier Safety Administration for it to be effective.
    For example, Chapter 141 of Title 49 (49 U.S.C. 140101 et seq.) 
provides for DOT oversight of a variety of motor carrier 
responsibilities including those to submit financial and safety 
reports. Additionally, a fully empowered motor carrier safety 
administration would be more effective if it had jurisdiction over 
motor carrier and transportation broker registration. Currently, S. 
1501 does not give the new administration authority to give and take 
away the registration of a motor carrier. (See 49 U.S.C. 12901 et 
seq.). This ability to shut down a carrier by taking away its authority 
is the most potent tool a safety regulator could wield in enforcing 
safety regulations. In fact, the program that the OMCHS presently uses 
to identify motor carriers for compliance reviews only identifies motor 
carriers who have registered. A motor carrier can avoid compliance 
reviews by not registering with the DOT!
    Equally important to protect the public is the responsibility to 
ensure that a motor earner has sufficient insurance coverage (See 49 
U.S.C. 13901). Ensuring that motor carriers have the financial security 
to compensate the victims in truck crashes is an important component of 
public safety that should also be under the purview of the new motor 
carrier safety administration. The OMCHS currently has the 
responsibility to enforce motor carrier insurance requirements, but it 
does very little to make sure that these requirements are followed. 
Should the OMCHS discover that a motor carrier fails to carry the 
proper insurance, it does nothing more than send a warning letter 
giving the motor carrier thirty days to get proper coverage.
    OMCHS currently also has oversight responsibility for the similar 
registration and insurance requirements of transportation brokers. 
These regulations are also important to the public's protection, but 
are just as poorly enforced by the OMCHS. It is a certainty that a 
trucking company or broker that fails to register and fails to carry 
sufficient insurance is just as likely to not comply with the safety 
regulations. The authority given a new Motor Carrier Safety 
Administration should encompass the authority to institute meaningful 
enforcement of these regulations.
    The need for comprehensive oversight of motor carriers by the new 
agency is made more dramatic by the challenges it will face as the 
borders open to the North American Free Trade Agreement (``NAFTA''). 
Currently there is no system under which an inspector can truly know 
whether a foreign truck is covered by adequate insurance. The driver 
may show what purports to be a certificate, but the inspector has no 
way of verifying that it is legitimate because no filing is required 
with the U.S. government. Foreign carriers who would like to operate in 
the U.S. should be required to comply with the same registration and 
filing requirement as U.S. carriers so that U.S. inspectors have the 
same ability to properly inspect all commercial motor vehicles no 
matter where they are from.
    Members of the subcommittee have commented that authority over the 
many issues that arise with the opening of the border to foreign trucks 
rests with several different federal agencies. As with the need for all 
motor carrier oversight to be consolidated into one federal agency, 
OOIDA agrees with the apparent consensus of the Subcommittee that the 
federal authorities that oversee motor carrier safety, customs, 
cabotage should be contained into one organization with comprehensive 
oversight.
    With no clear mandate that the new motor carrier safety 
administration has authority over all motor carrier issues, S. 1501 
leaves a significant amount of motor carrier oversight in bureaucratic 
limbo. OOIDA believes that an administration with unquestionable 
responsibility for all motor carrier issues will have greater success 
in achieving its safety goals than this legislation gives it.

                               CONCLUSION

    OOIDA compliments the Senate on its work to establish a Motor 
Carrier Safety Administration, and appreciates the opportunity to 
submit this written testimony to the Commerce Committee's Surface 
Transportation and Merchant Marine Subcommittee. Thank you for your 
consideration of these remarks.
                                 ______
                                 
                             Analysis Brief

    The mission of the Office of Motor Carrier and Highway Safety is to 
develop and promote, in coordination with other Departmental modes, 
data-driven, analysis-based, and innovative programs to achieve 
continuous safety improvements in the Nation's highway system, 
intermodal connections, and motor carrier operations. The Office of 
Data Analysis and Information Systems provides analytic and statistical 
support for all FHWA motor carrier and highway safety infrastructure 
program development and evaluation.
    The Analysis Division analyzes motor carrier and highway safety 
crash trends, monitors patterns in motor carrier inspection rates, 
evaluates program effectiveness in reducing crashes, and researches 
crash causation and exposure data. It also conducts cost/benefit 
analyses and regulatory flexibility analyses to address new or revised 
regulations and policies, and coordinates information and data analysis 
with information and analysis specialists in the resource centers.

                      New Entrant Safety Research

Deregulation of the motor carrier industry combined with a period of 
sustained economic growth has resulted in sizeable increases in the 
number of new motor carriers entering interstate operation. Discussions 
with key stakeholders in the motor carrier safety environment and 
previous academic studies have suggested that the safety performance 
and regulatory compliance of these ``new entrants'' may be signifi-
cantly worse than the performance and compliance of more experienced 
carriers.

                              INTRODUCTION

Several years ago, the Office of Motor Carrier and Highway Safety 
(OMCHS) undertook a multi-year research effort to define an improved 
process for motor carrier safety fitness determination. A critical 
aspect of this research involved gathering and integrating the ideas, 
concerns, and suggestions of numerous motor carrier safety stakeholders 
(individuals and organizations that are affected by and/or have an 
interest in the process).

A principal source of this input was a series of eight nationwide 
meetings. The charac-teristics of an ideal process were determined from 
these meetings, written comments, interviews, and observations. The 
limitations of the current process were identified, and an improved, 
comprehensive, integrated approach to determining motor carrier safety 
fitness was formulated. The improved process consisted of three 
components: SafeStat, an automated, data-driven analysis system; a 
Progressive Compliance Assurance Program; and the New Entrant Program.
For the purpose of this research, a ``new entrant'' was defined as a 
recently formed carrier initiating interstate operations (or intrastate 
hazardous materials or passenger operations), or a previously operating 
carrier initiating interstate operations (or intrastate hazardous 
materials or passenger operations) for the first time.

                                PURPOSE

Key motor carrier safety stakeholders and researchers reviewed the 
current safety fitness determination process and concluded that one of 
its most conspicuous limitations was the lack of a prequalification 
program and monitoring for new motor carriers. Currently, motor 
carriers can begin interstate operations simply by registering with the 
U.S. Department of Transportation (USDOT) and obtaining the required 
insurance. In contrast, in other industries performing commercial 
operations, particular-ly in the transportation sector, a new business 
must satisfy certain safety requirements before it can begin.
A second and more compelling argument in favor of a new entrant program 
relates to a study performed in 1988 by Professors Corsi (of the 
University of Maryland Business School) and Fanara (of the Howard 
University School of Business and Public Administration) that showed 
that new motor carriers had higher crash rates and lower rates of 
compliance with the Federal Motor Carrier Safety Regulations (FMCSRs) 
than carriers of record (i.e., established carriers). The authors 
identified the existence of what they described as a safety learning 
curve for new entrants. That is, new carriers exhibit higher compliance 
rates and improved performance (i.e., lower crash rates) as they 
accumulate experience with safety management policies and procedures.
This investigation examines the need for and the possible elements of a 
program to improve the safety performance and regulatory compliance of 
new entrants. It focuses specifically on regulatory compliance and 
crash rates as they relate to a motor carrier's time in interstate 
operations.

                              METHODOLOGY

This study revisited the 1988 Corsi-Fanara analysis, this time using 
the markedly improved safety performance data now available in the 
Motor Carrier Management Information System (MCMIS), and expanding the 
coverage to include all carriers, not just the ICC-regulated (for-hire) 
carriers included in the original study.
Researchers performed two analyses to confirm the existence of a safety 
performance (i.e., crash rate) learning curve, and one study to confirm 
the existence of a safety regulation compliance learning curve. In all 
three analyses, the age of the carrier was calculated from the date 
that the carrier's USDOT registration Form MCS-150 information was 
entered into the MCMIS Census File. This date was used as the best 
available approximation of the date that the carrier began interstate 
operations.

                                FINDINGS

The Compliance Review Crash Rate Analysis used data from compliance 
reviews that were conducted between April 1993 (when the USDOT 
definition of a crash changed) and June 1997 (the latest data available 
at the time this study was conducted). The data were broken out 
according to the age of the carrier at the time of the review. Weighted 
mean, or overall, crash rates [recordable crashes per million vehicle 
miles traveled (VMT) weighted by VMT] were calculated for each age 
group. This calculation is equivalent to calculating the aggregate 
crash rate in each group, i.e., dividing the total crashes in the group 
by the total VMT in the group and multiplying by 1 million.
The State-Reported MCMIS-NGA Crash Rate Analysis used calendar year 
1996 MCMIS-NGA (National Governors' Association) crash data from the 
MCMIS Crash File and power unit data from the MCMIS Census File to 
calculate crash rates by age of carrier. The analysis included only 
carriers with non-zero power unit values that had received compliance 
or safety reviews since April 1, 1993. Consequently, the power unit 
information was more current than theoriginal Form MCS-150 information.
The data were broken out into groups, based on the year the carrier 
registered with the USDOT, i.e., the year the carrier's Form MCS-150 
information was entered into the MCMIS Census File. Weighted mean, or 
overall, crash rates (MCMIS-NGA crashes per power unit weighted by 
power units) were calculated for all age groups. This calculation is 
equivalent to calculating the aggregate crash rate in each group, i.e., 
dividing the total number of MCMIS-NGA crashes in the group by the 
total number power units in the group.
Each analysis was first performed using data for all carriers. The 
analyses were then repeated using data only for authorized for-hire 
carriers, as in the Corsi-Fanara Study, to determine if the learning 
curve effect holds only for that carrier classification.
Although the most experienced carriers usually had the lowest overall 
crash rate, the results of the analyses as shown in Figures 1-4 do not 
indicate the presence of a safety learning curve. The declines in crash 
rates from the least experienced carriers to the most experienced 
carriers exhibited patterns of variability, rather than the steady 
progressions that are characteristic of learning curves.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               SAFETY COMPLIANCE VIOLATION RATE ANALYSIS

To examine the existence of a safety regulation compliance learning 
curve, a study was performed using data on violations of acute and 
critical regulations from compliance reviews (CRs). The study used data 
from 23,016 CRs that were conducted between October 1, 1994 (when 
acute/critical regulations were first used to evaluate the five 
regulatory factors in a CR) and June 2, 1997 (the latest data available 
at the time this study was conducted). The data were broken out 
according to the age of the carrier at the time of the review. The age 
of the carrier was calculated from the date that the carrier's Form 
MCS-150 information was entered into the MCMIS Census File. The data 
were broken out into 11 groups, based on the age of the carrier at the 
time of time of the review:

                     (X = Age of carrier at review)

0<X< 1 Less than or equal to 1 year
1<X< 2 Greater than 1 year and less than or equal to 2 years

9<X<10 Greater than 9 years and less than or equal to 10 years
10<X Greater than 10 years

The data were also broken out by SafeStat Safety Evaluation Area (SEA), 
either Driver or Safety Management. For each SEA/age group combination, 
the average number of violations of acute regulations per thousand 
interstate drivers and the average number of patterns of violations of 
critical regulations per thousand interstate drivers were calculated. 
The results for the Driver SEA are shown in Figures 5 and 6. The 
results for the Safety Management SEA are shown in Figures 7 and 8. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

The results show a substantial age-related pattern of compliance, i.e., 
the numbers of violations of acute regulations and patterns of 
violations of critical regulations in both SEAs were substantially 
higher for new entrants than for more experienced carriers. 
Furthermore, the rates declined in steady progression across age 
groups, showing clear evidence of a safety regulation compliance 
learning curve.

                            FURTHER RESEARCH

What can be done to assist new entrants in their efforts to improve 
their compliance with the FMCSRs? OMCHS is researching the development 
of a New Entrant Program, which would consist of two stages: 
prequalification and qualification. In the prequalification stage, a 
new carrier would receive educational material and then apply for both 
a USDOT number and ``prequalified'' status. The application would 
include an examination to measure the carrier's knowledge of the FMCSRs 
and applicable Hazardous Materials Regulations. Successful completion 
of these requirements would result in the issuance of a USDOT number 
and eligibility for the qualification stage.
In the qualification stage, the carrier would be monitored by SafeStat, 
using safety performance data from roadside inspections and crash 
reports. The carrier would also be subject to more intense surveillance 
than established carriers. After two years, a prequalified new entrant 
would be considered to be an established carrier. In addition, whenever 
sufficient safety performance data have been collected and analyzed by 
SafeStat, the carrier would receive an assessment of its safety status.

                               <all>

</pre></body></html>
